<html>
<title> - IMPLEMENTATION OF THE CALIFORNIA PLAN FOR THE COLORADO RIVER</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
     IMPLEMENTATION OF THE CALIFORNIA PLAN FOR THE COLORADO RIVER
=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                 June 14, 2002 in LaQuinta, California

                               __________

                           Serial No. 107-129

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov








                       U. S. GOVERNMENT PRINTING OFFICE
80-202                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001







                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                       Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel

                                 ------                                



                    SUBCOMMITTEE ON WATER AND POWER

                   KEN CALVERT, California, Chairman
            ADAM SMITH, Washington, Ranking Democrat Member

 Richard W. Pombo, California        George Miller, California
George Radanovich, California        Peter A. DeFazio, Oregon
Greg Walden, Oregon,                 Calvin M. Dooley, California
  Vice Chairman                      Grace F. Napolitano, California
Michael K. Simpson, Idaho            Hilda L. Solis, California
J.D. Hayworth, Arizona               Brad Carson, Oklahoma
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
                                 ------                                






                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 14, 2002....................................     1

Statement of Members:
    Bono, Hon. Mary, a Representative in Congress from the State 
      of California..............................................     3
        Prepared statement of....................................     5
    Calvert, Hon. Ken, a Representative in Congress from the 
      State of California........................................     1
        Prepared statement of....................................     3
    Hunter, Hon. Duncan, a Representative in Congress from the 
      State of California........................................    83
        Prepared statement of....................................    85

Statement of Witnesses:
    Cohen, Michael J., Senior Associate, Pacific Institute for 
      Studies in Development, Environment, and Security..........   111
        Prepared statement of....................................   113
    Delfino, Kimberley, Director, California Program, Defenders 
      of Wildlife................................................   104
        Prepared statement of....................................   105
    Hannigan, Thomas M., Director, California Department of Water 
      Resources..................................................    24
        Prepared statement of....................................    25
    Horne, Andy, Member, Board of Directors, Imperial Irrigation 
      District...................................................    41
        Prepared statement of....................................    42
    Kirk, Tom, Executive Director, Salton Sea Authority..........    98
        Prepared statement of....................................    99
    Levy, Thomas E., General Manager-Chief Engineer, Coachella 
      Valley Water District......................................    51
        Prepared statement of....................................    52
    Nastri, Wayne, Regional Administrator, Region 9, U.S. 
      Environmental Protection Agency............................    20
        Prepared statement of....................................    21
    Pace, Phillip J., Chairman, Board of Directors, Metropolitan 
      Water District of Southern California......................    43
        Prepared statement of....................................    45
    Raley, Bennett W., Assistant Secretary, Water and Science, 
      U.S. Department of the Interior............................     8
        Prepared statement of....................................    12
    Turner, James F., Chairman of the Board, San Diego County 
      Water Authority............................................    38
        Prepared statement of....................................    38
    Wyatt, Gary, Member, Board of Supervisors, Imperial County, 
      California.................................................    58
        Prepared statement of....................................    60

Additional Speakers:
    Carter, John, Chief Counsel for Imperial Irrigation District.    86
    Costa, Hon. Jim, Senator, California State Senate, and 
      Chairman of the California State Senate Agriculture and 
      Water Resources Committee..................................     6
    McFadden, Jack, President, Coachella Valley Water District...    51
    Stapleton, Maureen, General Manager, San Diego County Water 
      Authority..................................................    40

Additional materials supplied:
    James, Gregory L., Statement submitted for the record........   132
    Ramirez, Les W., Statement submitted for the record..........   133


 OVERSIGHT FIELD HEARING ON IMPLEMENTATION OF THE CALIFORNIA PLAN FOR 
           THE COLORADO RIVER -- OPPORTUNITIES AND CHALLENGES

                              ----------                              


                         Friday, June 14, 2002

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                         Committee on Resources

                          LaQuinta, California

                              ----------                              

    The Subcommittee met, pursuant to call, at 10 a.m., at the 
La Quinta City Hall, City Council Chambers, La Quinta, 
California, Hon. Ken Calvert [Chairman of the Subcommittee] 
presiding.

STATEMENT OF THE HON. KEN CALVERT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Calvert. Good morning. The Subcommittee on Water and 
Power will come to order.
    I'd like to welcome everybody here this morning. I'd like 
to thank everybody here for coming to this important event. The 
Subcommittee is meeting here today to hear testimony on 
implementation of the California Plan for the Colorado River. 
We're calling that ``Opportunities and Challenges.'' I'm here 
today with Senator Jim Costa, the Chairman of the California 
State Senate Agriculture and Water Resources Committee. We're 
working together on these issues.
    Again, I want to thank everyone for being here this 
morning. I'd like also to point out something. It's taken a 
tremendous amount of work putting this hearing on. And I 
appreciate the interest that's shown by the number of people 
who have turned out for the hearing today.
    Because this is an official congressional hearing as 
opposed to a town hall meeting we have to abide by certain 
rules of the Committee and of House of Representatives. So we 
kindly ask that there be no applause of any kind or any kind of 
demonstration with regards to the testimony. It is important 
that we respect the decorum and the rules of the Committee.
    I'd also like to introduce Ms. Bono and Duncan Hunter will 
be here shortly, which represents Imperial County, both 
California members of Congress who represent districts in the 
surrounding area.
    I'd like to thank Ms. Bono for hosting this field hearing 
in her district.
    At this time I would like to ask for unanimous consent for 
Congresswoman Bono and when Congressman Hunter arrives, be 
permitted to sit on the dais. Without objections, so ordered.
    I'd also like to introduce California State Senator Jim 
Costa who, as I mentioned earlier, is Chairman of the 
California State Senate Agriculture and Water Resources 
Committee, and welcome him and members of his Committee to join 
our hearing.
    At this time I'd also like to ask unanimous consent that 
the Senator Costa and members of his Committee be permitted to 
sit on the dais. Without objection, so ordered.
    This is the sixth Subcommittee hearing on water in 
California and the Colorado River in the last 2 years. The last 
hearing was 6 months ago in Las Vegas. In addition there have 
been several briefings in Washington D.C. regarding the 
progress of the California 4.4 plan. We meet today to hear what 
progress has been made to see what the state and Federal 
agencies have done, and determine what actions the Congress may 
need to take to help implement the plan. With few exceptions, 
California has been using more than its 4.4 million acre-feet 
per year allocation of Colorado River water since 1953, and is 
currently using 5.2 million acre-feet per year. There are a 
number of circumstances that allowed California to draw more 
water, but primarily because Nevada and Arizona were not using 
their full allocation until recently. Now Nevada and Arizona 
are using all of their water and California has been working 
hard to develop a strategy to reduce its Colorado River water 
use. This is a difficult and complex task with many factors 
that must be considered.
    The Colorado River basin states have been generous, 
helpful, and supportive in working together to develop a 
framework that would allow the reduction to occur over a 15-
year period. We call that the soft landing.
    However, time is running out. The documents for the 
transfer must all be completed by December 31st, 2002, the end 
of this year. If not, California may be required to immediately 
reduce its diversions of Colorado River water to 4.4 million 
acre-feet. This action would not allow for the gradual 
transition that would be provided in the California 4.4 plan. 
No soft landing.
    Because the Colorado River provides water to 16 million 
people and 900,000 acres of farm land in California, many 
things are considered in drafting the plan. These 
considerations include economic impacts to the agricultural 
communities, flows in the Colorado River below Parker Dam, 
flows into the Salton Sea, which is on the brink of becoming 
hypersaline regardless of any transfer actions, and potential 
dust problems if the sea elevation declines.
    The final steps are being taken to meet the December 31st 
deadline. The health and economic well-being of California 
rides on the outcome of these actions. We look forward to 
hearing from our witnesses.
    [The prepared statement of Mr. Calvert follows:]

Statement of The Honorable Ken Calvert, Chairman, Subcommittee on Water 
                               and Power

    This is the sixth Subcommittee hearing on water in California and 
the Colorado River in the last two years. The last hearing was six 
months ago in Las Vegas, Nevada. In addition, there have been several 
briefings in Washington, DC regarding the progress of the California 
4.4 Plan. We meet today to hear what progress has been made, to see 
what the State and Federal Agencies have done, and to determine what 
actions the Congress may need to take to help implement the Plan.
    With few exceptions, California has been using more than its 4.4 
million acre-feet/year allocation of Colorado River water since 1953 
and currently is using 5.2 million acre-feet/year. There are a number 
of circumstances that allowed California to draw more water, but 
primarily because Nevada and Arizona were not using their full 
allocation until recently.
    Now Nevada and Arizona are using all of their water and California 
has been working hard to develop a strategy to reduce its Colorado 
River water use. This is a difficult and complex task with many factors 
that must be considered.
    The Colorado River Basin States have been generous, helpful and 
supportive in working together to develop the framework that would 
allow the reduction to occur over a 15 year period.
    However, time is running out. The documents for the transfer must 
all be completed by December 31, 2002. If not, California may be 
required to immediately reduce its diversions of Colorado River Water 
to 4.4 MAF. This action would not allow for the gradual transition that 
would be provided in the California 4.4 Plan.
    Because the Colorado River provides water to 16 million people and 
900,000 acres of farmland in California, many things were considered in 
crafting the Plan. These considerations include economic impacts to the 
agricultural communities, flows in the Colorado River below Parker Dam, 
flows into the Salton Sea which is on the brink of becoming hypersaline 
regardless of any transfer actions, and potential dust problems if the 
Sea elevation declines.
    The final steps are being taken to meet the December 31, 2002 
deadline. The health and economic well being of California rides on the 
outcome of these actions.
    We look forward to hearing from our witnesses.
                                 ______
                                 
    I would now like to recognize Ms. Bono for her statement, 
and thank you for having us here in your congressional 
district.

 STATEMENT OF THE HON. MARY BONO, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mrs. Bono. Thank you, Mr. Chairman. I would like to welcome 
my colleagues to the 44th Congressional District and thank 
Chairman Calvert for agreeing to hold this hearing in La 
Quinta.
    In addition, I am very appreciative to the city of La 
Quinta for being such gracious hosts.
    The subject of this hearing, ``Implementation of the 
California Plan for the Colorado River, Opportunities and 
Challenges,'' encapsulates the dilemma we face. All of us agree 
that California must take meaningful steps toward reducing its 
usage on Colorado River water. The Quantification Settlement 
Agreement is the key component to do just this. A combination 
of conservation efforts and water transfers will go a long way 
toward meeting this mandate.
    However, as we go about this process I believe we cannot 
overlook the environmental impact certain aspects of the QSA 
will have on the Salton Sea. Too often California's fractious 
history of water politics has forsaken long-term stability for 
short-term gains. One need only look to Owens Valley to see how 
the lack of planning can lead to costly financial and health 
consequences which we continue to struggle with today. 
Therefore, while I'm very well aware of the ramifications of 
not implementing the QSA, I also believe there would be 
significant unintended impacts from implementing this agreement 
without concurrently considering some mitigation measures.
    One possible casualty in the full implementation of QSA is 
the Salton Sea. My intentions in bringing this to the 
Committee's attention do not have as much to do with 
maintaining the sea's current level or formation, but rather is 
focused on securing the overall health and quality of life of 
the human population in the surrounding areas of the Coachella 
and Imperial valleys.
    I have not been assured that the impact of the QSA, which 
will have a dramatic impact on the sea, will not cause 
considerable harm to the air quality in this region. Whether it 
be an increase in PM-10, air toxics, or stench, these concerns 
extend far beyond the immediate area of the Salton Sea and 
impact the entire Southern California region. Many community 
groups like the American Lung Association have voiced concerns 
about possible air quality impacts. Imperial County's childhood 
asthma hospitalization rate is more than twice as high as the 
state average. I'm very concerned about the additional health 
concerns which could arise from an exposed shoreline.
    So for those who claim the sea will die anyway, I continue 
to point out the dangerous consequences of a dead sea. Owens 
Valley, according to EPA, is the dustiest place in the United 
States, having about 75 square miles of exposed land. The 
Salton Sea, if all the water transfers continue without 
mitigation, faces over 105 square miles of exposed sea surface. 
Therefore, while there is a legitimate question of how we can 
restore the sea, a dead sea, with this level of exposure could, 
based upon these numbers, eclipse Owens Valley as the dustiest 
place on earth, and put the health of those living in and 
around the sea in jeopardy.
    Just as I have been saying for the past year, while I 
support and understand the needs of urban communities in 
Southern California to receive water, I cannot overlook the 
needs of the constituents of the Coachella Valley who must live 
in these conditions and whose livelihood depend on a tourism 
industry so vital to our community.
    Therefore my concerns extend far beyond the harm water 
transfers may have on just the ecosystem. It is unwise to delay 
the resolution of this problem for a later date when we have 
the responsibility to address it now.
    The question then becomes how we achieve our goal in 
mitigating for air quality while still delivering water to 
urban areas of our state and meet the deadline of the 
California plan. Recently MWD, San Diego Water, and the 
Coachella Valley Water District, as well as Senator Feinstein 
recommended an alternative form of fallowing as an option to 
achieve this goal. I understand the concerns of farmers and 
businesses in the Imperial Valley. We have an obligation to 
evaluate the negative impacts of fallowing as well. However, I 
also believe all options should be placed upon the table so we 
can formulate an effective response which perhaps contains 
within it a variety of concepts. I believe it is in the best 
interests of the entire region to address these issues in their 
totality, and to do anything less would be flawed public 
policy.
    There are several proposals out there worthy of our 
consideration. It is my hope that we can take the time to 
actively review and debate them.
    Thank you, Mr. Chairman. And I yield back the balance of my 
time.
    [The prepared statement of Ms. Bono follows:]

Statement of The Honorable Mary Bono, a Representative in Congress from 
                        the State of California

    I would like to welcome my colleagues to the 44th Congressional 
District and thank Chairman Calvert for agreeing to hold this hearing 
in La Quinta. In addition, I am very appreciative to the City of La 
Quinta for being such gracious hosts.
    The subject of this hearing, ``Implementation of the California 
plan for the Colorado River-Opportunities and Challenges'' encapsulates 
the dilemma we face. All of us agree that California must take 
meaningful steps towards reducing its usage on Colorado River water. 
The Quantification Settlement Agreement is the key component to do just 
this. A combination of conservation efforts and water transfers will go 
a long way towards meeting this mandate.
    However, as we go about this process, I believe we cannot overlook 
the environmental impact certain aspects of the QSA will have on the 
Salton Sea. Too often, California's fractious history of water politics 
has forsaken long term stability for short term gains. One need only 
look to Owen's Valley to see how the lack of planning can lead to 
costly financial and health consequences which we continue to struggle 
with today.
    Therefore, while I am well aware of the ramifications of NOT 
implementing the QSA, I also believe there would be significant 
unintended impacts from implementing this agreement without 
concurrently considering some mitigation measures.
    One possible casualty in the full implementation of the QSA is the 
Salton Sea. My intentions in bringing this to the Committee's attention 
do not have as much to do with maintaining the Sea's current level or 
formation, but rather is focused on securing the overall health and 
quality of life of the human population in the surrounding area of the 
Coachella and Imperial Valleys.
    I have not been assured that the impacts of the QSA, which will 
have a dramatic impact on the Sea, will not cause considerable harm to 
the air quality in this region. Whether it be an increase in PM-10, air 
toxins or stench, these concerns extend far beyond the immediate area 
of the Salton Sea and impact the entire Southern California region.
    Many community groups, like the American Lung Association, have 
voiced their concerns about possible air quality impacts. Imperial 
County's childhood asthma hospitalization rate is more than twice as 
high as the state average. I'm very concerned about the additional 
health concerns which could arise from an exposed shoreline.
    So for those who claim the Sea will die anyway, I continue to point 
out the dangerous consequences of a ``dead Sea''. Owen's Valley, 
according to the Environmental Protection Agency, is the dustiest place 
in the United States, having about 75 square miles of exposed land. The 
Salton Sea, if all the water transfers continue without mitigation, 
faces over 105 square miles of exposed Sea surface. Therefore, while 
there is a legitimate question of how we can restore the Sea, a ``dead 
Sea'' with this level of exposure could, based upon these numbers, 
eclipse Owens Valley as the dustiest place on earth and put the health 
of those living in and around the Sea in jeopardy.
    Just as I've been saying for the past year, while I support and 
understand the needs of urban communities in Southern California to 
receive water, I cannot overlook the needs of the constituents of the 
Coachella Valley who must live in these conditions and whose 
livelihoods depend on a tourism industry so vital to our community. 
Therefore, my concerns extend far beyond the harm water transfers may 
have on just the eco-system. It is unwise to delay the resolution of 
this problem for a later date when we have the responsibility to 
address it now.
    The question then becomes how we achieve our goal in mitigating for 
air quality while delivering water to urban areas of our state and 
meeting the deadline of the California Plan. Recently, MWD, San Diego 
Water and the Coachella Valley Water District, as well as Senator 
Feinstein, recommended an alternative form of fallowing as an option to 
achieve this goal. I understand the concerns of farmers and businesses 
in the Imperial Valley. We have an obligation to evaluate the negative 
impacts of fallowing as well. However, I also believe all options 
should be placed upon the table so we can formulate am effective 
response which, perhaps, contains within it a variety of concepts.
    I believe it is in the best interest of the entire region to 
address these issues in their totality, and to do anything less would 
be flawed public policy. There are several proposals out there worthy 
of our consideration and it is my hope that we can take the time to 
actively review and debate them.
    Thank you Mr. Chairman and I yield back the balance of my time.
                                 ______
                                 
    Mr. Calvert. I thank the gentlelady. I'd like now to 
recognize Senator Costa so that he can make his statement and 
recognize the members of his district.

  STATEMENT OF THE HON. JIM COSTA, SENATOR, CALIFORNIA STATE 
SENATE, AND CHAIRMAN OF THE CALIFORNIA STATE SENATE AGRICULTURE 
                 AND WATER RESOURCES COMMITTEE

    Mr. Costa. Thank you very much, Congressman Calvert. I want 
to also add my thanks for Congresswoman Bono and Senator Kelly 
and the other members who represent this great part of 
California for allowing us to be here this morning. And to have 
an opportunity to discuss what I believe is one of the most 
important issues facing California in the near term.
    Obviously we have a lot of challenges in this state, not to 
mention our current budget discussions in Sacramento, but in 
the longer term, we all know that water is the lifeblood of 
California. And Congressman Calvert I think stated it well in 
his opening statement because this effort that we are focused 
on today and that we have been working on for many years is 
absolutely essential. Its success is absolutely essential to 
addressing California's long-term water needs. I can't 
emphasize it enough. And therefore, the California Colorado 
River Water Plan that we are discussing here today, the 
implementation of it, the successful timeliness of signing the 
Quantification Settlement Agreement by December 31st of this 
year, in my opinion is what we must be focused upon.
    You know, not withstanding the--the remaining outstanding 
issues that are there, the fact is, when you think about it, 
we've made significant progress in recent years. We've brought 
together four of the major water agencies in Southern 
California to come together to look toward solutions to living 
under the 4.4 allocation of the Colorado River, with a plan 
that we believe will get us there, that will show good faith 
with our neighboring states, both in the lower basin and the 
upper basin. But time is running out. And our neighboring 
states, our friends who we have worked with, are closely 
examining whether or not we are going to meet the commitments 
that are contained in the Quantification Settlement Agreement. 
And therefore all of our efforts I believe collectively must be 
focused on what it takes to successfully reach the goal line.
    Today I'll be looking forward to listening to the comments 
and asking questions to not only determine What obstacles 
remain to implement this document, but also to explore what 
flexibility both the state and Federal Government has as it 
relates to assisting all of the parties in reaching that goal.
    I also think it's very important, as was stated by 
Congresswoman Bono, that we determine the best ways to handle 
the issues surrounding the Imperial Irrigation District's water 
conservation program, and the third-party impacts surrounding 
that, as well as focusing on the issue surrounding the Salton 
Sea, and concerns that have been expressed here in Coachella 
Valley as well as Imperial Valley about the potential 
ramifications on the effects of these conservation programs.
    Let me tell all of you that I sincerely appreciate the hard 
work that has been done. As Chairman of the Senate Agriculture 
and Water Committee, if we have a California water plan, I will 
tell you that the basis of the California water plan is 
successful implementation of the Colorado River reoperation 
efforts to the 4.4 allocation, the successful authorization on 
the Federal level, Congress Calvert and Senator Feinstein are 
working on to authorize CALFED, and the State's continuing 
effort to move CALFED forward. That coupled with an effort to 
implement regional plans I think provides a blueprint to all of 
us to ensure that California has sufficient water to support a 
population of 50 million people by the year 2002. Those are the 
challenges we face. And no one knows that any better than my 
colleague, Assemblymember Dave Kelly, who formally served in 
California State Senate and who has made water one of his 
primary focuses during his career in the California 
legislature. And I would like to give the remainder of my time 
to Assemblymember Kelly to welcome us here this morning.
    Mr. Kelly. Thank you very much, Senator Costa, Congressman 
Calvert, Mary Bono. I appreciate having the opportunity to come 
down here today.
    I won't repeat a lot of things that have already been said, 
but let me just state that as the author of the California 4.4 
plan and legislation I carried requiring us to live within that 
requirement, little did I understand at that point in time what 
we were headed for, what we were going to do, how it was going 
to impact the State of California. But let me just state that 
the State of California and the water issues that we're facing 
today are geared around living within the 4.4 allocation of 
water from the Colorado River. The other legislation that I 
carried that has tremendous impact on that was the 
establishment of the Salton Sea Authority, that prior to that 
legislation there were no guidelines, there was no body set up, 
there was no one guiding the Salton Sea and putting some sort 
of a forum on what would be done within the Salton Sea. So 
there again, these two bills--and there's been many other 
statutes that I carried that have gone on the books here in 
California regarding these matters that have a tremendous 
impact on the whole State of California. And rather than 
discuss it all with me personally, I think we ought to hear 
what the people have to say and the witnesses have to say. So 
I'll turn it back to you, Chairman Calvert.
    Thank very much for being here.
    Mr. Calvert. Thank you, gentlemen.
    I'd like to point out before we move forward to our 
witnesses that both Senator Costa and Assemblyman Kelly will 
both be leaving the service of the State of California. And I 
want to congratulate you on your great service to our state 
over the years. We'll miss you both. You're both water experts 
in our state and hopefully you'll still be around for advice. 
But certainly we'll continue to need it.
    Mr. Costa. Thank you.
    Mr. Calvert. Now I'd like to introduce our first panel of 
the witnesses. The first witness is Bennett Raley, Assistant 
Secretary of Water and Science to the U.S. Department of the 
Interior. The second witness is Mr. Wayne Nastri, Regional 
Administrator of U.S. Environmental Protection Agency, Region 
9. And Mr. Tom Hannigan, Director of California Department of 
Water Resources.
    Mr. Calvert. With that, Mr. Raley, I'll recognize you. And 
as you well know, we're under a 5-minute rule on oral 
statements. If you have any additional comments for the record, 
please submit them. And with that, you're recognized.

 STATEMENT OF BENNETT W. RALEY, ASSISTANT SECRETARY, WATER AND 
            SCIENCE, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Raley. Thank you, Mr. Chairman, Congresswoman Bono, 
members of the California delegation. It's a pleasure to be 
here. It's more than a pleasure to be here. We are deeply 
appreciative of the leadership shown by the state and by 
California delegation on this issue, because the issue of 
management in the Colorado River and all the subparts of that 
are one of the highest priority in the Department of the 
Interior.
    Mr. Chairman, I wish to thank you for your continued 
attention on this and on CALFED. We deeply appreciate the 
ability to work our way through two very, very complex 
problems.
    Congresswoman Bono, I will confirm my daughter Sarah who 
accompanied my today has informed me that she much prefers your 
district to living in Virginia. And if you will accept her, we 
will miss her.
    Let me turn to the serious matters. The issues that are 
encompassed in the California plan in the Salton Sea are truly 
significant on a time scale of centuries. The Salton Sea in its 
present form was created as a result of something that happened 
a long time ago. The legal institutional issues that we deal 
with go back to 1922 with the Colorado River Compact, 1927--if 
I state it right-- with the California Rotation Act. The work 
that we cannot fail to complete is truly an extension of the 
work that's done before. I say with no reservation that the 
work that has brought us to this point in the last decade from 
all the stake holders, Federal side, state side, and the 
citizens, has been remarkable, and probably would not have been 
predicted 12 or 14 years ago. For us, that work, if you count 
the personal years that have gone into this, really hasten the 
stakes, because we do not know, should this effort fail, how 
things will be stitched together in a way that will be the 
basis for a better resolution than what is readily attainable 
today under the California plan. We are deeply concerned, the 
department is deeply concerned that the QSA may in fact not be 
executed by December 31st, 2001--2002. Sorry. Expected it to be 
executed, anticipated it to be executed by 2001, and that the 
deadline is 2002. We have a lot of time left, as these matters 
go--six months--a lot of time, and a lot of hard work and 
effort to be prepared.
    Mr. Chairman, with your permission I submit my written 
testimony for the record. And I'd also ask that the record 
include the Federal register notice that I signed yesterday as 
being transmitted for publication in the Federal legislature. 
Likely it will be published sometime next week.
    Mr. Calvert. So ordered.
    [The information referred to follows:]

Federal Register: June 19, 2002 (Volume 67, Number 118)]
                       DEPARTMENT OF THE INTERIOR
                         bureau of reclamation

      Colorado River Interim Surplus Guidelines, Notice Regarding 
                      Implementation of Guidelines

    AGENCY: Bureau of Reclamation, Interior.
    ACTION: Notice and correction.
    SUMMARY: The Colorado River Interim Surplus Guidelines (Guidelines) 
were adopted as a result of a Record of Decision signed by the 
Secretary of the Interior (Secretary) and published in the Federal 
Register on January 25, 2001 (66 FR 7772-7782). The Department of the 
Interior (Department) has received a number of informal comments and 
has identified issues regarding implementation of the Guidelines. This 
notice identifies and addresses these issues in order to facilitate a 
common understanding regarding the implementation of the Guidelines for 
calendar year 2003. This notice also corrects a typographical/ 
computational error in the Guidelines as published in the Federal 
Register on January 25, 2001.
    DATES: The Secretary is not proposing to take any specific action 
as a result of this Federal Register notice. Accordingly, the 
Department is not establishing a specific date by which comments must 
be submitted. The Secretary will also accept input on the issues 
addressed by this Federal Register notice through the process under 
which the Annual Operating Plan for the Colorado River System 
Reservoirs (AOP) is developed. This process includes consultation with 
the Colorado River Management Work Group, a group that the Secretary 
consults with in order to carry out the provisions of section 602(b) of 
the Colorado River Basin Project Act of 1968 and section 1804(c)(3) of 
the Grand Canyon Protection Act of 1992.
    ADDRESSES: You may submit written comments to the Regional 
Director, Lower Colorado Region, Attention: Jayne Harkins, Bureau of 
Reclamation, P.O. Box 61470, Boulder City, Nevada 89006-1470.
    SUPPLEMENTARY INFORMATION: The Secretary, pursuant to applicable 
law including particularly the Boulder Canyon Project Act of December 
28, 1928 (BCPA), and the Supreme Court opinion rendered June 3, 1963, 
and decree entered March 9, 1964 (Decree) in the case of Arizona v. 
California, et al., is vested with the responsibility to manage the 
mainstream waters of the Colorado River in the Lower Basin. In 
furtherance of this responsibility, the Department, through a notice 
published in the Federal Register on May 18, 1999 (64 FR 27008-09), 
initiated a process to develop specific criteria to identify those 
circumstances under which the Secretary would make Colorado River water 
available for delivery to the States of Arizona, California, and Nevada 
(Lower Division States or Lower Basin) in excess of the 7,500,000 
acrefoot Lower Basin basic apportionment. The Department noted in that 
notice that ``[i]n recent years, demand for Colorado River water in 
Arizona, California, and Nevada has exceeded the Lower Basin's 
7,500,000 basic apportionment. As a result, criteria for determining 
the availability of surplus [water] has become a matter of increased 
importance.'' (64 FR 27009). In particular, California has been using 
water in excess of its 4.4 million acre-foot mainstream basic 
apportionment established in the BCPA for decades.
    The Department, through a notice published in the Federal Register 
on January 25, 2001 (66 FR 7772-7782) notified the public that the 
Secretary signed a Record of Decision (ROD), regarding the preferred 
alternative for Colorado River Interim Surplus Guidelines on January 
16, 2001. The Guidelines ``implement Article III(3)(B) of the [Long 
Range Operating Criteria]'' adopted pursuant to the Colorado River 
Basin Project Act of 1968 (as published in the Federal Register on June 
10,1970). (65 FR 78511).
    Pursuant to section 3 of the Guidelines, the Secretary utilizes the 
``Guidelines to make determinations regarding Normal and Surplus 
conditions for the operation of Lake Mead * * * '' during ``development 
of the Annual Operating Plan for the Colorado River System Reservoirs 
(AOP).'' (66 FR 7781). The Secretary applied these Guidelines for the 
first time during the development of the 2002 AOP, signed by the 
Secretary on January 14, 2002. In the period since adoption of the 2002 
AOP, increasing attention has been focused on the provisions of the 
Guidelines and their application to AOP determinations that are 
upcoming for 2003. In particular, numerous entities have contacted the 
Department to discuss their views and concerns regarding the provisions 
of Section 5 of the Guidelines, entitled ``California's Colorado River 
Water Use Plan Implementation Progress.'' (66 FR 7782). This provision 
of the Guidelines was included in order to assist the Secretary in the 
execution of the Secretary's watermaster duties on the lower Colorado 
River, which include facilitating adherence to the Lower Basin's 
allocation regime. The relationship between efforts to reduce 
California's reliance on surplus deliveries and the adoption of 
specific criteria to guide surplus determinations was established in 
the initial Federal Register notice announcing the potential 
development of surplus guidelines: ``Reclamation recognizes that 
efforts are currently underway to reduce California's reliance on 
surplus deliveries. Reclamation will take account of progress in that 
effort, or lack thereof, in the decision-making process regarding 
specific surplus criteria.'' (64 FR 27009). This concept was embodied 
in the purpose of and need for the Federal action as analyzed in 
Reclamation's Environmental Impact Statement regarding adoption of the 
Guidelines: ``Adoption of the [Guidelines] is intended to recognize 
California's plan to reduce reliance on surplus deliveries, to assist 
California in moving toward its allocated share of Colorado River 
water, and to avoid hindering such efforts. Implementation of [the 
Guidelines] would take into account progress, or lack thereof, in 
California's efforts to achieve these objectives.'' Final Environmental 
Impact Statement at 1-3 to 1-4. Sections 5(B) and 5(C) of the 
Guidelines established independent conditions for performance of 
certain actions by entities in California, and the implications for 
surplus determinations in the event that the conditions for performance 
are not met. Section 5(B) of the Guidelines specifically addresses 
California's Quantification Settlement Agreement (QSA), a proposed 
agreement among the Imperial Irrigation District, the Coachella Valley 
Water District, the San Diego County Water Authority and The 
Metropolitan Water District of Southern California. The QSA is a 
critical agreement among the California parties to reduce California's 
reliance on surplus water from the Colorado River. The QSA addresses 
the use and transfer of Colorado River water for a period of up to 
seventy-five years. With respect to execution of the QSA, section 5(B) 
of the Guidelines states: ``It is expected that the California Colorado 
River contractors will execute the Quantification Settlement Agreement 
(and its related documents) * * * by December 31, 2001.'' (66 FR 7782). 
The parties were unable to execute the QSA by this date, and over the 
past year, there has been increasing concern regarding the ability of 
the California Colorado River contractors to execute the QSA by the end 
of this year. Failure to execute the QSA by the end of 2002 is 
specifically addressed by section 5(B) of the Guidelines: ``In the 
event that the California contractors and the Secretary have not 
executed [the Quantification Settlement Agreement (and its related 
documents)] by December 31, 2002, the interim surplus determinations 
under Sections 2(B)(1) and 2(B)(2) of these Guidelines will be 
suspended and will instead be based upon the 70R Strategy, for either 
the remainder of the period identified in Section 4(A) or until such 
time as California completes all required actions and complies with 
reductions in water use reflected in Section 5(C) of these Guidelines, 
whichever occurs first.'' (66 FR 7782). In light of the concern 
regarding the ability of the California Colorado River contractors to 
execute the QSA by the end of 2002, increasing attention has focused on 
the specific requirements of this section of the Guidelines. Some 
informal commentors have suggested that failure to execute the QSA 
would have no consequence for surplus determinations for 2003 under the 
Guidelines. Other commentors have observed that the Guidelines would be 
terminated if the QSA and its related documents were not executed by 
December 31, 2002. Such suggestions are inconsistent with the plain 
language of the Guidelines as adopted. The Department observes that the 
Guidelines specifically provide that ``In the event that the California 
contractors and the Secretary have not executed such agreements by 
December 31, 2002, the interim surplus determinations under sections 
2(B)(1) and 2(B)(2) of these Guidelines will be suspended and will 
instead be based upon the 70R Strategy * * * `` (66 FR 7782) (emphasis 
added). Therefore, in the event that the QSA and its related documents 
are not executed by December 31, 2002, as provided above, the 
``determinations under sections 2(B)(1) and 2(B)(2) of these Guidelines 
will be suspended.'' (66 FR 7782). This suspension, under section 5(B) 
of the Guidelines does not suspend or terminate the Guidelines as a 
whole; rather, in the event of a suspension, surplus determinations are 
limited to sections 2(A)(1), 2(B)(3) and 2(B)(4). Nothing in this 
notice is intended to address or limit the appropriate circumstances 
for reinstatement of sections 2(B)(1) and 2(B)(2) as the bases for 
annual surplus determinations. Reinstatement of these sections of the 
Guidelines will be made in accordance with the provisions of section 
5(B), which provides that in the event of a suspension, the 70R 
Strategy will be the basis for surplus determinations ``for either the 
remainder of the period identified in Section 4(A) [i.e., until 
December 31, 2015] or until California completes all required actions 
and complies with reductions in water use reflected in section 5(C) of 
the[] Guidelines, whichever occurs first.'' (66 FR 7782) (emphasis 
added).
    Section 5(C) addresses the other conditions for performance of 
certain actions by entities in California, i.e., the specific Benchmark 
Quantities that California agricultural ``use would need to be at or 
below'' at the end of the specified calendar years. The Benchmark dates 
are established in three year intervals beginning in 2003. As with the 
requirements in section 5(B), section 5(C) also establishes the 
implications for surplus determinations in the event that the Benchmark 
quantity conditions for performance are not met. One of the benefits of 
adoption of the Guidelines was to provide ``more predictability to 
States and water users'' with respect to ``the Secretary's annual 
decision regarding the quantity of water available for delivery to the 
Lower Basin States.'' (64 FR 27009). In light of the above identified 
concern with respect to the likelihood regarding execution of the QSA 
by the date established in section 5(B) of the Guidelines, one of the 
issues that the Secretary will be analyzing in the period between this 
notice and January 1, 2003 (the statutory date for transmittal of the 
2003 AOP, pursuant to 43 U.S.C. Sec. 1552(b)), will be the impact on 
Lower Basin users, particularly in Nevada, in the event that the 
Guidelines are suspended pursuant to the provisions of section 5(B). 
The relevant considerations with respect to this issue include the 
following: (1) The ability of lower basin entities outside of 
California, to affect compliance with the section 5(B) requirements, 
(2) the need of other lower basin entities outside of California, to 
utilize surplus quantities in 2003 (and the relative amounts of such 
surplus quantities), (3) impacts on storage of water in the Colorado 
River reservoirs, and the impact on future deliveries to users of the 
waters of the Colorado River under applicable provisions of Federal law 
and international treaty, (4) impacts on California's ability to meet 
applicable conditions for reinstatement of the determinations under 
sections 2(B)(1) and 2(B)(2). The Department corrects a typographical/
computational error in the Guidelines as published in the Federal 
Register on January 25, 2001. Specifically, the correction would 
replace the value of 100,000 acrefeet that appears in section 
2(B)(1)(a) with the value of 120,000 acrefeet. The basis for this 
correction is as follows. The Federal Register notice published on 
January 25, 2001 states that the decision made by the Secretary is 
``adoption of specific interim surplus guidelines identified in the 
Preferred Alternative (Basin States Alternative) as analyzed in the 
FEIS.'' (66 FR 7773). Reclamation had earlier published information 
that Reclamation had received from the Colorado River Basin states of 
Arizona, California, Colorado, Nevada, New Mexico, Utah, and Wyoming 
during the public comment period'' on the proposed adoption of the 
Guidelines. (65 FR 48531-48538). Reclamation crafted an alternative 
based on this information, which was ultimately identified as the 
preferred alternative. As submitted to the Department, and published in 
the Federal Register, the information from the basin states provided in 
section IV(B)(1)(a) with respect to Direct Delivery Domestic Use by 
MWD, that offsets ``shall not be less than 400,000 acrefeet be reduced 
by 20,000 af/yr over the Interim Period so as to equal 100,000 af in 
2016.'' (65 FR 48536). When the ROD was prepared, the Department 
modified this provision of the proposed alternative to take into 
account that the Guidelines would not be in effect for 2001 AOP 
determinations, and would first be applied for 2002 determinations. 
Accordingly, the year was modified in this provision from 2001 to 2002. 
(66 FR 7780). However, when this change was incorporated into the ROD, 
the Department did not modify the corresponding value for the end date 
(i.e., in year 2016). The computation of a reduction of 20,000 af/year 
during the interim period yields a final value of 120,000 rather than 
the published value of 100,000.
                                 ______
                                 
    Mr. Raley. The Federal Register notice that I signed 
yesterday poses issues and creates the basis for a common 
understanding and dialog about what is required and is not 
required under the California plan from a Federal perspective. 
I believe I can summarize that Federal notice quickly. First, 
the Federal notice seeks to establish kind of common 
understanding of what will occur if the QSA is not executed. 
Our understanding is that under the plain language of your 
interim surplus guidelines, that if the QSA is not executed, 
the surplus currently available will be suspended, and that we 
will return to what is known within the water community and the 
management community as an operation based on 70R.
    Second, the Federal Register notice poses the question that 
the department is currently considering but not proposing any 
specific action for as to whether or not in the event of the 
suspension of the interim surplus guidelines, the availability 
of surplus for the State of Nevada is treated differently than 
the availability of surplus for the State of California.
    The third matter I will not go into any detail on is what 
we believe to be truly a correction of typographical or 
computational errors that someone misunderstood or we did not 
understand the basis for the correction. We certainly want to 
discuss that, Mr. Chairman, I want to remain available for 
questions, and I hope to spend as much of today as I can so I 
can learn from the witnesses and your dialog with them. Thank 
you.
    Mr. Calvert. We appreciate that. Mr. Hunter will be here 
shortly, and I'm sure he'll have some questions for you.
    [The prepared statement of Mr. Raley follows:]

   Statement of Bennett W. Raley, Assistant Secretary for Water and 
                Science, U.S. Department of the Interior

    My name is Bennett Raley. I am the Assistant Secretary of the 
Interior for Water and Science at the Department of the Interior.
    Mr. Chairman. It is a pleasure to be here today representing the 
Department of the Interior to offer testimony with respect to the 
status of Colorado River management initiatives designed to provide 
water management stability to the State of California and to all who 
share in the benefits of the Colorado River throughout the Colorado 
River Basin. I will focus my remarks today on the history and progress 
of the California 4.4 Plan, the critical importance to southern 
California of the implementation of the Plan, and the potential results 
if key components of the Plan fail to fall into place.
    The progress that has been made in over the last decade towards the 
goal of resolving serious and long-standing issues relating to 
California's use of Colorado River water has been nothing short of 
phenomenal. All of the California Colorado River Water Users as well as 
the other Colorado River Basin States worked together to develop a 
water management strategy that achieves the water use reductions that 
are mandated by the Law of the River. All the parties are commended for 
their efforts in developing this essential plan, which implements the 
findings of the Supreme Court in Arizona v. California some 38 years 
ago.
    However, while we remain hopeful and resolute in our desire to 
implement the California Plan, we are increasingly concerned that 
California water management entities will not meet one of the critical 
milestones for implementation of the California 4.4 Plan. In 
particular, we are concerned that California water management entities 
may not execute the draft Quantification Settlement Agreement by 
December 31, 2002.
    The Department understands that complex legal, policy, and economic 
issues relating to the Salton Sea have created an unexpected challenge 
for implementation of the California 4.4 Plan. From a Federal 
perspective, the existence of this challenge does not obviate or modify 
the requirements of the Secretary's Interim Surplus Guidelines. Under 
the Guidelines, the Secretary must make certain determinations with 
respect to the availability of surplus water in the Lower Colorado 
River basin. These determinations are to be implemented in the context 
of the Annual Operating Plan for the Colorado River, which is required, 
by statute, to be finalized by the Secretary by January 1, 2003.
    We understand and are sensitive to the concerns of Imperial County 
residents regarding some of the options that have been discussed in the 
context of the search for a solution to the complex issues relating to 
the future of the Salton Sea. In this regard, I have transmitted a 
letter dated May 31, 2002 to the President of the Board of Directors of 
the Imperial Irrigation District, Ms. Stella Mendoza. A copy of this 
letter is attached to this testimony, and is submitted for the formal 
record of this hearing.
    While achieving consensus among all interested parties has been the 
goal and practice of the Secretary in matters relating to Colorado 
River management, the Federal role is deeply affected by the dictates 
of the numerous legal authorities which bear on the management of the 
Colorado River. These authorities, collectively known as the ``Law of 
the River,'' include, for example, the 1922 Compact, the Boulder Canyon 
Project Act of 1928, the water delivery contracts entered into under 
Section 5 of that Act, the Federal reserved rights of Indian tribes, 
the Mexican Treaty of 1944 and the Minutes which apply its terms, the 
Colorado River Storage Project Act of 1956, the opinion and Decree in 
Arizona v. California, the Colorado River Basin Project Act of 1968, 
the Colorado River Basin Salinity Act of 1974, and other Federal 
statutes.
    The Department understands the seriousness of these issues to the 
State of California and California water management agencies. However, 
under the Law of the River the Secretary must also consider the rights 
and interests of the other States in the Colorado River Basin, and the 
obligation to comply with the requirements of the Mexican Treaty of 
1944. The history and nature of these responsibilities provides the 
context for an understanding of the consequences of a failure of the 
California 4.4 Plan.
The California 4.4 Plan; Background
    The California 4.4 Plan is a bold attempt by the urban and farming 
interests of southern California to work together to overcome countless 
obstacles to achieve a common goal: to reduce the State of California's 
present dependence on the waters of the Colorado River.
    The amount of Colorado River water available to the State of 
California is variable. First and foremost is the question of available 
water supply within the Colorado River system. Second is the question 
of demand, both in California and in the other Basin States of 
Colorado, Utah, Wyoming, New Mexico, Nevada and Arizona.
    In the past California benefitted from ample water supplies in Lake 
Mead and from the more gradual development of water uses in the other 
Basin States. California put to use the waters apportioned to it by the 
Secretary under the Decree in Arizona v. California. California also 
put to use water legally available to but not used by the other Basin 
States, water then made available to California by the Secretary under 
the provisions of the Decree.
    The State of California has for decades received water in excess of 
the baseline quantity of 4.4 million acre-feet available to it in a 
normal, non-surplus year. The 4.4 million acre-feet of water available 
to California in a normal year is sufficient to meet the needs of 
agricultural interests such as the Palo Verde Irrigation District 
(PVID), the Yuma Project, the Imperial Irrigation District (IID) and 
the Coachella Valley Water District (CVWD) each year, and still fill a 
good portion of the Colorado River Aqueduct which helps to fuel the 
economy of coastal California.
    The remainder of the Colorado River Aqueduct has been filled in 
past years with additional water not used by the States of Nevada and 
Arizona or water made available in years of surplus. Neither the 
historical fact of the repeated, and lawful, release to California of 
water not taken by Nevada or Arizona, nor the present reality of the 
dependency of California on this additional water, can alter the terms 
of the Decree. California has no legal right to the continued use of 
water in excess of 4.4 million acre-feet in a normal year. Nor does 
California's use of additional water during times of surplus alter the 
immutable laws of nature. The Colorado River will have periods of 
surplus, periods of normal flow and periods of drought.
    The history of California's water use is not complete without a 
reference to concerns about the farming efficiencies of senior priority 
holders. For decades concern has been expressed about IID's water use. 
In 1984, the California State Water Resources Control Board found in 
Decision 1600 that IID could achieve additional farming efficiencies, 
in particular, reducing tailwater practices (embodied in Order 88-20). 
Many of the concerns raised in the 1980's continue to exist today. 
Neither the Decree in Arizona v. California nor Federal Reclamation law 
permit Colorado River water to be wasted.
    The Secretary, the State of California, and the other Basin States 
have long recognized that with the increased uses of Colorado River 
water by Nevada and Arizona and with the unpredictability of water 
supplies in the Colorado River system, California would have to develop 
a plan to reduce its use of Colorado River water. California has done 
so. In an intrastate cooperative effort of enormous magnitude, the 
water agencies in California have worked together to develop the 
California 4.4 Plan.
The California 4.4 Plan
    On May 11, 2000, the Colorado River Board of California issued 
California's draft Colorado River Water Use Plan (the California 4.4 
Plan). Developed over the course of years through the painstaking 
efforts of numerous parties, the California 4.4 Plan is an ambitious 
multi-faceted undertaking.
    The California 4.4 Plan contemplates a number of elements and 
benefits:
    <bullet> Lthe conservation of water through the lining or 
replacement of unlined portions of the All American and Coachella 
Canals,
    <bullet> Lconjunctive groundwater use through additional 
groundwater storage to provide reserves in years of normal or shortage 
water supply,
    <bullet> Lthe adoption of reservoir operating criteria to provide 
greater certainty of availability of surplus waters for urban uses 
during the phased-in reduction of Colorado River water use,
    <bullet> Lthe settlement of the water rights of the San Luis Rey 
Bands,
    <bullet> Lthe reduction in Colorado River water use in PVID and 
IID, with appropriate compensation, and the transfer of this water to 
coastal urban areas for a limited but substantial period of time.
    Tremendous progress has been made in recent years in the 
development and implementation of each of these critical components of 
the California Plan. I will now focus on a couple of these components 
which will require attention in the coming months.
Reservoir Operation Criteria (Interim Surplus Guidelines)
    A critical element to the California 4.4 Plan was the adoption of 
reservoir operation criteria designed to ensure MWD a measure of 
certainty with respect to the availability of surplus water to fill the 
Colorado River Aqueduct during the years in which, under the California 
4.4 Plan, California's water use is ratcheted down.
    This component of the California 4.4 Plan was completed in January 
of 2001 when the Secretary of the Interior signed the Record of 
Decision approving the adoption of the Colorado River Interim Surplus 
Guidelines. These Guidelines were constructed upon a commitment by 
California water agencies to achieve a settlement of issues relating to 
the transfer of Colorado River water through a Quantification 
Settlement Agreement (QSA) by December 31, 2002.
    The Colorado River Interim Surplus Guidelines set forth specific 
elevation levels in Lake Mead which trigger surplus declarations of 
varying size. These Guidelines are a delicate balance of competing and 
diverse interests and would not exist except for the herculean efforts 
of the representatives from all of the Basin States and the Bureau of 
Reclamation whose combined sustained effort overcame seemingly 
insurmountable obstacles. It is because of these Guidelines that the 
Colorado River Aqueduct is full in the Year 2002. Likewise, the 
requirements of these Guidelines define the consequences of a failure 
to meet the agreed-upon milestones that are the essence of the 
California 4.4 Plan.
Water Transfers
    Perhaps the most visible, most complex, and single most important 
feature of the California 4.4 Plan is the voluntary transfer of large 
quantities Colorado River water from irrigation to municipal and 
industrial uses. I emphasize that these are voluntary transfers. The 
California 4.4 Plan, including the water transfer components, is one of 
the finest examples to date of Colorado River management through 
consensus.
    A recent and excellent example of such a voluntary water transfer 
is the effort MWD is undertaking with PVID. An agreement in principle 
was reached in July of 2001 in which varying numbers of acres in PVID 
would not be farmed, at the request of MWD and with the payment of 
substantial sums to participating PVID landowners, with the resulting 
water savings flowing through the quantified entitlements defined in 
the QSA to MWD. The certainty of this valuable program, of course, 
depends on the completion of the QSA. Absent the QSA (or some other 
form of quantification) there is no guarantee that any water transfer 
program, including the PVID program, will actually result in reductions 
in Colorado River water use by California. A draft Environmental Impact 
Report for this Palo Verde Irrigation District Land Management, Crop 
Rotation and Water Supply Program was issued last month and 
negotiations continue on the details of the arrangement.
    The most ambitious of the water transfers instrumental to the 
California 4.4 Plan is that of the transfer of water from IID to the 
San Diego County Water Authority (SDCWA). The IID water transfer is 
encapsulated in a contract entered into with SDCWA in 1998. This 
contract contemplated that water uses within IID would be reduced so 
that a portion of IID's Colorado River entitlement could then be made 
available to the SDCWA and possibly to others. The reduction in water 
use would be achieved though the implementation of conservation 
measures, with the costs for such measures to be paid for by the SDCWA. 
This voluntary IID/SDCWA water transfer agreement was a landmark 
achievement, for which the IID Board received much-deserved praise.
    The IID/SDCWA agreement did not, however, fit easily within the 
existing contracts with the Secretary of the Interior for the delivery 
of Colorado River water to California water agencies. These contracts 
establish a shared priority for IID and CVWD, with CVWD entitled to 
water IID does not put to beneficial use. These contracts also limit 
the area within which the water may be put to use. Concerns were raised 
about the legal framework necessary to accomplish the IID/SDCWA water 
transfer and a period of intense negotiations began.
    The first major breakthrough in bringing California parties 
together to support the IID/SDCWA water transfer was the Key Terms for 
Quantification Settlement Among the State of California, IID, CVWD and 
MWD (Key Terms), signed in October of 1999. The Key Terms agreement 
outlined water budget components for IID, CVWD and MWD, some of which 
would require that a portion of the water to be developed through 
conservation measures in accordance with the 1988 IID/SDCWA agreement 
would be provided to CVWD and to MWD.
The Quantification Settlement Agreement (QSA) and the Implementation 
        Agreement.
    Negotiations continued as the details of the Key Terms were fleshed 
out. After countless hours of negotiations in many locations, the 
dedicated efforts of negotiating teams from IID, CVWD, MWD, SDCWA, and 
the Department of the Interior bore fruit and two additional agreements 
were drafted: the Quantification Settlement Agreement (QSA) and the 
Implementation Agreement.
    The effort devoted to the development of the draft QSA has been in 
many ways the twenty-first century equivalent of the effort devoted to 
the development of the Seven Party Agreement, in which the California 
water agencies, through difficult negotiations, reached consensus on 
recommendations to the Secretary of the Interior relating to 
entitlements and priorities to the use of Colorado River water. 
Environmental compliance was not, however, a hurdle facing the 
negotiators of the Seven Party Agreement.
    The draft QSA is a cornerstone of the California 4.4 Plan. It 
represents an agreement among IID, CVWD, and MWD with respect to the 
use and transfer of Colorado River water for a period of up to seventy-
five years. This is an agreement which will firm up existing water 
supplies for SDCWA and which will permit CVWD to reduce its use of 
diminishing groundwater supplies. The draft QSA contemplates that water 
from the canal lining projects will be used for the purposes of the San 
Luis Rey Indian Water Rights Settlement Act.
    The development of the draft Implementation Agreement arose from 
the desire to fit the draft QSA into the existing Law of the River. 
Numerous legal issues surround the delivery of water in the manner 
contemplated by the draft QSA. Without relinquishing their various and 
differing legal positions, IID, CVWD, and MWD agreed to enter into the 
Implementation Agreement with the Secretary of the Interior.
    The Implementation Agreement has as its primary purpose the 
effectuation of the water delivery arrangements contemplated by the 
QSA. The Implementation Agreement alters for a period of time the water 
delivery arrangements set forth in IID, CVWD, and MWD contracts with 
the Secretary, entered into in the 1930's pursuant to Section 5 of the 
Boulder Canyon Project Act. Thus, in the Implementation Agreement the 
Secretary agrees that for the term of the QSA, a portion of the water 
which otherwise would have been delivered to Imperial Dam for use 
within IID may now be delivered, either at Imperial Dam or at Lake 
Havasu, for use by CVWD, MWD, and SDCWA.
    Hundreds of thousands of acre-feet could be transferred under the 
QSA when implemented through the Implementation Agreement. Such a 
substantial movement of water cannot proceed without an equally 
substantial commitment to environmental compliance. As difficult as the 
development process was for the water budget components in the draft 
QSA, the challenges the parties have faced in achieving environmental 
compliance now appear to be equally difficult.
Environmental Compliance, and the Salton Sea
    A draft EIS has been developed for the IID water transfer and a 
separate draft EIS for the Implementation Agreement. ESA requirements 
for the IID water transfer are being addressed through IID's proposed 
Habitat Conservation Plan (HCP). ESA consultation for the 
Implementation Agreement has been completed through a Section 7 
consultation which addressed potential impacts of water transfers to 
the mainstream of the Colorado River.
    The draft HCP proposed by IID focuses considerable attention on the 
Salton Sea. The Salton Sea provides habitat for a variety of species, 
several of which are listed as either endangered or threatened species. 
The IID water transfers will result in less water draining to the 
Salton Sea. Complicating the environmental compliance is the scientific 
fact that with or without the IID transfers, the Salton Sea will become 
more and more saline and thus less and less hospitable to threatened 
and endangered species.
    Congress provided an independent means to address Salton Sea issues 
in the Salton Sea Reclamation Act of 1998. The Department believes that 
the IID/San Diego transfer, as part of the California 4.4 plan, should 
not be delayed by deliberations about the future of the Salton Sea. A 
fundamental step in determining which course of action Congress will 
take with respect to the Salton Sea is a complete understanding of the 
Salton Sea's hydrology and of the alternatives available, together with 
associated costs, for prolonging its existence. The Salton Sea 
Authority and the Bureau of Reclamation are developing an Alternatives 
Report to address these issues.
    Publication of the Alternatives Report will occur once Interior is 
satisfied that it is accurate and complete. Cost estimates presented in 
the report are being refined to ensure that the data presented for each 
alternative is not misleading. The future long term existence of the 
Salton Sea is a monumental issue which rests with Congress and the 
State of California.
    IID's proposed HCP, intended to satisfy both the requirements of 
ESA and CESA for the water transfers envisioned by the QSA, has raised 
concern because of the potential impact on Salton Sea. Two mitigation 
options were proposed in IID's HCP, the ``pond option'' and the 
``fallowing option.''
    The Pond concept consist of constructing and operating a fish 
hatchery to stock fish in the Salton Sea and constructing up to 5,000 
acres of ponds to produce or receive hatchery received fish to feed 
fish-eating birds. The California Department of Fish and Game (CDFG) 
notified IID and SDCWA in late May of this year that in the judgment of 
CDFG the pond option did not ``minimize and fully mitigate the impacts 
of the transfer as required by the California Endangered Species Act.'' 
This CDFG notification brings the second option identified in IID's HCP 
out into the spotlight: the fallowing option.
    The fallowing option does not use system or on-farm water 
efficiency measures. The fallowing option would instead involve the 
voluntary fallowing of a substantial number of acres within IID, with 
the water savings to be available for transfer in accordance with the 
QSA as implemented through the Implementation Agreement.
    Fallowing is an option, developed to obtain approval for an HCP, 
not a requirement. Fallowing involves retiring farm land for a period 
of time and has raised concerns among residents of Imperial County with 
respect to its potential adverse effects on the local economy. Various 
approaches may be available to address these economic concerns, 
including approaches within the water transfer framework agreed to by 
IID and San Diego. We are committed to working with IID and the 
residents of Imperial County to address their concerns. Fallowing was 
not the original approach contemplated for the IID/SDCWA transfer 
agreement and has not yet been fully analyzed nor discussed within IID.
    An HCP will, however, provide substantial benefits to IID. For 
example, if IID elects to continue with the HCP process, IID may 
ultimately receive valuable assurances with respect to the impacts of 
its future water use on threatened and endangered species. Habitat 
conservation plans provide assurances that the mitigation measures set 
forth in the plan will be all that is required with respect to the 
needs of species currently identified as threatened or endangered and 
with respect to the needs of those yet to be listed. The decision to go 
forward with a fallowing option--a voluntary decision--is a decision to 
work through the difficult issues associated with fallowing in order to 
reap the significant benefits of long-term protection under the 
environmental laws. If the decision is made to adopt the fallowing 
option, the HCP assurances may be tied to implementing this decision.
    If an HCP cannot be developed, we believe that the requirements of 
the Federal ESA can be met through Section 7 of the ESA so that the IID 
water transfers can proceed. However, because a Section 7 consultation 
focuses only upon threatened and endangered species presently listed 
under Federal law, fewer species will be addressed than in a Section 10 
HCP process. Although we prefer to complete an HCP, Interior intends to 
move forward with a Section 7 consultation if it becomes clear that the 
HCP process will not conclude in sufficient time to permit the 
execution of the QSA by December 31, 2002.
    For years now, in efforts which have bridged two administrations, 
Interior has devoted enormous resources to working with the California 
water agencies in a cooperative process to develop water budgets and 
water transfers acceptable to all to bring California's use of Colorado 
River water within the 4.4 million acre-feet limitation decreed for a 
year of normal water supplies. To abandon these cooperative efforts at 
a time when drought conditions currently exist in the Colorado River 
system is to invite disaster.
River Management in the Absence of a California 4.4 Plan
    If the QSA is not executed by December 31, 2002, the Interim 
Surplus Guidelines provide that surplus determinations will be made on 
a much more restrictive standard. Specifically, section 5(B) of the 
Guidelines provides:
        It is expected that the California Colorado River contractors 
        will execute the Quantification Settlement Agreement (and its 
        related documents) among the Imperial Irrigation District 
        (IID), Coachella Valley Water District (CVWD), MWD, and the San 
        Diego County Water Authority by December 31, 2001. In the event 
        that the California contractors and the Secretary have not 
        executed such agreements by December 31, 2002, the interim 
        surplus determinations under Sections 2(B)(1) and 2(B)(2) of 
        these Guidelines will be suspended and will instead be based 
        upon the 70R Strategy, for either the remainder of the period 
        identified in Section 4(A) or until such time as California 
        completes all required actions and complies with reductions in 
        water use reflected in Section 5(C) of these Guidelines, 
        whichever occurs first. 66 Fed. Reg. 7782 (Jan. 25, 2002)
    The Department has not made a final decision regarding the exact 
nature and timing of actions or combinations of actions that it will 
take regarding California's use of Colorado River water in the event 
that the QSA is not executed by December 31, 2002 and the Guidelines 
are suspended according to its terms. However, as we have stated 
repeatedly in the past, the Department is fully committed and prepared 
to take whatever steps are necessary to ensure that California's use of 
Colorado River water fully complies with the requirements of the Decree 
of the United States Supreme Court in Arizona v. California. As fifteen 
members of California's Congressional delegation stated in a May 23, 
2002 letter to Secretary Norton, ``The Interior Department is 
responsible for enforcing the deadlines built into the Federal Interim 
Surplus Guidelines, which are intended to keep the California Plan on 
schedule.'' The Department acknowledges and accepts this 
responsibility. Due to the complexity and importance of these issues, 
the Department will be publishing a Federal Register notice that will 
identify concerns that the Department has received from lower basin 
users outside California in the event that the Interim Surplus 
Guidelines are suspended according to the provision cited above.
    We all know that California's use of Colorado River must comply 
with the Law of the Colorado River. This obligation includes both the 
requirement that California's use of Colorado River water may not 
exceed the quantity of water available to it under the Law of the 
River, and the independent requirement that any and all water available 
to California be placed to beneficial uses in accordance with 
applicable provisions of state and Federal law.
Conclusion
    Absent completion of the Quantification Settlement Agreement, the 
contemplated water transfers cannot proceed. Absent these water 
transfers, the California 4.4 Plan will fail. If the Quantification 
Settlement Agreement is not signed by December 31, 2002, the interim 
surplus determinations, which currently permit the Colorado River 
Aqueduct to remain full, will be suspended. In such an event, the 
Secretary of the Interior will enforce the Decree in Arizona v. 
California and California may well suffer an abrupt and major reduction 
in Colorado River water supplies. While we believe that an HCP under 
section 10 of the ESA is the preferred approach to avoiding these 
alternatives, we also believe that section 7 consultation provides an 
appropriate mechanism for compliance with the Federal ESA. Under either 
approach, we must all work together in this critical year for the 
interests served by the Colorado River.
    This concludes my testimony. I would be pleased to answer any 
questions you may have.
                                 ______
                                 
    [An attachment to Mr. Raley's statement follows:]
    [GRAPHIC] [TIFF OMITTED] 80202.001
    
    [GRAPHIC] [TIFF OMITTED] 80202.002
    
    [GRAPHIC] [TIFF OMITTED] 80202.003
    

    Mr. Calvert. Mr. Nastri, you are recognized.

    STATEMENT OF WAYNE NASTRI, REGIONAL ADMINISTRATOR, U.S. 
           ENVIRONMENTAL PROTECTION AGENCY REGION IX

    Mr. Nastri. Thank you, Mr. Chairman.
    I want to thank you for giving us the opportunity to come 
here today and to testify on these important matters. As 
requested, I'll be providing remarks today concerning air 
quality, and what our role is in this entire process with 
regard to the Salton Sea restoration.
    In the early 1990's large-scale episodes of fish and bird 
kill occurring in the Salton Sea underscored the need to 
address deteriorating environmental conditions in the sea. 
Congress through EPA provided $13.5 million in funding to 
address various concerns and to try to gain a limited 
understanding of some of the conditions relevant to the sea. 
Most of these studies will be focused on water quality. There 
were a couple of symposiums where air quality issues did come 
up. Our role when it comes to the Salton Sea is to provide 
support and to conduct environmental reviews of the projects 
related to California's use of the Colorado River water.
    We recognize California 4.4 plan has very positive and 
admirable goals, and we certainly recognize that California 
must reduce its use of Colorado River water. And as you're all 
well aware, there are several strategies and water transfer 
mechanisms that are being proposed.
    Implementation of these proposed activities that may affect 
the amount of water reaching the sea, to both Imperial and the 
Salton Sea itself, I'm going to address now specifically. We 
believe that by reducing the water content you'll most likely 
reduce the sea levels, and thereby expose lake bed sediments. 
These sediments may or they may not become airborne. We can't 
tell with certainty to what extent that may or may not occur. 
And in fact, as Congresswoman Bono noted, the experience that 
we have is based on Mono Lake and Owens Lake basin. And it's 
important to note that the geologic, the soil conditions, the 
meteorological conditions, the rainfall, they're all different. 
And so we necessarily can't assume that the conditions that 
exist in those conditions will be the same conditions that 
exist here. But nonetheless, that does serve as an indicator of 
what potentially might happen. And in those particular areas, 
again, as Congresswoman Bono noted, the primarily concern is 
PM-10. And the Owens Lake basin does have the highest PM-10 
emissions in the United States. Recent estimates put those 
emissions up at 400,000 tons annually.
    These conditions were in part--to what extent we can't 
exactly say, but certainly to some extent--impacted by the 
diversion of water. The particulate that become airborne are 
extremely of concern to us given the extensive data that exists 
on PM-10 potential health implications, particularly to the 
young, to the elderly, to those with sensitive populations. I 
think this area in particular has a great amount of data in 
support of air quality impacts, particularly given the 
proximity and the actual inclusion within the South Coast Air 
Quality District.
    With regards to water quality activities, the regional 
water quality control board, State of California actually does 
the assessment and establishment of both water levels in terms 
of levels for nutrients, for microbacteria. All these would be 
developed in what's called the TMDL, the total maximum daily 
load limit. And once these TMDLs have been developed, the state 
will then develop implementation plans in order to make sure 
that the load-bearing capability isn't in excess with the 
designated use.
    As Mr. Raley has done in terms of submitting written 
testimony for the record, we have also submitted written 
testimony for the record, and I ask that be made part of the 
record.
    [The prepared statement of Mr. Nastri follows:]

 Statement of Wayne Nastri, Regional Administrator, U.S. Environmental 
                      Protection Agency, Region 9

    Good morning, Chairman Calvert and Members of the Subcommittee. My 
name is Wayne Nastri. I was appointed Regional Administrator for the 
United States Environmental Protection Agency Region 9, our Pacific 
Southwest office, in October 2001. The Office is responsible for 
Federal environmental issues in Arizona, California, Hawaii, Nevada, 
the Pacific Islands, and for 147 Federally recognized Indian Tribes. 
Thank you for giving me the opportunity to provide testimony relating 
to the lower Colorado River and Salton Sea and to our role in the 
restoration effort at the Salton Sea. As you requested, I will also be 
providing some remarks today regarding potential air quality impacts 
associated with the myriad activities impacting the Salton Sea.
    The lower Colorado River provides a finite annual amount of water 
that is divided among agricultural, urban and environmental needs in an 
arid area that traverses 7 states, 35 Indian Tribes and two countries. 
Any change in that distribution may have far-reaching ramifications 
that impact all users of that water. Working together with other 
Federal, state and local agencies, EPA contributes our best efforts to 
identify workable, cost-effective solutions to that challenge. Our 
commitment is to work with agencies such as the Bureau of Reclamation 
and the Salton Sea Authority until those solutions are identified and 
implemented.
    EPA's role in the Salton Sea and lower Colorado River region is 
active and multifaceted. At this time I would like to highlight our 
three main areas of involvement.
1. Salton Sea Restoration
    In the early 1990's, large scale episodes of fish and bird kills 
underscored the need to address deteriorating environmental conditions 
at the Salton Sea. The late Congressman Sony Bono spearheaded the 
effort to draw national attention to this unique aquatic resource. In 
1997, Congress provided EPA $5 million to identify baseline conditions 
at the Sea. Based on those studies and in recognition of the complexity 
of the issues, in 1998 Congress appropriated an additional $8.5 million 
to EPA for scientific and engineering studies and pilot projects. The 
studies and projects were coordinated by the Salton Sea Authority. 
Engineering pilot projects to reduce salinity are underway; the 
potential commercial use of a highly productive fishery has been 
explored; a bioremediation study for the reduction of nutrient loadings 
to the Sea is about to begin. Three workshops brought experts in water 
and sediment chemistry, eutrophication and air quality together to 
produce white papers. This work has provided a sound basis for further 
investigations and for the development of alternatives being considered 
to improve conditions at the Salton Sea. Throughout the process, EPA 
has worked to ensure the use of appropriate scientific methods and cost 
effective approaches.
2. Environmental Review of Projects Related to California's Use of 
        Colorado River Water
    Concurrent with addressing the issues relating to the Salton Sea, 
California must reduce its use of Colorado River water to achieve the 
amount apportioned to it mandated by the Law of the River. The 
Department of Interior, state and local agencies in California are 
proposing several strategies and water transfers that will allow 
California to meet its goal of reducing its dependence on Colorado 
River water to 4.4 million acre feet in years of normal supply. Some of 
these actions require Federal environmental review. The National 
Environmental Policy Act (NEPA) requires the preparation of an 
Environmental Impact Statement (EIS) and an opportunity for public 
review and comment. EPA's role is to review the EIS's (i.e., the State 
of California Colorado River Quantification Settlement Agreement, the 
Department of Interior's Implementation Agreement for the California 
Quantification Settlement Agreement, the Imperial Irrigation District/
San Diego County Water Authority Water Conservation and Transfer 
Project) related to those actions.
    Proposed water conservation activities, water management strategies 
and the transfer of Imperial Valley water to San Diego will reduce the 
amount of water reaching the Imperial Valley. The result will be less 
water reaching the Salton Sea. Lower Sea levels will expose lake bed 
sediments that may become airborne. We cannot predict with confidence 
what the potential emissions will be from the newly exposed lake bed at 
the Sea. From our experience at Mono Lake and the Owens Lake basin, 
which I will talk about in a moment, we know that windblown dust from 
an exposed dry lakebed can cause high levels of PM-10. PM-10 is the 
Federal health standard for particulate matter smaller than 10 microns 
in size. Inhalable particulates in this size range over certain ambient 
concentrations may have serious health effects for people, especially 
children, the elderly, and those with respiratory illnesses. Our 
concern regarding airborne impacts from the Salton Sea is based on our 
experiences at Mono and Owens Lakes; however, we have no information to 
predict the degree of air impacts from the Salton Sea.
a. MONO LAKE
    Mono Lake is located in Mono County in eastern-central California. 
Since 1941, portions of the water from four of the major tributary 
streams have been exported before reaching the lake. From 1974 through 
1989, an annual average of 83,000 acre-feet of water was exported from 
the Mono Basin.
    Over the past 50 years, the water level of Mono Lake has dropped by 
approximately 45 feet, causing the exposure of approximately 20 square 
miles of lakebed and an emissive area of 9 square miles. As the lake 
receded, 24-hour PM-10 readings increased at one monitoring site out of 
many in the area, to 981 <greek-m>g/m3 in 1993. The 24-hour standard is 
150 <greek-m>g/m3. Today, the State of California is refilling Mono 
Lake to its historical level, and although the lake has not yet reached 
that level, the PM-10 levels are declining.
b. OWENS DRY LAKE BED
    Owens Lake is located in Inyo County in eastern-central California. 
In 1913, the Los Angeles Department of Water and Power (LADWP) 
completed an aqueduct system and began diverting the waters of the 
Owens River to the City of Los Angeles. By 1930, these diversions had 
drained Owens Lake almost completely dry.
    The Owens dry lake bed is approximately 70 square miles. The 
emissive area is approximately 35 square miles. Strong winds over the 
dry, alkaline bed of Owens Lake have produced the highest measured 
concentrations of PM-10 ever recorded in the US: levels as high as 
20,750 <greek-m>g/m3 were measured at the lake. The reading represents 
the highest 24-hour average at one monitoring site out of many around 
the lake. Annual PM-10 emissions from Owens Lake may exceed 400,000 
tons, and dust transported from the Lake can result in violations of 
the 24-hour PM-10 NAAQS in the town of Ridgecrest, 150 miles to the 
south. The dust from the lake bed contains naturally occurring 
carcinogenic compounds, including arsenic, nickel, and cadmium. EPA has 
not conducted a study to determine if there is a cancer risk. The State 
Implementation Plan includes cost effective control measures, such as 
shallow flooding, managed vegetation, and gravel cover, to minimize 
dispersal of PM-10 and bring the area into attainment.
c. SALTON SEA
    The conditions at Mono Lake and the Owens Dry Lake are not the same 
as those at the Salton Sea in their climate and soil characteristics. 
However, the potential of exposing 100 square miles of once previous 
lake bed without any mitigation raises concerns. Factors that affect 
potential PM-10 air quality problems include how the lake crusts over 
after the water recedes, how rain, drying and other forces, such as 
human activities, might disturb the crust, and how winds affect 
emission patterns on the dry lake bed. In addition, the soil from the 
lake bed may contain toxic materials. These could be naturally 
occurring, as in the case of Owens Lake, as well as potential 
contaminants from agricultural runoff. The congruence of these factors 
may cause higher emissions in some areas compared to other locations in 
the vicinity.
    There is some indication that the existing north shore of the 
Salton Sea might be presently emitting PM-10 into the air. To 
understand these potential impacts, the soil type and characteristics 
of the potential new shoreline should be assessed. Models to assess the 
level at which violations in PM-10 NAAQS may occur should also be 
employed. And finally, potential control measures should be evaluated.
    We should use the lessons learned at these experiences at Owens and 
Mono Lake to insure that changes to the level of the Salton Sea do not 
cause any exceedences of the PM-10 standard and do not have negative 
impacts on public health.
3. Water Quality
    The waters of the area, Salton Sea, Alamo, New Rivers, are all 
impaired, that is, they do not meet the water quality standards for 
their designated uses. Under the Clean Water Act, the State of 
California and EPA must identify the pollutant of concern and how much 
of it may enter the water and still achieve the overall water quality 
standards. The State and EPA must identify the Total Maximum Daily Load 
(TMDL) for a pollutant of concern and California must implement the 
program based on the TMDL. The California Regional Water Quality 
Control Board, Colorado River Basin, has approved the sediment load 
allocations for the Alamo River, and the pathogen and sediment loads 
for the New River. Implementation of the TMDLs by California will be 
forthcoming.
    EPA with other agencies, support the local tribal interest for 
maintaining water quality in the area. The consortium of tribes in 
Coachella Valley (Morongo, Aqua Caliente, Torres Martinez, Twenty Nine 
Palms and Augestine Bands of Cahuilla Indians) are concerned about the 
effect of Coachella Valley Water District's proposed use of Colorado 
River water to recharge the aquifer from which the tribes take their 
drinking water. The tribes are concerned about the potential aquifer 
contamination by perchlorate, which has been detected in the Colorado 
River water.
4.Other EPA Activities in the Area
    In addition to the three activities I've just highlighted, other 
EPA programs in this area include the joint State of California and EPA 
effort to control the perchlorate movement draining into Lake Mead and 
the Lower Colorado. Another long-term commitment is our border water 
infrastructure program.
    EPA's border water infrastructure program provides technical 
assistance and grant funds for high priority water and wastewater 
infrastructure projects to communities and Indian Tribes within the 100 
km north and south of the US/Mexico Border. As you know, one of the 
local tributaries to the Salton Sea is the New River. The New River is 
polluted from multiple sources in the U.S. and Mexico.
    One of the sources is the mixture of raw and treated sewage from 
Mexicali, Mexico. EPA and other Federal and state agencies are working 
with Mexico to address the sewage situation and improve water quality 
in the New River. EPA has provided grant funds to improve the 
collection and existing treatment systems in Mexicali; however, there 
is still much work to be done. It should be noted that as we assist 
Mexico in improving the level of treatment of its sewage, Mexico may 
choose to keep its effluent for non-potable uses. The result may be 
less water in the New River and ultimately the Salton Sea; however, the 
water that does reach the Sea will be of better quality.
    In closing I would like to reconfirm our commitment to work with 
the Federal, state, local and tribal agencies that are undertaking the 
challenge posed by the competing needs for the lower Colorado River 
water. Coordination with the tribes is a necessity due to the presence 
of tribal trust assets which could be affected. We have made great 
strides in identifying the issues that need to be addressed and how 
they are interrelated. My staff met recently with the representatives 
from the Bureau of Reclamation and the Imperial Irrigation District to 
work on ways to address these challenging issues. Thank you very much 
for extending an invitation to me to provide testimony here today. I 
will be happy to answer any questions that the Subcommittee members may 
have. Thank you.
                                 ______
                                 
    Mr. Nastri. I understand that we have limited time, so I 
would like to stop my comments at this point and answer any 
questions that you may have.
    Mr. Calvert. Thank you, gentleman.
    Mr. Hannigan?

     STATEMENT OF THOMAS M. HANNIGAN, DIRECTOR, CALIFORNIA 
                 DEPARTMENT OF WATER RESOURCES

    Mr. Hannigan. Mr. Chairman and members of the Committee and 
distinguished guests, thank you for inviting us to California 
to participate in today's hearing on the draft Colorado River 
Water Use Plan.
    My testimony will highlight the state's perspective on 
execution of the proposed Quantification Settlement Agreement. 
California's continued receipt of benefits provided by interim 
surplus guidelines is contingent, as you know, upon the QSA 
execution by the end of 2002. It is critical that these 
benefits remain in place. Without them, urbanized Southern 
California would lose about half of its historical Colorado 
River water supplies. As Subcommittee members have been briefed 
in previous Colorado River hearings, the guidelines provide a 
soft landing for California agencies while they reduce their 
use of river water at set forth in the draft plan. The 
guidelines additionally provide the benefits of surplus 
declarations to urban water users in Southern Nevada and 
Arizona. The State of California is a signatory to the QSA. Our 
role is primarily one of regulatory approval in the California 
Environmental Quality Act and the California Endangered Species 
Act process. The measure approvals needed our Department of 
Fish and Game and environmental review of QSA related impacts 
and the state water resources control board approval of the 
proposed Imperial Irrigation District-San Diego Water Authority 
transfer.
    Additionally the legislature has taken up revisions to 
California's Fully Protected Species statutes; revisions that, 
although not specifically identified as conditions precedent in 
the QSA, would further enable QSA implementation and ongoing 
operations of Colorado River facilities.
    As Subcommittee members are probably aware, public comment 
areas have closed to draft environmental documentation 
associated with the QSA. The Department of Fish and Game has 
already notified IID as to the biologically acceptable 
alternatives for carrying out the proposed IID-San Diego 
transfer. And a joint Fish and Game and U.S. Fish and Wildlife 
Service letter is being finalized. Their biological findings 
will be used by the board in its decision on the transfer.
    Extensive testimony was presented during the board's 
hearing regarding the transfer's potential adverse impacts on 
the Salton Sea. The Salton Sea is an important and unique 
environmental resource in Southern California, supporting 
numerous and diverse resident and migratory bird species. This 
administration will not approve an action that further 
jeopardizes the sea's already fragile ecosystem. Rather we are 
committed to working with transfer proponents to insure that 
the transfer can go forward in a manner that does not adversely 
impact the sea and the surrounding communities.
    While the state actions specifically required to enable 
local agency implementation of the QSA are limited, the Davis 
administration is committed to doing everything possible to 
ensure that the interim surplus guidelines remain in place. We 
fully recognize the seriousness of failing to execute the QSA 
by the end of the year. It is unrealistic to expect that 
interior and the other basin state will allow California to 
continue receiving Colorado River water via the guidelines 
surplus declarations.
    The Colorado River basin is experiencing drought 
conditions. The Governors of five of the basin states have 
declared drought emergencies or requested Federal designation 
at disaster areas. I cannot imagine that these states would do 
other than demand the Secretary enforce the guideline terms 
given present and hydrologic conditions.
    In closing, I'd like to stress that California has provided 
substantial financial assistance for Colorado River water use 
plan implementation to the local agencies, as well as other 
financial assistance from recent bond measures for actions such 
as ground water storage and water recycling or conservation. I 
want to reiterate that we are committed to working with the 
local agencies to ensure that the benefits provided by the 
guideline remain in place. And I'd also, Mr. Chairman, like to 
request that I may submit my written testimony for you.
    Mr. Calvert. No objection. So ordered.
    Mr. Hannigan. Thank you.
    [The prepared statement of Mr. Hannigan follows:]

  Statement of Thomas M. Hannigan, Director, California Department of 
                            Water Resources

    Mr. Chairman and Members of the Subcommittee, thank you for 
inviting California to participate in today's field hearing on 
implementation of California's draft Colorado River Water Use Plan. I 
am pleased to be here this morning on behalf of Governor Davis.
    My testimony today will highlight the State's perspective on 
actions associated with the local water agencies' execution of the 
proposed Quantification Settlement Agreement. As you know, California's 
continued receipt of the benefits provided by the Department of the 
Interior's Interim Surplus Guidelines is contingent upon execution of 
the QSA by the end of 2002. It is crucial that these benefits remain in 
place. Without them, urbanized Southern California would lose about 
half of its historical Colorado River water supplies.
Background
    California's draft Colorado River Water Use Plan describes water 
management actions to be taken in the near-term to reduce California's 
use of river water, and identifies other actions that need further 
evaluation before they can be implemented. Actions identified for near-
term implementation by the local agencies involved in Water Use Plan 
preparation include lining the remaining unlined sections of the Bureau 
of Reclamation's All-American and Coachella Canals, implementation of 
the proposed Imperial Irrigation District-San Diego County Water 
Authority transfer, and development of groundwater conjunctive use and 
storage projects. The Plan also describes actions that may be taken by 
individual water retailers or water users, especially within urbanized 
Southern California, to reduce their dependence on imported water 
supplies. These actions, including water conservation, water recycling, 
and groundwater management projects, are eligible for State financial 
assistance from voter-approved bond measures. DOI adoption of the 
Interim Surplus Guidelines for the Colorado River system and 
development of certain water administration/water accounting procedures 
are also key components of the Plan.
    As members of this Subcommittee are aware, the Interim Surplus 
Guidelines describe how USBR will manage Lake Mead releases over the 
next 15 years. The Guidelines, which became effective last year, have 
been characterized as providing a ``soft landing'' for California 
agencies while they carry out actions to reduce their use of river 
water as described in the draft Plan. The Guidelines allow a greater 
fluctuation in reservoir operating levels within the historical range 
of Lake Mead operations, providing increased certainty that 
Metropolitan Water District's Southern California service area will 
continue to experience a full Colorado River Aqueduct through Federal 
declarations of surplus conditions. The Guidelines additionally provide 
the benefits of surplus declarations to urban water users in Southern 
Nevada and Arizona.
    The Guidelines contain incentives for California to implement the 
draft Water Use Plan in a timely manner. They provide that if 
California does not meet specified water use reductions during the 15-
year period, Lake Mead operations will revert to their historical mode 
of avoiding flood control spills and MWD will bear the associated risk 
of shortages to its urban service area. The Guidelines are further 
contingent upon execution of the proposed Quantification Settlement 
Agreement developed by the California local water agencies who are also 
appearing before the Subcommittee today. If the QSA and its related 
agreements are not fully executed in their final form by December 31, 
2002, the benefits to California of the Interim Surplus Guidelines will 
be suspended until such time as the agreements are completed, and the 
reliability of Southern California's water supplies will be 
compromised. More than half of Southern California's imported water 
supplies come from the Colorado River. A half-empty Colorado River 
Aqueduct would have a devastating impact on the region's economy and 
employment base.
    The proposed QSA was developed by the local water agencies as an 
outgrowth of preparing the draft Water Use Plan, in recognition that 
new Colorado River water management practices, such as proposed 
agricultural to urban water transfers, could not be implemented without 
further quantification of the agencies' rights and priority to use of 
Colorado River water. The now-in-force Seven Party Agreement of 1931 
makes only a partial division of California's interstate apportionment 
of Colorado River water. Most importantly, the 1931 agreement does not 
specifically quantify the 3.85 MAF of water contained in its first, 
second, and third priorities and allocated to the agricultural 
agencies, in particular the division of third-priority water among the 
agencies. The agreement also does not set forth water operations or 
accounting procedures to be used for its administration.
    The proposed QSA is an over-arching agreement that incorporates 
water budgets associated with Plan implementation and links together 
other separate agreements associated with elements of the Water Use 
Plan. These other agreements include, for example, ones for the IID-
SDCWA transfer and ones for the agencies' water acquisition 
arrangements for implementing the water budgets. The QSA further 
identifies specified conditions precedent for its implementation, 
including completion of the California Environmental Quality Act and 
National Environmental Policy Act review processes, acquisition of 
environmental permits and approvals (such as those associated with the 
California Endangered Species Act and Federal Endangered Species Act), 
and State Water Resources Control Board approval of the proposed IID-
SDCWA transfer.
    The process associated with local agency execution of the QSA and 
related agreements entails approval of the agreement package by the 
agencies' boards of directors, by which time the agencies must have 
completed necessary environmental and regulatory compliance actions. 
Within the past year, three major environmental documents directly 
associated with QSA implementation were released for public review--a 
programmatic document for the QSA itself, a document for the proposed 
IID-SDCWA transfer, and document for water operations and accounting 
measures needed for the Bureau's participation in QSA implementation. 
With closure of the public comment periods on these draft documents, 
the agencies can now prepare responses to the comments. The SWRCB began 
its hearing on the proposed IID-SDCWA transfer in April, and will issue 
its decision after reviewing the comments on the environmental 
documentation. Additionally, the Legislature has taken up revisions to 
California's fully protected species statutes--revisions that, although 
not specifically identified as conditions precedent in the QSA, would 
further enable QSA implementation as well as ongoing operations of 
Colorado River facilities. The Davis Administration supports Senator 
Kuehl's efforts in SB 482 to mesh the fully protected species concept 
with CESA provisions.
State of California Actions Required for Implementing the QSA and 
        Interim Surplus Guidelines
    Continuation of the benefits provided by the Interim Surplus 
Guidelines is contingent upon the local agencies' execution of the QSA. 
The State is not signatory to the QSA. The State actions specifically 
required for QSA implementation are associated with various approvals 
needed by the local agencies. The California Department of Fish and 
Game is responsible for environmental review of QSA-related impacts, 
and has been working closely with the U.S. Fish and Wildlife Service to 
coordinate comments on pending environmental documentation and CESA/ESA 
incidental take permits. Avoidance and mitigation of Salton Sea impacts 
are of most immediate importance in terms of timely QSA implementation. 
CDFG has formally notified IID as to the biologically acceptable 
alternatives for carrying out the proposed IID-San Diego transfer, and 
a joint CDFG/U.S. Fish and Wildlife Service letter expanding on this 
finding is now being finalized. SWRCB will use the agencies' findings 
pursuant to CESA and ESA in its decision on the IID-SDCWA transfer.
    Subcommittee members are probably aware of the extensive testimony 
that was presented during SWRCB's hearing regarding the IID-SDCWA 
transfer's potential adverse impacts to the Salton Sea. The Salton Sea 
is an important and unique environmental resource in Southern 
California, supporting numerous and diverse resident and migratory bird 
species. Mr. Chairman, I want to emphasize that this Administration 
will not approve an action that further jeopardizes the Sea's already 
fragile ecosystem. Rather, we are committed to working closely with 
transfer proponents to ensure that the transfer can go forward in a 
manner that does not adversely impact the Sea and the surrounding 
communities.
    The only other State action specifically needed for QSA 
implementation is California Department of Water Resources approval of 
an exchange agreement between MWD and Coachella Valley Water District 
associated with the QSA water budgets. This agreement, in which MWD and 
CVWD exchange 35,000 acre-feet of Colorado River water supplies for a 
like amount of State Water Project supplies, is similar to an existing, 
long-standing agreement between the two agencies, and does not require 
new infrastructure. MWD and CVWD both already hold contracts with us 
for SWP supplies.
State of California Actions Facilitating QSA and Water Use Plan 
        Implementation
    While the State actions specifically required to enable local 
agency implementation of the QSA are limited, the Davis Administration 
is firmly committed to doing everything possible to ensure that the 
Interim Surplus Guidelines remain in place. State agencies have placed 
the highest priority on helping the local agency signatories of the 
proposed QSA with the regulatory reviews and approvals. The Department 
of Fish and Game, for example, has been meeting weekly with IID to work 
through environmental issues associated with the proposed transfer. 
SWRCB began its hearings on the transfer concurrently with the public 
review of draft environmental documentation, to ensure that the hearing 
process could be completed in ample time for QSA execution.
    We fully recognize the seriousness of failing to execute the QSA by 
the end of this year. It is unrealistic to expect that DOI and the 
other Basin States would allow California to continue the excess use of 
Colorado River water provided for through the surplus declarations 
established in the Guidelines. The Guidelines, a joint proposal of all 
seven Basin States to DOI, have been in force for a year and a half. 
California's local agencies were extensively involved in developing the 
Guidelines and were aware of their requirement for having an executed 
QSA by the end of 2002. Present hydrologic conditions make compliance 
with the Guidelines' conditions even more critical. The Colorado River 
Basin is experiencing drought conditions. Last water year's inflow to 
Lake Powell was 59 percent of the long-term average. Forecasted Lake 
Powell inflow this water year is only 30 percent of average. Total 
Colorado River Basin reservoir storage is dropping to nearly 70 percent 
of capacity, approaching a low experienced only twice in the last 
quarter-century. This spring, the Governors of Wyoming, Colorado, Utah, 
New Mexico, and Arizona either declared drought emergencies or 
requested Federal designation as disaster areas due to drought. I 
cannot imagine that the other Basin States would not demand that the 
Secretary of the Interior hold California to the terms of the Interim 
Surplus Guidelines.
    California has made substantial financial assistance available to 
the local agencies to assist in Water Use Plan implementation. 
Subcommittee members may recall the $235 million in State general funds 
authorized for lining parts of the All American and Coachella Canals 
and for groundwater storage projects. CDWR has executed agreements with 
the local agencies making this funding available to them. The 
groundwater storage project being funded is MWD's Hayfield project, 
located adjacent to the Colorado River Aqueduct at Hayfield Valley. The 
Hayfield project is already being implemented; the canal lining 
projects are at the design stage.
    In addition to monies specifically targeted for Water Use Plan 
implementation, financial assistance provided by recent State bond 
measures will further help local agencies in Southern California reduce 
their reliance on Colorado River water. Statewide, the 1996 Proposition 
204 made available $60 million for water recycling loans/grants and $25 
million for groundwater recharge and water conservation loans, plus 
$2.5 million for Salton Sea environmental studies. Proposition 13 in 
2000 provided $40 million for water recycling loans/grants, $155 
million for recharge and water conservation loans/grants, $200 million 
for groundwater storage grants, and $235 million for Santa Ana River 
watershed project grants that include groundwater reclamation/water 
conservation/water recycling. Last month, another water bond measure 
qualified for California's November 2002 ballot via the initiative 
process. If approved by the voters, this $3.4 billion measure would 
provide additional funding to help local agencies reduce their use of 
Colorado River water.
    We in California may be faced with the unusual and fortunate 
circumstance especially at this time of tight state budgets nationwide 
of having significant State bond monies available for actions such as 
groundwater storage or water recycling that will help local agencies 
reduce their use of river water. The soft landing provided by the 
Interim Surplus Guidelines is critical to providing Southern California 
water suppliers with the lead time necessary for putting the actions in 
place. We cannot risk the economic disruption that would occur if 
California were suddenly limited to its basic interstate apportionment 
of Colorado River water.
Conclusion
    The challenge before the local agencies entails working through 
complicated institutional issues to achieve Water Use Plan goals, while 
at the same time being responsive to the agencies' communities. In the 
weeks and months ahead, I want to assure you, Mr. Chairman, that the 
Davis administration is firmly committed to working hand in hand with 
the local agencies to ensure that the benefits provided by the Interim 
Surplus Guidelines remain in place for California. Thank you for the 
opportunity to appear before you today. I look forward to answering any 
questions you may have.
                                 ______
                                 
    Mr. Calvert. Mr. Raley, obviously this document pretty much 
makes it official that something we've been talking about for 
some time, that the consequence of not executing this agreement 
by the end of the year is serious, and that--that if in fact 
the Department of Interior enforces 4.4 next year, that could 
have serious consequences on California, our water supply, our 
state economy, et cetera. Have you thought out how that would 
take place? Would it immediately take place? Would you do it 
over a period of time, in steps?
    Mr. Raley. Mr. Chairman, under the interim surplus 
guidelines, the actual action, if you will, with respect to 
operations of the Colorado River, is carried out through what's 
known as the Annual Operating Plan, or AOP process. That is 
currently under way. That process has very strong participation 
from the interested states, and other stake holders. It was 
started in May. The next meeting I believe with that process is 
in July. And I would anticipate that--I'm not certain but I 
would anticipate at the July meeting that we will have a 
further discussion of what we have internally referred to as a 
dual track AOP; in other words, one plan for operation of the 
Colorado River that assumes that the interim surplus guidelines 
remain in place because the QSA has been executed, and another 
one that plans for operations based on the suspension of the 
interim surplus guidelines. And it is in that process that the 
actual mechanisms will be worked out and proposed for the 
Secretary to adopt probably on December 31st.
    Mr. Calvert. Now, you're experienced with our friends in 
the upper and lower basin states such that they more than 
likely have little sympathy for California, is that a correct 
statement?
    Mr. Raley. Certainly are concerned. But I also want to say 
that the other states are intensely aware that the incredible 
progress that has transpired over the last decade. And they are 
very supportive of the soft landing approach, but cannot go any 
further than what was the deal--at least that's what we are 
hearing--deals articulated in the California plan.
    Mr. Calvert. And that deal wasn't easy to arrive at, I want 
to point out.
    Mr. Nastri, on your testimony regarding--a number of years 
ago I was an intern for a congressman that represented this 
entire valley, many years ago, before Mary was born probably. 
And the subject then was fugitive dust in the Coachella Valley, 
I remember that. This was before--we certainly had a lot of 
golf courses back then but not as many as they do today. And 
the issue is still here. But it seems to be--I don't know if 
it's any less of an issue or the same, but it's certainly here 
today.
    There's a lot of desert out there. And I wondered if EPA 
has done any investigations to say relative to what is out 
there, based upon dust is inherent in the desert environment, 
what the incremental increase in dust would be if in fact parts 
of the Salton Sea were exposed. Just as a way of putting that 
on record, has the EPA done any investigation in that area?
    Mr. Nastri. We have not done any investigation into that 
matter.
    Mr. Calvert. Is there any scientific information or study 
that has determined that there would be incremental increase, 
outside of that total information that has been obtained from 
other areas of the State of California?
    Mr. Nastri. Well, if you were to look at emissions from 
other areas of the State of California they would probably be 
very specific to that area. So the applicability, for instance, 
of the data that's been generated around Owens Lake, Mono Lake, 
while in the neighborhood of $40 million has been spent over 
approximately a 20-year period, through the use of five air-
monitoring stations, three meteorological stations. Data there 
has certainly been collected. But whether or not I would say 
it's applicable to this particular event, I would say that area 
speaks specific to itself.
    Mr. Calvert. I was kind of saying whether or not that area 
of the state, specifically Mono Lake or Owens Valley, which is 
very well-documented, would be relative to the Salton Sea. And 
that as far as I know, there have been no studies to indicate 
what or how much incremental dust would be created in the fact 
that parts of the sea were exposed.
    Mr. Nastri. There again, I'm not aware of any study that 
would define the extent based on exposure. Those are certainly 
studies that we would support and we think would be very useful 
in defining what an appropriate mitigation measure may be.
    Mr. Calvert. Thank you.
    Mr. Costa. Mr. Raley, a question and a comment. When you 
publish in July the two procedures that you explained earlier, 
I think it's very important not only how you explain the 
allocation of water will take place if we in fact do meet the 
deadline of December 31st with the Quantification Settlement 
Agreement, but I think it's very important that you clearly 
illustrate what the allocation of water will be if in fact it 
is not met. This entry into the Federal Register I think is 
very important, as Congressman Calvert stated. This is the 
hamlet, in essence, it seems to me, and I think people--
everyone clearly ought to know what the ramifications are in 
terms of the decreased availability of the water that will 
certainly occur if in fact agreement is not reached. It seems 
to me that, you know, there is not a thorough-enough 
understanding among many of our friends here in Southern 
California. Certainly the water interests and the leaders 
representing the various water agencies I believe understand 
that clearly, but I don't think there's enough grasping by the 
public and by the business communities and among the 
agricultural community and all of the other interests as to 
what will in fact take place if we're not successful. So I 
think a clear detailing of that in July, to provide the 
alternatives, is very important.
    Mr. Raley. Senator, that's absolutely correct that it's 
important that we do that. The meeting in July actually, 
because the development of the annual operating plan is 
somewhat of an interview process, there may not be and has not 
historically been the process where we've issued something. 
It's developed through dialog. But within that historic 
practice we will do our best to illustrate what the 
consequences of the other track of the AOP is. So we'll take 
that--and the people responsible for working that are sitting 
here today, Mr. Bob Johnson and his colleague in the upper 
Colorado region, Mr. Johnson sitting behind me and listening 
intently--and we'll do our best, sir.
    Mr. Costa. Well, I think the reduction of the allocation 
for the major water agencies in Southern California needs to be 
noted and the press needs to clearly understand what will 
result if we're not successful. And we all know that as 
legislators and community leaders the importance of water. As I 
said, it's the lifeblood of California. But unfortunately too 
often Californians take that for granted as long as, you know, 
you can turn on the tap and wash your car and water your lawn 
and maybe fill your pool. Unless we're in drought conditions or 
unless we're in flooding conditions, and we have the potential 
here for, in essence, a man-made drought to take place as a 
result of a lack of success. And so I think that needs to be 
clear.
    My question to you is, on looking at pages of the 
Quantification Settlement, 112 and 113--and you probably 
don't--I don't know if you have it in front of you or not. If 
you don't, you can have my copy. There is a schedule that talks 
about wrapping up--and I think you're familiar with the 
schedule--for all the various programs with the Metropolitan 
Water District, Imperial Irrigation District, San Diego and 
Coachella. I think the entirety of the schedule is critical for 
the success. Certainly the Imperial-San Diego transfer is 
considered to be one of the major aspects of the schedule. I'm 
wondering whether or not the Department of the Interior 
believes that there's any flexibility as it relates to meeting 
our goals that are stated here in the succeeding years up to 
2007, 2009, as to whether or not in your opinion and under the 
Quantification Settlement Agreement it is absolutely required 
that the Imperial-San Diego transfer must go first or whether 
or not we could reach those goals by other elements of the plan 
under the schedule, if we're successful in meeting them in a 
timely fashion.
    Mr. Raley. Our interpretation and understanding of the 
guidelines is that the primary operative aspects with respect 
to California's reduction are the two separate and independent 
requirements of the execution of the QSA by the end of this 
year, as well as meeting the benchmarks of 2003, 2006, 2009, et 
cetera.
    It is our understanding that right now California will be 
able to meet the 2003 benchmark because of some of the efforts 
that you referred to that have gone forward. And I want to 
commend everyone for that having occurred. And in fact 
California may well be able to meet the 2006 benchmark, 
although we're less certain about that.
    So from our perspective, the critical elements are meeting 
benchmarks and the QSA. The exact order of the various measures 
and what takes place, there may be inherently some flexibility 
in how that's achieved.
    Mr. Costa. I think a lot of us are interested in exploring 
that flexibility and maybe we might want to have a further 
discussion at a later time as it relates to that, especially as 
you get prepared to present your report in July.
    Last question for Mr. Hannigan, Mr. Chairman, having held 
the hands of all these parties over the last couple years, 
which some might argue are thankless tasks, I would like you 
to, in the most succinct terms you know how, tell us and the 
Committee--both Committees, I guess-- what do you believe are 
the remaining obstacles to getting the signators on the 
Quantification Settlement, getting action, and what do you 
think we can do as representatives to assist you in that 
effort.
    Mr. Hannigan. Senator Costa--
    Mr. Costa. It's an easy question.
    Mr. Hannigan. Yeah, softball.
    I think from the standpoint of the state legislature, a 
successful resolution of the Fully Protected Species Act and 
the CSA legislation would be extremely helpful. This hasn't 
been a tortuous task because over the period of time I've met 
some wonderful people and gotten to understand much better this 
issue of the Salton Sea and the Colorado River and how it 
relates. And finally, the remaining unresolved issues I think 
are obvious to almost everybody in this room, but they center 
around the Salton Sea and how we deal with it. It's not an 
issue that was intently discussed at the time of the 
negotiations that led to the QSA. There was discussion, 
certainly. But probably we didn't realize that we would come to 
this juncture.
    There are numerous agreements behind the QSA. The number is 
somewhere in the neighborhood of 32. And there's been a lot of 
work--this has been alluded to earlier-- completed. But this 
remains the major unresolved issue for us.
    And yes, we have a time line because of the impacts of 
losing the interim surplus criteria, water. But I think we have 
to focus our attention on solving this within that time line. I 
would hold out hope that there is some kind of discussions with 
other basin states and with the Secretary. But I think we have 
to assume that the time lines that are in the interim surplus 
criteria are going to be adhered to and we have to find a way 
to meet them.
    Mr. Costa. But the issues are linked certainly, but the 
Quantification Settlement Agreement as you mentioned did not 
include as a part of it that we would have a resolution to all 
of the issues surrounding the Salton Sea as we looked at the 
deadlines and all the other aspects of it. And so it seems to 
me we've got to figure out a way and have some understanding if 
we are willing to continue to work on those issues surrounding 
the Salton Sea, that certainly Congresswoman Bono and 
Congressman Hunter and others are concerned about, and so are 
Senator Kelly and Senator Battin. I mean, we ought to focus and 
do everything we can. But I also don't believe that in my view 
from my knowledge that we have a lot of the answers at this 
point in time, or solutions to the issues surrounding the 
Salton Sea?
    Mr. Hannigan. Well, the QSA implementation doesn't require 
solutions to the Salton Sea, but it requires us to implement 
our negative impacts to the Salton Sea. And maybe we transpose 
those two efforts. As the Chairman and Congresswoman Bono are 
aware, there has been an effort in Congress to come up with a 
plan for preserving the Salton Sea. It's slipped its time 
lines, and has posed some impact on this effort. All along the 
California agencies assumed that we would be responsible for 
the impacts that the transfer had on the sea, not a full 
implementation of a solution to the sea. And when we got there, 
we found that it wasn't that easy to identify specific impacts 
without talking about the total resolution of the sea. And we 
just frankly have gotten bogged down with it. I mean, changing 
the legislation, the law in California is helpful, but that in 
and of itself isn't going to solve it. We need--we need to be 
able to think, as some would describe, outside the box. And I 
know there will be testimony later--I forget which of you, 
maybe the Congresswoman Bono suggested the ``F'' word, 
``fallowing.'' And that's the concept that has of late been 
discussed in many of these meetings. And hopefully, we'll get 
that in a more comprehensive way than we have to date. I 
realize there is opposition, there's people who have strong 
views on whether or not to do it. But I think it's something 
that we need to explore. Here again, we don't have a lot of 
time.
    Mr. Costa. Right. Thank you, Mr. Chairman.
    Mr. Calvert. Thank you.
    Mrs. Bono. Thank you, Mr. Chairman.
    First of all, Mr. Raley, how old is your daughter?
    Mr. Raley. She's 14--
    Mr. Calvert. Teenager.
    Mrs. Bono. That's what I was afraid of.
    Mr. Raley. She's 14, and has her father's personality 
flaws.
    Mrs. Bono. I want to thank you all for being here today and 
for focusing your attention on all of these issues that are 
surrounding the QSA. I want to thank the audience here today 
because this is obviously receiving a lot of heightened 
attention lately, and unfortunately that's because we're at a 
critical juncture.
    And you know, I've listened to everybody so far, and we 
need to break this down a little bit and make it simple again. 
We're short of water. If we move water from one place to 
another, somebody is going to pay somehow. That's what it's all 
about. I mean, we can talk numbers and page numbers and all 
these different things, but breaking it down and simplifying 
it, really for me anyway, is the easiest way to go.
    And I don't believe we've addressed who is going to pay. 
And I know early on when the water districts came to me with 
the idea of a legislation, it was entirely focused on water. 
And we are basically asking our constituents in the Coachella 
Valley, I'm asking my constituents to choose between air 
quality and water quality. Which do you want, do you want a 
hundred thousand more acre-feet of water in the aquifer or do 
you want to breathe what could perhaps become the dustiest air 
in the United States. And that's the place I was put in. And I 
represent people who breathe air and all drink water too. So in 
my view it's always been a matter of looking at comprehensive 
policy that addresses all of these.
    And I would say that since 9/11, if we've learned nothing 
else, we've learned that Federal agencies do not talk to one 
another. And I hate to bring that up in this case, but the EPA 
hasn't worked with the Interior on this.
    We've talked about moving the water, but we have not talked 
about the mitigating consequences. I think if you're talking 
about moving water, you look at Owens Valley or Mono Lake, you 
know what's going to happen. Why aren't we addressing those 
things? Why haven't we been? And if we've made one mistake--and 
perhaps Assemblyman Kelly would point it out--when we--or when 
the Salton Sea Authority was founded, we were perhaps too 
narrow in the charter. And we said ``Save the sea.'' And to 
some people that means one thing. To other people it means 
something else. To me it means save the region. And Tom Kirk 
and those on the Salton Sea Authority worked very, very 
diligently in saving the sea. But it is a much larger problem 
than that. And I even believe the saving-the-sea thing needs to 
be tailoring it to this a little bit more.
    And I am not opposed to redefining the Salton Sea. And I 
take a little bit of issue with the comment of yours in written 
testimony, Mr. Raley, where you say, ``The future long-term 
existence of the Salton Sea is the monumental issue which rests 
with Congress and the State of California.''.
    And it seems the Administration likes to frame the Salton 
Sea as a man-made error, but the Colorado River broke their 
dike and filled the Salton Sea. But as the University of 
Redlands pointed out, that in the past 1400 years, more often 
than not, there has been water in the Salton Sea. So I wish 
Congress and the State had the same power of moving water, but 
I think in the end Mother Nature is going to win out.
    And I am wondering if you could reconcile for me, Mr. 
Raley, why not too long ago you signed the Torres-Martinez 
settlement agreement which allowed permanent flowage into the 
Salton Sea, but now we're saying the sea is going to die if we 
don't do it. So which way do you all want it. Do you want it in 
the sea, which we all fought so hard to save, and now you're 
saying we don't want it in the sea. We can't have it both ways. 
So how do those two things reconcile?
    Mr. Raley. Congresswoman, I accept your admonition that 
Federal agencies should talk and work together more closely. 
And we will do so.
    With respect to the issue of--and I apologize, I can't 
exactly quote the part of your question, as to whether or not 
we believe that we want to restore the Salton Sea, our position 
is that we're going to provide, have already provided, in fact, 
the report to Congress and I'm going back and am going to 
provide another alternative report. But that the ultimate fate 
of the sea is in fact a decision of a magnitude so great that 
it truly does rest with Congress and the State of California. 
We at Interior do not have the authority to make that 
determination. And, hence, the basis for my statement.
    Mrs. Bono. You don't have the authority or do you just 
perhaps believe that the sea is a dead sea anyway, it's a waste 
of time, and just don't want to publicly say that? Because if 
that is the case, then that is what the people ought to hear so 
that we go from that point forward and say it, and not be 
afraid to put that out there.
    Mr. Raley. The Administration does not have a position on 
the status of the sea or its future. That's a-- Congresswoman, 
in my 20 years of dealing with issues like this, which is not 
as much as many people here, but having studied ones that came 
before me, this is one of the most difficult public policy 
issues that has existed in the natural resources community in 
the United States. And so the reason that we don't have a 
position as an administration as to the ultimate fate of the 
sea and what should be done is we are, like you, searching for 
the right answer.
    Mrs. Bono. Thank you.
    Do we have a little bit more time, Mr. Chairman? Thank you.
    First of all, that right answer is going to come forth when 
all of the players sit down at the table and talk, the EPA, you 
all, the state, everybody sits down together, including people 
who are looking at the economic opportunities in the area.
    But if I can move on to Mr. Nastri, a couple of questions 
regarding the Owens Lake, where does the problem of the dust 
come from at Owens Lake, the dry lake bed? Does that come from 
the center of the lake, the worst part of the pollution 
problem?
    Mr. Nastri. Well, you raise an excellent point in that the 
actual entire surface of the lake that was exposed isn't 
considered emissive; and by that I mean discharging PM into the 
air. There's only a certain portion of that, and I believe--and 
I want to check with my staff--but I believe it's in the 
northwest, and it's a relatively small portion of that lake 
bed.
    Mrs. Bono. In the center or--
    Mr. Nastri. In the north--I'm sorry, on the eastern portion 
of the lake. It's 35 square miles. And there is various 
conditions which lead to the emissiveness of that lake bed, 
whether or not the soil can form a lattice structure, what the 
actual soil characteristics are in terms of the mineralogy, 
because it actually varies in distribution. So we can't make a 
general statement and say throughout an entire area you expect 
to see this. And in fact that was sort of the lesson learned 
from the Mono Lake, Owens Lake region, is that we can't make 
these generalizations, that we do have to go on and look at in 
a very particular--
    Mrs. Bono. I've read oftentimes that the Salton Sea's worst 
problems actually are the edges, not from the center of the 
lake. Is that a correct statement? Or again if you don't have 
the scientific proof--
    Mr. Nastri. I would say at this point we don't have enough 
information to know where the specific portions would be. 
There's been limited data that's been collected. And in order 
to really assess that, you would need to take coring samples 
throughout the area and you'd want to look at the actual soil 
characteristics in that potential area. So at this point I 
don't think we at EPA are ready to say that the edges now are 
the cause of greatest concern. We just don't know. We don't 
have the data.
    Mrs. Bono. One last question. Again Mr. Nastri, are we in 
nonattainment now, is the Coachella Valley?
    Mr. Nastri. No, you're not. PM-10 is currently considered 
severe.
    Mrs. Bono. Severe.
    Mr. Nastri. Serious. I'm sorry. Serious.
    Mrs. Bono. Thank you.
    Mr. Calvert. Thank you. Assemblyman Kelly?
    Mr. Kelly. Mr. Raley, if you don't know, there's been a lot 
of discussion about the timing of the QSA and meeting 
requirements by the end of year. To your knowledge, is there 
any way that you could extend that timeframe or anybody could 
extend the timeframe to meet the requirements if they aren't 
met by the end of the year?
    Mr. Raley. Well, from a technical or legal perspective, 
yes, there is a way. But that's not something that we are 
considering in any respect.
    Mr. Kelly. So if we do reach that deadline and we do come 
to the point where we have to make a decision of immediately 
reducing down to 4.4, losing something like seven, eight 
hundred thousand acre-feet of water in the State of California, 
is there some procedure, some method--and I don't know how it 
would be imposed, that's why I'm asking the question--that 
could be imposed that would extend this for a period of time to 
try to come to some resolution?
    Mr. Raley. Well, the reason some of them--and I'm certainly 
going to be responsive to the scope of your question--as a 
legal matter, within the limits of the Constitution, there's 
much that can be done. There are certainly--just as the interim 
surplus criteria came into being through compliance with 
Federal law and the adoption of the guidelines, in theory, it 
could be amended. That's, however, not something that we have 
any interest in doing at the present time.
    Mr. Kelly. I understand very clearly the mechanics of what 
you're saying here. And I understand very clearly the political 
ramifications of failing to implement this by that point in 
time of the upper basins--
    Mr. Raley. Well, in the other--what it is, the question, 
the outer bounds that are very serious for the Secretary given 
the injunction of decree in Arizona vs. California is the 
Supreme Court decree. And so it is not as if this entire matter 
is something that is open to a wide range of discretion. In 
fact, the Secretary's discretion is very narrowly defined by 
the compacts in the decree.
    Mr. Kelly. Another question. We're all aware of the drought 
conditions in upper basin states and down here in the Southwest 
too. The secretary generally declares surplus water in the 
Colorado River approximately a year in advance of the actual 
delivery of surplus water, so they can make a decision--states 
can make a decision on that. I don't recall the dates that the 
Secretary generally does that, but under the conditions, it's 
very doubtful that there be a surplus declaration made in any 
immediate future. As a matter of fact, inflows into these lakes 
on the Colorado River is dramatically down. Do you see the 
Secretary making modifications in the allocations currently 
authorized under the various agreements on the river with the 
various states? Do you see any modifications at all?
    Mr. Raley. Absolutely not.
    Mr. Kelly. OK. Mr. Hannigan, as you're well aware, we have 
a Fully Protected Species Act in the State of California. And 
in order for the QSA to be implemented we must modify the 
statutes here in the State of California. Two bills that are 
working their way through the process in Sacramento, when they 
exist--let's put it that way, in Sacramento. One is a narrow 
fix to the Colorado River and the Salton Sea, which I authored. 
The other is a Fully Protected Species modification alternative 
in the State of California statewide. Both of the measures are 
kind of in limbo at this point in time. Failure for either one 
of these measures to be implemented would, in your view-- what 
do you--what would happen in your view?
    Mr. Hannigan. Do I understand--and we're referring to the 
Kuehl bill--
    Mr. Kelly. Right and then there's my bill.
    Mr. Hannigan. Right, Kelly bill.
    As I understand the status, the Department of Fish and Game 
would not be able to issue whatever permits it has the 
authority to issue unless the fully protected measure is dealt 
with, legislated. Early on Director Hite tried as best he could 
to administratively deal with it and came to a conclusion that 
he couldn't do that, and so turned to a legislative remedy.
    Mr. Kelly. OK. But failure to either one of these--
    Mr. Hannigan. Well, and I think--although the 
Administration currently is working with Senator Kuehl and 
would like for that solution to occur, I think at some point 
the legislature and the Administration are going to have to 
seriously think about a--
    Mr. Kelly. Narrow fix.
    Mr. Hannigan. Narrow fix.
    Mr. Kelly. That's right. Thank you.
    Mr. Raley. Assemblyman, if I could just add one more point. 
From a Federal perspective, and we're trying to be very 
disciplined in separating out Federal from state requirements 
because we don't want to intrude in any way, shape, or form on 
the state prerogatives, from a Federal perspective we think 
that it is highly likely and in fact we believe that we can 
comply with all the requirements of Federal law that will be 
applied to the execution of the secretarial implementation 
agreement at the end of the year, whether it be through an 
HCP--as it's been the subject of much discussion and it's been 
our preference, because it not only probably provides the most 
opportunity for addressing larger issues with the sea--or the 
other reason for our preference for the HCP is our very intense 
understanding that it would dovetail most neatly with the state 
requirements.
    But if from a Federal perspective we cannot proceed under 
an HCP, we believe that there is a path to success under 
Section 7 or other alternatives. And that puts I believe the 
point you're making--we may be in a position of where Federal 
law requirements have been met, but not state. I believe that's 
what you were making.
    Mr. Kelly. Right. Thank you.
    Mr. Calvert. Thank you gentlemen.
    Mr. Raley, one point. If in fact--I know everyone at this 
dais--not everyone that is involved in this agrees that, as the 
Senator pointed out in his opening statement, that we must, 
from, I think, our perspective, execute this quantification 
settlement by the end of the year because the consequences are 
too great even to consider. If in fact that--my experience with 
some of the Western States in dealing with some of the 
Governors and certainly Members of Congress, and as far as--I 
don't hear a lot of sympathy from their perspective if they're 
unable to meet this special day, and signed disagreement of 
this is going to mean a lot of legal from their perspective. 
Just one point, if in fact the people understand this, if 
you're not able to work this agreement out and California is 
cut back immediately to its 4.4 million acre-feet, everyone who 
has water rights in the river from California would be affected 
by that, including Metropolitan, including Palo Verde, 
including Imperial County. And by definition, if less water is 
flowing say to Imperial County, then less tail water and more 
exposure to the shorelines in the Salton Sea. Wouldn't that 
logically be the conclusion?
    Mr. Raley. Certainly for the latter part of your point, 
which is absolutely accurate. But the actual distribution of 
the shortfall, in other words, if California is limited to 4.4, 
to its legal entitlement, then how the water within 
California's use is allocated falls under the seven-party 
agreement and other structures.
    My understanding is that, on an overall basis, the 
shortage, if you will, the effects would most directly be felt 
by the Metropolitan Water District because of the operation of 
the priorities set up in the seven-party agreement.
    But Tom, if I've misstated that--
    Mr. Hannigan. No, that's right.
    Mr. Calvert. But it's accurate then that the people of Los 
Angeles, Orange County, San Diego would be the most affected by 
this.
    Mr. Raley. Yes, sir.
    Mr. Calvert. Thank you.
    Any other questions for this panel?
    I want to thank you. And if some of you or all of you can 
be here for a while, if there's any additional questions from 
Mr. Hunter who will be here shortly, I'm sure he'll appreciate 
it.
    I'm now going to introduce our second panel. Mr. James 
Turner, Chairman of the Board, San Diego County Water 
Authority. Mr. Andy Horne, member of the board of directors, of 
Imperial Irrigation District. Mr. Phillip J. Pace, Chairman of 
the Metropolitan Water District of Southern California, Mr. 
John W. Jack McFadden, President of the Board, Coachella Valley 
Water District. And Mr. Gary Wyatt, member of the Imperial 
County Board of Supervisor. Thank you for coming forward.
    Mr. Calvert. Mr. Turner, I think you've heard our original 
comments about 5-minute testimony. We're happy to submit the 
full testimony for the record. With that you're recognized.

STATEMENT OF JAMES F. TURNER, CHAIRMAN OF THE BOARD, SAN DIEGO 
                     COUNTY WATER AUTHORITY

    Mr. Turner. Thank you, Mr. Chairman Calvert, Chairman 
Costa, and members of the Subcommittee and Committee. I 
appreciate the opportunity to address you today. And as you 
have said, I have submitted my testimony, so I won't have a lot 
of comments to make. The importance of the water transfer of 
the QSA are not just for the water agencies involved but for 
all of California. State cannot afford to lose 700,000 acre-
foot of supply annually. QSA must be executed by the end of the 
year. I would want to show my appreciation to the 
Administration, both state and Federal, for their assistance, 
their staffs, and certainly the legislators that have been 
involved in this. I really appreciate it.
    The Water Authority continues out of commitment of staff 
and resources to ensure that we find a solution to the 
environmental challenge of the Salton Sea that meets the needs 
of all parties. This is too important to this state. We cannot 
accept failure. And with your indulgence, Mr. Chairman, I'd 
like our General Manager, Maureen Stapleton, to address the 
Committee with my remaining time.
    [The prepared statement of Mr. Turner follows:]

  Statement of James Turner, Chairman of the Board, San Diego County 
                            Water Authority

    Chairman Calvert, Chairman Costa, and members of the Subcommittee 
and Committee. I am Jim Turner, Chairman of the Board of the San Diego 
County Water Authority. I appreciate the opportunity to testify before 
you on the implementation of the California Colorado River Use Plan and 
the Quantification Agreement. The matter is of the utmost importance to 
not only Southern California, but also critical to the overall water 
management for the entire state.
    On December 10, 2001 in Las Vegas, the 4 water agencies were before 
this Subcommittee to provide an update on the progress in implementing 
the California Plan. In that testimony San Diego, along with the other 
3 water agencies, outlined the extensive accomplishments that had been 
made in moving California closer to being able to formally execute the 
Quantification Settlement Agreement (QSA) by its deadline of December 
31, 2002. Additionally, the urban agencies highlighted additional 
efforts and investments each was making towards increasing water 
efficiency and water reliability within our service areas.
    We are here today to report that progress continues to be made 
towards the ultimate implementation of the California Plan. We are also 
here to tell you that the agencies have encountered an issue that will 
require both state and Federal assistance if we are to resolve it and 
meet the required deadline. And that issue is the Salton Sea and the 
potential impacts of the water transfers on it.
    No matter where one stands on the merits of restoration efforts for 
the Salton Sea, it is clear that environmental protection of the sea 
has been a challenge for the conservation measures involved in the San 
Diego County Water Authority-Imperial Irrigation District, and the 
Coachella Imperial Irrigation District water transfer agreements.
    The San Diego-IID agreement, as part of the QSA, is a key component 
of California's Plan to reduce its reliance on surplus Colorado River 
water. Should the challenges facing the implementation of the water 
transfer fail to be successfully addressed, and thus the QSA fail to be 
executed by the end of the year, instead of a gradual reduction, 
Southern California faces an immediate cut of 30 percent from its 
current imported water supply.
    Fortunately, we believe this critically important water transfer 
between the Water Authority and Imperial can still be implemented, and 
we are working with farmers, community and business leaders in the 
Imperial Valley on finding an approach that can work for all. Also 
working with Imperial, the Water Authority, Coachella and the 
Metropolitan Water District, have been a variety of state and Federal 
officials. The commitment to finding a solution shown by legislators on 
both the Federal and state level has been vital, and your continued 
leadership on this issue is greatly appreciated.
    The truth is that everyone agrees, including the Water Authority, 
that Imperial Valley must be fully compensated for any and all impacts 
of the water transfer on the environment and economy. In fact, the 
agreement was originally structured to allow Imperial's economy to not 
only be kept intact, but to be in better shape than before the transfer 
was implemented.
    The Water Authority continues to commit its efforts in working with 
the Federal, state and the other water districts to seek a solution 
that can be successfully implemented. We believe that, given the 
challenges around the Salton Sea impacts, we collectively now need to 
determine a feasible alternative conservation program, reach agreement 
on the impacts of the program, and allocate the funds to mitigate those 
impacts.
    These impacts directly correlate with the conservation program 
implemented. Generally, if the program to save water involves on-farm 
water conservation, money has to be provided to construct the various 
conservation projects and to offset the environmental impacts of the 
program. If the program involves the fallowing/land management of some 
of the farmland to save water, funding will need to compensate the 
farmers, and go to economic development, job training and other 
community impacts.
    In both cases, funding also would need to cover administration of 
the program and those related costs. Some in Imperial Valley have 
floated ideas about a combination of fallowing and on-farm conservation 
measures as another type of program to implement. In any event, we are 
positive we can work together to get this done in a way that benefits 
the Imperial Valley economy and has minimal or no effect on the Salton 
Sea.
    The water transfer is one of many water-supply sources the Water 
Authority is pursuing as part of a diversified mix of resources. We are 
continuing efforts to promote water conservation throughout the county. 
Because of our water-wise habits, San Diegans are using the same amount 
of water as we did 10 years ago, even though the population has 
increased 15 percent. Local water supply sources being developed 
include recycling water, ground water storage and extraction, surface 
water and seawater desalination.
    New advances in desalination technology, cost savings provided by 
locating desalination facilities next to coastal power plants, and the 
availability of financial incentives have made the cost of seawater 
desalination more competitive with other water resources. These 
developments have prompted the County Water Authority to engage in a 
serious examination of several options that could make seawater 
desalination a reality in San Diego County in the near future.
    Storage is another area in which the Water Authority is moving 
forward. The Emergency Storage Project, an $827 million capital 
improvement project, will provide more than 90,000 acre-feet of 
additional storage capacity for the county by 2010.
    The County Water Authority is developing all of these programs to 
diversify its water supply mix in the future. The water transfer with 
Imperial will not provide additional water to the San Diego region, but 
rather will replace water lost as a result of California's mandate to 
live within its Colorado River allocation.
    California's Colorado River Water Use Plan is based to a great 
extent upon the transfer of river water from the Imperial Valley to San 
Diego, MWD and Coachella. The urban agencies will be paying to 
implement conservation programs that make the water available for use 
without economically harming the agricultural community. In the Water 
Authority-Imperial agreement, the water is made available for use by 
the urban area, but the actual water rights stay with the agricultural 
agency.
    Additional assurances for Imperial are provided in the 
Quantification Settlement Agreement, under which other agencies agree 
not to challenge the district's water use, which offers the best 
protection for Imperial's water rights, now and in the future.
    The Water Authority feels the same pressure and urgency that have 
been placed on all the California water agencies that use Colorado 
River water. The California agencies have done a good job putting 
together the complex agreements that allow for California to cut back 
its Colorado River water use by 800,000 acre-feet over a 15-year time 
period. The Water Authority is resolved to working with the Imperial 
Valley to create a transfer that benefits all parties and that ensures 
the Quantification Settlement Agreement is implemented in time to 
secure all of California's water future.
                                 ______
                                 
    Mr. Calvert. For the record, please, state your name and 
occupation.

  STATEMENT OF MAUREEN STAPLETON, GENERAL MANAGER, SAN DIEGO 
                    COUNTY WATER AUTHORITY.

    Ms. Stapleton. Maureen Stapleton, General Manager, San 
Diego County Water Authority.
    Thank you very much for allowing me to just take a few 
minutes to augment my Chairman's comments. The Southern 
California coastal claim the urban agencies have literally 
spent billions of dollars on water supply projects, including 
water storage, water conservation, reclamation, and we're 
moving into desalination. In San Diego County our population 
over the last 15 years has increased by about 15 percent. And 
during--that's about 400,000 people. And during that time, 
between then and now, we are using the exact same amount of 
water that we used literally 10 years ago. I think it shows 
that our water efficiencies and our commitment to conservation 
reclamation, local projects, and so forth, is there and it is 
there where we're putting our money where our mouth is.
    You heard this morning from Director Hannigan that we have 
been pursuing the four agencies on two different tracks. The 
first track--think of it as bookends--the first track was to 
identify what the environmental impacts were of the onfarm 
conservation program both within the valley, in the river, and 
at the Salton Sea.
    You also heard this morning that, based upon the number of 
species that are being sought to be covered as well as the 
mitigation plan which was looking at a hatchery fish concept 
alternative for environmental mitigation of the Salton Sea. The 
Department of Fish and Game of the State of California has 
determined that that in and of itself is not permissible.
    You have also heard this morning by Congresswoman Bono that 
we were looking at an alternative which was a temporary 
fallowing land management program. What this would accomplish 
is little or no impacts to the Salton Sea during that period of 
time, which would allow for the Salton Sea alternatives to be 
fully developed, debated and deliberated by Congress in the 
State of California. But that doesn't mean per se that it's any 
cheaper or easier to accomplish. With onfarm conservation we 
are investing large dollars into the construction of the 
conservation projects onfarm. When you're talking about a land 
management or fallowing program you're talking about a need to 
address the socioeconomic impacts that the program may have on 
Imperial Valley.
    Then also you have administration costs, additional 
environmental costs, as well as costs for lost power and water 
revenues to the Imperial Irrigation District.
    I think you have four agencies who firmly believe that 
Imperial Valley must be fully compensated for any and all 
impacts related to the environment and to the economy. And San 
Diego County Water Authority stands ready, willing, and able to 
look at alternatives which still accomplish the goals and the 
time requirements of the QSA, and really gets us from here to 
success. As our Chairman Turner said earlier, we cannot afford 
to fail for California.
    I would like to add a comment that Assistant Secretary 
Raley said was what would happen if in fact the QSA is not 
signed, that the bulk of the burden comes from Metropolitan 
Water District and the loss of the water. You need to remember 
also is there is a loss of water certainty for Coachella 
Valley, there is a loss of water right certainty for Imperial 
Valley, and there is a loss of water diversity and our water 
supply in San Diego. We all have much to lose. Thank you.
    Mr. Calvert. Mr. Andy Horne.

 STATEMENT OF ANDY HORNE, MEMBER, BOARD OF DIRECTORS, IMPERIAL 
                      IRRIGATION DISTRICT

    Mr. Horne. Thank you, Mr. Chairman. And I'd also like to 
thank the--your fellow state and Federal congressional 
representatives for holding these hearings on the status of the 
Colorado River agreements, and what those agreements mean for 
California and for the Colorado basin.
    I'd also especially like to thank you, Chairman Calvert, 
and also Congressman Hunter and Assemblyman Kelly for their 
ongoing participation and discussions outside this room and 
their efforts on our behalf in those discussions.
    I do have some written testimony that's been submitted.
    I'd like to make some brief remarks. And I heard a number 
of the members up there yield time and I would be happy to 
accept that at this time.
    The agreements that I spoke of involved a number of water 
transfers based on a proven model of urban water users of 
supplying money to help farmers in the Imperial Valley pay for 
conservation technology that they otherwise could not afford. 
The total of those conservation measures would amount to about 
500,000 acre-feet, taken together. I think it's important for 
us all to remember that all of that water is coming from the 
Imperial Valley. So we feel we have a massive stake in what the 
outcome of this is.
    I think some have questioned the commitment of IID and the 
Imperial Valley to finalize these agreements, and I want to 
assure you the IID remains committed to observing the efforts 
using our water user's money. And our community, I believe, 
remains supportive of finalizing and realizing the clear 
benefits of this type of program to us and to California.
    We were talking originally, of course, about finalizing the 
agreements within the context of a final restoration plan for 
the Salton Sea. That didn't look like it was going to work, or 
it wasn't going to be ready in time. So then we were assured 
that a workable Agency P Plan could be developed to address 
Salton Sea impact as part of the transfer, and that assurances 
for reliability for ongoing environmental issues would be part 
of the deal. None of that has occurred.
    So this is where we stand today. And now everyone has 
decided that extensive land fallowing is a solution to all 
these problems. We feel a little bit like we were negotiating 
for money to buy a bicycle that would allow us to go farther 
and faster using the same effort. Now, as a result of some of 
these problems, the Imperial Valley and IID are being told to 
please reach down and cutoff your left leg and we'll give you 
the same amount of money we were going to use to buy the 
bicycle, but you won't need the bicycle. And, by the way, if 
you don't agree to this, we're going to strap you to this table 
and cut your leg off and we're not going to give you anything 
in that case.
    There have been a number of rumors and demands about the 
amount of money that Imperial Valley is demanding--was the word 
used--to mitigate impacts. We don't know what the impacts of a 
fallowing program would be in the Imperial Valley. More 
importantly we don't know how such impacts would even begin to 
be mitigated. We're not demanding anything except respect, 
respect for our water rights, respect for our community, and 
respect for our way of life.
    We are committed to work to work with the agencies and the 
state and Federal Governments to help California with its water 
supply need. We think that continual threats and intimidation 
will only strengthen the resolve of our community to protect 
ourself.
    Furthermore, such attacks only work to undermine any 
possibility of implementing a consensus-based solution to these 
difficult issues. We need cooperation and continued cooperation 
of the state and Federal agencies and our fellow water agencies 
to get these problems resolved.
    We know that the Federal Government, through the years, 
have lived by a policy of not negotiating with terrorists, and 
we feel that we may need to adopt that same policy in these 
ongoing discussions. The theory behind that is that negotiating 
with terrorists only encourages them. And we don't want to be 
placed in a situation of yielding at this point in time and 
giving up something we feel is very valuable, and not knowing 
when these demands will stop. Thank you.
    [The prepared statement of Mr. Horne follows:]

    Statement of Andy Horne, Imperial Irrigation District Board of 
                               Directors

    Mr. Chairman, I want to thank the Subcommittee for holding this 
hearing today to discuss the Quantification Settlement Agreement (QSA) 
and the Interim Surplus Guidelines and what these agreements mean for 
California.
    The proposed Imperial Irrigation District-San Diego water transfer, 
a key component of the QSA, is based on the proven model in which an 
urban area acquires water by providing a rural area with the funding 
necessary for water conservation technology that it could not otherwise 
afford. Under this ``win-win'' approach, farmers can farm more 
efficiently, and the conserved water goes to meet urban demands.
    It appears, however, that the IID-San Diego conservation-based 
transfer will have a negative impact on the Salton Sea because greater 
efficiency means less irrigation runoff will reach the Sea. Now the 
people of the Imperial Valley are being told that instead of conserving 
water, they must simply stop farming on up to 75,000 acres of land so 
that the transfer does not accelerate the already increasing salinity 
levels of the Sea.
    A fallowing approach may buy the Sea a few more years before it 
becomes hypersaline, but what about the people of the Imperial Valley? 
Common sense suggests that you can't reduce agricultural production in 
the Valley by 20 percent without a very severe impact on the area's 
already distressed economy.
    A recent study found that fallowing would eliminate almost 300 
Valley jobs in the short term and about 1,400 jobs in the long term. 
Direct economic losses to the farm sector alone would amount to 
hundreds of millions of dollars. On the other hand, the same study 
found that a conservation-based transfer would create jobs and generate 
hundreds of millions of dollars in new income for Imperial County, one 
of the poorest jurisdictions in California.
    Still, environmentalists say that fallowing is the only reasonable 
option, and they have threatened to fight the conservation-based 
transfer. Interior Department officials keep threatening to take the 
Valley's water away unless it agrees to fallow, and many in Congress 
and the State Legislature say that the Valley must fallow because it is 
the ``win-win'' course.
    How does the Imperial Valley win when it loses jobs and income?
    The Salton Sea has many dedicated protectors who will ensure than 
any damage to the Sea is minimized and mitigated. But who is offering 
to protect the farmworkers and farmers who will lose their jobs and 
homes because of fallowing? The environmentalists? The Interior 
Department? The United States Congress? The other water districts? Not 
so far. While they call for shifting the negative impacts of the water 
transfers from the Salton Sea to the Imperial Valley community, they 
offer no meaningful measures to mitigate the inevitable economic and 
social damage.
    Yes, IID and the Valley will receive revenues from the water 
transfers, but that income will not nearly cover the costs and the 
economic losses caused by fallowing. Nor would it replace the economic 
stimulus that would come from a conservation-based transfer.
    In addition to the obvious economic concerns, the people of the 
Imperial Valley are worried that fallowing will have other negative 
consequences. For example, a conservation-based transfer will allow the 
Imperial Irrigation District to become more efficient in its use of 
water and therefore less likely to be attacked, as it has been in the 
past, for its water use. A fallowing program will not improve 
efficiency at all, and farmers fear that they will be threatened again 
in the future with loss of their supplies.
    There also is concern that if the Valley is forced to fallow this 
time, the 17 million people on the Southern California coast will 
eventually try to wring more water from the Valley through additional 
fallowing or by some other objectionable means.
    In addition, even fallowing has environmental impacts. Who will pay 
for mitigating them? Who will pay for the inevitable litigation that 
will arise from environmentalists and others who think that fallowing 
doesn't go far enough, or goes too far?
    All of these concerns weigh heavily on the minds of Valley 
residents and decision-makers. The benefits to California of an 
approved QSA and the availability of surplus Colorado River water for 
the next 15 years cannot come solely on the backs of the people of the 
Imperial Valley. There are serious concerns that won't be pressured 
away or bought off with a few appropriations dollars.
    Some people believe that the QSA is in trouble because IID wants to 
``back out of the deal.'' That's just flat out false. The IID likes the 
existing deal in which we conserve water for transfer and all the 
parties share the costs of mitigating any impacts. The real problem is 
that the Interior Department and others want to change the deal so that 
IID fallows land and absorbs all the negative impacts. They are angry 
with us because we won't do that we won't volunteer to shoot ourselves 
in the head for the benefit of our richer neighbors.
    Is there a way to make the water transfers succeed without harming 
the people of the Imperial Valley or the Salton Sea? We hope so, and 
we're working very hard to find that solution.
    But if fallowing is really in the best interests of the region, the 
state and the nation, then the region, the state, and the nation need 
to step forward to help the people of the Imperial Valley address the 
consequences of fallowing. There must be a commitment to genuinely 
mitigate the severe economic impacts and to protect the Valley from 
never-ending demands on its water and ever-escalating environmental 
requirements and litigation.
    Are the advocates of fallowing willing to act now to addresses 
these issues? The people are the Imperial Valley need an answer to that 
question before they are willing to put the future of their community 
on the line.
                                 ______
                                 
    Mr. Calvert. Mr. Pace.

  STATEMENT OF PHILLIP J. PACE, CHAIRMAN, METROPOLITAN WATER 
                DISTRICT OF SOUTHERN CALIFORNIA

    Mr. Pace. Thank you, Andy. I hope you're not talking about 
me.
    Thank you very much, Chairman Calvert, Chairman Costa, 
members of the Committee. My written testimony addresses the 
efforts of the Metropolitan Water District of Southern 
California, and those of the other agencies in implementing 
both California's Colorado River Water Use Plan and the 
associated Quantification Settlement Agreement. It also details 
Metropolitan's other complimentary activities that increase its 
water supply reliability and diversity.
    Mr. Calvert. Sir, maybe bring that mike up a little bit 
closer.
    Mr. Pace. OK, sir. There you go. Can you hear me now?
    Mr. Calvert. I guess you'd better hold it.
    Mr. Pace. OK.
    In addition, the written statement also includes an 
addendum that summarizes the 1992/94 Metropolitan/Palo Verde 
Irrigation District test land fallowing program and the 
agency's proposed land management, crop rotation, and water 
supply program. And maybe later on I can have Dennis Underwood 
address some of these programs you're going to hear about.
    I will only provide highlights of the written statement in 
my comments. Much progress has been made to date for 
implementing California's Colorado River water use plan and the 
Quantification Settlement Agreement. The goal of Metropolitan 
and other California agencies is to reduce the state's use of 
surplus Colorado River water without creating additional 
demands on other water supplies in the state. California will 
do this through increased water use efficiencies and water 
management programs. The California plan, the QSA, and the 
other related agreements contemplate accomplishing this 
reduction principally through voluntary cooperative agriculture 
to urban water conservation, transfers and storage and 
conjunctive use programs.
    I cannot overstate the importance of the California plan to 
California, its economy, and environment. Absent this effort 
and the accomplishments to date, a major statewide crisis could 
easily occur. The California plan avoids increasing demands on 
statewide and regional water supplies, and the potential 
disruption of regional and state economies as well as adverse 
environmental consequences.
    The three main phases, documentation, environmental 
reviews, and the State Water Resources Control Board petition 
process, leading to the execution of the QSA, allows for a 
schedule that allows for the agreement to be executed by the 
end of this year.
    However, significant issues related to the Salton Sea and 
Fully Protected Species remain to be resolved. The Salton Sea 
issue deals with acceptable mitigation for the impacts of the 
QSA transfers that provides for the necessary approvals and 
permits. The methods to accomplish the transfers contained in 
the draft IID/SDCWA transfer EIS/EIR range from onfarm system, 
conservation improvements, and crop land fallowing.
    Other necessary actions include certification and record of 
decisions on related state and Federal environmental documents, 
a State Water Resources Control Board decision on the transfer 
petition, and adequate funding of required mitigation.
    The QSA related environmental impact reports are scheduled 
to be certified at the end of this month. The State Water 
Resources Control Board plans to release a proposed decision on 
the IID/SDCWA transfer in July of this year, and its final 
decision in September of this year. Supplemental Colorado River 
interim surplus guidelines agreements between Metropolitan and 
the State of Arizona and the Southern Nevada Water Authority 
have been approved.
    The agreement with Arizona has been executed, with the 
Nevada agreement still awaiting execution.
    California is capable of meeting the interim surplus 
guidelines Colorado River water use reduction benchmarks for 
2003 and beyond. The Coachella and All American Canal lining 
projects are moving forward and are scheduled to be completed 
by 2006. Design work on the Coachella Canal lining project is 
about to begin. Required agreements for the All American Canal 
project are being finalized.
    Progress continues on Metropolitan's Colorado River water 
storage and conjunctive use program alternatives as outlined in 
my written statement. Two production wells are being developed 
for the Hayfield program to assist in the design of extraction 
facilities.
    The proposed Cadiz project is awaiting the Department of 
the Interior's record of decision, which will be followed by 
consideration by our board here within the next couple of 
months. The other programs are under various stages of study.
    Metropolitan remains committed to the proposed 
Quantification Settlement Agreement, maintaining the Colorado 
River interim surplus guidelines for the full interim period.
    This concludes my remarks. I thank you very much for your 
kind patience.
    And if you have any questions, Senator Costa, as you 
indicated to me before, regarding the AIE program, Dennis 
Underwood is here to answer any of the technical questions that 
any of you might have. Thank you very much.
    Mr. Costa. Thank you, gentleman.
    [The prepared statement of Mr. Pace follows:]

   Statement of Phillip J. Pace, Chairman of the Board of Directors, 
           Metropolitan Water District of Southern California

INTRODUCTION
    Good morning, Chairman Calvert, Chairman Costa and members of the 
Subcommittee and Committee. Thank you for inviting me here this 
morning. I'm Phillip J. Pace, Chairman of the board of the Metropolitan 
Water District of Southern California (Metropolitan). I appreciate the 
opportunity to address you on the issues surrounding the implementation 
of the California Colorado River Water Use Plan (California Plan) and 
the Quantification Settlement Agreement (QSA).
    Metropolitan is actively engaged with Coachella Valley Water 
District (CVWD), Imperial Irrigation District (IID), and San Diego 
County Water Authority (SDCWA) (collectively, the Agencies) in the 
implementation of the California Plan and the associated QSA to reduce 
California's dependency on Colorado River water. Metropolitan, in 
coordination with others, is undertaking the development of voluntary 
cooperative water conservation/transfers, water storage and conjunctive 
use programs, other cooperative water supply programs, water exchanges, 
dry-year supply programs, and Colorado River interim surplus 
guidelines' agreements as part of the effort to reduce the state of 
California's Colorado River water use to its basic annual apportionment 
of 4.4 million acre-feet, a reduction of about 800,000 acre-feet per 
year from its highest use of about 5.2 million acre-feet per year in 
the past 10 years.
    In addition to these efforts, Metropolitan has undertaken major 
investments to lessen its demand for imported water, meet future 
demands, and improve supply water quality. This is being done through 
significant investments in increased water conservation, recycling, 
local projects, groundwater recovery programs, in-service area storage 
and conjunctive use projects, watershed management, source-water 
quality protection, and improved desalting and other water treatment 
technologies. Coordination of these efforts is carried out through 
Metropolitan's Integrated Resources Plan and the Plan's strategies of 
supply reliability and affordability, and water quality enhancement and 
protection.
    This testimony provides a brief overview of Metropolitan-specific 
efforts, within the framework of the California Plan, to increase its 
water supply reliability, diversify its sources of supply, reduce the 
region's reliance on imported water, and improve the effective use of 
local water supplies. It is important to understand that successfully 
meeting the conditions and milestones of the Department of the 
Interior's Interim Surplus Guidelines (Guidelines) is critical to a 
successfully implemented California Plan.
    Metropolitan is a public agency established under the authority of 
a legislative Act in 1928 to secure imported water supplies for its 
member agencies. Metropolitan's 5,200-square-mile service area 
stretches some 200 miles along the coastal plain of Southern California 
and encompasses parts of Los Angeles, Orange, Riverside, San 
Bernardino, San Diego, and Ventura Counties. More than 17 million 
people reside within Metropolitan's service area.
    Today, Metropolitan provides more than 50 percent of the water used 
within its service area. Metropolitan receives water from two principal 
sources, the Colorado River, via the Colorado River Aqueduct, and the 
State Water Project, via the California Aqueduct. To further help meet 
the water needs of member agencies, Metropolitan assists in the 
development and effective use of local resources, beginning in the late 
1950s with cooperative groundwater recharge programs and evolving over 
time to member agency partnerships for water conservation, water 
recycling, groundwater recovery, and water storage and conjunctive use 
programs.
    The 444-mile State Water Project (SWP) is owned by the State of 
California and operated by the California Department of Water 
Resources. The SWP transports water released from Oroville Dam and 
flows into the San Francisco Bay/Sacramento-San Joaquin Delta Estuary 
(Bay/Delta), and travels south via the California Aqueduct to four 
delivery points near the northern and eastern boundaries of 
Metropolitan. Metropolitan is one of 29 agencies that have contracts 
for water service with the California Department of Water Resources.
    Metropolitan's SWP contract is for a total of 2,011,500 acre-feet 
per year. The contracted amount was increased in 1964 from 1,500,000 
acre-feet per year principally to offset the impending loss of a 
portion of Metropolitan's Colorado River supply resulting from the 1963 
United States Supreme Court decision in Arizona v. California. 
Improvement of the supply reliability of the SWP and the development of 
comprehensive long-term solutions to the environmental problems in the 
Bay/Delta system are the focus of the CALFED process and legislation.
    Under ``The Law of the River'', California is apportioned the use 
of 4.4 million acre-feet from the Colorado River each year plus one-
half of any surplus water that may be available for use in the three 
states of Arizona, California and Nevada. Metropolitan has a legal 
entitlement to Colorado River water under a permanent service contract 
with the Secretary of the Interior.
    The Colorado River Aqueduct, which is owned and operated by 
Metropolitan, transports water from the Colorado River approximately 
242 miles to its terminus at Lake Mathews in Riverside County. It has 
the capability to divert about 1.3 million acre-feet per year. Under 
the priority system that governs the distribution of Colorado River 
water made available to California, Metropolitan holds the fourth 
priority right to 550,000 acre-feet per year. This is the last priority 
within California's annual basic apportionment of 4.4 million acre-
feet. Metropolitan holds the fifth priority right to 662,000 acre-feet 
of water per year, which is in excess of California's annual basic 
apportionment. Historically, Metropolitan has been able to take 
advantage of its fifth priority right as a result of the availability 
of surplus water and Colorado River water apportioned but unused by 
Arizona and Nevada.
    Over the last ten years, California entities have diverted 4.5 to 
5.2 million acre-feet annually from the Colorado River, relying on 
system surpluses and apportioned but unused waters of Arizona and 
Nevada that will not be available in the future. The Colorado River 
Board of California, in consultation with the California Department of 
Water Resources, Metropolitan, CVWD, IID, Palo Verde Irrigation 
District (PVID), SDCWA, the City of Los Angeles, and others, has 
developed California's Colorado River Water Use Plan. The California 
Plan provides a framework for the reduction of California's use of 
Colorado River water to its annual basic apportionment through 
reallocation of water supplies among the involved water agencies 
(voluntary water conservation/transfers), potential cooperative water 
storage and conjunctive use programs, and by other means.
    If no new agreements were executed and no surplus water were 
available, Southern California would face a total reduction of Colorado 
River water supply of about 800,000 acre-feet per year. The statewide 
economic and environmental consequences of this shortfall would simply 
not be acceptable. There is no substitute for success in implementing a 
plan for reducing California's dependency on Colorado River water that 
is acceptable to the Secretary of the Interior and the other Colorado 
River Basin states.
    Multi-billion-dollar investments and contributions that have been 
and are proposed to be made by Metropolitan or by Metropolitan in 
cooperation with others that directly reduce California's dependence on 
Colorado River water include:
COLORADO RIVER WATER AGRICULTURE TO URBAN WATER TRANSACTIONS
    <bullet> LDecember 1988 IID/MWD Water Conservation and Use of 
Conserved Water Agreement and Associated 1989 Approval Agreement--yield 
of 100,000 to 110,000 acre-feet per year (QSA core component) [PROJECT 
OPERATIONAL]
    <bullet> LApril 1998 Water Conservation and Transfer Agreement 
between IID and SDCWA--yield of 130,000 to 200,000 acre-feet per year, 
and August 1998 Water Exchange Agreement between SDCWA and MWD (QSA 
core component and the former being the subject of this proceeding)
    <bullet> LCoachella Canal [scheduled to begin construction 2003] 
and All-American Canal [scheduled to begin construction 2003] Lining 
Projects--yield of 94,000 acre-feet per year, including 16,000 acre-
feet per year to facilitate implementation of the San Luis Rey Indian 
Water Right Settlement (QSA core component)
    <bullet> LMay 1992 PVID/MWD Land Management, Crop Rotation, and 
Water Supply Test Program--yield of 186,000 acre-feet from 1992 to 1994 
[PROJECT COMPLETED]
    <bullet> LProposed PVID/MWD Land Management, Crop Rotation, and 
Water Supply Program- yield of up to 111,000 acre-feet per year 
[PRINCIPLES OF AGREEMENT APPROVED] (Summary descriptions of the 
successful 1992-1994 Metropolitan/PVID test land fallowing program and 
the proposed Metropolitan/PVID Land Management, Crop Rotation and Water 
Supply Program are included as an addendum to this statement.)
    <bullet> LAcquisition of San Diego Gas and Electric Company 
properties in the Palo Verde Valley area for inclusion in the PVID/MWD 
proposed program [ACQUISITION COMPLETED]
INVESTMENTS IN COLORADO RIVER WATER STORAGE PROGRAMS
    <bullet> LJune 1984 MWD/CVWD/Desert Water Agency Advance Delivery 
Agreement--multi-year yield of 600,000 acre-feet based on total storage 
capability [PROJECT OPERATIONAL]
    <bullet> LOctober 1992 MWD/Central Arizona Water Conservation 
District Demonstration Project on Underground Storage of Colorado River 
Water--yield of 81,000 acre-feet [STORAGE COMPLETED]
    <bullet> LProposed Colorado River Storage and Conjunctive Use 
Programs--with a goal of 3 million acre-feet of collective storage and 
a collective put-and-take of between 300,000 and 400,000 acre-feet per 
year
    <bullet> LHayfield Valley--800,000 acre-feet of storage, recharge 
and recovery of 150,000 acre-feet per year [IN PROGRESS]
    <bullet> LChuckwalla Valley--500,000 acre-feet of storage, recharge 
and recovery of 150,000 acre-feet per year [UNDER EVALUATION]
    <bullet> LCadiz Valley--1 million acre-feet of storage, recharge 
and recovery of 150,000 acre-feet per year including potential 
withdrawal of native groundwater [FINAL EIS RELEASED]
    <bullet> LLower Coachella Valley--recharge and recovery of 100,000 
acre-feet per year over a ten year cycle [UNDER EVALUATION]
    <bullet> LArizona--1 million acre-feet of storage [UNDER 
EVALUATION]
    Storage and conjunctive use programs in Lower Coachella Valley and 
Arizona would provide the capability of storing Colorado River water 
when the Colorado River Aqueduct is being fully utilized for 
operational reasons, including transport of water stored in off-
aqueduct groundwater basins.
SECRETARY OF THE INTERIOR'S COLORADO RIVER INTERIM SURPLUS GUIDELINES
    The final Guidelines provide a crucial transition to reliance on 
reduced Colorado River supplies. The Guidelines provide a 15-year 
period for California to transition to live within the state's basic 
4.4 million acre-foot annual apportionment of Colorado River water. 
During the transition period, the use of surplus water would transition 
down as successful measures to reduce California's use of Colorado 
River water are implemented.
    Continuation of the Guidelines for the full 15-year period is 
contingent on California making specific measurable annual progress in 
the reduction of Colorado River water use to meet specific benchmarks 
at three-year intervals during the transition period. The first 
critical progress deadline is the execution of the QSA by December 31, 
2002. The Guidelines specifically provide that unless the QSA is 
executed by that date, the Guidelines will be suspended until such time 
as California completes all required actions and complies with 
reductions in water use reflected in the Guidelines. If the QSA is not 
executed by this deadline, the additional surplus water provided under 
the Guidelines could be revoked as early as calendar year 2003. Loss of 
the surplus water at that point would likely result in serious economic 
disruption, renewal of controversy among the Agencies, and an 
unraveling of the California Plan.
OTHER COLORADO RIVER WATER MEASURES FOR IMPROVED RESERVOIR SYSTEM 
        OPERATIONS AND WATER CONSERVATION
    <bullet> LMetropolitan's Interim Surplus Guidelines Agreement with 
Arizona [EXECUTED]
    <bullet> LProposed Metropolitan's Interim Surplus Guidelines 
Agreement with Southern Nevada Water Authority [AWAITING EXECUTION]
    <bullet> LSecretary of the Interior's Final Rule on Offstream 
Storage of Colorado River Water (Interstate Banking) [EXECUTED]
    <bullet> LProposed Small Offstream Water Management Reservoirs and 
Associated Facilities near the All-American Canal [INITIATE 
ENVIRONMENTAL DOCUMENTATION AND DESIGN IN 2002]
COMPLIMENTARY ACTIVITIES
    These actions being taken by Metropolitan lessen the demand for 
imported water and increase water supply reliability:
    <bullet> LSouthern California investments of more than $1.2 billion 
in water conservation and water recycling (includes 1.6 million ultra-
low-flush toilets, 3.2 million low-flow showerheads, and 15,500 water 
efficient clothes washers)
    <bullet> LMetropolitan investments of more than $226 million to 
help develop more than 151,000 acre-feet per year of additional water 
supplies from local water recycling, groundwater clean-up and water 
conservation programs
    <bullet> LMetropolitan execution of 22 agreements to provide 
financial assistance to projects that recover contaminated groundwater 
with total contract yields of about 81,500 acre-feet per year
    <bullet> LMetropolitan execution of 53 agreements to provide 
financial assistance to projects that recycle water with total contract 
yields of about 233,400 acre-feet per year
    <bullet> LThrough the development of cooperative Local Groundwater 
Storage Programs, Metropolitan currently has 240,000 acre-feet of water 
in storage as of the end of February 2002
    <bullet> LWater transfers involving State Water Project water with 
San Bernardino Valley Municipal Water District, Semitropic Water 
Storage District, and Arvin-Edison Water Storage District that can 
provide up to 90,000 acre-feet per year during a dry period
    <bullet> LDeveloping additional water transfer agreements with 
interested parties in California's Central Valley
    <bullet> LConstruction of the $2.1 billion, 800,000 acre-foot 
Diamond Valley Lake storage reservoir, doubling the amount of surface 
storage available in Southern California
    <bullet> LConstruction of the Inland Feeder Project at an estimated 
construction cost of $1.2 billion to provide greater water supply 
management opportunities.
    <bullet> LDeveloping seawater desalination projects in cooperation 
with member public agencies, as integral part of region's water supply 
mix.
    These are only the highlights of the diverse programs being carried 
out by Metropolitan to help meet its, the Agencies, and the State's 
water supply needs. Metropolitan is committed to the Proposed 
Quantification Settlement Agreement, maintaining the Colorado River 
Interim Surplus Guidelines for the full interim period, and 
implementing the California Plan to allow California to reduce its 
dependence on Colorado River water.
    It is imperative that the California Plan components that are 
feasible and will help the state to meet the requirements of the 
Interim Surplus Guidelines succeed. The Interim Surplus Guidelines are 
vital to a planned reduction in California's use of the Colorado River. 
For this reason, there is great urgency in reaching a resolution on 
these matters.
    This concludes my remarks. Thank you for the opportunity to address 
these important matters.
                                 ______
                                 

 Addendum to the Testimony of Phillip J. Pace, Chairman of the Board, 
           Metropolitan Water District of Southern California

    The Metropolitan Water District of Southern California 
(Metropolitan) is exploring several new programs that could supplement 
existing programs to help California reduce its use of Colorado River 
water. Among the alternatives under consideration is a proposed 
landmark program that could help provide a more reliable water supply 
for urban Southern California, while helping farmers and the local 
economy in the Palo Verde Valley in southeastern California.
    In July 2001, the respective boards of directors of Metropolitan 
and the Palo Verde Irrigation District (PVID) approved principles of a 
35-year agreement for a Land Management, Crop Rotation and Water Supply 
Program. The principles follow a successful pilot program between 
Metropolitan and PVID implemented from 1992 to 1994.
    The following provides details of the test program and its regional 
economic impacts, as well as the summary of principles of the proposed 
Metropolitan/PVID Land Management, Crop Rotation and Water Supply 
Program.
THE 1992-94 TEST LAND FALLOWING PROGRAM WITH PVID
    Metropolitan implemented a two-year test land fallowing program 
with PVID from August 1, 1992, through July 31, 1994. Under the test 
program, 20,215 acres of agricultural land were not irrigated with 
Colorado River water. Metropolitan compensated the landowners/lessees 
in the Palo Verde Valley who voluntarily fallowed approximately 22 
percent of their land. Such payments, $620 per fallowed acre per year, 
totaled $25 million during the two-year period. By not irrigating, 
approximately 93,000 acre-feet of Colorado River water a year was 
saved, stored in Lake Mead, and made available by the U.S. Bureau of 
Reclamation (Reclamation) to Metropolitan until 1997, when Reclamation 
released this water due to flood control.
    A five-member Measurement Committee was established consisting of 
one representative from each of the following organizations: 
Metropolitan, PVID, Reclamation, Imperial Irrigation District and 
Coachella Valley Water District. The Measurement Committee reviewed the 
status of the program and determined the actual amount of water saved 
by the test program.
    The fallowed lands were maintained under approved Land Management 
Plans for the duration of the two-year test program. The purpose of the 
plans was to conserve land and water resources, and to eliminate or 
minimize adverse impacts to adjacent farms, the community and PVID 
through control of weeds and wind erosion. Weed control measures chosen 
by the farmers consisted of mechanical and chemical methods. Wind 
erosion control measures chosen by the farmers included application of 
appropriate cultural practices such as providing crop stubble, sod 
remnants or clod plowing. The test program was found to have no adverse 
environmental or air quality impacts.
    Four surveys were conducted in the Palo Verde Valley during and 
after the test program to evaluate the economic impacts of the test 
program on the participating farmers and the community at large. 
Results indicated that the program was well accepted by the farmers and 
the community at large, and that the program did not affect overall 
regional economic performance in the Palo Verde Valley to any 
significant degree.
REGIONAL ECONOMIC IMPACTS OF TEST LAND FALLOWING PROGRAM
    <bullet> LParticipants enrolled up to 25 percent of their 
productive acreage in exchange for an annual payment of $640 per 
enrolled acre
    <bullet> LTotal enrolled acreage was 20, 215 acres (approximately 
22 percent of Palo Verde Valley's cultivated acres)
    <bullet> LIn a typical year, between 90,000 and 95,000 acres are 
cultivated. A portion of land is double-cropped, so gross planted 
acreage in the valley in a typical year is about 110,000 acres
    <bullet> LPrincipal crops grown in the valley include alfalfa, 
cotton, sudan grass, wheat, melons, lettuce, and onions
    <bullet> LTest program displaced about 20,215 acres of field crops 
(hays--primarily alfalfa, and grains--primarily wheat)
    <bullet> LTest program did not have any appreciable effect on 
planting decisions for vegetables and melons
    <bullet> LOverall regional economic performance, the region's 
property and sales tax bases, and governmental services provided were 
not measurably affected
    <bullet> LTest program contributed to some loss of employment in 
the region:
      * L27 full-time farm jobs
      * L25 full-time farm-related business jobs, and
      * L7 part-time/seasonal farm-related business jobs
    <bullet> LCombined employment losses were equal to about 1.3 
percent of the region's average employment for 1991-92
    <bullet> LTest program did not cause non-farm-related businesses in 
the region to reduce employment or lose revenue
    <bullet> LTest program did negatively impact farm-related 
businesses providing services or supplies to the region's farmers such 
as seed, fertilizer, chemicals, and custom services
    <bullet> LTest program did not have a significant impact on 
regional gross farm revenue because revenue losses from reduced acreage 
were mostly offset by test program payments
    <bullet> LParticipants spent 93 percent of test program payments in 
excess of fallowing and maintenance costs on farm-related investments, 
purchases, and debt repayment
    <bullet> LAbout 61 percent of test program payments in excess of 
costs was spent within the local economy
    <bullet> LTest program provided timely financial relief to the 
region's agricultural producers who had been under significant hardship 
due to low prices for key commodities, especially alfalfa, and pest 
infestation
SUMMARY OF PRINCIPLES OF AGREEMENT FOR PROPOSED NEW LAND MANAGEMENT, 
        CROP ROTATION AND WATER SUPPLY PROGRAM
    The objectives are to develop a flexible and reliable supplemental 
water supply for urban Southern California for 35 years, and to assist 
in stabilizing the farm economy within the Palo Verde Valley through 
sign-up payments and annual payments for water supply. Two types of 
agreements would be executed: (1) a Program Agreement between 
Metropolitan and PVID, and (2) Land Agreements between Metropolitan and 
participating landowners/lessees in the Palo Verde Valley.
HOW THE PROPOSED PROGRAM WOULD WORK
    The maximum area of proposed program lands that would not be 
irrigated during each contract year would not exceed 24,000 acres in 
any 25 years and 26,500 acres in any 10 years during the 35-year 
program. A baseload area of 6,000 acres would not be irrigated each 
year of the 35 years. Metropolitan, upon a minimum of one-year notice, 
would have the option to increase the non-irrigated area from 6,000 
acres up to a maximum of 26,500 acres. Once increased, the increased 
area would not be irrigated for a minimum of 2 years, and could be 
decreased on a minimum one-year notice by Metropolitan. Metropolitan 
would exercise the increases such that the average non-irrigated area 
over the 35 years would equal at least 12,000 acres per year 
(approximately 13 percent of irrigated Valley lands).
    The landowner/lessee would be responsible for payment of taxes, 
PVID water toll payments, vegetation abatement, dust control, and all 
other costs related to the lands. A maximum of 29 percent of any one 
landowner/lessee's irrigated land would be eligible for the sign-up 
payment, unless there is insufficient interest in the proposed program, 
in which case the area could be increased up to a maximum of 35 
percent.
STRUCTURE OF PAYMENTS
    <bullet> LTwo types of payments to participating landowners are to 
be made under the proposed program: a one-time sign-up payment and 
annual payments.
    <bullet> LThe sign-up payment is $3,170 per acre times the maximum 
number of acres that could be non-irrigated at any year (expected to be 
29 percent of the farm acreage). This sign-up payment could be paid in 
installments over a five-year period.
    <bullet> LThe annual payment is $550 per acre times the number of 
acres to be non-irrigated in that year (usually between 7 percent and 
29 percent of the farm acreage). Annual payments would be escalated 
following the first year for the life of the proposed program with 
possible adjustments, if any, every five years based on future 
inflation.
    <bullet> LAdditional payments to be made under the proposed program 
include:
        1. LA payment of $100,000 per year to Palo Verde Irrigation 
        District to cover its additional costs associated with the 
        program. This payment is to be escalated at 2.5 percent per 
        year following the first year for the life of the program
        2. LA one-time payment of $6 million following commencement of 
        the program, or $300,000 per year which equates to over $16 
        million in actual dollars over the proposed program's life, for 
        the purpose of community improvement projects
        3. LThe cost of the environmental documentation and other 
        activities prior to program implementation estimated to total 
        $500,000
    <bullet> LWhen all these costs are considered, the calculated unit 
cost of saved water would depend on the level of saved water to be 
developed over the life of the proposed program.
    <bullet> LFor the minimum amount of saved water required to be 
developed over the life of the program (1.76 million acre-feet [MAF] or 
48.6 percent of the maximum water that could be developed under the 
proposed program), the unit cost is $206 per acre-foot (AF).
    <bullet> LFor an average or expected amount of saved water of 2.77 
MAF to be developed over the life of the program (about 76 percent of 
the maximum), the unit cost is $168/AF.
    <bullet> LFor the maximum amount of saved water that could be 
developed over the life of the proposed program (3.63 million acre-foot 
or 100,800 acre-feet per year for 25 years and 111,300 acre-feet per 
year for 10 years), the unit cost is $153/AF.
    <bullet> LThese unit costs include all costs--payments to 
landowners and PVID, environmental and community improvement costs.
    <bullet> LShould any of the cost components change, the above-cited 
unit costs will change.
    <bullet> LThe contracts are still being developed and are expected 
to be finalized by the end of July 2002.
                                 ______
                                 
    Mr. Calvert. Mr. Jack McFadden.

STATEMENT OF JOHN W. ``JACK'' McFADDEN, PRESIDENT OF THE BOARD, 
                COACHELLA VALLEY WATER DISTRICT

    Mr. McFadden. Thank you, Mr. Chairman. Chairman Calvert, 
Chairman Costa, and Assemblyman Kelly, I thank you for holding 
this hearing.
    My name is Jack McFadden. I'm President of Coachella Valley 
Water District. I am appearing before you today to reaffirm our 
commitment to doing our part to resolve the tremendous crisis 
for increasing air quality in California, which is, finding the 
workable solutions to reduce drastically the amount of water we 
receive each year from Colorado River.
    I would like to introduce our General Manager and Chief 
Engineer, Tom Levy, who will review our understanding of the 
crisis at hand and outline the potential significant remedies 
to the hurdles we must clear to successfully address this 
crisis.
    Mr. Calvert. Would you state your name and occupation on 
the record.
    Mr. Levy. Yes. Tom Levy, General Manager, Chief Engineer 
for Coachella Valley Water District.

 STATEMENT OF THOMAS E. LEVY, GENERAL MANAGER-CHIEF ENGINEER, 
                COACHELLA VALLEY WATER DISTRICT

    Mr. Levy. Seconding what has been said, the Quantification 
Settlement Agreement must be signed this year or California 
will face significant economic impacts. The Coachella Valley, 
this beautiful place that you are here today, is tied to the 
Quantification Settlement Agreement. We are currently in 
overdraft in the Coachella Valley, and the Quantification 
Settlement Agreement will provide the necessary water that we 
need to resolve that overdraft. And that overdraft exists 
whether or not we add one more golf course or one more person 
here in the Coachella Valley. We're solving the problems we 
have today. And even worse than that, the ag agencies have an 
undivided 3.85 million acre-feet. No agency has a fixed amount 
in there. And IID and Coachella Valley Water District have had 
significant disagreements over the years of who bears the brunt 
if California is cut back. We've been using--the ag agencies--
about a hundred thousand acre-feet more than what we're 
entitled to of that 3.85. So if California is limited to 4.4, 
we will lose a hundred thousand acre-feet. And then Mr. Horne's 
terrorists will be back in action.
    So we're faced with a real dilemma in here. We must get it 
done. If we don't get the Quantification Settlement Agreement 
done, we will be forced to go out in the open market and 
compete for water, which will raise the price from double to 
four times what our rate payers currently pay. We will not be 
able to maintain the quality of life that we have here in the 
Coachella Valley. It will be--we'll see significant changes 
because of the costs in there.
    The Salton Sea is critical to the Coachella Valley, but it 
is on a different timeframe. We don't have a plan today that if 
you were to vote us five or ten billion dollars to solve the 
Salton Sea, we don't know how to spend it. So we're faced with 
needing to get the QSA done by the end of the year, and needing 
time to address the Salton Sea issues.
    Even without any transfer, the level of the Salton Sea will 
fall seven to eight feet, due to structural changes that are 
already in place. And with that we will have odor, dust, and 
other problems that we need to address. So we need a plan for 
the Salton Sea.
    The latest numbers I have heard in the halls of Interior 
are $900 million for a solution that addresses the blowing dust 
issues and other issues. We need to have EPA do some research 
and find out what's the extent of the problem and how do we 
solve it.
    But in the short-term, we have two options for the QSA to 
go forward. One is onfarm conservation, and that impacts the 
flow to the Salton Sea on a one-to-one basis. And the current 
proposal for the listed--the species that are proposed to be 
included in it does not meet the requirements that allow the 
Federal and state wildlife agencies to issue the permits.
    So then the option that is--the second option is temporary 
ET or evapotranspiration fallowing that can allow the QSA to go 
forward, can provide the time for Congress and the state 
legislature to make a decision on how they want to restore the 
Salton Sea, and can address the socioeconomic impacts in 
Imperial Valley.
    I have a paper which is part of my testimony, which I would 
ask the Committee to accept and enter into the record, which 
points out that if one were to develop a program that targets 
low value, highly mechanized, low labor intensity, high water 
using crops, that you could mitigate the economic impacts with 
the funds that are currently available.
    [The prepared statement of Mr. Levy follows:]

Statement of Thomas E. Levy, General Manager-Chief Engineer, Coachella 
                         Valley Water District

    My name is Thomas E. Levy. I am general manager and chief engineer 
for the Coachella Valley Water District (CVWD). I have been asked by 
our board president, John W. ``Jack'' McFadden, to represent the 
district with respect to the United States House of Representatives, 
Committee on Resources, Subcommittee on Water and Power's oversight 
hearing on Implementation of the California Plan for the Colorado River 
Opportunities and Challenges.
    California is required by the California Limitation Act, the 
Boulder Canyon Project Act and a ruling by the United States Supreme 
Court (Ariz. v. Ca.) not to use more than 4.4 million acre-feet per 
year of Colorado River water unless a surplus or unused apportionments 
from Arizona or Nevada are available.
    Other than the special surplus allowed for by the Interim Surplus 
Guidelines, the Secretary of the Interior does not have the ability or 
the authority to allow California to take more than 4.4 million acre-
feet per year from the Colorado River in normal years.
    The Department of the Interior and the water agencies associated 
with Colorado River water usage are enjoined by the Supreme Court from 
taking more than 4.4 million acre-feet in normal years.
    Despite the exhaustive, good-faith efforts of many at the local, 
state and Federal level, California's mandated attempt to reduce 
significantly its dependency upon the Colorado River for water through 
the California 4.4 Plan, the Quantification Settlement Agreement (QSA) 
and other accords has developed into an intense drama, filled with 
accusations, threats, insults and innuendoes.
    As is the case with many good stories, facts often are ignored by 
some of the ``players'' when they interfere with whatever elicits 
emotional responses from the audience.
    Much of the spotlight during this drama has focused on the Salton 
Sea. So much so that the indisputable reality that we are in the midst 
of a water crisis that if left unresolved will adversely affect the 
lives of tens of millions of people for decades to come has been forced 
into the shadows.
    My purpose here is not to make light of the Salton Sea's dilemma or 
to minimize its problems, but to redirect everyone's attention toward 
the bigger issue facing all of us how is California going to reduce its 
annual use of Colorado River water by 700,000 to 800,000 acre-feet a 
year?
    This is not optional. The six other basin states that share in the 
use of the Colorado River graciously have given California up to 15 
years to reduce its annual water usage to no more than 4.4 million 
acre-feet, but the clock is ticking and if significant, measurable 
milestones including execution of the QSA are not reached in a timely 
fashion we will not have 15 years to cut back we will have just a 
little more than six months before the Secretary of the Interior makes 
the reductions for us.
    Consider that 800,000 acre-feet is enough liquid to cover 1,250 
square miles with a foot of water; or enough water in the urban areas 
served by Metropolitan Water District (MWD) to meet the annual needs of 
1.6 million families in and around their homes.
    To date the transfer of water from agricultural purposes such as 
crop irrigation to urban use is the only viable solution offered for 
reducing California's dependency upon the Colorado River. When all 
aspects of the QSA are in place nearly half 393,700 acre-feet of the 
reduction requirements will have been met by transferring newly 
available water from agricultural to domestic use.
    This obviously can only be accomplished by reducing through 
conservation or other means the amount of water used for irrigation. 
This is where the drama becomes intense because the Salton Sea's most 
ardent supporters argue such conservation threatens this large lake 
because it is fed by agricultural runoff from Imperial County and, to 
lesser extents, Mexico and the Coachella Valley.
    Important to consider is that inflows into the Salton Sea already 
are going down and will continue to decrease, regardless of whether 
water transfers associated with the QSA are in place or not.
    More than $100 million in funding from MWD has been spent by 
Imperial Irrigation District on canal lining, reservoirs, spillage 
recover and other on-farm conservation methods in Imperial Valley, 
where inflow into the Salton Sea historically has exceeded one million 
acre-feet per year.
    Structural improvements already in place will result in less water 
being diverted from the Colorado River to farm the same amount of 
crops, and less water flowing into the Salton Sea. This program 
currently saves 110,000 acre-feet per year
    Inflow from Mexico, which has averaged more than 225,000 acre-feet 
per year, is affected significantly by reduced surplus water flowing 
into that country the result of a drought affecting the Colorado River 
and other circumstances such as construction of a wastewater treatment 
facility in Mexicali.
    Water-efficient farming techniques and other factors already make 
the Coachella Valley a minor contributor only 80,000 acre-feet per year 
to Salton Sea inflows.
    All told, a minimum of 80,000 acre-feet and more likely close to 
190,000 acre-feet less water will be flowing into the Salton Sea 
without factoring in any of the transfers outlined in the QSA. After a 
significant period of time, perhaps decades, this will lead to an 
additional 16,000 acres of exposed shoreline and a drop in the lake's 
level by eight feet to 235 feet below sea level.
    Potential impacts of reduced inflows and a smaller sea are 
increased particulate matter (PM-10), odors and the far-fetched 
possibility of Dust Bowl conditions similar to those experienced in 
Owens Valley.
    At present the Salton Sea Air Basin (SSAB) experiences nearly 
175,000 tons of PM10 a year that is directly attributed to agriculture 
through fugitive windblown dust. Total PM10 exceeds 235,000 tons.
    Because agriculture is the backbone of their economic well being, 
few people complain and no major program to solve the problem exists. 
This is similar to the reality that most residents of the Imperial and 
Coachella valleys have accepted and learned to live with certain odors 
that emanate from the Salton Sea now, when condition are just ``right'' 
or ``wrong.''
    Those who worry about PM10 with respect to the Salton Sea use an 
example of 2,500 tons of it released into the air if the shoreline 
recedes, which represents less than 1.5 percent of what already is 
being released into Imperial County.
    As for the issue of blowing dust, there is no good, solid 
scientific data to support Dust Bowl contentions. A student in the 
Coachella Valley, as a school science fair project, performed the only 
known study using actual Salton Sea soils, and his conclusions were 
negative.
    Thrown into the debate is the argument that the Salton Sea is in 
far deeper trouble than just reduced elevation. The lake now is saline 
45,000 parts per million (ppm) and if this condition is not reversed or 
stabilized, once salinity reaches 60,000 ppm this body of water will be 
on its way to becoming a dead sea because the high concentrations of 
salt will make it impossible for the fish to reproduce. Eventually the 
fish will die off, forcing several species of birds to look elsewhere 
for food. Many of these birds have no place else to go, some argue.
    While this scenario if accurate certainly warrants concern, it will 
occur without the water transfers unless man intervenes, and does so at 
a significant level. This has no direct relationship to the QSA, 
provided that mitigation associated with impacts of the agreement are 
provided to ensure that the transfers do not hasten increased salinity.
    With transfers and without fallowing the salinity crisis could 
arrive one to 11 years earlier at the Salton Sea, which is expected to 
reach 60,000 ppm salinity in seven to 24 years if the status quo is 
maintained. At present the sea is headed toward super-salinity and 
environmental catastrophe, with or without the water transfers outlined 
in the QSA and other accords, without intervention.
    Residents of the Salton Sea area and others argue it needs to be 
saved because it is unique. I would like to share with you information 
about an area I consider unique the Coachella Valley.
    One of the attributes that makes the Coachella Valley unique is the 
nature of its economic foundation, which is built upon two vastly 
different industries agriculture and recreation. We boast some of the 
most productive (an average gross value of $8,962 per acre) farmland in 
the world, and some of the most desirable places in which to enjoy 
resort-style living, either as a vacationing guest or a part-time or 
full-time resident.
    In addition to sharing responsibility for making the Coachella 
Valley economically vibrant and alive, the agriculture and recreation 
industries have in common reliance upon a constant, dependable supply 
of water.
    Implementation of the QSA is crucial to the Coachella Valley's 
ability to continue serving these two industries, and to the water 
district's ability to manage its groundwater supplies.
    One important aspect of the QSA is that once all of its elements 
are in force, it ensures through quantification that Coachella Valley 
annually will receive entitlement to up to 456,000 acre-feet of 
Colorado River water.
    It is worth noting that the first actual project designed to reduce 
California's dependency on Colorado River water involves the Coachella 
Valley Water District, where an estimated 26,000 acre-feet per year 
after environmental mitigations are factored in will be saved through 
the lining with concrete of the still-earthen portions of the Coachella 
Canal.
    Our farmers use some of the most water-efficient techniques 
available. The district has 78,530 irrigable acres and of this, 62,116 
acres are designated under United States Department of the Interior 
guidelines as agricultural. Nearly 59 percent of these 36,500 acres is 
on drip irrigation, the most efficient form available. Sprinklers 
irrigate another 11,957 acres, which is a more efficient method for 
delivering water than through ditches.
    Most of our agricultural water comes from the Colorado River, 
delivered to the Coachella Valley by the Coachella Canal, a branch of 
the All-American Canal. Farmers in Coachella Valley who have converted 
to drip irrigation did so because it makes good economic sense, but 
some have been hesitant to utilize canal water for drip irrigation 
because of its silt content. As technology improves this is becoming 
less and less of an issue.
    Our Water Management Plan calls for the conversion of agricultural 
well-water use almost entirely to canal water use by the mid-2020s. 
Eventually an estimated additional 75,000 acre-feet per year will come 
from the Coachella Canal instead of from local wells for appropriate 
uses within Improvement District 1.
    This means less demand on the Coachella Valley's aquifer, which in 
recent years has been experiencing significant overdraft more water is 
being taken out of the ground than is going back in. This lower valley 
overdraft was more than 104,000 acre-feet in 1999. Recharging the lower 
valley aquifer presents unique challenges because of a thick layer of 
impermeable clay, but the district has implemented pilot programs and 
is confident the means will be found to replenish groundwater tables.
    The QSA enables the Coachella Valley Water District to obtain an 
additional 155,000 acre-feet per year of Colorado River water, 100,000 
acre-feet per year from Imperial Irrigation District and 55,000 acre-
feet from other transfers.
    Some of this water will be used to offset groundwater pumping. The 
balance will be available to recharge the lower aquifer with as much as 
80,000 acre-feet per year, which will go toward eliminated overdraft.
    Overdraft carries with it potentially significant, negative 
consequences. Water supplies are reduced, water quality is adversely 
affected and subsidence can occur. In worst-case scenario subsidence 
causes damage to homes, businesses, roads, water lines and other 
underground utilities.
    Non-agricultural development resorts and housing developments in 
the lower valley has been booming at a pace that rivals our upper 
valley, so demand for water there is increasing the drain on the 
aquifer and will continue until adequate water supplies are available 
for recharging. Additional supplies of Colorado River water as provided 
for by the QSA appear to be the only viable alternative at reasonable 
costs.
    Agricultural interests are at a minimum in the upper portion of the 
Coachella Valley, which has developed into a world-renowned resort and 
recreation destination. Well in excess of a million people visit the 
Coachella Valley each year, playing golf and tennis at its resorts, 
dinning in the area's plethora of fine restaurants and shopping in a 
vast array of shops and boutiques.
    Recreation is a major industry in Coachella Valley, employing 
thousands of people at numerous salary levels, and putting tens of 
millions of dollars into the local economy.
    Thousands of people many retired but all ages are represented 
specifically move to the Coachella Valley each year to enjoy a 
lifestyle that centers on recreational activities such as golf and 
tennis, and entertainment such as fine dining, the arts and live 
theatre.
    This growth, while a tremendous boost to the economy, has been a 
significant drain on the upper valley's aquifer, which is easier to 
recharge and already receives significant replenishment through our 
participation in the State Water Project.
    Through an arrangement with the Metropolitan Water District, we 
exchange ``bucket-for-bucket'' our entitlement to State Water Project 
water for MWD water from the Colorado River Aqueduct. This water is 
used to recharge the upper aquifer at percolation ponds west of Palm 
Springs, but overdraft still exceeds 32,000 acre-feet per year.
    The QSA provides for another agreement between CVWD and the MWD for 
entitlement to an additional 50,000 acre-feet of State Water Project 
water for use in the upper valley. Much of this will be used to 
recharge the upper aquifer, but some also will be used as we continue 
to encourage golf courses and other large volume water users in the 
upper valley to convert from well water to other sources for non-
potable purposes such as irrigation. These sources include recycled 
water from our wastewater reclamation facilities and canal water.
    Our Water Management Plan calls for significant reductions in water 
use throughout the Coachella Valley 10 percent for domestic use, five 
percent for existing golf courses and seven percent for agriculture. 
But the success of our plan will be jeopardized if the QSA is not 
implemented. Adequate water supplies will not be available at 
reasonable costs.
    Failure of the QSA to be adopted and suspension of the Interim 
Surplus Guidelines could result in a loss of up to 200,000 acre-feet 
per year of water for Coachella Valley in some years. Outside sources 
of water under the 70R Strategy operating plan, if the QSA is not 
signed, could be drastically reduced, especially when MWD is forced to 
claim a greater share of its State Water Project entitlement and water 
purveyors statewide scramble to find adequate supplies. There is no 
doubt prices will skyrocket, with costs passed on to the consumer. In 
worst case scenarios, water will not be available at any cost.
    The Coachella Valley will have a difficult time surviving a water 
shortage. This would be devastating to our agricultural industry. Our 
farmers already are highly efficient in their use of water, so 
restrictions on them would be difficult since there is little or no 
room for additional conservation. Such a request also would be 
extremely unjust since they already have initiated conservation efforts 
on their own, without government subsidies or special treatment.
    Golf courses are perceived as water-wasters and they do use a lot 
of water, but very efficiently. Those responsible for golf course 
irrigation already are employing a variety of water conservation 
techniques. As mentioned, the district is working with existing courses 
to encourage greater use of recycled and canal water, and we are 
encouraging local communities to support a valley-wide, uniform 
landscaping ordinance that will focus on the use of native and other 
use low water-use vegetation.
    For the Coachella Valley's economy to stay healthy the recreation 
industry must stay healthy, too, and this means ensuring that golf 
courses and other resort facilities have adequate sources of water. 
This is an incredibly competitive market with little margin for error. 
There are resort communities throughout the world that would love to 
see us falter so they could grab a piece of the recreation pie.
    Thousands of people rely on the resort-recreation industry for 
their livelihood and tens of millions of dollars flow into the local 
economy because people recognize the Coachella Valley as an ideal 
location to enjoy life.
    I would like to conclude my testimony by reviewing concepts I first 
introduced during testimony on Wednesday, May 29, in Sacramento before 
the state Water Resources Control Board.
    A frequent argument against fallowing as an effective method for 
conserving irrigation water in Imperial County is that taking farmland 
out of production will have serious, negative economic and social 
impacts on the affected areas that rely on agriculture for their 
economic well being.
    Thousands of people will lose their jobs, critics of fallowing 
argue, and the local economy will lose millions and millions of 
dollars. Those businesses that rely on agriculture including seed 
companies and fertilizer makers and farming equipment manufacturers all 
will lose revenue as a result of fallowing. Farm workers will be laid 
off, and the hard-earned dollars they received toiling in the fields 
will not be spent to buy food, clothing and other goods and services. 
This creates a chain reaction with people who work in fast food 
restaurants and markets and theaters and clothing stores and seed 
companies and farm equipment sales and service businesses all losing 
their jobs.
    Businesses close up, people move away and the entire Imperial 
Valley resembles Oklahoma's Dust Bowl during the Great Depression.
    It's a dismal picture that the critics of fallowing paint, one 
likely to cause almost anyone to stop and wonder: Is it worth it, 
taking farmland out of production so that water can be shipped to other 
parts of the state?
    The problem with this doom-and-gloom scenario is that there is no 
need for it to occur it's a ghost story really, heavy on the fright, 
light on the facts and it won't happen if everyone involved uses a 
little common sense.
    Any discussion of fallowing should focus on taking out of 
production only land used for low value (gross value per acre), highly 
mechanized, low labor-intensive, high water-use crops. Almost without 
exception this means field crops, not garden (vegetables, some fruit) 
or permanent crops, such as citrus.
    It is important to understand that no farmland will be permanently 
taken out of use by fallowing. Instead, an effective schedule would be 
created to ensure that fallowing is equitably rotated among eligible 
farmland. And, land management principles will be utilized to mitigate 
potential weed and dust problems.
    Further, through the fallowing of land the economics of farming 
will improve through supply and demand. Taking alfalfa out of 
production will mean a higher market price, benefiting those farmers in 
Imperial Valley who continue to grow hay. One study estimates an 
increase of more than $11 a ton.
    Suppose those farmers selected to participate in fallowing go about 
their business as usual with one notable exception they don't water 
their crops. We'll focus here specifically on alfalfa hay (all types: 
flat, row and seed) farmers, who in the year 2000 were responsible for 
196,077 acres. That's 47 percent of all field crops in Imperial County, 
37 percent of Imperial County's 537,076 acres of crops that year.
    To free up enough water to enable the Imperial Irrigation District 
(IID) to transfer 200,000 acre-feet per year to the San Diego County 
Water Authority (SDCWA), and an additional 100,000 acre-feet per year 
to the Coachella Valley Water District (CVWD) and to do so without 
having a negative impact on the Salton Sea an estimated 82,000 acres of 
hay acreage needs to be fallowed.
    Eighty-two thousand acres seems like a lot, but it represents only 
a little more than 15 percent of Imperial County's agricultural acreage 
in 2000 hardly a Dust Bowl scenario, but let's get back to our alfalfa 
farmers.
    Suppose our fallowing phantom farmers do everything they did when 
they actually grew alfalfa with that one important exception they use 
no water.
    Each farmer prepares his soil just as he did before; purchases the 
seed and insecticides and fertilizers needed as in years past; hires 
the appropriate number of employees to plant, irrigate, tend to and 
harvest the crops; perhaps operating tractors and other machinery as if 
he was growing hay; even factors in costs associated with equipment 
repairs, replacement and other capital improvements.
    If every year the farmer spends 'X' amount of dollars having his 
equipment repaired, he goes ahead and pays the appropriate vendors 
whatever he would have spent for this service; buying new equipment as 
needed, too.
    In the end agriculture's bottom line stays the same, in fact 
farmers are a little ahead of the game because they are going to get a 
bonus for participating more about that later. Since everyone involved 
in the production of alfalfa is getting paid what they would have 
received there is no negative impact on the local economy! The vendors 
continue to get paid, and in turn do business with their wholesalers 
and other suppliers. The workers get paid, so continue to pay their 
mortgages or rent and buy food and clothing and automobiles and 
appliances and other goods and services.
    So the fast food worker doesn't lose her job and the cashier at the 
market doesn't lose her job and the tractor salesman and the automobile 
repair guy keep their jobs and life pretty much goes on as it did 
before fallowing.
    How is this possible?
    In simple terms: money. Lots of money.
    The purchase of conserved water from IID is going to create vast 
resources of revenue. Water has become a very valuable commodity. The 
same water that a farmer is charged about $15.50 an acre-foot is worth 
more than $250 an acre-foot to thirsty urban customers is San Diego 
County. The average cost that SDCWA and CVWD will pay IID for water is 
$231 per acre-foot.
    When you factor in the amount of water used per acre of crop, per 
year, for alfalfa, we discover that with respect to water each acre 
will be worth $845.46 to IID from the water purveyors receiving the 
transfer. Here's how that works.
    An acre of land within IID boundaries requires 5.63 acre-feet of 
water per year. Of this, 35 percent is field run-off, so 1.97 acre-feet 
per years ends up in the Salton Sea. Assume for the sake of argument 
that this nearly two acre-feet of water per acre is allowed to continue 
to reach the Salton Sea through some means.
    Since the Salton Sea continues to receive the same amount of water 
as it did before, fallowing has no negative impact on this body of 
water.
    Which leaves 3.66 acre-feet of water allocated to the farmer, which 
SDCWA and CVWD are willing to pay an average of $231 per acre-foot to 
receive. So these water agencies are, in effect, paying IID $845.46 for 
every acre that is fallowed.
    From this amount the farmer receives the same gross revenue per 
acre he would have received had he grown alfalfa $665. For 82,000 acres 
this represents $54,530,000, and again, this is more than $54.5 million 
that stays in the local economy, and is equal to what the farmer has 
received in the past worry free. Fallowing farmers need not worry about 
crop failure or pestilence or any of the dozens of other things that 
can go wrong with a crop.
    From the original $845.46 this leaves $180.46 per acre. IID 
receives a management fee of 5%, $42.27 per acre, which at $3,466,386 
more than offsets the expenses of administering the fallowing program 
enough money to hire 50 people as full-time employees.
    IID also receives a little less than $5 ($4.76) per acre to offset 
lost revenues from power generation since transferred water will not be 
flowing through the agency's generators along the All American Canal.
    And, Imperial County receives about $4 per acre under the 
Williamson Act, reflecting potential lost payments for prime versus 
nonprime agricultural land.
    So far the local economy has lost no revenue, IID has lost no 
revenue and the county has lost no revenue. If anything, more money is 
flowing into the local economy.
    And we still have $129.43 per acre left over, which represents a 
healthy bonus that can be paid to the farmer for fallowing his land, or 
to pay any costs not already outlined above.
    When multiplied by 82,000 acres, this bonus represents $10,613,260, 
which is a potentially significant boost to the local economy; in fact, 
in revenue generated by agricultural acreage this is 13 percent more 
than what was being brought in from alfalfa growing alone.
    Now, we are not actually suggesting that farmers go out and grow 
crops without water. What we are suggesting is that the transfer of 
water from IID to SDCWA and CVWD generates more than enough money to 
ensure that the negative socioeconomic impacts predicted by the 
naysayers will not occur.
    The transfer of 300,000 acre-feet per year from IID to SDCWA and 
CVWD will generate more than $69 million.
    If 82,000 acres are fallowed, and farmers are compensated as 
outlined above, there will be more money poured into the local economy, 
not less, and with a little imagination Imperial County actually can be 
turned into a better place to live.
    Suppose you pay those farm workers the same wages but instead of 
having them participate in phantom farming, you assign them to badly-
need public works projects that will improve the areas where they live 
and work; or establish training programs that offer these men and women 
the skills necessary to obtain and keep better paying jobs, leading to 
better social and economic conditions for everyone.
    In the process the Salton Sea continues to receive the same inflow 
it would have gotten without fallowing. This eliminates it as an 
obstacle to successful completion of current efforts to reduce 
California's dependency on Colorado River water.
    With 82,000 acres fallowed, 300,000 acre-feet of conserved water is 
transferred to SDCWA/CVWD, this leaves 161,660 acre-feet, less various 
losses, for the Salton Sea, the same amount that it receives in 
agricultural runoff from the land proposed for fallowing.
    On-farm conservation methods reduce the amount of runoff into the 
Salton Sea by the amount of water conserved. So if these methods are 
used to free up 300,000 acre-feet for transfer, that is 300,000 acre-
feet that is not going to go to the Salton Sea.
    If we do not find our own solutions, including fallowing, there is 
the potential that sufficient water will not be available to irrigate 
the crops in Imperial County and elsewhere. Then you have no choice but 
to conserve, and to do so without fiscal compensation. Then there will 
be tremendously negative social and economic impacts.
    We've used alfalfa as our example here, but if the list of eligible 
field crops is expanded to feature others with a gross value of less 
than $665 per acre, excluding pasture but including Bermuda Grass, 
cotton seed, Sudan Grass and wheat only 23 percent of these lands need 
to participate to generate the water required for the transfers.
    This leaves garden and permanent crops totally unaffected by 
fallowing, which is tremendously important because these crops are much 
more labor-intensive, especially during and after harvesting.
    Phantom farming can keep Imperial County from becoming the ``Ghost 
County'' that fallowing critics claim it will become if acreage is 
taken out of use.
                                 ______
                                 
    Mr. Levy. I'd also like to thank Congressman Calvert and 
Congresswoman Mary Bono and Congressman Hunter, Senator 
Feinstein, for what I thought was a very excellent meeting this 
week in Washington, D.C. in which we left the meeting with a 
commitment that we would come back within the next 2 weeks with 
a plan from the water agencies on how to put in a temporary 
program that would allow the QSA to go forward and to address 
the Salton Sea issues or provide time for Congress and the 
state legislature to address the Salton Sea issue.
    So I think there is potential of progress there, and I hope 
in 2 weeks to be able to report back to you that we have had 
very successful and meaningful meetings. Thank you.
    Mr. Calvert. Thank you, gentleman.
    Mr. Wyatt?

   STATEMENT OF GARY WYATT, MEMBER, IMPERIAL COUNTY BOARD OF 
                    SUPERVISORS, CALIFORNIA

    Mr. Wyatt. Thank you, Mr. Chairman, Ms. Bono, and members 
of the California delegation.
    Imperial County is grateful that you've honored our request 
to be included in the meeting today, and be able to present a 
policy statement at the hearing.
    Imperial County represents the government of general 
jurisdiction embracing all of Imperial Valley's inhabitants, 
its agriculture, its urban development, its unique resources of 
the Colorado River and the Salton Sea, all of the interests 
that your Committee must consider in the area from which the 
water transfers originate.
    Throughout the environmental process Imperial County has 
raised the following concerns: The viability of our 
agriculture, the future needs of our urban economy, the health 
of the Salton Sea and the rest of the county's environment, and 
above all, the still unfulfilled need to define and force 
mitigation measures that meet all of our needs beyond those 
confined to the individual farmer.
    In agriculture we are concerned that the water transfer and 
its impacts are not fixed. We are told that the transfer could 
be accomplished with no permanent fallowing or tens of 
thousands of acres of fallowing representing in excess of 
300,000 acre-feet annually.
    This year virtually each month has brought a new proposal 
on whether and how fallowing should be addressed, but no 
resolution. We need to ensure that during and after a long-term 
water transfer, sufficient water is reserved for our own 
reasonable and foreseeable future needs. With our population 
expected to double by 2020, we visualize a need for 120,000 
acre-feet annually for our own domestic needs.
    At the Salton Sea we obviously identify economic, scenic 
and recreational resources, and those qualities deserve 
protection. But even more fundamentally we cannot allow the 
Salton Sea or adverse air quality from fallowed fields to 
threaten the very health of our people and the livability of 
our county.
    Finally, we need to establish and enforce mitigation 
measures to confine and offset these impacts. To fulfill the 
mandates of state law, we must finish the job that the EIS's 
and the EIR's did not. We must identify the recipients of 
compensation for so-called third-party impacts, and insure that 
the proper beneficiaries of the transfer, San Diego consumers 
in particular, and the people of the United States and 
California in general, provide this compensation.
    In 1998 the county board of supervisors adopted a no-
nontemporary fallowing policy. The policy was honored in the 
November 1998 transfer agreement and also ratified by the 
California legislature in its 1999 amendment to Section 1011 of 
the water code, which recognizes only temporary fallowing as a 
source of conserved water for transfer. The county continues to 
overwhelmingly prefer a no-permanent fallowing transfer.
    Unless Water Code Section 1011 is modified again, state law 
is not authorized. We praise the initial efforts of the IID and 
San Diego to produce a transfer arising solely from onfarm and 
system conservation, and will argue that all the various 
arrangements, the IA, the QSA, and this transfer, be adjusted 
to accomplish that result and still maintain the Salton Sea.
    If, despite the best efforts of all, a long-term supply of 
the water from fallowed Imperial Valley land becomes preferred, 
the use of water conserved from fallowing must be conditioned 
upon the IID first preparing and adopting a program for 
producing that water, and securing the concurrence of Imperial 
County that land fallowing conservation measures will not 
produce unreasonable economic or environmental impacts. Our 
concurrence is necessary to ensure all the interests we 
represent in this valley are protected.
    Salton Sea stability must be assured. And economic losses 
to local government and districts, both lost tax revenues and 
social service costs, must be compensated.
    Imperial County has requested by letter dated June 5, 2002, 
to the Bureau of Reclamation that both of the draft 
environmental impact statements be withdrawn and a revised 
draft recirculated prior to proceeding to final statements.
    The draft documents fail to identify significant impacts 
that have been subsequently discerned, and do not include the 
type of fallowing project that is now being promoted by 
California political leaders. Rewriting the EIS's to reflect 
existing knowledge and proposals will give the Bureau of 
Reclamation and California entities, including Imperial County, 
which has not been part of the prior QSA negotiations, an 
opportunity to reach the consensus that has eluded us to date.
    If there was one immediate action this Committee can 
contribute it will be to encourage the Bureau to recognize the 
inadequacies of the existing EIS's, and to take the time to 
cure the deficiencies, and not penalize California for the time 
it takes for Federal agencies to comply with Federal law.
    Decisions are being made for the next two generations of 
Imperial County residents and all of Californians. And we are 
entitled to have those decisions be the best possible.
    I ask that my written testimony previously submitted be 
added to the record. And we appreciate the opportunity to make 
the presentation today.
    [The prepared statement of Mr. Wyatt follows:]

  Statement of Gary Wyatt, Representing the Imperial County Board of 
                              Supervisors

INTRODUCTION
    We in Imperial County are grateful that you have honored our 
request to present a policy statement at this hearing today. We 
appreciate your effort to travel to' our region and spare those from 
whom you will hear today the greater effort it would require to travel 
to Washington. We also hope that by being here for even one day you 
will take away an appreciation of the vibrant economy and environment 
that we are working to preserve.
    Imperial County recognizes foremost that it is part of California--
both legally and politically. We appreciate the great challenge facing 
our State to bring its use of Colorado River water to within the budget 
decreed by Congress and the Supreme Court. We are not responsible for 
the State's exceeding that budget in the years since the labor and 
industry of Imperial County pioneers conceived and established here one 
of the world's greatest agricultural producing areas. But we are 
willing to collaborate with other units of Federal, state, and local 
government to help solve the problem, recognizing as one Court of 
Appeal Justice wrote many years ago that in matters of water 
Californians must share the burdens together.
    Together we need to find a solution that works for California. a 
solution that also works for Imperial County. I will shortly describe 
our County's unique interst and role in this process. Beyond our 
participation here and in Sacramento, know that we have and will 
continue to devote special efforts to work with our local water agency, 
the Imperial Irrigation District. We are mindful of the important role 
that lID plays in the history and use of water in California. In that 
respect we are a proud parent, because we know that it was the elected 
leaders of Imperial County's government who took the initiative to 
create the Imperial Irrigation District and seek changes to the 
Irrigation District Act that would enable lID to succeed in its bold 
ventures. We have looked and will continue to look to lID not only as 
our fully-grown offspring, but also more importantly as our 
collaborator and lead agency with authority to refine its water 
transfer proposa1'' before final approval.
INTERESTS OF THE COUNTY OF IMPERIAL
    Imperial County has a unique role in the water transfer issue. We 
represent the government of general jurisdiction embracing all of 
Imperial Valley's inhabitants, its agriculture, its urban development, 
and its unique natural resources of the Colorado River and Salton Sea. 
Our elected Board of Supervisors represents all of the interests that 
your Committee must consider arising in the area from which the water 
transfer originates. We are charged to protect them all and not elevate 
one to the disregard of the others. In a certain sense, we have the 
most I at stake in the water transfer process, because of the breadth 
of our interests, coupled with the fact that as a proprietary matter we 
are nominal outsiders to the water transfer and have not to date 
pat1ticipated in its formulation. While we are working with the 
principals to the transfer, in the end we rely on state and Federal 
agencies to protect the breadth of public interests that we represent.
    In an economic sense, Imperial County represents an agricultural 
economy that is valued in excess of one billion dollars annually, and 
that produces an annual tax roll to the County and its school and other 
local districts of$ 10,000,000 and annual sales tax revenues of 
$47,000,000. More than 11,000 of our inhabitants are engaged in this 
industry that produces a great share of our Nation's annual crop of 
lettuce, carrots, wheat, asparagus and melons. This important resource 
is also a vulnerable one; depending on agricultural markets and natural 
conditions, our unemployment rate can exceed 25 per cent--more than any 
other county in California. Before this valley enters into a long-term 
transfer of water away from this economy, we must be certain that we 
have comprehended the impacts and found ways to ensure that our 
agriculture continues to thrive.
    Our economic interests also include those of recreation. Income to 
Imperial County from Salton Sea recreation exceeds millions of dollars 
annually. That economy would evaporate in dollar terms in direct 
proportion to the evaporation of the Salton Sea into a lifeless world, 
or worse, a nuisance. As with agriculture, at the Salton Sea we must be 
certain that we have comprehended the impacts and found ways to ensure 
that the Sea continues to survive.
    As a County we are uniquely situated with respect to the Colorado 
River. While ``counties of origin'' are usually thought of as those in 
the Sierra foothills that give rise to the great rivers of the north, 
we are quite literally the county of origin for most of California's 
Colorado River resource. Like those northern counties of origin, we 
have no other source of water than that which is provided by the 
Colorado on our eastern border. In a more specific category, we! are 
also the county of origin of the proposed water transfer. We are 
grateful that state law and the model water transfer code recognize and 
protect the County's unique interests. However, we must ensure that the 
ultimate Imperial-San Diego agreement becomes literally a ``model water 
transfer.''
IMPERIAL COUNTY'S AREAS OF CONCERN
    Throughout the environmental process, Imperial County has raised 
the following concerns: the viability of our agriculture; the future 
needs of our urban economy the health of the Salton Sea and the rest of 
the County's environment; and above all, the still-unfulfilled need to 
define and enforce mitigation measures that meet all our needs, beyond 
those confined to the individual farmer.
    In agriculture, we are concerned that the water transfer and its 
impacts are not fixed. We are told that the transfer could be 
accomplished with no permanent fallowing or tens of thousands of acres 
of fallowing representing in excess of 300,000 acre-feet-annually. This 
year virtually each month has brought a new proposal from or to our 
constituents on whether and how fa1lowing should be addressed, but no 
resolution. We are told that the transfer is desirable because it 
relies on ``willing buyer willing sellers''--and yet that is exactly 
what Los Angeles told the farmers of the Owens Valley in the 1920s, 
which resulted in total and ultimately unnecessary destruction of 
agriculture there.
    In the urban sector, we see the need to combat our high 
unemployment with a diversified economy, as more people are attracted 
to our County and its uncrowded lifestyle. We need to ensure that 
during and after a long-term water transfer, sufficient water is 
reserved for our own reasonable and foreseeable future needs. With our 
population expected to double by 2020, we visualize a need for 120,000 
acre-feet-annually for our domestic needs by that time.
    At the Salton Sea, we obviously identify both an economic, and 
scenic and recreational resource. Those qualities deserve protection. 
But even more fundamentally, we cannot allow the Salton Sea to become a 
nuisance that threatens the very health of our people and livability of 
our County. Our air quality experts tell us that without foresight the 
Salton Sea could become another Owens Lake, but unlike Owens Lake we 
cannot afford to wait more than three-fourths of a century to abate a 
nuisance once created. We also fear adverse air quality from fallowed 
fields.
    Finally, even as we assess these concerns under the labels of 
environmental and economic impact, we need to define, establish and 
enforce mitigation measures to confine and offset those impacts. We are 
grateful that the draft impact statements prepared by the Bureau of 
Reclamation and lID recognize and attempt to quantify those impacts. 
Our experts are attempting to validate or refine those assessments. But 
to fulfill the mandates of State law we I must finish the job that the 
EISes and EIRs do not do: we must identify the recipients of 
compensation for so called ``third-party impacts,'' and ensure that the 
proper beneficiaries of the transfer and these we view as a combination 
of San Diego consumers in particular and the people of the United 
States and California in general--provide this compensation.
THE COUNTY OF IMPERIAL'S POSITION IN THIS! PROCEEDING
    In 1998 the Imperial County Board of Supervisors responded to I the 
initial transfer proposals by adopting a ``no non-temporary fallowing'' 
policy. That policy was honored in the November 1998 transfer agreement 
and also ratified by the California Legislature in its 1999 amendment 
to section 1011 of the Water Code, which recognizes only temporary 
fallowing as a source of ``conserved water'' for transfer.
    The premises of the County's ``no-fallowing'' policy have been, 
challenged in two respects. First, to ``purchase peace'' from the 
Metropolitan Water District and Coachella Valley Water District in the 
QSA, llD agreed to make available transferred water to those districts. 
Second, in the past four years we have all become aware of the 
unanticipated impacts of the proposed transfer on the Salton Sea.
    The County continues to overwhelmingly prefer a no-permanent-
fallowing transfer. Unless Water Code section 1011 is modified again, 
state law does not authorize more (and lID and San Diego cannot 
voluntarily opt out of that provision). We praise the initial efforts 
of lID and San Diego to produce a transfer arising solely from on-farm 
and system conservation, and will argue that all the various 
arrangements (1A, QSA, and this transfer) be adjusted to accomplish 
1nat result and still maintain the Salton Sea.
    The County asks that action be required in the Metropolitan and San 
Diego service areas to wean off any transfer and onto desalinization as 
time progresses. Development of this (or another alternative) in the 
coastal plain should parallel Imperial County's anticipated future 
needs for both the urban and agricultural sectors. As stated above, we 
anticipate in the next two decades to double our domestic water need to 
120,000 acre-feet-annually. It is reasonable to require that the 
coastal areas by year 2020 produce at least that much from 
desalinization, to return water to meet both our growing urban need and 
also future demands for agricultural development in the Imperial 
Valley. To date, the transfer has assumed that it will increase in 
volume over time, when in the reality of our own needs and new 
technology, reduction over time is compelled. I
    Finally, if despite the best efforts of all, a long-term supply of 
water from fallowed Imperial County land becomes preferred, the use of 
water'' conserved'' from fallowing must be conditioned upon the llD 
first preparing and adopting a program for producing that water, and 
securing the concurrence of Imperial County in that program. Our 
concurrence is necessary to ensure that all the interests we represent 
in this valley are protected. Before implementing such a program, it 
must be subject to a second-tier environmental assessment that follows 
on the successful completion of the water transfer assessment now being 
conducted. Compliance with or modification of Water Code section 1011 
with the concurrence of Imperial County must be achieved. Salton Sea 
stability must be assured. And economic losses to local government and 
districts, embracing ``both lost tax revenues and social service costs, 
must be compensated.
    The County of Imperial's concern is that any ``fallowing-based'' 
transfer be preceded by preparation and adoption of a systematic 
program that addresses economic and environmental impacts, meriting the 
concurrence of the County of Imperial.
    In addition, Imperial County has requested by letter dated June 5, 
2002 to the Bureau of Reclamation (see attached copy) that both of the 
draft environmental impact statements (Water Transfer EIS/EIR and IA/
IOP EIS) be withdrawn and a revised draft recirculated prior to 
proceeding to final statements. As noted in the letter, the draft 
documents fail to identify significant impacts that have been 
subsequently discerned. Moreover, the existing drafts do not include 
the type of fallowing project that is now being promoted by California 
political leaders. (Because the best evidence of our position appears 
in the testimony taken by the State Water Resources Control Board, we 
are also providing the Committee with a copy of all state board 
transcripts completed to date, and will forward the remaining three 
transcripts as soon as they are completed.) Rewriting the EISes to 
reflect existing knowledge and proposals will give the Bureau of 
Reclamation and California entities (including Imperial County, which 
has not been part of the prior QSA negotiations) an opportunity to 
reach the consensus that has eluded us to date.
    If there is one immediate action this Committee can contribute, it 
will be to encourage the Bureau to recognize the inadequacy of the 
existing EISes, and to take the time to cure that deficiency, and not 
penalize California for the time it will take for Federal agencies to 
comply with Federal law. Decisions are being made for the next two 
generations of Imperial County residents and all Californians, and we 
are entitled to have those decisions be the best possible.
    The County of Imperial appreciates the opportunity to submit these 
comments to your Committee and we look forward to working with other 
parties toward$ a resolution that values all interests.
                                 ______
                                 
    [An attachment to Mr. Wyatt's statement follows:]
    [GRAPHIC] [TIFF OMITTED] 80202.004
    
    [GRAPHIC] [TIFF OMITTED] 80202.005
    
    [GRAPHIC] [TIFF OMITTED] 80202.006
    
    Mr. Calvert. Thank you, gentlemen.
    Over the last couple of years I've gotten to know all of 
you, I think, in one fashion or another, working with you in 
various ways in trying to get the positive conclusion to this 
problem. And we're running out of time to do that. And I guess 
we--all the eyes are on Imperial County right now, as Mr. Horne 
and Mr. Wyatt pointed out in their testimony.
    And I'd go back to that famous character in our past, when 
Willie Sutton was asked why he robbed banks, he said, ``That's 
where all the money is.'' I guess that's why they're all 
looking at you, is because that's where all the water is, 
Imperial County. Most people don't know that throughout the 
city--I know people in this room--that Imperial County has, 
because of the hard work and protecting the water rights there 
in the Colorado River, have a substantial amount of the water 
of the 4.4., over three million acre-feet of water.
    And so here we are today trying to work out some kind of an 
accommodation to work with the Imperial County. And I recognize 
the difficulties that Imperial County has. It's one of the 
poorer counties in the State of California, high unemployment 
rate, totally--almost the entire economy is dependent upon 
agriculture. And so--and the way things work in Imperial County 
is that the people own that water. It's not a land-based 
system. Voters in Imperial County elect the board of 
supervisors and they elect the Imperial Irrigation District. So 
you have a special responsibility, and I understand that.
    And the reason I know, I have been visiting the county and 
talked to a number of folks out there on a number of occasions 
to see if we can't make this a win-win situation, where 
Imperial County benefits from economic development in the 
valley. And certainly I don't think anyone here wants to hurt 
the economy of Imperial County, while we work toward a water 
transfer and to execute a Quantification Settlement Agreement 
that the State of California desperately needs in order to move 
forward.
    So I guess first of all I'll ask Mr. Horne, you mentioned 
in your testimony you're still committed to help us try to get 
to a conclusion on this QSA. What do you think is a possible 
solution to this problem?
    Mr. Horne. Boy, if I knew the answer to that, I'd be 
sitting up there. That is the question of the day, Chairman 
Calvert. And I think that, you know, many people are quick, as 
I pointed out, to seize on this concept of fallowing as an 
answer. And although I can certainly understand that 
willingness to look at that option, and the desire for us to go 
that route, I think it is again fraught with a number of 
pitfalls, including not just the third party impact, but as I 
mentioned, the lack of any protection it provides us in terms 
of improving our reasonable and beneficial use that has come 
into question by some other agencies, including the Federal 
Government, and also this issue of where that type of program 
will stop in the future.
    As California continues to grow, as other environmental 
needs for water, including the Salton Sea, the Mexican Delta, 
the Lower Colorado River are identified, we believe, as you 
said in your Willie Sutton reference, that we are aware they 
will come to get that water. So we have a great deal of 
squeamishness about embarking on that type of program without 
fully understanding the ramifications, not only for today in 
terms of the impact to our economy, but what it might hold for 
the future.
    Mr. Levy and others suggestion of a temporary fallowing 
program reminds us of the concept of being a little bit 
pregnant. You know, once you start with a program like that, 
when will you stop. And once you've agreed that you would 
fallow ground, who's going to let you off the hook down the 
road.
    If we wait for solutions to the Salton Sea to be identified 
as a condition to agreeing to be let off the hook for 
fallowing--I sit on the Salton Sea Authority board. I think I 
have some understanding of some of the issues at hand there and 
the lack of funding that might hold up that process.
    And so I'm not at all comfortable with agreeing that, yes, 
we would fallow until, you know, we figure out what we're going 
to do with the Salton Sea and then we'll go back to whatever we 
were going to do before. That just doesn't hold out a great 
deal of hope for us.
    I think under the current set of circumstances, given the 
lack of time, that we had better figure out a way to--in our 
opinion, at least, to allow the current transfer to go forward 
and figure out--perhaps we'll involve some adaptive management 
principles to be--to be implemented either at the sea or 
perhaps it will involve some reduction on the quantities of 
water that are going to be transferred. And with some idea that 
they could be ramped up if the impact either on the sea or to 
our economy might be addressed.
    So I think we'd better try to figure out a new way to do it 
within the current framework. Because we do not have time to go 
back to square one between now and the end of the year and try 
to figure out what all these impacts for massive land fallowing 
programs in Imperial Valley might be, not only just in terms of 
quantifying, as I indicated in my remarks, but also how do you 
mitigate. I don't think the--in all deference to the Federal 
Government, or even the state government, that the government, 
including IID, has been very good in that-- would be very good 
at creating jobs. We have--some have suggested a job training 
program would be added. When you get to the end of the pipeline 
of a job training program, the hope is the expectation would be 
that there is a job waiting at the other end of that pipe.
    As you indicated, we are a high-unemployment county. We 
don't have those jobs. Today our jobs are primarily based in 
agriculture. And if we start drying up productive farm ground 
as a way to meet California's water supply problems, we have 
crippled ourselves in terms of our future. And I think the 
people of the county, Mr. Wyatt certainly, echoed some of the 
concerns.
    Mr. Calvert. Mr. Wyatt, do you have any additional comment 
regarding Imperial County and how--
    Mr. Wyatt. Certainly, as a politician I'd always have 
further comment.
    But there are certainly several issues that Mr. Horne 
raises that I'd agree with. And the issue of what has come to 
be known as a slippery slope as a great concern to the people 
in Imperial County is where, if you begin a water fallowing 
program, where do you stop.
    The next time there is a need for water, again, Willie 
Sutton comes back to the bank. And we have that concern as 
well. We share some of the other concerns that he has, that he 
expressed. And we don't have a lot of disagreement with that. 
Perhaps one of the things is that as a county we've not been 
involved in a process and that's one of the things I brought up 
in my statement is that we feel that we need to have a position 
at the table, especially since we represent the economic 
interest of a great deal of the county, not just the farming 
interest of the county, but we represent those as well. So we 
do have some great concern with that. So we need to be--we feel 
we need to be a part of the process to solve the dilemma.
    We do have a log jam that certainly needs to be moved--
broken apart here rather quickly and rather soon. And we hope 
to be a part of that solution, a part of the discussions to 
help to move that along. Perhaps we need to be involved in more 
of the public discussions.
    One of the problems we have in Imperial County as anywhere 
else is the ability or opportunity to educate the general 
public. As you know, it's a very difficult task to educate them 
very well on any particular issue, but on this particular issue 
they have some education but primarily it's on--you know, most 
people are very afraid of what the fallowing program will mean 
for Imperial County and the degradation it will bring to our 
economy.
    So there are great concerns, and I share many of those that 
Mr. Horne points out.
    But along with that, we have a great concern about the 
social impacts and also the property tax impacts and so forth. 
And we're also very concerned about where, as he said about the 
pipeline, at the end of the pipeline there has to be some jobs 
awaiting. We've talked about participating as partners with San 
Diego County and other areas, on assisting us in developing 
other types of job opportunities for people in our county, to 
diversify economy as it were. And that would be one of the 
solutions that would need to be looked at certainly so that 
there are jobs waiting at the end of that pipeline.
    And so to that end we stand ready to become involved in the 
process and help move this along and to solutions.
    Mr. Calvert. Thank you.
    Well, Mr. Wyatt, you are right, we're running out of time. 
I'd like to get something that we can move toward very quickly 
if possible. And I'll let Senator Costa address.
    Mr. Costa. Thank you, Mr. Chairman.
    I'd like to kind of have a discussion both with Mr. Horne 
and Mr. Wyatt. Because I think in following comments that you 
made and that Congressman Calvert made, I have a great deal of 
sympathy for the problems that you're facing in Imperial County 
with regards to the water availability. And I also, I think, 
draw on some similarities. As I think both of you know--and 
I've worked, Mr. Horne, with you over the years--I represent an 
area that has a number of similarities to the Imperial Valley. 
It's--out of the top five--out of the top ten agricultural 
counties in the nation, four of them are in my district. And on 
the west side of the Central Valley we have had a host of 
serious issues surrounding water availability and the 
contractual obligations between our irrigation district, like 
yours, and the Federal Government.
    Fifteen years ago it was proposed in Westlands Irrigation 
District that we consider the concept of fallowing. I might 
tell you that I don't think I have to tell you that it was not 
embraced with great enthusiasm 15 years ago. As you are dealing 
with the political ramifications of the current proposal that 
you have discussed here this morning, I am sympathetic. But let 
me give you a bit of a different take. And Assemblymember Kelly 
and I are among the few remaining persons in the California 
legislature that are still actively engaged in farming.
    As Chairman of the Senate Agriculture and Water Committee, 
I view myself as an advocate for California agriculture. But I 
don't think you have to be a rocket scientist to figure out 
that agriculture is changing dramatically, not only in 
California but across the country, as we attempt to compete in 
world markets. That's just a fact of life.
    I'd like to describe it differently, but one of the glaring 
errors that we have today is that we aren't really basing a 
farm policy on a national level on the international 
implications that we're dealing with as it relates to our 
foreign policy.
    The amount of agriculture that we have in production today 
is going to change in the next ten and 20 years. That also has 
to be factored in on how we solve our water problems. The fact 
is that too many of the crops we grow in California today have 
been losing money. Simply stated, they don't meet the cost of 
production when you, at the end of the year, sell those crops 
on the marketplace. If it wasn't for the Federal support 
programs in many instances, many of our farmers would not be 
able to stay in business. So I think we need to factor that in 
when we look upon the impacts of how we provide water and its 
availability.
    It just seems to me that I would have never been able to 
advocate 15 years ago that we retire 150,000 acres of land on 
the west side of the Central Valley. And yet today the farmers 
in my area are actively seeking support on the state and the 
Federal level to in fact do just that. Fifteen years ago that 
would have never happened. I mean, they were farmers, they were 
good farmers, they want to continue to farm. But they have seen 
a whole series of adversities come their way. And now we're 
looking at losing the complete equity that they have in their 
land. And therefore, they are faced with attempting to cut 
their losses.
    Now, your unemployment in Imperial County is double-digit, 
correct?
    Mr. Horne. Correct.
    Mr. Costa. What's the current level?
    Mr. Horne. I believe the current level is somewhere around 
17, 18 percent.
    Mr. Costa. I'm very sympathetic. Fresno County is 15 
percent. Kings County is at 14 percent. I know from whence you 
speak. My other two counties are in double digit as well. It 
just seems to me that we have to look further down the road and 
try to get the side--behind the inflammatory rhetoric that is 
going both ways.
    You know, I--you know, there's a pox on all of our houses. 
But the fact is we're all in this together at the end of the 
day. California is not going to secede. Our Federal partners 
are critical, and we've got to figure a way to work through 
this.
    A mitigation program I think can be put together that 
addresses the issues at hand. A temporary conservation program 
that has a 5-year time set or other time period. To see how 
that works I think is something we need to look at. It just 
seems to me that we need to allow cooler heads to prevail. We 
need to dampen the inflammatory rhetoric that's been out there 
in recent weeks, and we need to figure out how we're going to 
provide some solutions that are satisfactory to Imperial 
Valley, to the Imperial Valley Irrigation District; solutions 
that you are offering that you are partners in, not solutions 
that are being handed to you, if we're going to make this work. 
And I--and I know my colleagues at the dais here are willing to 
be your partners in bringing the various elements together to 
achieve that end.
    Imperial Valley Irrigation District, Imperial County is an 
important part of the State of California. I know. I have 
visited your communities over the years. I see all the good 
work, the hard work that is being done for the people who live 
there. But we've got to figure out a way in how we sign this 
Quantification Agreement.
    When Congressman Calvert asked you, Mr. Horne, what was the 
solution, and you kind of reversed the question, I think we 
kind of know what the solutions are. The fact is, you don't 
like some of the aspects of the solutions. I understand that. 
We've got to figure out how we work through those aspects that 
you find that are troubling, and we've got to do that sooner 
rather than later. And whether that means bringing all the 
parties together in a room for a day or two and hammering this 
out, we've just--it's absolutely critical that we do so.
    Agriculture is not going to be the same in Imperial County 
10 years from now, any more than it's going to be the same as 
it is in Fresno County or Tulare or Kings County. And we've got 
to figure out how we address that in the future.
    But I'm absolutely convinced we can mitigate the short-term 
impacts of the proposed--or the different proposed conservation 
plans in a cooperative way.
    Would either of you like to comment on that?
    Mr. Horne. Want me to go?
    Mr. Costa. Yes, Mr. Horne.
    Mr. Horne. We have--and I think certainly, you know, the 
idea of considering all the alternatives is one that we have 
agreed to. The RSDIR/EIS that was commissioned 4 years ago 
looks at fallowing as an alternative to conserving water. The 
socioeconomic impacts were also studied. And the socioeconomic 
impacts of the--at least that are indicated and reflected in 
the conclusions in that report, would certainly indicate that 
type of program will have some rather large socioeconomic 
impacts. It just does nothing, of course, to go further and try 
to identify how you would go about mitigating that.
    I'm very curious, Senator Costa, as to the basis of your 
confidence on how this type of a program could be dealt with or 
addressed, because there have been no models. There have been 
no previous experiences in a long-term fallowing agreement.
    Again, I question seriously the idea of a short-term 
solution for a long-term problem. California--this agreement we 
have with the San Diego County Water Authority is a 75-year 
agreement. And I think you change the dynamic tremendously if 
you go to a short-term deal. I've had discussion with Director 
Hannigan about mitigation that has been put in place for the 
drought land fallowing that was done in Northern California. 
That's a 1-year agreement. There have been studies that were 
done in Palo Verde, a 2-year agreement. If you now talk about 
perhaps a 5-year quick-fix type of deal, again, that doesn't 
solve the problem. In surplus criteria alone, a 15-year 
agreement--I think the other states would reject the idea that 
some 5-year band-aid fallowing program in the Imperial Valley 
would satisfy them as to the commitment of California to reduce 
its draw on the Colorado River over a long period of time.
    Mr. Costa. Mr. Horne, I think there's a number of options. 
I suggested 5 years as one option. You and I know that if you 
were to take 30,000 acres of land of which the Imperial Valley 
Irrigation District service area is much larger than--what's 
the current service area of land in production?
    Mr. Horne. In production we have about 425,000 acres.
    Mr. Costa. 425,000 acres. And your land is about the size 
of Westlands. It's not all the same. It's not all of the same 
level production; is that correct?
    Mr. Horne. Correct.
    Mr. Costa. Correct. 30,000 acres--just pick a number--with 
six acre-feet of the water with a net yield of four, you 
extrapolate that, you create a voluntary program. No mandates, 
no forcing anyone to do anything they don't want to do. They 
look at the cost of production here on some of these crops 
where folks are continuing to lose money year after year after 
year. My guess is you'd have a number of folks who would want 
to participate in it.
    Mr. Horne. No question about it.
    Mr. Costa. OK. You add the numbers at four acre-feet net 
yield, you're up to 120,000 acre-feet of water.
    Mr. Horne. Right.
    Mr. Costa. So it seems to me that there's ways in which we 
can fashion this. There are a number of options out there. I'm 
not trying to pick them for you. I'm trying to suggest let's 
sit down--
    Mr. Horne. We have discussed them amongst ourselves and 
with others, including people in Sacramento and Washington.
    Mr. Costa. So--
    Mr. Horne. And the obligation that we have of cooperation 
with California and the Federal Government in terms of helping 
California and Colorado River Basin work some of these issues 
out is certainly not one that we take lightly.
    Mr. Costa. I'm not suggesting that you do.
    Mr. Horne. Our primary obligation is to protect the 
interests of our community.
    Mr. Costa. Absolutely. That's what you were elected to do.
    Mr. Horne. And the fallowing program that rewards 
landowners in the Imperial Valley, we're taking their land out 
of production, and ignores the other effects, the ripple 
effects in our economy, is not something that I believe is an 
option.
    And even if you could figure out and find out what those 
exposures in our agreement, for the amount of water that you're 
talking about, would be roughly a thousand jobs and an impact 
of our economy of somewhere in the neighborhood of fifty 
million dollars annually, according to the agreement.
    Now, we don't have other studies on that. We have 
economists that have looked at those numbers that CH2 and Hill 
did, the contractor, had agreed that they are sound. Others 
have looked at it and questioned the validity of those numbers. 
We haven't seen any sound scientific data that would indicate 
that those numbers are way off.
    Mr. Costa. When Westlands was cut back on the reallocation 
of the water we did a study in Fresno County about the 
potential plant closure. And you're describing plant closure. 
And I can share that study with you in terms of the impacts of 
the loss of jobs. The fact is that we've lost over 150,000 
acre-feet of water. And we're going to lose probably a hundred 
thousand plus acres of land in the next five to 10 years. And 
we don't have any guarantee yet of a mitigation program.
    I think the willingness of all of us to consider a 
mitigation program for the sake of making this quantification 
settlement work, given other examples around the state, is a 
significant step.
    Mr. Horne. Well, I--you know, I spoke with you before about 
this issue. I think drawing parallels between the Westlands 
situation and ours is somewhat risky--
    Mr. Costa. There are similarities and there's differences.
    Mr. Horne. Yes. Including the fact that we have the water. 
We have a permanent service contract with the Federal 
Government and pre-1914 probative water rights, and pre-lower 
canyon project effective rights that do not put those water 
rights, we believe, at risk of being cut back by some 
unilateral action of the Federal Government. And to fallow land 
in the Westlands District is to make water available to other 
users within that district.
    We're being asked now to make water available outside of 
our district, and at the expense of our agricultural economy. 
And I would be happy--and I'm sure that there are studies being 
done--that would look at other areas. Like I said, we've looked 
at the Palo Verde--
    Mr. Costa. Isn't your yield firm at 2.9 million acre-feet 
as a result of this agreement?
    Mr. Horne. Well, we would have--under the QSA we'd have 3.1 
million acre-feet of water rights out of the third priority for 
California.
    Mr. Costa. That's a benefit, is it not?
    Mr. Horne. Excuse me?
    Mr. Costa. That's a benefit, is it not?
    Mr. Horne. Oh, absolutely. Absolutely.
    Mr. Costa. And that gets overlooked here a lot.
    Mr. Horne. We do certainly not overlook it. That's why we 
are absolutely committed to getting this thing done, providing 
it can be done in a way that does not unreasonably impact our 
future and our economy. We have that 3.1 million acre-feet, and 
even more today, if we want. And we believe that quantifying 
that is a benefit to all the water users in California 
including us. Because it assures us--but don't forget, as I 
pointed out, that we are of that 3.1 committed to transfer 
500,000 acre-feet of that over a long period of time to other 
water users in the area.
    Mr. Costa. Mr. Chairman, I don't want to belabor this issue 
and I've exceeded my time, but I really sincerely want to 
encourage the Imperial Valley Irrigation District to work with 
us to figure out how we can reach an agreement on a 
conservation program. And we've got to lower the rhetoric. No 
one is trying to suggest, you know, how you want to drive your 
train. But we're all in this together, and we've got to try to 
figure out solutions that are applicable to all the parties to 
allow us to get there. And I think we start first by lowering 
the rhetoric and figuring out how we can come to solutions that 
are achievable and that are acceptable by all parties.
    Mr. Calvert. Thank you, gentlemen. Ms. Bono.
    Mrs. Bono. Thank you, Mr. Chairman.
    I guess I'll begin with Mr. Horne. One thing we haven't 
discussed here so far is the $50 million annually once the 
transfers are in full effect, where that $50 million will go. 
And I was wondering if you could just sort of share your vision 
on that kind of money and what your plans on--not your personal 
plans, but--
    Mr. Horne. I have some.
    Mrs. Bono. Because I don't believe that we're discussing 
that enough and I'd like to have a better understanding of 
that, if I could.
    Mr. Horne. Well, I think, Congresswoman, that it would 
depend entirely on the type of program to be implemented. Under 
the original concepts of the money that--the bulk of that 
money, probably at least 80 percent of it, would be paid out to 
improve and implement onfarm and systems including water use 
technology in the Imperial Valley. It's going to be a very 
expensive program. It's going to create jobs in our county by 
taking that money and infusing it into our farm economy and 
into capital improvements. Some of that money would be used for 
offsetting and mitigating environmental impacts, not only the 
Salton Sea but also in our drainage system which needs to have 
reduced water quantities. Some of the money would be used to 
reimburse us for the loss of water savings, the Irrigation 
District toward administrative costs, lost water savings and 
lost power revenues. We are now generating water-- generating 
power with that water that comes down through the All American 
Canal, so that would, we believe, perhaps be sufficient to 
address that.
    Converting, on the other hand, the conservation technology 
to the fallowing based approach raises a number of issues. 
First of all you would have to provide an incentive in that 
agreement--and any agreement that we would have with our local 
landowners, as Senator Costa indicated, would have to be done 
to get to participate in the program. In the Palo Verde case, 
for instance, there is a set dollar amount paid to the 
landowners. I think it's on an average of $180, $175, between 
$150 and $200, depending on the amount of water per acre foot. 
So if it was toward the upper end of that, then you'd have 
maybe forty million dollars or something like that that would 
have to be paid out. And the balance of that would have to be 
used to do the same--some of the same mitigations that would be 
done for the drain system. The fallowing program certainly 
addressed the mitigation problems of the sea but we still have 
in-valley mitigation issues to deal with that have to be paid 
out of that revenue stream. The same administrative and perhaps 
more administrative costs, the same power and water sales 
losses of revenue that would be compensated for.
    The big wild card in that equation is this issue of third 
party impact. If you compensate for his loss of income, how do 
you then turn around and compensate the farm workers and the ag 
supplier of fertilizer and seed and farm equipment and fuel 
that is now being used to produce crops on that ground. And Mr. 
Levy's concept of phantom farming, with all respect to that, I 
think is one of the most ludicrous--sorry about the rhetoric, 
Mr. Costa--one of the most interesting concepts--
    Mr. Costa. There you go.
    Mr. Horne. --that I've ever seen. We have put this in the 
pipeline to study. It may be a very short pipe. However, it 
would depend--that revenue stream would have to be tailored to 
the type of program.
    In a fallowing program we don't believe that there's enough 
revenue under the current revenue stream generated by the 
agreements either with San Diego or Coachella to fully offset--
to pay the incentive that would be necessary and to offset the 
third party interests. We don't know what that number is, but 
we are working on that and we are studying. And we believe that 
some mitigation plan would have to be developed if that program 
were ever to be embarked upon. And if it were ever to be proven 
to be acceptable to the people of the Imperial Valley as a way 
to go, we would have to fully assure, as Mr. Wyatt said, that 
all those issues including additional--and Congresswoman, I 
know one of your big concerns is the air quality issue of 
Salton Sea--we might expose tens of thousands of acres of 
shoreline to the wind. If we fallow 75,000 acres of farm land 
in the Imperial Valley, that will be exposed to wind. And we 
have to look at the air quality implications of that type of 
event. And so we have some real--a lot of work to do in a very 
short period of time that we need to seriously consider.
    Mrs. Bono. Do the farmers of Imperial Valley, in your 
opinion, worry about air quality coming off of the Salton Sea?
    Mr. Horne. I think one of the big problems--one of the big 
concerns that I've heard articulated by the farmers is this 
issue of long-term, open-ended environmental cost risks that 
are not addressed and provided--and assurances provided for in 
the set of agreements that we are contemplating, that is one of 
the big--other than, you know, are they going to get enough 
money out of the deal to make it worth their while--the second 
biggest is this issue of environmental mitigation risks.
    Mrs. Bono. So when you said in your testimony, before the 
terrorist comment, I think, about protecting ourselves, do you 
believe that people of the Coachella Valley have a right to 
protect themselves for air quality issues?
    Mr. Horne. Absolutely. Absolutely, Congresswoman. I sit on 
that Salton Sea Authority Board. I supported the resolution 
that encouraged water conservation to be done in a manner that 
would not significantly lower the Salton Sea elevation. But 
particularly for that--one reason, for that very reason, other 
than the--
    Mrs. Bono. So you were a terrorist at that point, right?
    Mr. Horne. Pardon?
    Mrs. Bono. You crossed the line into the terrorist side of 
things at that point?
    Mr. Horne. No, no, that wasn't terroristic, that was 
consensual. There's a difference.
    Mrs. Bono. Well, while you were on the Salton Sea 
Authority--and you currently sit on it, have you asked for--
    Mr. Horne. Currently my board is considering removing me.
    Mrs. Bono. Might be the best thing that ever happened to 
you. Have you asked for adequate air testing to be done?
    Mr. Horne. In terms of the sea?
    Mrs. Bono. Uh-huh, and shoreline exposure?
    Mr. Horne. The report--some of the comments received from 
the draft report that was circulated, from my understanding--
and I'm not handling that on a day-to-day basis--were directed 
at the inadequacies of the report in addressing potential 
impacts for air quality. And I know ongoing study--there was a 
symposium held in regard to air quality impact. I don't think 
there's enough information in terms of what the magnitude of 
those impacts would be at this point. And I think there's where 
our consultant was hiding behind. Nobody knows what'll happen. 
I think it has become concluded that there is a potential risk 
there. And I don't think anyone would--would be well-served or 
smart to ignore those impacts because one of the risks is we 
don't know what all the impacts might be. And that's certainly 
one that would tend to develop down the road in terms of 
implementation of these agreements. So if we got down the road 
20, 30 years, and there's a receded shoreline, when all a 
sudden the air quality issue, who is going to be blamed and 
who's going to pay for that? And that's the concern that our 
landowners and farmers and our electric people have down there, 
and our citizens.
    Mrs. Bono. Thank you. I'm going to--Supervisor Wyatt, if I 
might move on to you, can you explain to me what your thoughts 
are on the negative ramifications of a deteriorating sea.
    Mr. Wyatt. Well, as we've discussed before, I have some 
great concerns about that. I believe the sea to be one of the 
greatest resources that we have in Southern California, period. 
It has been better utilized in the past, and we believe it can 
be realized in the future. But certainly we have a great 
concern about the air quality impacts. We have just avoided 
moving into the serious nonattainment, because we achieved a 
but-for designation from the EPA, which consequently has gone 
back to court and is being taken in task all over again.
    So we are, like I believe you are in Coachella Valley, 
we're in moderate nonattainment. So we have a great concern on 
the board, as we've had many discussions about the air quality 
issues. So that is certainly one of our great concerns.
    The other thing is that the sea represents a great economic 
opportunity for us. If the sea is not restored and it is not 
maintained, therefore, we will never realize that as you will 
never realize it in your area and, therefore, we will never see 
the economic benefit from what the sea could be. And I believe 
that it's a multibillion dollar industry awaiting if we can 
restore and maintain the sea. So I believe it's one of the 
future answers and one of the future needs for the Southern 
California. It's not just for Imperial County or Coachella 
Valley, but all of Southern California benefits from a restored 
vital sea for the recreation opportunities alone.
    Mrs. Bono. Are you in current discussions with the 
supervisors of Riverside County about these questions and 
problems? When was the last time you've talked to them about 
it?
    Mr. Wyatt. Yes, I have been in contact with one of the 
supervisors who sits on the Salton Sea Authority, Mr. Roy 
Wilson. And we've had some discussions about some potential 
opportunities to resolve some of the difficulties of the sea, 
and we continue to discuss those. As you know, I sit on the 
Salton Sea Authority also, with Mr. Horne and others. But we 
have been in discussion and will continue to be so in the 
future as we are looking forward to some opportunities to help 
resolve some of the difficulties.
    Mrs. Bono. All right. Thank you.
    I have one last question, Mr. Chairman, for Mr. Turner.
    If you can briefly outline for me what--or from Ms. 
Stapleton, whoever, I'm happy to have anybody answer it--is if 
you've made any offers to the Salton Sea Authority or to 
Coachella Valley for mitigation efforts.
    Mr. Turner. I'm sorry, the question was--
    Mrs. Bono. If you all have--we in Washington have talked 
about ways of coming up with creative solutions that are 
outside of the box for addressing who's going to pay for 
ramifications, negative consequences from the transfer. Have 
you worked with Salton Sea Authority or made offers to them or 
to Coachella Valley for mitigation efforts?
    Mr. Turner. Well, we haven't made offers. Our deal with IID 
in our opinion had enough dollars in it to take care of the 
mitigation efforts and so forth that were necessary at the 
time. And we had certainly thought that the Federal 
Government--they were on a track ahead of us on this deal, so 
that we thought that the Federal Government was going to come 
up with a solution. And I believe we're still waiting for a 
report to come out.
    So our position has been, we're--we like the deal 
basically, and IID liked the deal when we made it. So we 
haven't really addressed that.
    We're open to talk about those issues. My board doesn't 
give me a blank check and come up here and make these promises, 
but I'm certainly amenable to look at it. And my board's 
amenable to look at all the alternatives.
    Mrs. Bono. Thank you. I just will close with, the way I'm 
viewing this is that we all agree the QSA has to be enacted and 
signed, and that's not an issue. And we all agree that somebody 
is going to pay a price here and consequences. But it's a 
matter of almost triage now, and addressing most of these 
consequences first. And that's where I am. And I just want to 
compliment my two colleagues up here for their comments 
earlier, I think they've been right on point.
    Thank you, Mr. Chairman. I yield back.
    Mr. Calvert. We're going to take a 5-minute break and come 
right back. So if everyone can stay in the general vicinity, 
we'll be right back in 5 minutes.
    [Recess.]
    Mr. Calvert. OK. Assemblyman Kelly, you're recognized.
    Mr. Kelly. Thank you, Mr. Chairman.
    If I may, I think a little bit of history--and Andy, you 
might as well stay up right there--is in order here. A number 
of years ago, Mr. Wyatt, the county board of supervisors 
approached me and said conservation is the theme of trying to 
resolve the problem here. They approached me to introduce 
legislation on fallowing in the Imperial Valley. And first 
thing I did was go to the University of California at Davis to 
ask for a definition of fallowing on the approach to try and 
come up with a formula for what you as the board of supervisors 
would adopt. The University of California could not come up 
with a definition of fallowing. And that's why the legislation 
never materialized, because we couldn't even define the issue. 
Now, this shows you how complicated it is. It shows the rest of 
the audience how complicated the issue is.
    This is not to say that fallowing doesn't take place. The 
farmers down there in the Imperial Valley as well as the 
Central Valley or anyplace that you're farming in a 
multicultured nature, not in a monoculture like I do, they 
fallow on a voluntary basis. They're making the decisions on 
the economies of the agriculture, of what the crops are that 
they think will be profitable or not profitable. So there's 
land being fallowed at the present time in Imperial Valley. I 
don't know exactly how much. Maybe Andy or someone can tell us 
how much is actually being fallowed on a voluntary basis there 
now. I just don't know what it is.
    But to go back and talk about the conservation, so forth, 
that has occurred in the Imperial Valley, and I think one of 
the early programs was the arrangements between the 
Metropolitan Water District and the Imperial Irrigation 
District where the Metropolitan Water District agreed to line 
certain canals with cement down there to stop the seepage of 
water, and that water would be conserved, and you would get the 
water in exchange for paying for the lining of the canals. 
Maybe one of the issues here is to--and I don't know where you 
are in the status of this--but to hasten the completion of that 
project so that the water conservation could be there. And I 
don't know how much more there is to be done. But there--there 
is that particular program that is in place down there, and 
that could be completed.
    The other thing that we have done in the legislature--and 
Mr. Hannigan--I don't know where he disappeared to, if he's 
still in the audience or not--but the legislature a couple 
years ago came up with $200 million for the lining of the All 
American Canal. And the All American Canal was originally 
constructed by the Federal Government but turned over the 
responsibilities for management, maintenance and so forth of 
the Imperial--of the All American Canal to the Imperial 
Irrigation District. And over the years the Imperial Irrigation 
District paid off the obligations for the construction of that. 
And the All American Canal is under the jurisdiction of the 
Imperial Irrigation District, but yet you have not received 
title to the project as of that date. So it's still under the 
jurisdiction of the Federal Government as far as title is 
concerned, but you still have the responsibility of maintaining 
the canal.
    Now, the State of California came up with the $200 million 
to line the canal for the water conservation. I'm not sure 
exactly what the amount of water was, but we're looking in 
excess of a hundred thousand acre-feet. I think it's around 
106,000 acre-feet of water. And then there's the lining of the 
Coachella branch of the All American Canal. And I don't know 
what the status of that is. But you're pretty well along with 
the lining of that canal. I don't know if you're finished yet 
or not, but there's that.
    So here we have these projects that are in existence that 
have--that agreements have been made, projects have been 
started. And there are conservation programs going on with 
these projects in the Imperial Irrigation District. It just 
seems to me that there should be some expansion or something 
done to expedite the completion of these projects, if they 
aren't complete, or hasten the beginning, especially in the All 
American Canal project, hasten that project if we can possibly 
do it. And then we will be in a positive mode to get what we 
have to get done.
    The question comes up, with these projects being funded to 
a certain extent in the pipeline, so to speak, what has the 
Imperial Irrigation District done for onfarm conservation. Do 
you have any programs that are of a nature that you could adopt 
that would be of an onfarm conservation by the individual 
growers down there?
    Now, this brings into play the fallowing question. And 
the--that's all right, Andy, get up there so you can answer all 
this.
    This brings into play the question of the fallowing. And 
then I'm sure you're well aware that the Farm Bureau, Imperial 
Valley Farm Bureau, supported some degree of the fallowing 
programs down there. So maybe you can answer, where are we in 
the project of the conservation programs. What are you doing 
with your onfarm conservation at the present time? And like I 
say, the Farm Bureau supports that sort of thing. And what's 
the completion date of the lining of the ditches down there in 
Imperial Valley with Metropolitan?
    Mr. Horne. 2006 is our time line.
    Mr. Kelly. 2006.
    Mr. Horne. First of all, Mr. Kelly, the conservation of 
water in the Imperial Valley and the IID is something we take 
very seriously. It actually started long before we entered into 
the agreement with Metropolitan Water District in 1988 to 
embark on that program. Our farmers in our district have paid 
for a number of lining--canal lining programs and conservation 
measures which would amount to hundreds of millions of dollars 
expended to be able to allow us to use the water that we have 
more efficiently.
    The formal program of doing conservation and transfer 
programs, our idea was initiated with Met in 1988, and that 
agreement is completed. It's yielding today between 106-, 
110,000 acre-feet. So those--
    Mr. Kelly. That's in the 500,000, you say--
    Mr. Cohen. That's included in the 500,000 I mentioned 
earlier. Now, that program was not just limited to lining 
canals. It also included some onfarm conservation measures, 
including allowing more flexible irrigation delivery schedules 
and some pump-back irrigation systems similar to what were 
being contemplated taking place in the San Diego program.
    As you know, after the agreement with IID in San Diego was 
signed there was an agreement to--as part of the compensation, 
asked for in terms of the wheeling of that water through their 
system to San Diego, some funding made available to line a 
portion of the All American Canal and the Coachella branch of 
the All American Canal, total yield of which, my understanding, 
is about 93,000 acre-feet, of which 16,000 acre-feet will go to 
the San Luis Rey settlement. So there is some money available.
    It's my understanding--and Senator Costa might recall--that 
those lining projects will not take place unless the--since it 
was done in compensation for the wheeling of that water, unless 
the transfer with San Diego and IID goes through. So my 
understanding is it's contingent. The completion of this 
project is contingent. Not to say it wouldn't be a good idea to 
go ahead and do it, that the water would be made available to 
California or to somebody. The state could pay for it and turn 
around and sell it, and perhaps recover some of the costs. 
Because the money is there. My understanding through talking 
to--we've entered into--Coachella has finalized their funding 
agreement, we've signed ours, and I think they're ready to go, 
and I think we're darn near ready to go to get started on this 
program. So I think we'll be completed within three or 4 years.
    Mr. Kelly. Well, if there's any way to expedite the 
completion of those projects, I think you ought to take a look 
at it, because that's going to help, you know--
    Mr. Horne. That will be up to the state, Senator Kelly. 
They control the purse strings.
    Mr. Kelly. Well, I know we came up with 200 million. Now as 
I understand it, because of the lack of action between the time 
we came up with the money and today, it has roughly gone up 
fifty million dollars. So you're really looking at 250 million 
for the project.
    Mr. Horne. If the decision were made to go forward with 
both of those projects, I think that either IID or Coachella 
would not stand in the way. That's my--IID's position is that--
and we haven't discussed it in depth--that those projects might 
very well make sense on a stand-alone basis.
    The other question you asked about fallowing as embraced by 
the Farm Bureau, the Farm Bureau came up with a proposal, a 
Committee of the Farm Bureau, to do some--one of the other 
concerns--and Congresswoman Bono asked about concerns that the 
farm community had, and it goes back to this issue of money, 
was the up-front cost of implementing these conservation 
measures. And they are substantial. You figure there might be 
200- to 300,000 acres involved, and the average cost of a 
thousand dollars maybe an acre to do the conservation, you're 
looking at several--maybe over a hundred to $200 million.
    And there's no provision in the San Diego agreement, as 
there was in the Metropolitan agreement, for the water agency 
to front-load those costs. They look at fallowing as a bridge 
to financing the onfarm and system improvements that would be 
done under the program. It was not as a water conservation and 
certainly not a long-term conservation measure. It's strictly--
my understanding is it's strictly as a means to raise the 
capital necessary to allow the conservation measure to be put 
in place. And I believe that if you're talking to the members--
many members of the Farm Bureau, they share many of the same 
concerns in regard to the fallowing program as we do.
    I don't know that I personally share Senator Costa's 
pessimistic view of the agriculture in this country. We have 
farmers down there now looking at growing new crops like sugar 
cane to help California meet its ethanol fuel requirements. So 
I think there's a bright future for many new crops. We haven't 
thought about the cane as being something that could be grown, 
as long as we have the water to do that.
    Mr. Kelly. Do you have any idea how many acres are 
voluntarily fallowed down there?
    Mr. Horne. I think it ranges between 25- and 50,000 acres 
that are--and we have even more land than that. We have about a 
million acres in our--
    Mr. Kelly. Service areas--
    Mr. Horne. --that are titled to receive water, or could 
receive water. Many of those acres do not have a delivery 
system. So of those that have been fallowed, I think recent 
crop history--it's usually--I think this last year is around 
25,000 acres. So fallowing certainly has--as you stated 
accurately, most of the fallowing is done for economic reasons.
    The fact of the matter is, if any additional water had to 
be made available to a transfer program, then that many more 
acres, up to--I think Mr. Levy's program suggested 82,000 
additional acres would have to be fallowed to provide the water 
that was necessary to meet the obligations of the transfer. And 
that doesn't--I don't believe the 82,000 acres included the 
acres-feet of water necessary to maintain the elevation of the 
sea.
    Mr. Kelly. But your service area encompasses something like 
600,000 acres.
    Mr. Horne. I think in the Imperial, it's somewhere in that 
neighborhood. I mean, you have the east and west basins.
    Mr. Kelly. Yeah. But--well, you discussed the third party 
impacts of all this. Let me--you know, if they fallow so much 
land and this sort of thing, let me just state for the record 
that in the Imperial Valley there are a lot of things going on 
right now. I'm sure you're very conscious of it. And I've been 
heavily involved in that. In Brawley, for example, a meat 
packing facility that is going to create tremendous jobs 
because of the manufacturing enhancement settlement that we 
placed on that area, that's going to bring a lot of employment 
in that area. We're also discussing moving or putting an 
additional campus for the University of San Diego State up in 
Brawley. We just were there the other day. And if you move that 
campus, or add to the campus that existed at Calexico up there, 
we're going to have tremendous opportunities. And along with 
all of this goes the allied businesses that come with the 
facilities that are there.
    And so I think that the job opportunities as the general 
economic picture changes down there, as it is changing very 
rapidly, these new facilities that are being built, these are 
the opportunities that you're going to have as you transition 
maybe from some of the agricultural areas into these other 
areas. This is where the people are going to find the jobs. 
Because the jobs coming in for the meat facility, for example, 
are very high paying jobs, very well-paid jobs, and the numbers 
are gaining daily as you look at the potential slaughter of six 
thousand head of steer a day down there. So that takes a lot of 
people to do all of that.
    Mr. Horne. Well, I agree with you, Assemblyman Kelly. The 
only thing I would point out is another area that you forgot to 
mention that I'm sure you are very well aware of because we've 
talked about it is the idea of attracting the dairies into the 
Imperial Valley. That would certainly enhance our economy. Both 
the beef industry and the dairy industry--and I'd like to make 
this point, are supported heavily by the growing of what Mr. 
Levy terms low-value crops. There's a low-value crops being 
produced that supports a very high dollar industry. Meat is our 
biggest industry, and the dairy industry in California is a 
huge producer of red meat. But the cows can't eat money. They 
have to have alfalfa. And the only way to grow alfalfa is with 
water. And we are short-changing ourselves if we think that we 
can support beef and dairy industries in Imperial County 
without an adequate supply of alfalfa. That's one of the 
reasons they're looking at moving down there is to be able to 
take advantage of the production of the alfalfa and other 
forage crops. So if you take away the forage crop industry, you 
gut the dairy and beef industry.
    Mr. Kelly. I understand that. And you're well aware that 
there's a high percentage of beef coming into that plant that 
are imported from other regions.
    Mr. Horne. I'm not aware of that at all. I understand that 
all the beef coming in there is coming in locally and from 
Arizona.
    Mr. Kelly. And Arizona.
    Mr. Horne. Right.
    Mr. Kelly. But there's a high percentage coming in from 
other areas. Anyway, so we're in a transition period here. 
We're also in a transition period in other regions around the 
State of California. There's no question but what the 
agrieconomy is in trouble, certain areas, certain commodities 
are having a very difficult time at this point in time. So we 
have to all look at ways that we can modify, ways that we can 
adjust.
    As you look at the conservation programs that are already 
in place out there, if there's any way that we can expedite 
that, if there's anything that we can do to have this play into 
the Quantification Settlement Agreement, if there's anything 
that we can do as far as those of us in the state level, that 
$200 million that we have available up there, if we could kind 
of kick that loose, maybe add fifty million to it, why that 
would really help.
    Mr. Wyatt. Just make sure it doesn't disappear in the next 
few days at Committee hearings.
    Mr. Calvert. All right. Thank you, gentlemen.
    Before I turn it over to Mr. Hunter, I just want to point 
out to both Mr. Horne and Mr. Wyatt that, as you know, most of 
the dairies are in my district, and quite frankly, they're 
going to move. And I've been working with them to encourage 
that movement here to Imperial County. And I think you've been 
getting some positive news recently that one major dairy has 
made a determination to move there. And I think it's under 
construction and I think you will have some news on several 
others hopefully in the near future. And obviously those pay a 
lot more in wages and employ a lot of people.
    Mr. Horne. I couldn't agree with you more, Congressman 
Calvert. I just want to make one observation. That is that some 
of the dairy people that have come down there have asked 
questions of us, are you going to have enough water for us. 
Because they're concerned. They hear in the news media that 
we're in the process of drying ourselves up. And we try to 
assure them that we've got plenty of water and will continue to 
have plenty of water--
    Mr. Calvert. I know you're going to do a lot better for 
them in Imperial County than we can do for them up in the Santa 
Ana River basin.
    With that, Mr. Hunter.

   STATEMENT OF THE HON. DUNCAN HUNTER, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mr. Hunter. Thank you, Mr. Chairman.
    And incidentally, we've had one town meeting with the dairy 
folks in the valley, and I know you were at that thing. And we 
hope to have another one here in the next several months. So 
we'll keep working on that issue.
    It's great to be with you. And to my colleague Mary, Mary, 
it's neat to be in your district. You've really worked this 
issue hard, we really appreciate you.
    And Dave Kelly, one of the smartest guys in water the 
state's ever had, working those issues. Great to see you. And 
I'm sorry you're leaving us.
    And Senator, it was good to hear your words.
    And I think what we ought to do is kind of go back and look 
at the big picture here. The big picture is that--and I may be 
asking Mr. Horne or other members to respond when we get to a 
few questions here. But the big picture is that this deal was 
put together to--basically on a pretty good model. And the 
model was that folks who get 140 bucks a ton for alfalfa can't 
afford to do all the water conservation measures that they 
could afford to do if they had more money. And for folks in 
urban areas who buy spring water for a buck-fifty a liter, it's 
worth the money to be able to send money to the ag areas and 
free up some of that water by paying for those conservation 
measures. And both interests are fairly well attended to.
    And I think another point to make here is that when this 
deal was put together, the folks in the valley, No. 1, are the 
IID. The IID is not 500 farmers, it's all the voting populace 
in Imperial County. So it's 140,000 people. All the voters and 
their families and all the folks who depend on them for their 
livelihood.
    And Mary, driving down here through your great district, I 
came over the top over from San Diego, came over the Santa Rosa 
Mountains and I saw all the new construction and all the new 
businesses. And I just thought about that as I was coming down, 
how many folks would be stacked in here if there was a hearing 
on whether or not this part of the Valley was going to lose 
some of its water. Because of course everybody who has invested 
their life savings in a business or has a family here would, of 
course, be very upset and would be--would be here and make 
themselves heard.
    But we did put this deal together over the years. And at 
every point folks at Imperial Valley who had their life 
investment in that valley--that includes folks with dry 
cleaning establishments, and people that work and carry a lunch 
bucket for a living, and folks in all the industries that 
attend ag, constantly ask their representatives, so their 
democratically elected representatives, are we going to have to 
fallow. And the answer was always no. We'd been assured that we 
weren't going to have to do that. To the point that when the 
contract was made, there's a provision in the contract-- not 
for the benefit of San Diego County, because I don't think San 
Diego cares how it gets water--but for the benefit and 
assurance of the folks who live in the valley that they 
wouldn't lose their water, that this water that was freed up 
would be a function of conservation, not a function of 
fallowing.
    Now, the interesting thing here is that for years the 
valley has been told that you've got to spend more money on 
conservation projects, that there's too much water flowing into 
the Salton Sea through those drain ditches and through those 
tile systems. That when you flow water over a field of alfalfa 
you got a low end and a high end, and at the low end you 
collect the tail water and it goes in a ditch and ultimately 
goes into the sea.
    And the argument from the city people has always been 
you're putting too much into the sea, you're going to have to 
conserve more water, and if you don't do it, we're going to sue 
you.
    Well, now we've signed an agreement, and the agreement 
provided for water to be freed up through conservation 
measures, mostly onfarm conservation measures that Mr. Horne 
talked about.
    And now the folks of Imperial Valley are being told, we 
told you before we would sue you if you didn't conserve, now 
we're telling you we will sue you if you do conserve. Because 
it's precisely those water conservation programs, the pump-back 
system in the fields, the extensive lining of canals and all 
the other things that reduces the amount of water that flows 
into the Salton Sea.
    Now, a thing that's kind of interesting about this hearing 
is that there's some people missing. Because this deal was 
signed, and it was supposed to be executed. It's been signed by 
Imperial Valley. They're not refusing to put their signature on 
the paper. The reason the deal hasn't gone through is because 
the Fish and Wildlife, the Federal Fish and Wildlife, and Fish 
and Game engaged with the Valley and with the other water 
agencies this last year to come up with a mitigation--wildlife 
mitigation project that would mitigate for this transfer.
    Now, I talked to Steve Thompson last night, the regional 
head of Fish and Game. I said, Steve, what went wrong, I said, 
because you understand that because we didn't get an agreement 
on the mitigation project for feeding the birds--as I 
understand, it pivoted on that the pelicans wouldn't eat birds 
and wouldn't eat fish out of ponds, they had to have the entire 
sea to eat fish out of. Because of that need collapsing, the 
water agreement has collapsed. And that means that the Colorado 
River Basin water agreement is in jeopardy. And as a result of 
all of this, California could be massively fined in terms of 
water.
    Now, Steve told me--and I hope maybe, Bennett, we could get 
him on the phone today--he said, you know, we were pretty 
close. Now I just asked John Carter, who's the counsel for the 
district, I said, were you close? And what John related to me--
in fact, John, you may want to answer this, so why don't you--
Mr. Chairman, could he hop up and answer the question?
    [The prepared statement of Mr. Hunter follows:]

Statement of The Honorable Duncan Hunter, a Representative in Congress 
                      from the State of California

    Mr. Chairman and Members of this Subcommittee, thank you for 
holding this hearing on California's Colorado River use--one of the 
most important issues facing our state. You have chosen an appropriate 
title for this hearing--``Opportunities and Challenges.''
    The opportunity came a couple of years back when Imperial 
Irrigation District (IID), within my district, saw a pressing need to 
help California reduce its excess use of water from the Colorado River, 
as well as a chance to sell conserved water to their rapidly growing 
urban neighbors. To carry out both of these goals, farmers in the 
Imperial Valley, one of the most productive agricultural regions in the 
country, agreed to irrigate the same amount of land with less water by 
implementing conservation measures like the installation of pump back 
systems and the lining of irrigation canals. These measures would be 
expensive, but could be paid for by the sale of water transferred to 
urban areas. For farmers in my district, the goal was simple--provide 
badly needed water to quicky growing urban areas and become more 
efficient with their own water use, while reducing California's use of 
the River to its annual right to 4.4 million acre feet.
    The challenge came when the win-win situation, agreed to by Valley 
farmers and urban water districts, began evolving into a nightmare. 
After the IID had done everything asked of them, and after they had 
laid out millions of dollars of their own money to fund requirements 
related to the water transfer from Imperial Valley to San Diego, they 
now find themselves trapped in a situation that virtually guarantees 
lawsuits against them, lasting decades, that will easily top $1 
billion.
    When the farmers in my district were presented with the opportunity 
to transfer some of their water for urban use, never was there any 
discussion of fallowing land to come up with the water. The 
understanding was always that the sale of water to the cities would 
fund conservation measures that they would not have otherwise been able 
to afford. Now, given the complications surrounding the impact of the 
transfers on the Salton Sea, this community with the lowest per-capita 
income and the highest unemployment rate in California is being told 
that they must sacrifice a significant portion of their primary 
industry--by fallowing up to 75,000 acres of agriculture land to send 
hundreds of thousands of acre feet of drinking water into the Salton 
Sea to lessen the impact of the transfers. The catch-22 my constituents 
find themselves in is amazing. For years, they have been threatened 
with lawsuits from environmental groups for not conserving enough 
water--now they are threatened with legal action if they do conserve 
water. That is not only wrong, it's cruel. These farmers need cover 
from litigation that will bankrupt a county whose economy is already 
struggling.
    Those that advocate forced fallowing fail to recognize that this 
approach is not as simple as paying a few farmers not to farm. It's the 
feed stores, the gas stations, the farm equipment vendors and the 
countless other businesses that rely on the Valley's agricultural 
economy that will suffer as a result of this wrong-headed proposal.
    Even more shocking is the possibility that the Imperial Valley 
could see much of their water seized by the Department of Interior and 
Governor Davis through a determination that the Valley is not making 
``beneficial use'' of their water. In 1999, the Department of Interior 
drew up plans to seize IID's water if they did not cave-in to pressure 
by the Clinton Administration. We now have a new administration, 
respectful of property rights, that I would hope will abandon the anti-
agriculture stance of its predecessor.
    Over the past year, my chief priority has been to highlight the 
pending disaster this situation has the potential to become. I have 
actively sought to develop a solution that does not destroy Imperial 
County's rural economy and that does not make my constituents victims 
of billion dollar lawsuits. Toward that goal, I introduced H.R. 2764, 
the Colorado River Quantification Settlement Facilitation Act. The 
legislation ensures that the water transfers are compliant with Federal 
environmental regulations, protects Imperial Valley residents from the 
impending cross fire of lawsuits and commits more than $100 million to 
environmental restoration and water conservation measures in and around 
the Salton Sea. Recently, I met with Senator Feinstein and Assistant 
Interior Secretary Bennett Raley to seek their proactive leadership 
with this matter. Their assistance and that of my colleagues in the 
House, are necessary to avoid a catastrophe.
    Again Mr. Chairman, thank you for holding this very important 
hearing. I value your leadership in helping to successfully complete 
California's Colorado River plan.
                                 ______
                                 
    Mr. Calvert. Yes. You may come to the podium. Please state 
your full name and occupation.

 STATEMENT OF JOHN CARTER, CHIEF COUNSEL, IMPERIAL IRRIGATION 
                            DISTRICT

    Mr. Carter. Yes. I'm John Carter, Chief Counsel for 
Imperial Irrigation District.
    Mr. Hunter. John, as I understand it, the reason the deal 
hasn't gone through and the reason we're all here to figure out 
how we can make it go through is because of permits. An 
agreement was not made on the environmental mitigation program 
that would result in the requisite permits being issued by 
state Fish and Game and by the Federal Fish and Wildlife; is 
that correct?
    Mr. Carter. That's correct.
    Mr. Hunter. What happened? What did you guys propose? What 
did Fish and Wildlife, slash, Fish and Game propose?
    Mr. Carter. The concept that was proposed is a 5,000-acre 
pond, slash, hatchery concept to deal with the impacts, the 
temporal impacts of the water conservation and transfer 
program. And we worked 9 months plus on that concept. We 
believed that both Fish and Game and Fish and Wildlife were 
going to issue permits based upon that concept. The costs 
escalated from approximately sixty million dollars, a hundred--
maybe as high as $130 million. We were concerned about the 
cost, but none of the districts--and I'll let them speak for 
themselves--said we just want to know what is it going to take 
to get the permits issued.
    And the latest information we have, No. 1, in writing from 
the Department of Fish and Game, is that they cannot issue a 
permit, as Maureen Stapleton testified earlier, based upon the 
5,000-acre pond hatchery concept.
    And my understanding is that, speaking with Bennett Raley--
he's here--is that it's likely that Fish and Wildlife will not 
be able to issue a permit based upon that concept.
    Mr. Hunter. Well, in talking to Mr. Thompson last night, 
what he relayed was, and he said--and maybe he was incorrectly 
briefed--but they came up with the 5,000-acre ponding. So that 
basically so you've got fish for the pelicans and the other 
birds to eat as the sea becomes more saline; is that right?
    Mr. Carter. Yes.
    Mr. Hunter. They came up with the 5,000-acre concept, and 
he said, ``We got back a 500-acre response from the valley. And 
we just couldn't get together. And in the end it just didn't 
work.''.
    But he said--I said, ``Well, is there any--is there any 
conclusive evidence that you can't mitigate that you can't 
provide food for fish in ponds rather than a big open body.''.
    And he said, ``Absolutely that could be done.'' He said, 
``But for some reason we just didn't quite get together.''.
    So is that your recollection of what happened here?
    Mr. Carter. No, it's not.
    Mr. Hunter. Well, is the valley willing to--and are the 
other irrigation districts willing to do a 5,000-acre lake 
program to mitigate and support these programs?
    Mr. Carter. As speaking for IID, that concept is acceptable 
to IID.
    Mr. Hunter. Well, Mr. Chairman, I think we've got work to 
do when we get finished here because we've got--we're grilling 
the guys that have already signed the agreement on the 
exclusive or the--on the terms that there would not be 
fallowing. The people of Imperial Valley who own the IID don't 
want to have fallowing but, nonetheless, they signed this 
agreement. And the permits upon which the agreement rest are 
dependent on having a program, a mitigation program, that will 
allow these birds to feed apart from the sea. And I would think 
that, at least what I've gotten from the Fish and Wildlife, is 
pretty fuzzy and pretty inconclusive in terms of whether or not 
you can have a mitigation program.
    And so I think we ought to--when you have so much resting 
on this particular issue, we ought to have those folks here 
explaining to us why you can't mitigate.
    I think you can. And at least the head of Fish and 
Wildlife, Steve Thompson, didn't say it was Mission Impossible, 
and we've discovered something unusual about pelicans that 
means they won't eat in an artificial area. He said, ``We just 
didn't get together and we just couldn't quite make it work in 
the end.'' But he said--and I quote--he said, ``We were very 
close.''.
    Mr. Calvert. If the gentleman would yield, we have an Under 
Secretary--Assistant Secretary, I should say, of Interior here 
with us, Bennett Raley. And he might also come up here to the 
podium, because I know he has to catch a plane pretty soon.
    Mr. Raley, Secretary Raley, on the issue--I guess we're 
discussing the white pelican at this point. And just for the 
record, is the white pelican an endangered species?
    Mr. Raley. It is not.
    Mr. Calvert. It's a threatened species under both Federal 
and state--
    Mr. Raley. The white pelican, my understanding is, has not 
been listed under the Federal endangered species act. I am not 
aware of what its status is under state law.
    Mr. Horne. Brown pelicans.
    Mr. Raley. Have I confused my pelicans?
    Mr. Calvert. All right. Don't mess up our pelicans here.
    Mr. Hunter. Mr. Raley, you've heard this recounting of Mr. 
Carter's position of the district of why they didn't quite get 
together on this mitigation plan. What is your recollection of 
that failure? I mean, on that failure this entire water program 
rests. What happened from your point of view, and is it 
something that is retrievable?
    Mr. Raley. First of all I need to note that I do not have 
line authority over the Fish and Wildlife Service. However, as 
a member of the Secretary's team and with the authority that I 
do have in responsibility, we stay in very close contact with 
Assistant Secretary Manson, Director of Fish and Wildlife Steve 
Williams, and Steve Thompson. My understanding is that they had 
been unable to reach a conclusion that requirements of Section 
10 would have been met for the proposal put forward, but that 
they have not--No. 1, doesn't mean they won't continue working 
or won't continue talking; and No. 2, alternative subsets, 
different arrangements, they haven't reached any conclusion on.
    So the short answer is no final, and they just haven't been 
able to get there yet.
    Mr. Hunter. Mr. Chairman, if we get to the point where the 
people in Imperial Valley don't want to accept fallowing--and I 
think at this point that's their voice through their 
democratically elected representatives. And we were close at 
one time, at least according to Mr. Thompson, to having an 
agreement that would mitigate the environmental effects of the 
sea with respect to this transfer, I think we ought to explore 
that posthaste.
    And could you tell us another thing, Mr. Raley, while 
you're up here. I asked the Lawrence Livermore Institute to 
take a look at other ways to pull salt water out of the sea, 
because that's the only way you get salt out is to pull it out 
of the water and to replace it with fresher water. And we 
looked at a couple of aquifers. One aquifer that's under the 
All American Canal, the other is that they claim they've 
discovered a potential massive aquifer that's under the Salton 
Sea itself. Could you talk about that a little bit.
    Mr. Raley. The information that we have presently does not 
allow us to conclude that there is a water resource of the 
magnitude that they were discussing underneath the Salton Sea 
district. But because we want to make sure that we haven't 
missed anything, the Bureau of Reclamation is going to be 
meeting, I believe, this month with Lawrence Livermore so that 
the scientists can get together and compare notes and make sure 
that we haven't missed anything. Because if there's an answer 
out there, we all want to find it.
    Mr. Hunter. We're obviously all waiting on the report on 
the alternatives for saving the Salton Sea. And that was--Mary, 
when was that supposed to be out?
    Mrs. Bono. End of the year last year.
    Mr. Hunter. End of the year last year. When is that going 
to be out? Because I think that that's obviously another key 
element of this whole program.
    Mr. Raley. Congressman, the department's position is that 
requirements of the law were in fact satisfied by the last 
administration but that, in deference to the wishes of the 
Salton Sea caucus that they take another look and do more work, 
that that is needed to be done and that's what we have done.
    This morning had you asked me that question before I--and I 
consult with--given the importance of these issues, with people 
from the Bureau of Reclamation every single day. I'd last 
understood that they would be able to incorporate some of the 
new information from the Lawrence Livermore review and some of 
the new alternatives. And we were hoping for, as I think I 
indicated to you and the Congresswoman and the Chairman 2 days 
ago, hoping for an end of the summer time to have released yet 
another alternative report. This morning I learned that, 
because of information on some of the vertical desalination 
technologies and some of the other stuff that's coming in, that 
it may be pushed yet beyond that, which is a concern to us. I 
know it's a concern to you. I'm just reporting what I heard 
this morning.
    Mr. Hunter. Tell us a little bit about the--you had looked 
at their recommendation that you pull saltwater out and you use 
those 12,000 acres of mud plats on the east side of the sea, 
and evaporate through an evaporation pump. What are your 
thoughts on that?
    Mr. Raley. Well, the preliminary conclusions are that, 
based on our existing knowledge base, that the solar ponds 
remain the most cost-effective. The costs are substantially 
greater than what some of the earlier estimates were. There is 
potentially water available to buy, from the aquifer underneath 
the Salton Sea, 10 years perhaps of time. But absent the 
discovery of the much larger aquifer that Lawrence Livermore 
people thought that the data--we all ought to be careful as to 
what they said, they protect--they had 3 weeks and they just 
did a literature review and they said based on what they saw 
there may be this potential for this much larger aquifer.
    Mr. Hunter. You're saying there may be an aquifer under the 
sea that could buy us 10 years of life for the sea?
    Mr. Raley. Perhaps.
    Mr. Hunter. And the only way you get salt out of the sea is 
by pulling salt water out of the sea at some point and 
replacing it with fresher water.
    Mr. Raley. Correct. And that's why--perhaps that's why 
we're going back, relooking at the good work done by Lawrence 
Livermore. That is a part of the additional work. The other 
reason for the delay that has been a source of significant 
concern and understandable frustration on your part is that 
when we looked at a preliminary draft early this spring, when I 
looked at it and started going through it with the team and 
asking questions about the assumptions that were behind some of 
the numbers, we concluded that some of the cost estimates did 
not have sufficient foundation, and we needed to go back and 
not give you--do the job right and not give you information 
that was based on unreasonable assumptions. That work has 
largely been done. Now we're assimilating Lawrence Livermore 
work.
    Mr. Hunter. Now, if you look at this--and you've got some 
knowledge of the history of our Salton Sea plan and our 
passport coming together an all of the work that Mary and Ken 
and Sonny and Jerry Lewis and George Brown and everyone did on 
this thing. Isn't it true that it was never contemplated that 
the people of Imperial Valley were going to pay for the rehab 
of the Salton Sea? That was never a plan, was it?
    Mr. Raley. This administration has said from the very 
beginning that we do not believe that the issue of the future 
of the Salton Sea should be placed on the backs of the 
California plan in general or the transfer in particular. In 
other words, the two must be de-linked for legal and equitable 
reasons.
    Mr. Hunter. OK. And I think this is an important model for 
us to look at. If you're going to have water transfers at other 
places in the state, the worst thing we can do at this time is 
to tell the farming community, after they've already signed the 
contract that says we're not going to be responsible for the 
Salton Sea--and every entity that signed this thing has gotten 
an exposure limitation in that contract. I think it was IID 
that said if we go over a twenty million dollar environmental 
exposure, the contract's off. You can't expect these farming 
regions to start absorbing huge exposure for the environmental 
effects of them doing what the cities are asking them to do, 
which is to do water conservation projects, and use that 
conserved water, transfer that conserved water to the cities.
    So don't you think that this was--if we end up with a model 
here in which the people of Imperial Valley take on massive 
environmental exposure for doing the exact water conservation 
programs that they've been asked to do, in fact been threatened 
with suit if they don't do, that you've set a very poor model 
for any farming community in the west that might be 
contemplating making a deal with an urban area and making water 
transfer? What do you think?
    Mr. Raley. We firmly believe in enabling market-based 
transfers. This is the biggest and the best that has been 
identified in the history of the west. And we want to find a 
way to make it work.
    Mr. Hunter. But what do you think about the exposure that 
we're talking about? If we don't limit the environmental 
exposure of the people that are sending the water, what kind of 
message is that going to send to other communities that might 
think of making a deal?
    Mr. Raley. I can give you an answer to that on two levels. 
First of all, I promised the Secretary, given my prior life as 
a lawyer, that I would not forget and pretend that I was her 
lawyer now, that was a role for the solicitor. So I stopped 
practicing law in this job. And the issues of liability are 
quite complex, and I understand them. I understand the 
difference, however, between liability and concerns about 
liability. And I suspect that's where we have differences of 
opinions and the--the legitimacy of that concern--there 
certainly is a basis for concern. I'm not sure the basis is 
as--in reality, is as strong as people fear. But I certainly 
understand the people being paranoid about the Federal 
Government.
    Mr. Hunter. Would you work with us if we get Mr. Thompson, 
Steve Thompson, to work with us in the state counterpart in 
Fish and Game, and try to retrieve the situation with respect 
to whether you could have a good mitigation program in place 
for eighty or a hundred million dollars, the series of ponds 
that was initially proposed and worked on for 9 months; that if 
that's possible to retrieve that and make that work, would you 
work with us to make that go?
    Mr. Raley. Absolutely. I will call the assistant secretary 
of Fish and Wildlife and Parks as we leave, and if I can't 
reach him today I'll call Steve. Because on occasion we 
communicate directly so we're trying to work as a team.
    Mr. Hunter. OK. I think, Mr. Chairman, I think there's some 
real opportunity there. And I think we've got--we've got to 
explore that. If that deal hadn't fallen through we wouldn't be 
here right now.
    Last Mr. Chairman, I'll conclude. I thank you for letting 
me come in and work with you. Thanks for your leadership. 
Thanks to Mary and Dave.
    And let me just say this. I think the record very clearly 
establishes that the people of Imperial Valley were never 
contemplated to bear the burden of saving the Salton Sea. I 
mean, we had conferences and seminars early on and they all 
contemplated that there would be a transfer and that we would 
have to handle the sea in light of the transfer, and that would 
be a program of the Federal Government, a partnership between 
the Federal Government and the State of California.
    Second, I think it's clear that we have to solve the big 
element with respect to the Salton Sea that no one has 
addressed here, that we really kind of just omitted, and that 
is that you have to solve the salt problem. Because when you 
get sixty thousand parts per million salt in the sea, 
everything dies. And that's whether you have a transfer or 
don't have a transfer. All the scientists that testified before 
us testified that, transfer or no, the sea would die when it 
hit sixty thousand parts per million. And it would hit sixty 
thousand parts per million with or without a transfer. So I 
think we need to put some focus on that. But I think we need to 
keep that separate from this transfer, and not hold the people 
of Imperial Valley hostage to saving the sea when we in the 
Federal Government haven't come up with a salinity solution.
    Mrs. Bono. Would gentleman yield for one quick question?
    Mr. Hunter. Sure. Be happy to.
    Mrs. Bono. You keep talking about the people of Imperial 
Valley being held hostage to cleaning up the sea and salinity 
when the real question is why should the people of Coachella 
Valley be held hostage with poor air quality.
    Mr. Hunter. Well, here's my answer to that. I think that 
you're going to have to have some protections, and I think 
there's two types of protections. One is to keep the folks in 
Imperial Valley from being exposed to billion-dollar lawsuits 
in light of the transfer. But the second is to try to protect 
the folks of the entire basin, including your constituents, 
Mary, from the dust problem. So I think any mitigation 
program--and that's inherent in this legislation that we just 
drafted, in part to meet your concerns--is going to need to 
have some type of a ground cover or dust retardant program for 
the beaches of the Salton Sea as the sea becomes porous. So you 
have two forms of protection, one part of that protection is to 
protect folks against an air quality loss. But the other 
protection is if we're going to move forward and if we're ever 
going to want a farming community again to make this transfer, 
they need to have some modicum of protection against massive 
environmental exposure. We never anticipated that they would 
have it because we always thought that the sea solution would 
come before the water transfer. That hasn't happened. That 
still doesn't mean that it makes any sense.
    And here's the last thing, Mr. Chairman, I think everybody 
has got to look at in California. Our watershed in Colorado is 
burning up as we speak. We're looking at low flows in the 
Colorado River. We're looking at water becoming more and more 
precious. The whole idea of fallowing is not talked about much. 
It's glossed over. It really involves two types of fallowing. 
One is the fallowing of the land that would--fifty thousand 
acres or so that would free up 300,000 acres of drinking water 
for people in the cities. But the other fallowing is fallowing 
twenty thousand acres of land so that you could flow pure water 
in a fiction in which you may have to flow it over ground that 
you pretend you're farming but you don't have any seed, so you 
can say I've done it beneficially into the sea. So we as 
Californians with this precious and limited supply of water, if 
we make this agreement to go forward, as some people have urged 
that we have with this fallowing program, we are locking in a 
flow of 25- to 50 million dollars worth of water which is 
either ag water or drinking water, depending on which use you 
make of it, into the sea to be evaporated when we haven't fixed 
the big killer of the sea which is going to be salinity, 
increasing the salt problem. So California needs to make that 
decision as to whether or not we really want to do that.
    If we do that, the other thing we're doing is we're saying 
never again will we have a water conservation program. Because 
if you have a field of alfalfa that's tilted and water runs to 
the end, and that tail water goes to the sea right now through 
a series of canals, you're now saying that you can no longer 
have a water pump-back system that pumps that tail water back 
and runs it again. Because what you called waste in earlier 
years, that is tail water running off, is now essential for the 
sea. So any time a farmer does something that keeps that flow 
from going into the sea, that is, saves the water, he's going 
to be exposed to environmental lawsuits for depleting the sea.
    So I think that--I think that the equity here is, you can't 
ask a community to sign their name on a bottom line of a 
contract, contract of which explicitly excludes a certain 
activity, in this case fallowing--and that's the reason the 
people in Imperial Valley allowed that contract to go forward. 
And then after the contract is executed, say for other reasons, 
for situations which have now changed, you're going to have to 
reverse your course and you're going to have to pull that 
particular term out of the contract that you signed.
    So I think the best course for us to take at this point 
would be to relook at this mitigation program, and ask Fish and 
Wildlife and Fish and Game why, if they were really close on 
this, why they couldn't come to a conclusion and make an 
agreement and sign off.
    Mr. Calvert. Thank you, gentlemen. I know that Mr. Raley, 
you have to catch an airplane very soon. So you are excused.
    Mr. Raley. Mr. Chairman, if you'd allow me one moment, I'd 
like to take this opportunity to clarify an answer that I gave 
to Assemblyman Kelly, and apologize. I understood you to be 
asking the question as to whether or not there was any 
consideration of the Secretary adjusting the allocations under 
the law of the river, and the decree in Arizona versus 
California. My response was a fairly emphatic absolutely not. 
And I apologize, I think maybe I misunderstood your question 
that you in fact were asking me that, given nature's control 
over the situation and the dropping levels in Lake Mead, would 
there be changes in the amounts available to California.
    Mr. Kelly. In the allocations.
    Mr. Raley. In the allocations. And that is certainly 
correct. We at Interior do not have the ability to make water. 
And as the levels in Lake Mead drop through particular 
elevations, at some point there is no surplus that can be made 
available. And the law of the river would apply as it existed 
prior to or regardless of the status of the interim guidelines.
    Mr. Kelly. So what's your anticipated--what's your best 
guess on--this year and next year, is there adequate or not 
adequate supplies in Lake Mead or storage on the river?
    Mr. Raley. Well, I would say that if the current trends 
continue for a couple more years, we're going to have some very 
serious problems.
    Mr. Kelly. Yeah. Two years?
    Mr. Raley. My crystal ball isn't that good so--
    Mr. Kelly. OK. Thank you.
    Mr. Calvert. All right. I thank you, gentlemen, for coming 
out. And we appreciate your testimony and answering our 
questions.
    Senator Costa, you had some final questions for this panel?
    Mr. Costa. Yeah, a couple quick questions of the 
Metropolitan Water District, if Mr. Underwood would come 
forward to the dais, please.
    Mr. Costa. Getting back to the Quantification Settlement 
and the ramifications if we don't succeed, if on January 1st we 
are not able to meet the time line, the loss of water to 
Metropolitan, I understand, is the most significant and the 
first felt; is that correct?
    Mr. Underwood. I'm sorry?
    Mr. Costa. The loss of water to Metropolitan Water District 
is the first to be felt and possibly the most significant; is 
that correct?
    Mr. Calvert. Gentleman, can we please have him state his 
name and occupation for the record.
    Mr. Underwood. My name is Dennis Underwood. I'm vice 
president of the Metropolitan Water District.
    Mr. Costa. You have a new title?
    Mr. Underwood. Yeah, it changes yearly.
    Mr. Costa. OK. Anyway, how much loss of water would be felt 
as of January 1 of next year if a settlement is not reached?
    Mr. Underwood. If you look through the seven-party 
agreement, Metropolitan's fourth priority would be protected, 
which is 550,000 acre-feet, you would have the Met and Imperial 
program already for another hundred thousand, because that's 
the transfer that would go. And absent any other actions, 
that's what you would have. You would have the hundred and--
    Mr. Costa. So how much are you receiving now?
    Mr. Underwood. One-point-two-five. So we would lose six- to 
700,000 acre-feet.
    Mr. Costa. You would lose half of your supply.
    Mr. Underwood. Correct. If you're looking at--just in way 
of magnitude, that is equivalent to roughly a supply for five 
million people.
    Mr. Costa. Have you attempted to do some plan B, for lack 
of a better term, preparatory plan as to what you will do if 
it's not signed and you lose half of your water supply for the 
Metropolitan Water District of Southern California serving 16 
million people?
    Mr. Underwood. Seventeen.
    Mr. Costa. I'm sorry. You've grown a little bit since the 
last time I checked.
    Mr. Underwood. The district has a drought management and 
surplus water management plan. But at this magnitude it would 
have to--it would have to be some changes and other 
considerations by the board, because it's greater than what I 
think would be contemplated under the--
    Mr. Costa. Well, you'd start drawing out of--what is it, 
Eastside Reservoir? What do you call that now?
    Mr. Underwood. You could pull from some of our storages. 
But the problem when we do that is you're hurting yourself for 
the future because you don't--
    Mr. Costa. No, I understand. But you don't have a plan in 
place if this isn't reached?
    Mr. Underwood. Well, you don't automatically come up with 
six to 700,000--
    Mr. Costa. No, I understand that. But I think now it's 
June, we got 6 months left, this is--the discussion we're 
having here today is not news. I mean--
    Mr. Underwood. And either is our drought management and 
surplus water program. We do have a program. But I said 
something beyond that magnitude that would have a severe 
impact. Even if you went through all of our--
    Mr. Costa. No, I understand. I understand how painful this 
would be. All I'm suggesting is it seems to me you ought to be 
developing a plan B in the event that the parties around this 
room can't hold hands and sing Cumbaya, and figure out how to 
get this done by December 31st.
    I'm committed, and I know Chairman Calvert is committed, 
and everyone here is committed to doing everything possible 
that we can to assist you folks to make it happen.
    I said at the outset of this hearing as to Chairman Calvert 
that our goal is to figure out for the purpose of this hearing 
how to get the Quantification Settlement Agreement reached and 
signed before December 31st. That's my first priority. Having 
said that, if I were you guys--I mean, you'd better start-- 
start on plan B.
    Mr. Underwood. Let me respond again to that. Like I said, 
the storage--or drought management surplus water policy and 
plan, we have been accumulating storage, whether it's in the 
upper Coachella, we have over 200,000 acre-feet available in 
the upper Coachella. We'll have basically at the end of this 
year Diamond Valley Lake full. We have 80,000 acre-feet in 
Arizona that we have placed in storage there. We have other 
storage programs in the Central Valley in programs that can 
potentially come into play.
    The magnitude of it, like I said, follows under our water--
or drought management and water supply study or our policy and 
program. These other parts then come into play, but you can't 
do that forever, even though you've got a plan.
    Mr. Costa. I'm not suggesting you learn how to live off 
this reduced diet--
    Mr. Underwood. I'm trying to assure you that we had--that's 
why our conservation--that's why we're doing--
    Mr. Costa. No, I understand. But I don't believe you have 
seriously had a briefing with your board--when's the last time 
you've had a briefing with the board on the 4.4 plan? Mr. Pace 
maybe--
    Mr. Underwood. Probably about--well, there's a committee 
that's representing--
    Mr. Costa. No, I know but--
    Mr. Underwood. Last month.
    Mr. Costa. My information there hasn't been a briefing for 
the entire board on where we are on the 4.4 plan in months.
    Mr. Underwood. Plus we do monthly reports to the board 
where it's written on the status, CEO submits--
    Mr. Costa. Would you briefly describe and--I'd like you to 
provide in a separate letter to both of us what plan you have 
in the event that this is not signed and how you're going to 
learn to live with half your water allocation from the Colorado 
River no longer available for use for a period of 6 months or a 
year or whatever. But I think it's important for us to 
understand what backup plans the district is attempting to 
pursue.
    I want to move--the time constraints are such that we need 
to move to the other panel, and I don't want to take that much 
time. But if you could provide that letter to both of us, that 
would be helpful.
    Mr. Underwood. I'd be more than happy to.
    Mr. Costa. We'll share it with members of both Committees. 
The Palo Verde Irrigation District, you have a fallowing 
program. Could you briefly describe that?
    Mr. Underwood. If you would like, I think it's worth going 
back to the history of the test program. Back in the early 
1990's we also had a west drought. There was about 4 years of 
drought. I was commissioner of Bureau of Reclamation at that 
time. And the level of the reservoirs and use in the basin was 
such that we were going to have to limit California to its 4.4 
at that time. This was 10 years ago. There was no surplus 
guidelines at that time. There were things that changed that 
allowed continued use of surplus water and unused apportionment 
of others. But that led us at that time to start looking at 
what role can a fallowing program play in terms of meeting 
needs, whether it's short-term or long-term. And that led to a 
test program in the Palo Verde Irrigation District which 
occurred from 1992 to 1994, involved over 20,000 acres. The 
district valley has the use of 104,000 acres that are eligible 
to receive water. About 90 to 95 irrigated--so you're talking 
roughly about 22 percent of the valley went through this test 
program where lands were not fallowed, over 20,000 acre-feet, 
or 20,000 acres were not fallowed for a 2-year period. That 
resulted in a savings of about 186,000 acre-feet for that 2-
year period. Divide that by two and you get about 93,000 acre-
feet or roughly about a hundred thousand acre-feet was 
conserved during that period of time. That had an impact in 
terms of jobs. And we had surveys. We had prior surveys, 
surveys during the program, and post surveys. And that resulted 
in the loss of about 50 to 60--60 jobs for a hundred thousand 
acre-feet.
    We also found it really had no environmental impact. We 
also had a required program to do land management so that they 
would not result in weeds, would not result in soil erosion and 
air quality problems. And that was a requirement for each of 
the farmers that participated in the program. So they either 
had to maintain crops level, sod retainance, what they called 
clod plowing, which is you turn over the soil to create a 
crust, or shallow root cover crop, which was supported by 
precipitation. So consequently there were no air quality 
problems developed.
    Mr. Costa. How much did Metropolitan pay for this land 
fallowing program in partnership with--
    Mr. Underwood. It was $620 an acre-foot. That's the test 
program.
    Mr. Costa. For the 20,000 acres that were--
    Mr. Underwood. Right. So over the 2 years, in the 
neighborhood of about $25 million.
    Now that then formed the basis for a long-term program. In 
this case it was not, will we have to fallow; the farmers were 
asking, because it was a very beneficial program to the 
farmers, because they had had bad prior economy and this 
provided some stability, they had--
    Mr. Costa. They made more money than farming?
    Mr. Underwood. Correct.
    Now let me go onto the proposed program now. It's basically 
the same thing. We're going to tie up land for 35 years. First 
of all, there is no land retirement. Land would be rotated on 
up to a 5-year basis. There is no loss of water rights, no 
change of water rights, no change of land ownership, and no 
conversion of ag land. So the ag land stays in place. There is 
a payment up front for the farmer that is equal to basically 
the value of his land, because we're going to tie it up for 35 
years. And then there's an annual payment made, and it's based 
on almost a farm budget as to what would cost to maintain those 
land management practices that I talked about, plus also 
provide a better than average profit for crop.
    Mr. Costa. OK. Without going into further detail again 
because of time, I would suggest that we submit that effort as 
an example that we might be able to sit down in further 
conversations as we talk about various conservation plans, as 
we lower the rhetoric as good friends and neighbors in 
attempting to work out our differences.
    Last question--
    Mr. Underwood. Let me just--I may have misspoke. It's $620 
an acre on the test program--
    Mr. Costa. Not an acre-foot.
    Mr. Underwood. Right. And on the proposed program it's $550 
an acre.
    Mr. Costa. And did you have a conversion for how much that 
was an acre-foot of water?
    Mr. Underwood. Yes. If you look at our proposed program, 
because again, take a maximum of about 3.6 million and a 
minimum of about 1.8, if you take a maximum of water it's about 
$53 an acre-foot. If you take a minimum water, you get roughly 
a little over $200 an acre-foot, and it's roughly in the 
average of about $160-$170 an acre-foot.
    Mr. Costa. So the bottom line is the folks of Palo Verde 
like the program and are committed to working with you for 35 
years.
    Mr. Underwood. Right, because what it does is it gives them 
a guaranteed revenue.
    Mr. Costa. Well, we'll submit the elements of that program 
as we sit down and talk in a more serious vein.
    Last question. You've got before you a sheet that talks 
about the planned components as part of the Quantification 
Settlement Agreement on projects the Metropolitan Water 
District is committed to pursue. And just quickly, let me ask 
you, are you familiar with this sheet and the time lines on 
this?
    Mr. Underwood. Yes, it's--this was dated the 7th of July of 
'01 so it's probably outdated, but yes.
    Mr. Costa. Yes, I suspect it is, and mine is even further 
outdated. Mine is 5/4/00.
    What I would like you to do, and I'm not going to belabor 
the Committee again because of time, but I'd like an update on 
official Metropolitan Water District letterhead as to where you 
are on the projects that I can identify here--where's those 
cheaters? Here. I tell you, I'm getting to the age where I 
really need these darn things and it's embarrassing.
    The 1988 agreement obviously is in place. The IID about--
further, about halfway down the page, proposed transfer with 
San Diego-Met water exchange, I'd like an update on that one. 
I'd like an update on the Cadiz storage conjunctive use 
program. I'd like an update on the Hayfield Chuckawalla storage 
conjunctive use program, the Arizona water bank storage 
program, and the water supply and other agreements with Palo 
Verde. If you can provide that update with time lines that are 
hard time lines.
    Mr. Underwood. That--Mr. Chairman, if you look in our 
statement, it's contained in there. It's in the statement that 
we give all of these--
    Mr. Costa. I'll check it and we'll confer.
    Mr. Underwood. The same thing on the Palo Verde. The Palo 
Verde program, there's an addendum to the statement which is 
the details of the Palo Verde program.
    Mr. Costa. Thank you very much, Mr. Chairman. I'd concede 
the rest of my time. And I thank you for your patience.
    Mr. Calvert. All right. Thank you, gentlemen. And we thank 
this panel. You're excused. And we thank you for your time and 
answering our questions.
    So next I would like to introduce our last panel.
    Mr. Tom Kirk, Executive Director, Salton Sea Authority. Ms. 
Kim Delfino, Director of the California Program, Defenders of 
Wildlife; and Mr. Michael Cohen, the Senior Associate of the 
Pacific Institute. If you'd please take your seats.
    Mr. Calvert. Mr. Kirk, you're recognized for 5 minutes. 
You've probably already heard my further admonitions of the 5-
minute rule. We would appreciate you sticking to that. Thank 
you.

STATEMENT OF TOM KIRK, EXECUTIVE DIRECTOR, SALTON SEA AUTHORITY

    Mr. Kirk. I'll do my best.
    Thank you for having us, Mr. Chairman. And thanks to the 
rest of the participants here, Congressman, Congresswoman, 
Senator, Assemblyman. And thank you for the support you've 
given us over the years.
    There's a lot of good things happening around the Salton 
Sea today even as we speak. The main subject of course is the 
California plan, and my main interest of course is the Salton 
Sea.
    I do want to note for the record that the Salton Sea 
Authority Board of directors is not opposed to the QSA or the 
California plan. We are, of course, deeply concerned about one 
element of the QSA, and that's the IID San Diego Water 
transfer, the conservation and transfer program. And of course 
there's been a lot of discussion about how that transfer could 
be accomplished. We're particularly concerned with the onfarm 
transfer alternative or proposal project as it's currently 
proposed. And we all appreciate how unusual this conservation 
program is in many ways. To my knowledge it is the only major 
water transfer, other than one done in 1988 in the same region, 
that involves the conservation of water flowing downhill. It's 
the water that's flowing downhill to some other use, in this 
case, the Salton Sea. Typically the way it's done, as it may be 
done in Mr. Costa's district, is in the fallowing. And 
fallowing involves the transfer of consumptively used water, 
the water that would have been used in the crops and what 
transpiration uses, and that has less of an environmental 
impact. The first is a one-to-one impact, the transferring of 
the water flows to the Colorado. The fallowing would have a 
one-to-three impact, and could have no impact at all, but of 
course it does have economic impacts. And you've already heard 
from two of my board members in the Salton Sea Authority Board, 
and there are others as well that are concerned about the 
economic impacts of the fallowing program.
    You've asked me to address the impacts of the program, the 
conservation program on the Salton Sea, and its restoration. 
You've heard about the inflow impacts. If the inflow is 
reduced, elevation drops. It's a pretty simple and simplistic 
relationship. And elevation, when elevation drops, it 
concentrates the water in the Salton Sea. And Congressman 
Hunter is absolutely right that salinity is one of our major 
problems in the Salton Sea. In fact, it's probably the heart 
attack of the Salton Sea, and the key element to our 
restoration program is to pull salt out of the Salton Sea. 
Unfortunately with a smaller Salton Sea, it's made much 
saltier. It makes restoration that much more difficult. It 
perhaps is not an easy task as it is, but it's made incredibly 
more difficult if the salinity of the sea goes off the charts, 
which it would under the proposed conservation project. And of 
course the reason for that is all the salt in the top layer of 
the Salton Sea gets concentrated in a smaller Salton Sea.
    To give you a sense of what could happen, you'll find this 
in Exhibit 8 of my testimony, under the current inflows of the 
Salton Sea, the restoration is a several hundred million dollar 
project. In-sea solar evaporation ponds appear to be the most 
cost effective way of going. It works for the private sector, 
it should work for us as well. Under that kind of program it's 
several hundred million dollars, 3-, $400 million. If the sea 
looks like that where the sea becomes hypersaline very quickly, 
the restoration costs dramatically increase. Instead of pulling 
four or five or six million tons of salt out, you pull ten or 
15 or 20 or 25 million tons of salt out every year. Restoration 
becomes a two- or three billion dollar project. And again, it 
doesn't matter what technology you use.
    Under that kind of scenario, Mr. Chairman, despite your 
power and progress on Salton Sea issues, I don't think it could 
be authorized. And even if you were successful in authorizing 
that size of a project, I don't think it could be funded and 
built quickly enough.
    I've got a few more points, if the Chairman allows.
    Mr. Calvert. Very quickly. As you understand, any 
additional comments will be entered into the record.
    Mr. Kirk. Thank you.
    Mr. Kirk. The last set of points I want to make is a Mark 
Twain quote. We're used to hearing the water quote about 
``Water and whiskey, one's for fightin', one's for drinkin', 
and we know which is which.'' Another Mr. Twain quote, upon 
reading about the death--his own death in an obituary is, ``The 
report of my death was an exaggeration.''.
    In the '70's we were told the Salton Sea would collapse by 
1985. In 1988, under the IID-MWD water transfer before the 
State Water Resources Control Board, we were told then, go 
ahead and transfer water because the sea would be dead by the 
time it reached 40 parts per thousand. The Sea is at 44 parts 
per thousand today. It's doing quite well. It certainly has its 
problem, but it's very vibrant. And now we're told in 
environmental documents that were put forward that the Salton 
Sea will speed to its decline even without restoration and even 
without the water transfer. It's going to be a while before 
that happens if we continue to get the water we're currently 
getting.
    To top it all off, I'm very concerned that we're also 
exaggerating the complexities and the costs of restoration. 
I've heard recent estimates that it's a billion dollars if we 
do nothing with respect to the water transfer. That certainly 
doesn't jibe with the work of the very good engineers out 
there.
    So just like Mark Twain was concerned about the 
exaggeration of his own death, I'd continue to be concerned 
about the exaggeration of the death of the Salton Sea. Thank 
you very much.
    [The prepared statement of Mr. Kirk follows:]

    Statement of Tom Kirk, Executive Director, Salton Sea Authority

Introduction
    Thank you for the invitation to participate in this important 
hearing. The Salton Sea Authority is pleased to offer our views of how 
the restoration of the Salton Sea can be accomplished while at the same 
time moving forward with the California Plan. As you have requested, my 
testimony will focus on the relationship between the California plan 
for the Colorado River and restoration of the Salton Sea.
    I would also like to thank the members of the Salton Sea 
Congressional Task Force for their support for our efforts and those of 
the many Federal agencies involved in the important work that we are 
engaged in to plan, design, operate and test restoration projects that 
are economically and environmentally sound.
    I am the Executive Director of the Salton Sea Authority. The Salton 
Sea Authority is an agency that was established in 1993 under the State 
of California's joint powers agency statutes. The Salton Sea Authority 
was formed to direct and coordinate actions related to improvement of 
water quality and stabilization of water elevation and to enhance 
recreational and economic development potential of the Salton Sea and 
other beneficial uses. Notably, the Authority was formed by four 
agencies with direct and significant stakes in the region and the 
health of the Salton Sea: Imperial Irrigation District, Imperial 
County, Coachella Valley Water District and Riverside County (see 
Exhibit 1, Salton Sea Authority background). State legislation passed 
last year will allow the Torres Martinez Desert Cahuilla Tribe to be a 
full member of the Authority in the future.
    I was hired as the Authority's first and only executive director in 
late 1997. Since that time, I have managed and co-managed the Salton 
Sea Authority's environmental compliance, engineering design public 
outreach, governmental affairs, and scientific efforts. I have an 
extensive background in environmental policy and planning (see Exhibit 
2, Tom Kirk's Qualifications).
Background
    The Salton Sea Authority is not opposed to the Quantification 
Settlement Agreement nor, necessarily, to the transfer of water from 
the Imperial Irrigation District (IID) to the San Diego County Water 
Authority and the Coachella Valley Water District and/or Metropolitan 
Water District of Southern California. The Salton Sea Authority 
understands the need and generally supports the implementation of the 
California 4.4 Plan, which is designed to reduce California's use of 
Colorado River water. However, the Salton Sea Authority is deeply 
concerned about how water will be transferred and the environmental 
effects of the water transfers. The Salton Sea Authority Board of 
Directors has adopted the following positions with respect to water 
transfers:
    <bullet> LOppose projects which significantly lower the level of 
the Sea;
    <bullet> LInsist that water transfers comply with environmental 
laws;
    <bullet> LUrge that water transfers are accomplished consistent 
with the goals and objectives of full Sea restoration. (see Exhibit 3: 
Salton Sea Authority Resolution No. 02-02)
    The Salton Sea is one of the most important ecosystems in the 
United States for birds (see Exhibit 4: Excerpts from the Guide to the 
Salton Sea Restoration Project Alternatives). As proposed, water 
transfers could make restoration of the Salton Sea infeasible and have 
other significant impacts on the health of the environment and 
economics of the Coachella and Imperial Valleys.
    The proposed project (Proposed Project) as described in the IID 
Water Conservation and Transfer Project Draft Environmental Impact 
Statement/Environmental Impact Report and Draft Habitat Conservation 
Plan (Transfer EIR), contractual provisions in the agreement between 
IID and San Diego County Water Authority and public pronouncements 
indicate that water conservation will occur through reducing or 
eliminating tail water and improving delivery systems in the Imperial 
Valley. Virtually all of the water conserved in this manner would be 
water that would otherwise flow to the Sea. The inevitable result would 
be significant reductions in inflows to the Sea. In order to restore 
and maintain the Sea, it is vital to maintain inflows into the Sea that 
are close to historical averages. Significant reductions in inflows to 
the Sea will accelerate the Sea's salinity increase beyond our ability 
to remediate, leading to the death of the Sea as we know it.
    On the other hand, if conservation methods are mitigated as 
suggested under the Transfer EIR's Habitat Conservation Plan 2 and/or 
implemented through a water generation alternative that employs 
fallowing, most, and possibly all, of the impacts at the Sea can be 
avoided. The reason: water conserved through fallowing is mostly, and 
can be completely, associated with crop evapotranspiration. Hence, 
most, if not all of the water generated and transferred would not have 
ended up in the Sea anyway, it would have been consumed in the growing 
process. (see Exhibit 5, Riverside Press Enterprise May 31, 2002, Water 
pits land against sea article and Exhibit 6, Desert Sun June 4, 2002, 
Water transfer rhetoric shifts to land article). Exhibit 7, 
Conservation Methods Powerpoint Presentation, illustrates the different 
hydrological impacts of fallowing and efficiency improvement.
    Fallowing is not a perfect solution: it may cause economic impacts, 
particularly job impacts. Aggravating the difficult economic conditions 
in the Imperial Valley is a real concern. The Salton Sea Authority 
resolution (Exhibit 3) recognizes that both environmental and economic 
issues need to be satisfactorily addressed:
    <bullet> Lwater transfer solutions must properly mitigate impacts 
on the Salton Sea and address economic and social impacts in the 
Imperial and Coachella Valleys.
Proposed Conservation/Transfer Project's Impact on Restoring the Sea
    The attached excerpts from ``Draft Assessment of Salinity and 
Elevation Control for Varied Inflow'' (Exhibit 8) clearly demonstrates 
the tremendous cost implications that a reduction of inflows will have 
on restoration efforts. As Table 2 and Figure 9 of Exhibit 8 
demonstrate, restoration is projected to cost about $250 million, 
present value, under ``current inflows'', and balloon to over $2 or $3 
billion or more under the reduced inflows envisioned in the Draft EIS/
EIR. Whether restoration costs start at $250 million or $500 million or 
some other amount, reduced inflows have a dramatic effect on 
restoration costs; a Sea that is made smaller and saltier is very 
difficult to ``restore''. That cost difference, between restoring the 
Sea under current inflows and restoring the Sea under reduced inflows 
is staggering. Put another way, the impact of reducing inflows on 
restoration costs range between $200 and $300 per acre-foot of water 
reduced per year. This, of course, is the approximate price of the 
water provided for in the agreement between the IID-SDCWA. You can 
understand why the QSA parties do not want to link restoration and the 
Proposed Project; such a link would likely make the deal economically 
infeasible.
    The Proposed Project does not take into account this dramatic 
impact on the cost of restoration in the EIR. There has been some 
discussion about applying the estimated costs for the Proposed 
Project's habitat conservation plan, assumed in the Transfer EIR to be 
between $350 million and $800 million, to the restoration project, if a 
restoration project is authorized. More recent estimates of the 
Proposed Project's environmental costs have been quoted in the low one 
hundred million dollars. Federal legislation has been introduced to 
fund the environmental costs associated with the Proposed Project; the 
legislation caps those costs at $60 million (H.R. 2764, Colorado River 
Quantification Settlement Facilitation Act) and provides a mechanism to 
apply that funding to restoration of the Sea, if restoration is 
authorized. Whether the Proposed Project's and/or legislative financial 
contributions to restoration are $60 million or $160 million, if the 
Proposed Project's impact on the Sea is well over $1.5 billion, who 
will pick up the difference?
    It has been suggested that the 1998 Salton Sea Reclamation Act 
(P.L. 105-372) was designed, in part, to fix the Sea under reduced 
inflow conditions. The Act actually says that the Secretary:
        ``shall apply assumptions regarding water inflows into the 
        Salton Sea Basin that encourage water conservation, account for 
        transfers of water out of the Salton Sea Basin, and are based 
        on a maximum likely reduction in inflows into the Salton Sea 
        Basin which could be 800,000 acre-feet or less per year.''
    The Secretary was to develop a report, with the Salton Sea 
Authority, that evaluated restoration options under reduced inflow 
conditions. Such a report is still forthcoming. In a recent letter to 
the Secretary of Interior, even the Sea's greatest legislative 
supporters acknowledge that the report should evaluate multiple inflow 
conditions (see Exhibit 9, Letter to Secretary Norton from 
Congressional Salton Sea Task Force). Evaluating those conditions is an 
order of magnitude less committal than paying for restoration under 
those conditions.
    Based on my experience working the halls of government to seek 
support for restoration, I find it unlikely that Congress and the State 
of California would be willing to fund a multi-billion dollar 
restoration project. But even if they were, a restoration project 
massive enough to mitigate the impacts of reduced inflows caused by the 
proposed project would likely be technically infeasible.
    With a sea that is becoming much smaller and saltier, restoration 
must become much larger and much more complex. Under such a scenario, 
marshaling the necessary massive authorizations and appropriations from 
government will take time. Designing and permitting such a massive 
project will take time. And to build a large, complicated project and 
probably to do so in the deepest, most expensive and most seismically 
risky areas of the Sea will take time. Even if all of the political and 
financial support were available within a few years, it is unlikely 
that restoration could occur in time to preserve a fishery at the Sea 
and the values that the fishery supports.
If not full restoration, let's try partial restoration or build fish 
        ponds/hatcheries
    Another solution has been proposed by the Pacific Institute: create 
a small impoundment to provide a fishery for fish-eating birds. The 
Pacific Institute proposal assumes that the water transfer will be 
accomplished through on-farm conservation, with resulting major 
reductions of inflow. It is a serious proposal, serious enough that the 
Salton Sea Science Office assembled a group of experts to evaluate the 
concept. The experts found the proposal very unsatisfactory. Major 
concerns included:
    <bullet> LThe Likelihood of creating a Selenium sump, an issue that 
has attracted much attention since the bird deformities and 
reproductive failures at the Kesterson Reservoir.
    <bullet> LConcentrating nearly the same nutrient load into a body 
of water that is much smaller than the Sea, thus aggravating eutrophic 
conditions.
    <bullet> LExposing large areas of additional shoreline around the 
remaining, hypersaline water body because of evaporative losses of the 
partial fix and constructed wetlands.
    <bullet> LLastly, this was no easy, cheap fix. Cost estimates 
ranged well over $1 billion. The partial-Sea solution carries a full-
Sea restoration price tag.
    The Transfer Draft EIR included a similar partial-fix solution: 
Habitat Conservation Plan method 1, Hatchery and Habitat Replacement to 
mitigate impacts. The Transfer EIR provided little in the way of 
details, stating instead ``the specific approach for minimizing and 
mitigating the impacts on birds have not been defined''. In any case, 
the California Department of Fish and Game and the U.S. Fish and 
Wildlife Service have indicated that the proposed hatchery and habitat 
replacement mitigation plan would not successfully mitigate impacts on 
endangered species. It is my understanding that the mitigation strategy 
has been eliminated from further consideration.
The Claim that the ``Proposed Project Merely Speeds the Inevitable Up''
    The Transfer EIR addresses the various resource areas that would be 
affected by the Proposed Project. However, much of the public 
discussion about the effects of the transfer revolves around 
``temporal'' impacts. These are the impacts associated with speeding up 
the decline of a declining resource.
    If restoration is not implemented, the Sea's fishery will collapse. 
Under a projection of historic average inflows, of about 1.34 million-
acre feet per year, the Sea's fishery will collapse after 2060 (see 
Figure 1, Exhibit 8, Draft Assessment of Salinity and Elevation Control 
for Varied Inflow). The Transfer EIR does not measure its impacts 
against the historic average, instead, a new baseline is defined. The 
new baseline is about 1.23 million-acre feet per year. Under the new 
baseline, the fishery collapses by about 2023 (see Figure 1, Exhibit 8, 
Draft Assessment of Salinity and Elevation Control for Varied Inflow). 
Under the Proposed Project, the temporal impact, i.e., the difference 
between the collapse of the fishery under the transfer proposed project 
inflows and the collapse of the fishery compared to historic average 
inflows is about 50 years. When the Proposed project is compared, as 
the Transfer EIR does, to the new baseline, the impact is about 11 or 
12 years. I have some serious concerns about the baseline used in the 
Transfer EIR. The Authority's concerns are expressed in formal comments 
on the Transfer EIR (see Exhibit 10). I believe the baseline used 
significantly understates the temporal and other inflow-related 
impacts.
    Project proponents argue that that if the Sea is going to die 
anyway, and the transfer speeds the process up, what is the harm? This 
is the ``you are going to die anyway in sixty years, mind if I shoot 
and kill you today argument.'' To add another wrinkle to the argument, 
assume that you were going to die in fifty years of cancer. By killing 
you today, or in eleven years, I foreclose the opportunity that may 
come in the future to develop the cure for cancer. In the same way, 
accelerating the decline of the Sea and making it that much more 
complicated and expensive to restore the Sea forecloses an opportunity 
to cure its ailments.
    The temporal impacts are not the only impacts. The transfer 
document identifies impacts on other resource areas. I have significant 
concerns about the adequacy of impact assessment and mitigation in many 
other resource areas, including:
    <bullet> LThe inadequate assessment of the irreversible impacts on 
restoring the Salton Sea.
    <bullet> LThe lack of detail provided in describing mitigation of 
biological impacts.
    <bullet> LThe insufficient assessment of air quality impacts and 
the lack of mitigation details.
    <bullet> LThe characterization that potentially increased odors 
from the project are insignificant because of the small number of 
people who would be subject to such odors.
    <bullet> LThe premise that relocating boat launching facilities is 
adequate mitigation for the loss of recreational resources.
    <bullet> LThe premise that relocating boat launching facilities is 
adequate mitigation for the aesthetic impacts of a greatly receding 
shoreline.
    <bullet> LThe understatement of environmental justice impacts (no 
impacts are described in the wealthier San Diego County and most of the 
negative impacts are found in the poorer Imperial County and eastern 
Coachella Valley).
    The concerns described above are similar to those expressed through 
Resolutions of Concern Regarding the Effect of Water Transfers on the 
Salton Sea (see Exhibit 5, Salton Sea Authority Resolution No. 02-02 
and Exhibit 11, Coachella Valley Association of Governments Resolution 
No. 02-002).
    The Coachella Valley Association of Governments adopted its 
resolution after hearing about potential for airborne dust. The 
resolution was developed in consultation with the development 
community, the Coachella Valleys' cities, Riverside County, the 
Coachella Valley Water District and the Torres Martinez Desert Cahuilla 
Tribe.
    The Authority's resolution is similar. The Salton Sea Authority 
Board of Directors unanimously approved it on March 28, 2002. The Board 
passed the resolution after hearing testimony from CVAG's 
representative, residents around the Sea and environmental 
organizations. Notably, residents around the Sea were able to compile a 
petition of more than 1100 names to present to the Salton Sea Authority 
Board to urge adoption of the resolution (see Exhibit 12: Memorandum 
from Linda Quesnell, Executive Secretary of the Salton Sea Authority 
regarding Petitions associated with the Water Transfer). Through their 
resolutions, both the Salton Sea Authority and Coachella Valley 
Association of Governments resolve to oppose projects that 
significantly lower the level of the Salton Sea. Both resolutions 
stress compliance with environmental laws and adequate mitigation of 
impacts.
Is Restoration Possible Anyway?
    Yes. There are proven methods to withdraw salt from salt water. 
Restoration is very feasible under inflows close to the historic 
average (see Exhibit 8: Draft Assessment of Salinity and Elevation 
Control for Varied Inflow). Solar evaporation ponds have been used for 
millennia to extract salt from salt water. The Salton Sea Authority, in 
partnership with the Bureau of Reclamation, has constructed a solar 
evaporation pond pilot project at the Sea and is testing salt disposal 
techniques at another pilot project at the Sea. Additionally, we 
recently initiated a joint project with Cal Energy to use some of their 
waste heat from their geothermal plants at the Sea to test a 
desalinization process. Under continuation of historic average inflows, 
restoration is certainly possible.
    Is it politically possible? Ten years ago, there may have been many 
voices that said no. Today, there is a larger chorus of voices that say 
yes. Five years ago, the Salton Sea Authority had assembled less than 
$100,000 to support restoration. Today, over twenty million dollars has 
been authorized, appropriated and/or expended to support restoration 
This funding has been used in a very cost effective manner to not only 
run pilot projects but to also support the important work of the Salton 
Sea Science Office and to attack some of the more challenging problems 
facing the Sea such as wildlife disease, and shoreline cleanup. In 
collaboration with the University of Redlands, we have started an 
education project for middle and high schools and have also started 
work with KentSeaTech on the problem of eutrophication.. Ten or fifteen 
years ago, few, or perhaps no national and statewide environmental 
groups stood up to defend the Salton Sea. Today nearly every major 
environmental group in the state is weighing in on the importance of 
the Sea, as evidenced in the parties participating in the current State 
Water Resources Control Board hearings. The work of late Congressmen 
Sonny Bono and George Brown began much of the restoration initiatives 
underway.
    After the untimely death of Sonny Bono, the Salton Sea Reclamation 
Act was passed. The Act, for the first time, put the Federal Government 
on record to proactively plan for restoration. The Act and the 
Secretary of Interior kicked off an intensive scientific process that 
has provided a wealth of information and insight about this valuable 
and complex ecosystem.
    Congresswoman Mary Bono, Congressman Duncan Hunter, Congressman Ken 
Calvert and Congressman Jerry Lewis, as members of the Congressional 
Salton Sea Task Force, have continued their support for restoration. 
Support for addressing Salton Sea related issues has increased by the 
state of California as well, with Secretary of Resources Mary Nichols 
supporting a budget change proposal that ultimately provides additional 
resources to the Department of Fish and Game, Department of Water 
Resources and Regional Water Quality Control Board to address Salton 
Sea issues.
Conclusion
    The Sea is a critical environmental resource. Restoration of the 
Sea is made extremely costly and, very likely, impractical with major 
reductions of inflow. The Proposed Project has significant detrimental 
impacts on the Sea. Those impacts should be avoided, through pursuing 
conservation alternatives that do not reduce inflows to the Sea, or 
they should be fully mitigated. The Authority has been diligently 
testing and demonstrating projects and programs to improve the Sea and, 
with your continued support, is committed to its restoration.
    NOTE: Attachments to Mr. Kirk's statement have been retained in the 
Committee's official files.
                                 ______
                                 
    Mr. Calvert. Thank you.
    Ms. Kim Delfino, director of the California program of the 
Defenders of the Wildlife, you're recognized for 5 minutes.

    STATEMENT OF KIM DELFINO, DIRECTOR, CALIFORNIA PROGRAM, 
                     DEFENDERS OF WILDLIFE

    Ms. Delfino. Good afternoon. My name is Kim Delfino. I'm 
the director of the California program for Defenders of 
Wildlife, which is a national environmental non-profit 
organization. And I want to thank the Chairman for inviting us 
to testify today, and acknowledge and also thank the 
distinguished members here on the Committee.
    I just want to start off by saying the Defenders of 
Wildlife is and has been for a number of years focused on 
protecting and restoring historic Colorado River Delta, and 
most recently, within the last year, focusing in on the Salton 
Sea ecosystem, which is a part of the delta. We are also 
supportive and encourage the State of California to reduce its 
water use to its original allocation of 4.4, and in particular 
we are not opposing water transfer as a means of implementing 
the 4.4 plan.
    For more than a year we have been working to ensure that 
the water transfer proceeds in a way that was not at the 
expense of the Salton Sea and its surrounding communities, the 
environment, and also the integrity of our state and Federal 
laws. We have actively participated at all levels on this water 
transfer, submitting comments, as part of the draft EIR/EIS and 
the HCP. We have been members for the state water board 
proceeding and also active in the legislative efforts that have 
been going on in this issue.
    The transfer as it's originally been proposed with ongoing 
conservation will have impacts on the Colorado River with the 
point of conversion, it will have growth-inducing impacts in 
the service area for San Diego and Coachella, and most 
dramatically, which is the focus of most of my comments here 
today, will have serious impacts for the Salton Sea.
    Now, just briefly, why do we care about the Salton Sea. I'm 
not going to belabor the point. But it is an area of national 
significance for avian biodiversity. More than 400 birds 
species exist at the sea. That's 70 percent of California's 
bird population, a diversity of bird population, 90 percent of 
the white pelicans. It's the only inland breeding spot for the 
endangered or the threatened brown pelican. And I can go on and 
on and on. The point is, the sea is an important research both 
in terms of biodiversity and also for recreational purposes. 
And in fact, it is those very recreational purposes that has 
brought the conservation community and the recreational 
community together in our efforts to restore and stabilize the 
Salton Sea.
    I think Mr. Kirk has gone into and I think a lot of people 
have already described what onfarm conservation will do to the 
sea. It will significantly accelerate the salination of the 
sea. It will expose significant amounts of seabed to prevailing 
winds. Our expert, Ted Shady, who has worked for more than 15 
years in the Owens Valley Project, submitted very extensive 
information to the State Water Resources Control Board on that 
very issue. And I think--and we'll have salinity impacts in the 
drains, and of course impact the feasibility and the costs 
associated with reclaiming or stabilizing the sea.
    For all of these reasons I think we're seeing that the 
dialog for how we implement the water transfer is shifting. 
Department of Fish and Game has already submitted a letter 
saying that the Alternative 1, which is the fish pond concept, 
will not satisfy state endangered species law. So now we're 
seeing the dialog shift to the issue of fallowing and how do we 
implement the transfer.
    What we need right now really is time. And we need time to 
evaluate air quality impacts, both in terms of at the sea and 
if we do fallowing. We need time to evaluate what fallowing 
will do with respect to third party impacts. And with 
fallowing--you know, my organization understands the concerns 
of the Imperial Valley, and unfortunately we don't have enough 
information before us right now to make a real determination of 
what the true costs of fallowing will be. We understand that 
and recognize that, and we wish that maybe Imperial Irrigation 
District could have done maybe a little more toward figuring 
out the costs associated with that. But the point is we need 
more time. But it appears that we don't have the time. And I 
think that Mr. Raley made that very clear today, especially 
with respect to the Federal Register notice that will be 
shortly appearing.
    So what do we recommend. I think our recommendation has 
been echoed here today, and that is we do--and this is the 
recommendation we've put before the State Water Resources 
Control Board--a conditional fallowing or 5-year conditional 
approval of the transfer. Because we need that time, we need 
the time to evaluate what these impacts are going to be. We 
would recommend that the water board approve a conditional 
fallowing for 5 years during that time or approve the permit 
for 5 years. During that time IID would undertake a voluntary 
fallowing program. And during that time we'd also work on the 
reclamation plan for the Salton Sea, and we would create a 
comprehensive and well-participated in program for coming up 
with third party impacts and for growth-inducing impacts for 
San Diego.
    I just will sum up then. We have been actively involved in 
the effort, both state and Federal legislation, mostly state. 
Our position is that if we do the conditional approval there 
will be no need for Federal legislation providing sufficiency 
language or exemptions from environmental laws whether on the 
state or Federal level, except with the caveat that we do 
acknowledge there will be a need to address the Fully Protected 
Species law. And my organization has been working very closely 
with Senator Kuehl on SB 482, and hope that that issue will be 
resolved in time for signing the QSA. Thank you very much.
    Mr. Calvert. Thank you, gentlelady.
    [The prepared statement of Ms. Delfino follows:]

Statement of Kimberley Delfino, California Program Director, Defenders 
                              of Wildlife

    Good morning. My name is Kimberley Delfino, and I am the California 
Program Director for Defenders of Wildlife. On behalf of our more than 
450,000 members, I wish to thank you, Mr. Chairman, and the other 
members of this Subcommittee for inviting me to testify today on the 
``Implementation of the California Plan for the Colorado River.''
    Defenders of Wildlife is committed to the conservation and 
restoration of the historic Colorado River Delta, which includes the 
Salton Sea ecosystem. Defenders also supports the efforts of the state 
of California to reduce its use of Colorado River water, including the 
transfer of up to 300,000 acre feet of water from Imperial Irrigation 
District (``IID'') to the San Diego County Water Authority (``SDCWA''), 
Coachella Valley Water District (``CVWD''), and Metropolitan Water 
District (``MWD'') (hereinafter referred to as the ``IID water 
transfer''). Defenders has been working for more than a year to ensure 
that the IID water transfer proceeds in a way that is not at the 
expense of the Salton Sea and its surrounding communities, the 
environment, and the integrity of our state and Federal environmental 
laws. As part of our efforts, we have submitted extensive comments on 
the environmental documents for the proposed water transfer, 
participated as parties in the administrative proceeding before the 
State Water Resources Control Board to approve the transfer of water 
rights, and are part of the intensive negotiations on legislation 
involving the transfer pending before the California Legislature. My 
testimony today will include a discussion of why we believe the Salton 
Sea is an important resource, the impacts of the proposed water 
transfer, how we believe the water transfer should proceed, and pending 
state and Federal legislative efforts.
    Although I present this statement on the behalf of Defenders of 
Wildlife, it was prepared in consultation with the Planning and 
Conservation League, National Audubon Society--California, National 
Wildlife Federation and Sierra Club California. The effort to protect 
the Salton Sea has brought together a full range of conservation and 
recreation organizations committed to preserving and protecting the 
Salton Sea. See ``Joint Statement of Conservation and Recreation 
Organizations on the Future of the Salton Sea'' (April 22, 2002) 
(Attachment A).
I. BACKGROUND
    California's Colorado River Water Use Plan is the result of an 
unprecedented effort--an ambitious plan for California to reduce its 
diversions of water from the Colorado River by 600,000 - 800,000 acre 
feet of water per year. Under the Interim Surplus Guidelines, 
California will go on a ``water diet'' for the next 15 years, cutting 
back its use of Colorado River water until it reaches its original 
allocation of 4.4 million acre feet per year. Potential beneficiaries 
of this plan are the other six Colorado River Basin states, the 
Colorado River Basin's Indian tribes, Mexico and possibly the long-
neglected Colorado River Delta and Gulf of California. While Defenders 
is extremely concerned about the impact of the Interim Surplus 
Guidelines on the availability of water to serve the needs of the 
Colorado River Delta, for purposes of this hearing, I am going to 
restrict my comments to the proposed IID water transfer.
    As part of California's Colorado River Water Use Plan, the four 
major water districts in Southern California (IID, MWD, CVWD and SCDWA) 
have joined together to implement the Quantification Settlement 
Agreement (``QSA''), which includes the IID water transfer. The 
original proposal was to generate up to 300,000 acre feet of water 
through a combination of improvements to the irrigation system of IID 
and on-farm conservation. As I will discuss later, this proposal 
appears to be shifting from on-farm conservation to potentially 
fallowing land to generate water.
II. THE SALTON SEA AND THE IID WATER TRANSFER
    As would be expected for a project of this scale and complexity, 
the originally proposed transfer would have significant impacts on 
natural resources and the environment throughout Southern California. 
There will be impacts on the Colorado River from the changes in points 
of diversion. The transfer will have growth-inducing impacts in the San 
Diego County Water Authority service area, which will have an adverse 
impact on fish and wildlife in San Diego County. Most dramatically, the 
transfer will have an enormous, perhaps decisive, impact on the Salton 
Sea and the environment in both Imperial and Coachella Counties. The 
decision on this transfer is also a critical decision point for the 
Salton Sea, and the shape of this transfer could determine the future 
of the Sea.
    The Salton Sea is currently an environmental and recreational 
resource of the utmost importance, a resource of statewide and national 
significance. As wetlands in California, Mexico and other parts of the 
West have disappeared, the Salton Sea ecosystem has become important 
habitat for hundreds of bird species, and a critical part of the 
Pacific Flyway. More than 400 species of birds have been recorded at 
the Salton Sea--70 percent of all bird species within California. It is 
this combination of bird diversity and important feeding and breeding 
habitat that makes the Salton Sea an essential component in maintaining 
bird populations. At times, the Sea supports 90 percent of California's 
white pelican population, the only North American inland breeding site 
for threatened brown pelicans, and more than 90 percent of the North 
American population of eared grebes. Other endangered and threatened 
species found at the Sea include the Yuma clapper rail, snowy plover 
and mountain plover. The Salton Sea ecosystem is a crown jewel of avian 
biodiversity that must be sustained for future generations.
    The Sea also supports an active recreation industry that 
contributes to the health of the local economy. The wealth of avian 
biodiversity has made the Salton Sea a popular destination for bird-
watchers, and has inspired an annual bird festival. The abundance of 
waterfowl has also made the Sea popular with hunters. The diversity and 
abundance of birds at the Sea are due in large part to its productive 
fishery which includes several popular sportfish, including Tilapia, 
Sargo, Corvina and Bairdella. More than 400,000 anglers visit the Sea 
annually for sport and subsistence fishing, drawn by the estimated 160 
million fish that live in the Sea today. Other recreation includes 
boating and other water sports.
    The continued viability of the Sea is integrally intertwined with 
the viability of agriculture, a cornerstone of the local economy. Just 
as recreational activities based around the Sea contribute to the local 
economy, agriculture provides water to the Sea and habitat for many 
species. Without agriculture, the Sea would quickly evaporate.
    Unfortunately, if the IID water transfer is approved as originally 
proposed, the prospects for sustaining and restoring the resources at 
the Sea are grim. For every acre-foot of water transferred from IID, an 
acre-foot will be lost at the Salton Sea. At full ramp-up, inflows to 
the Sea will be reduced by approximately 300,000 acre feet, nearly one-
quarter of the Sea's current inflows. The surface area of the Sea will 
shrink by as much as 50,000 acres.
    The transfer, in its original form, could set in motion a process 
of rapid ecological collapse at the Salton Sea. The reduction of 
inflows will greatly increase the rate of salinization at the Salton 
Sea, with an immediate adverse effect on the fisheries there. Although 
the Salton Sea's fish are currently stressed by the Sea's salinity, 
nonetheless, it is estimated that the Sea could support fish for as 
much as another fifty years if inflows remain constant. With the 
proposed transfer and actions it would trigger, the Sea could become 
too saline to support fish within little more than a decade.
    With the decline of the fisheries and the shrinking of the Sea, 
there will inevitably be a drastic decline in the astounding bird 
populations at the Sea. When the fish go, so will the white pelican, 
brown pelican, black skimmer, and other fish-eating birds. And those 
birds that do not depend on fish for sustenance may encounter 
difficulties as well, as the conditions for invertebrates at a 
hypersaline Salton Sea will differ substantially from those at Mono 
Lake, which sustains large numbers of invertebrates and invertebrate-
eating birds. In addition, the shrinking of the Sea will result in the 
loss of brooding, roosting and foraging habitat for a number of bird 
species.
    The decline of the Sea as a natural resource will also mean its 
decline as a recreational resource. Not only will the decline of the 
fishery mean less anglers, but a shrinking Sea will also become less 
attractive to other recreationists--the campers who currently enjoy the 
seaside campsites, the sightseers who admire some of the most beautiful 
vistas and spectacular sunsets in the California desert.
    The transfer will not only cause a precipitous decline in the 
resources at the Salton Sea, it may well eliminate the possibility of a 
restoration plan. As I am sure the Salton Sea Authority will testify 
before the panel, restoration may become technically and financially 
impractical if inflows are reduced by 300,000 acre feet.
    However, impacts from the original IID water transfer proposal are 
not confined to the Salton Sea. According to the California Colorado 
River Basin Regional Water Quality Control Board, selenium will be 
concentrated within IID's drains as runoff from the fields decreases, 
and those increased concentrations will pose a hazard to whatever 
wildlife remains or inhabits a restored Sea and the drains in the 
Imperial Valley. In addition, exposed seabed could cause dust emissions 
in both the Imperial and Coachella Valleys comparable to those at Owens 
Lake, creating an environmental disaster in an area that is already 
plagued with serious air quality issues. The mitigation that will 
inevitably be required for air quality problems of this magnitude could 
cost hundreds of millions of dollars. Thus, it is not only the 
environment of the Salton Sea that is threatened by the original 
transfer proposal.
    Of course, in theory, it might be possible to mitigate for these 
impacts. However, the mitigation measures proposed for the original 
version of the water transfer fall into two categories: the inadequate 
and the improbable.
    Alternative 1, set forth in the draft water transfer Habitat 
Conservation Plan (``HCP''), appears to be the mitigation proposal 
preferred by IID. This alternative is a proposal to provide hatcheries 
and fish ponds adequate to support a portion of the fish-eating birds 
that now rely on the Sea for 75 years. As has been demonstrated before 
the State Water Resources Control Board proceeding and detailed in 
voluminous comments by the conservation community, this proposal is 
riddled with unanswered questions, technically flawed, and is still 
unfunded. Not surprisingly, it appears that the California Department 
of Fish and Game and U.S. Fish and Wildlife Service will not permit 
this alternative as part of the water transfer HCP.
    This leaves us with HCP Alternative 2, which would provide the Sea 
with water to make up for reduced inflows by fallowing land and would 
minimize or eliminate many of the most severe environmental impacts. In 
fact, if HCP Alternative 2 is adopted, or if the transfer were simply 
implemented via fallowing, our concerns regarding environmental impacts 
would likewise be minimized.
    However, we would be remiss to characterize fallowing on a large 
scale in the Imperial Valley as a ``simple'' solution. This solution is 
hardly simple. In an area that is largely dependent upon agriculture 
and has an unemployment rate hovering around 25%, the idea of taking 
large amounts of land out of production is not an easy one for the 
community to accept, especially when community fears are fanned by 
pronouncements of overblown job loss figures. IID's own Citizen 
Advisory Commission estimates that job loss from fallowing would be 
more along the lines of 500 jobs rather than the estimate of more than 
1,400 jobs. See Executive Summary, ``Independent Analysis of the 
Economic Impact Studies in the IID Water Conservation and Transfer 
Project EIR/EIS,'' prepared for the Community Advisory Commission of 
the IID (April 9, 2002) (Attachment B). Third party impacts can be 
addressed, but they need to be sufficiently evaluated and a plan needs 
to be implemented and funded, something that had not yet been done by 
IID.
III. HOW SHOULD THE IID WATER TRANSFER BE STRUCTURED TO ADDRESS 
        ENVIRONMENTAL AND ECONOMIC CONCERNS?
    Returning to the question of how to structure the water transfer, 
it is clear that a transfer proposal using on-farm conservation will 
degrade the Salton Sea as a fish, wildlife, and recreational resource 
and possibly preclude its restoration, worsen the water quality 
problems in the drains and rivers of the Imperial Valley and impair 
their beneficial uses, and potentially cause severe dust storms in the 
Imperial and Coachella Valleys. Nevertheless, despite these impacts, 
there are some proponents of the transfer who suggest that somehow 
these impacts are reasonable when viewed in the context of the 
transfer's importance to California in reducing its use of Colorado 
River water. And as we will no doubt hear today from the Department of 
the Interior, the Interim Surplus Guidelines are contingent upon 
execution of the QSA by the end of this year. According to the 
Department of the Interior, if the QSA is not executed in a timely 
fashion, the Guidelines will be suspended and Southern California will 
lose its access to surplus Colorado River water. Something else to keep 
in mind is that this water transfer will, as a practical if not legal 
matter, set a precedent for future large-scale water transfers.
    Defenders supports the objective of reducing California's reliance 
on surplus Colorado River water. We are aware that the Interim Surplus 
Guidelines appear to be contingent upon the QSA, although it also 
appears that California could meet at least the first and possibly the 
second benchmark of those Guidelines with existing programs, suggesting 
that the deadline may be less inflexible than it appears at first 
glance. And we certainly agree that the water community, including the 
environmental stakeholders in that community, will look to this 
transfer for a model of transfers to come.
    Indeed, it is precisely the significance of the issues and the high 
profile of this transfer that makes it all the more important that its 
environmental consequences are dealt with up front and completely. The 
reliability and long-term predictability that both IID and the other 
water agencies seek will not be achieved if this transfer leaves for 
another day the job of developing mitigation measures for fish and 
wildlife, water quality, and air quality impacts whose cost could run 
into the hundreds of millions of dollars. Looking at the broader water 
policy implications for California, if transfers are to play an 
important role in assuring California's future water supply, they must 
be seen as an efficient, environmentally friendly way to maximize water 
supplies. Urban water agencies, agricultural communities, and 
environmental stakeholders will have no desire to imitate this transfer 
if its legacy is a lifeless Salton Sea and chronic air quality problems 
in the Imperial and Coachella Valleys.
    Given the importance of the issues at stake, both for the 
environment and the water supply of California, it is critical that 
this transfer in fact be a model worthy of imitation. Such a model 
transfer must, of course, fully comply with all environmental laws. A 
model transfer must maintain inflows to the Salton Sea, so that a 
restoration plan remains financially and technically feasible. A model 
transfer must not degrade the air quality of the Imperial and Coachella 
Valleys, or lead to water quality problems in drainage waters. A model 
transfer would address growth-inducing impacts at the point of 
delivery. Finally, a model transfer must address third-party economic 
impacts in the area of origin.
    Unfortunately, the current proposed water transfer does not meet 
these standards. In particular, much of the information regarding 
environmental and economic impacts, which is needed to proceed with the 
transfer, has not been generated by IID. In order for the transfer to 
proceed, we need more time--to develop a Salton Sea restoration plan; 
to model potential air quality impacts under different scenarios, 
including fallowing; and to develop information on third-party impacts 
under different scenarios. In an ideal world, the solution would be 
simple--put off the transfer, develop the needed information, and 
proceed with the transfer only when all impacts are understood and 
measures to avoid or mitigate for those impacts are funded and ready 
for implementation. However, unless a way is found to alter the QSA and 
Interim Surplus Guidelines, that does not appear to be a viable 
alternative.
    In the interest of moving forward, as part of our efforts before 
the State Water Resources Control Board, Defenders of Wildlife and our 
conservation partners have put together a proposal for a temporary, 
conditional approval of the water transfer, to expire on December 31, 
2007. This conditional transfer is similar to the recommendation by the 
Pacific Institute. The temporary, conditional approval would be 
contingent on the parties enforceable commitment to implement the 
following elements:
    <bullet> LThe water transferred during the conditional approval 
period could be generated only by voluntary fallowing of land, such 
that inflows to the Salton Sea are unaffected by the transfer. Such 
fallowing would also address farmers' need for financial 
predictability, and in the initial years of the transfer, the amount of 
land needed to generate water would be smaller than at peak periods, 
reducing socio-economic impacts.
    <bullet> LA plan, developed with broad-based community 
participation, to invest an appropriate percentage of the transfer 
revenues into a community development fund, to mitigate for the socio-
economic impacts in the Imperial Valley. If studies show that the 
revenue generated by the transfer does not cover third-party impacts, 
there needs to be a plan to backfill this difference in costs.
    <bullet> LA plan, developed with broad-based community 
participation, to identify and address the growth-inducing impacts of 
the transfer within the service area of the San Diego County Water 
Authority.
    <bullet> LParticipation in a process, in conjunction with the 
Federal and state governments and the Salton Sea Authority and in 
consultation with a broad range of stakeholders, to develop and 
implement a long-term restoration plan for the Salton Sea.
    The temporary, conditional approval described above is intended to 
enable California to meet the terms of the Federal Interim Surplus 
Guidelines, while allowing time to develop reasonable, sustainable 
mitigation for impacts the transfer may have on fish and wildlife, 
water quality and the economy of the Imperial Valley. It would avoid 
environmental impacts on the Salton Sea by holding inflows at the 
levels the Sea would receive in the transfer's absence, and it would 
minimize water quality impacts in the drains, air quality impacts, in 
the Salton Sea Basin, and growth-inducing impacts in San Diego.
    In addition, the five-year period would afford a reasonable time to 
develop the information needed to provide the foundation for a transfer 
that could truly be a model. The state and Federal Governments would 
have a reasonable period of time in which to develop a long-term, 
sustainable restoration plan for the Salton Sea. If such a plan is 
adopted and ready for implementation, the transfer parties could 
receive approval for a transfer in which the water could be generated 
by any method so long as the impact on inflows to the Salton Sea is 
consistent with the restoration plan. This would create an incentive 
for the transfer parties to direct their efforts toward encouraging the 
state and Federal Governments to develop a workable plan. And, there 
would be time to develop a plan to avoid or mitigate for water and air 
quality impacts of the transfer, including impacts to IID's drainage 
system.
IV. PENDING STATE AND FEDERAL LEGISLATION REGARDING THE IID WATER 
        TRANSFER
    Even if the water transfer were to proceed with a conditionally-
approved transfer, there are still ongoing efforts at both the state 
and Federal level to have both Congress and the California State 
Legislature pass bills (e.g., H.R. 2764 (Hunter) and SB 482 (Kuehl)) 
that would, among other things, find that the proposed transfer 
satisfies Federal and state environmental statutes, limits judicial 
review, provides iron-clad, extraordinary ``assurances'' to the parties 
in the water transfer, and removes California's fully protected species 
statutes as an obstacle to permit approval.
A. Federal Legislation: H.R. 2764
    H.R. 2764, introduced by Representative Duncan Hunter (Imperial 
County), effectively exempts the water transfer and related actions 
from the Federal Endangered Species Act (``ESA''), drastically limits 
the public's right to judicial review under the ESA and National 
Environmental Policy Act (``NEPA''), and authorizes funds for unknown 
``habitat enhancement'' projects that appear to do nothing to mitigate 
impacts from the transfer on species dependent upon the Salton Sea.
B. State Legislation: SB 482
    SB 482, introduced by State Senator Sheila Kuehl (Santa Monica), 
would revise the state water code to allow for long-term fallowing, 
provide ``regulatory assurances'' for activities relating to mitigation 
for the water transfer at the Salton Sea, and would repeal the state 
fully protected species statute in exchange for some improvements to 
the California Endangered Species Act (``CESA''). Defenders does not 
have any objections to the proposed changes to the water code, but has 
raised objections to the issuance of legislative ``assurances'' as well 
as the repeal of the fully protected species statute.
1. SB 482's Legislative Assurances Language
    SB 482 would authorize the Department of Fish and Game (``DFG'') to 
extend ``regulatory assurances'' contained in the newly revised Natural 
Community Conservation Planning (``NCCP'') Act (found in SB 107 (Sher)) 
to the covered activities described in the Salton Sea Conservation 
Strategy in the Habitat Conservation Plan for the water transfer. These 
assurances will be provided as long as the plan will not result in a 
material increase in salinity at the Sea before an unspecified date, 
does not significantly impact shoreline habitat and desert pupfish at 
the Sea, and is consistent with the Salton Sea Reclamation Act. This 
legislative extension of ``regulatory assurances'' in state law beyond 
the NCCP Act to a CESA incidental take permit is ``extraordinary'' as 
it has not been required for any other incidental take permit issued 
under CESA. Indeed, such legislative ``assurances'' under the Federal 
ESA have never been granted by Congress for any project. It is bad 
policy for the state Legislature to begin giving out special 
``legislative assurances'' for specific projects beyond what is already 
accorded to permittees under current law.
    Furthermore, when the majority of the state environmental community 
agreed to incorporate limited assurances into the NCCP statute (as part 
of the negotiations on SB 107), it was only after receiving in exchange 
the following improvements to the NCCP Act: (1) an improved public 
participation process; (2) an improved scientific review process; (3) 
strong standards for the NCCP plan and implementing agreement; (4) the 
requirement that DFG suspend or revoke an NCCP permit if there is 
jeopardy to a species or an imbalance between conservation and 
development; (5) specific determinations by DFG for coverage of species 
under an NCCP; and (6) the requirement that the plan provides for the 
conservation of a species. SB 482 would grant assurances for a 
specified set of covered activities within an incidental take permit, 
issued under CESA, that does not meet these standards. For these 
reasons, Defenders opposes this grant of assurances in SB 482
2. California's Fully Protected Species Statutes
    The California fully protected species (``FPS'') statutes strictly 
prohibit the ``take'' (e.g., killing) of 37 wildlife species, including 
some of the most beloved symbols of our state: the imperiled sea otter, 
golden eagle, California brown pelican, and California condor. Unlike 
CESA, there are no allowances for any take of a FPS species. If the FPS 
statutes are repealed, then the 37 species would only be protected 
under CESA, and ``take'' would be allowed. Advocates for repeal of the 
FPS statutes argue that these species would be adequately protected 
under CESA. However, this is not the case. An examination of CESA 
reveals significant flaws that must be addressed in order to assure 
that species will be both protected from extinction and subsequently 
recovered. From a resource conservation point of view, a repeal of the 
FPS statutes without such assurances is unacceptable.
    For more than a year, the environmental community has advocated for 
four improvements in CESA in exchange for accepting a repeal of the FPS 
statutes. First, CESA must be amended to clarify that the definition of 
take includes habitat destruction. Second, CESA must be amended to 
reinstate an updated version of a previously sunsetted article that 
required state agencies to consult with the Department of Fish and Game 
(``DFG'') whenever their projects might affect a listed species or its 
habitat. It is our understanding that DFG is not reviewing state 
projects to ensure that they will not impair the recovery of listed 
species. This is contrary to long-standing CESA policy that state 
agencies have a duty to conserve (i.e., recover) listed species and 
their habitat. Third, CESA must be amended to create a comprehensive 
recovery program. Currently, CESA has a ``pilot'' recovery program for 
five species--only one of which, the Sandhill Crane, has a recovery 
strategy. An Endangered Species Act that fails to include a requirement 
for recovery planning is only doing half its job. Finally, CESA must be 
amended to clarify that listed plants are protected from destructive 
activities. For a more in-depth discussion of these points, I have 
attached a January 4, 2002, letter to Senator Kuehl from 26 
environmental organizations. (Attachment C).
    SB 482 would repeal the FPS statutes in exchange for providing only 
two of the suggested improvements to CESA--an unfunded recovery program 
and a less-than-adequate state agency consultation requirement. The 
refinement of the definition of ``take'' to include habitat destruction 
and the inclusion of plants for protection have been omitted from the 
amended version of this bill. Defenders does not object to the repeal 
of the FPS statutes, especially in light of the need to proceed with 
the water transfer. However, we continue to voice our objections to the 
lack of real improvements to CESA set forth in SB 482 in exchange for a 
FPS repeal.
C. Is There A Need for Any Federal or State Legislation?
    If the IID water transfer were carried out in the manner that 
Defenders and the Pacific Institute have suggested, there is no need 
for either Congress or the state legislature to pass bills with 
environmental sufficiency language or provide regulatory assurances 
beyond what is already available under current law since the transfer 
would have a significantly diminished impact on the environment. Of 
course, there continues to be a need for the state to pass legislation 
to deal with the state water code and long-term fallowing as well as 
the state's fully protected species statutes, and for the Federal and 
state government to consider legislation that would address the issue 
of third party impacts should the cost of the transfer exceed the 
compensation provided by the water agencies.
V. CONCLUSION
    Defenders recognizes, in making our suggested proposal, that this 
transfer is a piece of a historic effort to resolve decades of disputes 
over Colorado River water. But consider the alternative. The current 
transfer proposal evokes the specter for some of the darkest chapters 
in the history of California water policy--from Owens Lake to 
Kesterson--and the potential for environmental loss at the Salton Sea 
is of equally historic proportions. We simply ask that this transfer 
proceed in a manner that is not at the expense of the Salton Sea and 
its surrounding communities, the environment, and the integrity of our 
state and Federal environmental laws.
    NOTE: Attachments to Ms. Delfino's statement have been retained in 
the Committee's official files.
                                 ______
                                 
    Mr. Calvert. Mr. Cohen, Pacific Institute.

STATEMENT OF MICHAEL COHEN, SENIOR ASSOCIATE, PACIFIC INSTITUTE

    Mr. Cohen. Thank you, Mr. Chairman, distinguished Federal 
and State representatives, for the opportunity to testify 
today. I will briefly summarize my written testimony, which I 
submit for the record.
    Mr. Cohen. Let me start by emphasizing that the Pacific 
Institute supports the California plan and the objective of 
reducing the state's dependence on the Colorado River. It is 
plainly in the interest of stake holders throughout for 
Colorado River basin for California to reduce its take of 
Colorado River water. The challenge comes with insuring that 
the implementation of the California plan and its various 
elements do not degrade environmental or human health and wind 
up costing state and Federal taxpayers more money over the long 
term to correct problems that could have been avoided today.
    The California plan, particularly the proposed transfer of 
water from Imperial Valley agriculture to metropolitan San 
Diego, could cause significant negative impacts to the 
environment and to human health, and not just within the 
Imperial Valley. These impacts, some of which have been 
detailed earlier, include diminishing the availability of water 
in the Mexicali Valley, and the availability of water for 
habitat preservation in the Colorado River Delta. It also 
includes degrading riverline habitat between Parker and 
Imperial dams. Potentially and something that hasn't been 
addressed enough to date, is impacts on coastal habitat in the 
San Diego County Water Authority service area due to growth-
inducing impacts. And as several members have mentioned, 
degrading human health in the Coachella and Imperial valleys 
due to dust storms from tens of thousands of exposed acres of 
lake bed. There's also, as just mentioned, potential impacts to 
degrading fish and wildlife habitat in the Salton Sea, habitat 
that supports several Federally and state listed endangered 
species. Additionally something that hasn't been mentioned is 
increased salinity exposure for subsistence fishermen and, 
depending on how the transfer is effected, potentially 
decreasing employment in the Imperial Valley.
    Let me spend just a moment on one of these impacts. Both 
Congresswoman Bono and Mr. Nastri earlier noted possible dust 
impacts resulting from exposed lake bed. Owens Lake, which was 
dried up by water transfers, is now the site of mass mitigation 
efforts to reduce dust emissions and improve the worst air 
quality in the nation. The cost of these mitigation efforts in 
Owens Lake could well exceed $250 million. Unfortunately, as 
was earlier mentioned, we do not know, we don't have sufficient 
data as to whether exposed Salton Sea lake bed can become as 
great an air quality hazard as Owens Lake has proved to be. But 
the danger I would submit is very great. I suggest that the 
risk is too hard to perceive until we have a better 
understanding. To reduce its dependence on the Colorado River, 
California must reallocate water. But if this transfer 
generates pervasive human health problems and glaring 
environments disasters, future reallocation efforts will be 
dealt a severe blow. Plus the state and Federal Government and 
potentially the transfer parties will be faced with huge 
litigation costs.
    I would submit that legislative exemptions or waivers to 
existing environmental protections will do nothing to minimize 
such a human health disaster. Additionally I would suggest that 
a legislative approach could pose a considerable risk of 
deadlock as various groups concerned more about precedent that 
the Salton Sea could well become involved.
    As we have just heard from Kim Delfino and others, time is 
the greatest challenge here. To address this lack of time and 
to increase our understanding of the various unknowns, such as 
dust problems and socioeconomic solutions, I would suggest that 
a 5-year interim approval of the water transfer could provide 
the opportunity to address many of the potential impacts at and 
around the Salton Sea, while still allowing California to meet 
the requirements of the interim surplus guidelines, California 
State Water Resources Control Board and the Bureau of 
Reclamation could grant such an interim approval based on the 
voluntary--and I would emphasize voluntary--and temporary 
fallowing of land.
    Contingent upon a final approval would be contingent after 
these 5 years on the following four conditions: One, the 
development of a regional economic development plan, which is 
developed in collaboration with local community groups, 
farmers, county representatives, and other representatives. I 
would suggest that many of the current problems that we are 
faced with here today are a result--a direct result of the 
closed process that has occurred to date. A previous witness 
mentioned the problems with the HCP that was developed in 
conjunction with IID and Federal and state agencies. I would 
submit that part of the problems that arose is that this was 
negotiated behind closed doors. Many members of the 
environmental community requested that they be involved in 
these discussions so we can come together with a consensus 
plan. Unfortunately that did not occur.
    I would also suggest that full approval after the 5 years 
be contingent upon the plan to address growth-inducing impacts, 
and a plan to reduce the concentration of selenium in drainage 
waters. And finally, the development and implementation of a 
long-term habitat preservation and dust abatement plan for the 
Salton Sea.
    In closing I would suggest that this temporary conditional 
approval offers several benefits, one and foremost for the 
State of California is it avoids suspension of the interim 
surplus guidelines. Two, it could lead to a plan that minimizes 
impacts to the environment and human health. Three, it would 
provide time, time that we desperately need to develop a better 
understanding of some of these potential impacts.
    I would also note that during the interim period that the 
amount of land fallowed could be quite small. And finally it 
would minimize the time pressures that currently characterize 
the discussions. I'll look forward to working the water 
agencies and other interested parties to develop a mutually 
agreeable plan. Thank you.
    [The prepared statement of Mr. Cohen follows:]

    Statement of Michael J. Cohen, Senior Associate of the Pacific 
    Institute for Studies in Development, Environment, and Security

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to testify today. My name is Michael Cohen. I am a Senior 
Associate with the Pacific Institute for Studies in Development, 
Environment, and Security. The Pacific Institute is an independent, 
non-partisan, non-profit center with offices in Oakland, California and 
Boulder, Colorado, created in 1987 to conduct research and policy 
analysis in the areas of environment, sustainable development, and 
international security. The Institute has studied Colorado River issues 
for more than a decade, beginning with early research on the potential 
impacts of climate change on Colorado River flows, through our 1996 
report entitled The Sustainable Use of Water in the Lower Colorado 
River Basin. In 1999, I was the lead author of the Institute's Haven or 
Hazard: The Ecology and Future of the Salton Sea (now posted at 
www.pacinst.org/salton--sea.html), and last fall I was the lead author 
of the Institute's Missing Water: the Uses and Flows of Water in the 
Colorado River Border Region (posted at www.pacinst.org/missing--
water.htm). As noted on the attached resume, I have also been the 
author or co-author of several peer-reviewed articles on the Salton Sea 
and lower Colorado River, and have presented on these topics at 
numerous professional conferences and workshops.
    The Institute works extensively on California water policy issues 
and provides analysis and policy recommendations to State, Federal, and 
local policymakers. To this end, I prepared the Institute's comments on 
the Salton Sea Restoration Project draft EIR/EIS, on the Colorado River 
Interim Surplus Criteria draft and final EIR/EIS, and on the recent IID 
water conservation and transfer project draft EIR/EIS. I crafted the 
Institute's Proposal to Preserve and Enhance Habitat at the Salton Sea, 
the only independent proposal to be reviewed by the Salton Sea Science 
Office. I also participated in California' State Water Resources 
Control Board policy hearing on the IID-San Diego County Water 
Authority water transfer.
    My testimony today addresses two main points: the challenges 
associated with the implementation of California's Colorado River Water 
Use Plan, and opportunities for minimizing economic and environmental 
disruptions caused by the implementation of the plan and connected 
Federal actions, such as the Interim Surplus Guidelines (ISG), 
Implementation Agreement, and the Inadvertent Overrun Program. These 
opportunities arise from the considerable flexibility that exists under 
current law to meet the requirements of the ISG while a voluntary, 
consensus-based long-term plan is developed and implemented.
    Let me emphasize here that the Pacific Institute supports the 
California Plan and the objective of reducing the state's dependence on 
the Colorado River. It is plainly in the interests of stakeholders 
throughout the basin for California to reduce its take of Colorado 
River water. Doing so will increase the reliability and predictability 
of future supplies on the river, benefiting recognized users as well as 
facilitating efforts to preserve and enhance environmental values 
within the basin. The Pacific Institute recognizes the importance of 
reducing California's use, which is why we have developed a series of 
proposals to facilitate the California Plan without imposing the costs 
of implementation on the environment or third parties.
    The challenge comes in ensuring that the implementation of the 
California Plan and its various components do not degrade environmental 
or human health, and wind up costing state and Federal taxpayers more 
money over the long term to correct problems that could have been 
avoided today. The California Plan, and particularly the proposed 
transfer of water from Imperial Valley agriculture to metro San Diego, 
could cause significant negative impacts to the environment and to 
human health. These impacts would be manifested most dramatically at 
the Salton Sea, but could also occur within the remnant Colorado River 
delta, and potentially in the San Diego County Water Authority (SDCWA) 
service district, and along the reach of the Colorado River from Parker 
Dam to Imperial Reservoir.
    The looming threat that the failure to execute the Quantification 
Settlement Agreement (QSA) by December 31 will trigger the suspension 
of the Colorado River interim surplus guidelines, reducing deliveries 
of Colorado River water to California by 800,000 acre-feet or more, may 
outweigh the multiple threats to environmental and human health of 
proceeding with the water transfer. This is the argument promoted by 
advocates of the water transfer. Whether the Secretary would suspend 
the guidelines and impose such economic disruption on the state of 
California and the nation as a whole is an open question. What is more 
evident is that California's failure to execute the QSA by the end of 
this year would be interpreted by the other Colorado River basin states 
as a demonstration of bad faith, and could well signal a marked step 
backward from the remarkable cooperation and communication among the 
basin states in the past several years.
    Regrettably, this level of cooperation and communication did not 
extend beyond the basin states and the four water agencies that drafted 
the California Plan, to other stakeholders. Had it done so, I suspect 
that we would not be faced with range of challenges that confront us 
today. Instead, we are now faced with the challenge of identifying a 
means of implementing the California Plan in the least disruptive 
manner. By least disruptive, I mean with the minimal impact on the 
ground, be that measurable impacts to fish and wildlife, or exposure of 
Salton Sea lakebed, or loss of jobs. I do not believe that legislative 
exemptions or waivers to existing protections could be enacted quickly 
or easily, or without broad disruption. Efforts to enact a legislative 
fix, to facilitate the implementation of the California Plan, would 
likely be contested by a broad range of interests, interests that 
likely would not otherwise involve themselves. Given the pressures of 
time, such a course of action poses considerable risks.
    What is really needed is more time, time to address the complex 
challenges created by in part by the water agencies' decision to 
exclude most of the stakeholders from the development of the California 
Plan. Time to address the various challenges described in the following 
could be generated if the State Water Resources Control Board, the 
Bureau of Reclamation, and the water agencies themselves, agreed to a 
five year, conditional approval of the proposed water conservation and 
transfer project.
    The environmental documentation prepared for the proposed water 
transfer fails to adequately describe, much less offer sufficient 
mitigation for, the various environmental and human health impacts 
likely to result from the water transfer. Part of the challenge and 
opportunity is that the means by which water will be conserved in the 
Imperial Valley has yet to be determined. This uncertainty provides an 
opportunity to implement an interim plan, while a mutually-agreeable 
long-term plan to minimize the impacts to environmental and human 
health is developed. To avoid the suspension of the Interim Surplus 
Guidelines and the economic disruption that would cause, the proposed 
water transfer could be granted a temporary, conditional approval, 
contingent upon the development and implementation of economic 
development, habitat preservation, and dust abatement plans.
    Such a temporary, conditional approval offers several benefits. 
Perhaps the most salient of these is that such an approach would not 
require Federal legislation, and likely would not require state 
legislation, either. Avoiding the challenge of crafting ESA-exemption, 
or ESA-sufficiency, language would markedly improve the prospects of 
any such plan, by minimizing the likelihood that a broad range of 
organizations would intervene due to the precedent, rather than the 
substance, of such legislation. Our common goal of minimizing the 
challenges to the implementation of the California Plan, and the 
dramatic economic disruptions such challenges could cause, could be 
realized by minimizing the extent and scope of any state and Federal 
facilitating legislation required.
    The implementation of the California Plan and its various 
components pose a range of challenges, described below. Regrettably, 
the costs of the plan would be borne disproportionately by the 
environment and by poor communities, while the benefits would accrue 
largely to the wealthy southern California coastal plain. Although it 
is clear that avoiding the suspension of the Interim Surplus Guidelines 
is in the general interest of Californians, it is not clear that the 
costs of avoiding that suspension should fall as they do, especially 
when viable alternatives exist. In the following I describe some of 
these costs and challenges.
Impacts on Mexico and the Colorado River delta
    The lining of the All-American Canal, funded by the State of 
California to promote the QSA, would conserve 67.7 KAF/year of water 
otherwise lost to seepage, generating 56.2 KAF/year for the 
Metropolitan Water District of Southern California (MWD) and 11.5 KAF/
year as partial settlement for the San Luis Rey tribe. Currently, this 
seepage water follows a groundwater gradient into the northern Mexicali 
Valley in Mexico, where it is pumped by irrigators to supplement 
Colorado River supplies. The loss of seepage water will place 
additional pressure on existing supplies, reducing the availability of 
such water for re-allocation for environmental purposes within the 
delta region.
    Interim surplus criteria, properly mitigated, could have been a 
reasonable means of facilitating the implementation of plans and 
projects to reduce California's use of Colorado River water. 
Unfortunately, the Department of the Interior ignored a set of criteria 
that would have minimized environmental impacts, instead choosing a set 
of Interim Surplus Guidelines that will reduce the frequency and 
magnitude of flows below Morelos Dam (considered the upstream extent of 
the mainstream portion of the Colorado River delta). The Interim 
Surplus Criteria DEIS indicates that, in the year 2015, the chosen 
alternative will reduce the probability of flood flows reaching the 
delta by more than 16 percent. The reduced frequency of flood flows 
could degrade habitat in the area, subsequently impacting the species 
that depend on this habitat.
Impacts to the Lower Colorado River, Parker to Imperial Dams
    The cumulative impact of actions undertaken under the QSA and 
connected Federal actions could reduce annual flows from Parker to 
Imperial Dams by 400 kaf/year, or more. If not managed properly through 
re-operation of Parker Dam, Reclamation estimates that this reduction 
in flow could decrease the surface extent of open water in the main 
channel by 35 acres, by 17 acres in backwaters, and decrease the extent 
of emergent vegetation in backwaters by 28 acres. Additionally, the 
elevation of the adjacent alluvial aquifer could drop by more than 1/3 
of a foot, potentially below the root zone of native riparian 
vegetation, further degrading a scarce habitat. To minimize these 
avoidable impacts, Reclamation could maintain current maximum 
instantaneous releases from Parker Dam and decrease the rate of minimum 
releases, thereby ensuring that backwaters continue to receive water at 
current rates, and also reducing impacts to power generation.
Growth-inducing Impacts at the Point of Delivery
    The re-allocation of water under the QSA, from Imperial Valley to 
metro San Diego and to the Coachella Valley and/or MWD, could have 
growth-inducing impacts in these areas. The water transfer DEIS 
recognizes that the transfer would increase deliveries of Colorado 
River water to the Coachella Valley, yet dismisses the potential for 
growth-inducing impacts there and at the other points of delivery by 
claiming that the transfer does not create new water. Rather, the DEIS 
claims that the transferred water would merely offset groundwater 
pumping, or would result in the same blend of water currently received. 
This is false.
    The adoption of SB 221 in October 2001 changed California's 
statutory climate, clarifying the transfer's growth-inducing impacts at 
the points of delivery. SB 221 prohibits approval of new developments 
of at least 500 units, unless the applicable public water system 
verifies that a sufficient water supply is available or, in addition, a 
specified finding is made by the local agency that sufficient water 
supplies are, or will be (including transferred water), available prior 
to completion of the project. A 1999 IID newsletter specifically notes 
this objective: ``The proposed Project is designed to 3) provide SDCWA 
with a reliable, long-term and cost effective water supply to provide 
drought protection and to accommodate current and projected demands for 
municipal and agricultural water.''
    San Diego County and the Coachella Valley have experienced high 
growth rates in the past decade, causing the loss of coastal sage scrub 
and desert bighorn sheep habitat, among other impacts. The re-
allocation of water under the QSA would satisfy SB 221's requirement 
that large new developments demonstrate a reliable supply of water, 
meaning that the QSA will exacerbate the high growth rate at the points 
of delivery. Yet the recent NEPA/CEQA environmental documentation fails 
to recognize the potential for growth-inducing impacts arising from 
this re-allocation of water, much less provide appropriate mitigation 
for these impacts.
The Water Transfer and the Salton Sea
    Depending on how water is conserved for the proposed transfer, 
inflows to the Salton Sea could be reduced as much as one-for-one. 
Agricultural drainage sustains the Salton Sea; reducing that drainage 
will cause the Sea's salinity to spike and will reduce the Sea's 
extent, exposing lakebed, stranding existing shoreline habitat, and 
exposing land bridges to avian rookeries.
    The Salton Sea provides a host of ecological values that are 
important not only within the Imperial and Coachella valleys but also 
throughout the length of the Pacific Flyway. Although the Salton Sea is 
a product of human activity, the Sea and its environs provide a complex 
mosaic of habitats, ranging from open water, estuaries, and salt marsh 
to mud flats and riparian corridors. Agricultural drainage, rich in 
fertilizer, supports tremendous biologic productivity at the Sea, 
including tens of millions of non-native fish. These resources support 
more than 400 species of birds and a variety of other wildlife, 
including state and Federally listed species such as the Southwestern 
willow flycatcher, Greater sandhill crane*, California black rail*, 
brown pelican*, California least tern*, California and least Bell's 
vireos, Yuma clapper rail, and the desert pupfish. These habitats are 
especially vital given the destruction of wetlands throughout most of 
southern California and the lower San Joaquin Valley and within the 
Colorado River delta itself.
    Agricultural drainage adds some four million tons of salt to the 
Salton Sea each year. Without some method of removing such salts, the 
salinity of the Sea will gradually increase over time, eventually 
exceeding the tolerance of fish and many of the invertebrates that 
currently thrive there, most notably pileworms. Although the salinity 
tolerance of tilapia (the most numerous fish in the Sea) is not known 
definitively, researchers project that their salinity tolerance would 
be exceeded at the Sea within forty years, assuming inflows remain 
relatively constant. Actions associated with the QSA, most notably the 
water transfer, could markedly reduce inflows to the Sea, causing 
salinity to spike beyond fish tolerance within as little as ten years. 
Pileworm salinity tolerance would likely be exceeded within several 
years thereafter. The rapid loss of most of the fish and macro-
invertebrate species from the existing food chain would dramatically 
limit food availability for many of the birds that currently use the 
Sea. Given the loss of more than 90% of California's pre-development 
wetlands, it is not clear what other resources along the Pacific Flyway 
these birds might use.
    The rapid transition from the current fish-supporting habitat to a 
hyper-saline, non-fish-supporting habitat in some respects represents 
an acceleration of current trends (though it is unclear whether the 
existing fishery would be able to tolerate such rapidly changing 
conditions as readily as it has tolerated the gradual change generated 
by constant inflows). The reduction in inflows to the Sea would also 
generate a change in kind, dropping the elevation of the Sea by as much 
as 19 feet and exposing some 105 square miles of existing lakebed. 
Currently, double-crested cormorants nest in large numbers on islands 
within the Sea, where nesting by endangered brown pelicans has also 
been reported. Dropping the elevation of the Sea would connect these 
islands, and other valuable snag habitat, to the mainland, exposing the 
birds to predation by land-based carnivores and leading to the 
abandonment of such sites. Nor is it clear that the exposed lakebed 
would provide habitat similar to existing shoreline and mudflat 
habitat, as the exposed lakebed would likely be covered by a layer of 
salt, diminishing its habitat value. Such exposed lakebed would also be 
a new source of windblown emissions, in a region that already exceeds 
airborne contaminant thresholds.
    The proposed water transfer could expose 50,000 acres of Salton Sea 
lakebed (more than 78 square miles), more than the emissive surface at 
Owens Lake, where the exposure of more than 60 square miles of lakebed 
has led to the largest dust storms in the U.S. Owens lakebed emits as 
much as 290,000 tons of PM10 annually, degrading human health in the 
region. Even if Salton Sea lakebed were only 1% as emissive as that of 
Owens lakebed, emissions would still exceed Federal standards. 
Mitigation efforts have recently begun at Owens Lake, to address the 
dust emissions that plague human health in the region. The costs of 
such efforts may exceed $250 million. Depending on wind direction, 
speed, and duration, fugitive dust emissions could be carried from 
exposed Salton Sea lakebed southeast, into populated areas of the 
Imperial Valley, or northwest, into Coachella Valley communities such 
as Indio, here in La Quinta, and as far north as Palm Springs. The cost 
of limiting such dust emissions were not estimated by the water 
transfer DEIS, but it is reasonable to assume that they could equal or 
exceed the costs of efforts at Owens Lake. It unclear who would pay 
such costs.
    Particularly in Imperial County, the environmental effects, 
including the potential for a dramatically increased exposure to 
airborne emissions and consequent health effects, would be borne in 
large measure by poor and minority populations. Additionally, these 
populations consume fish caught from the Salton Sea and tributaries. 
The proposed project could increase selenium concentrations in such 
fish, and eventually eliminate fish from the Salton Sea entirely, 
disproportionately affecting poor and minority populations. The 
benefits from the transfer would be realized most directly within the 
San Diego County Water Authority service area, and potentially by 
landowners within the Imperial Valley (IID has yet to determine how 
transfer-generated revenues will be distributed, and to date IID has 
made little commitment to ensuring that those whose jobs are displaced 
by the transfer are compensated).
Solutions
    Water transfer proponents offer two alternatives to minimize the 
transfer's impacts on the Sea: fallowing land in the Imperial Valley, 
or building a fish hatchery and 5,000 acres of feeding ponds (at a cost 
exceeding $100 million). Fallowing could provide a short-term remedy, 
as a long-term plan is refined and implemented, but Imperial Valley 
resident have made clear their opposition to fallowing the 75,000 
90,000 acres that would be required to free up sufficient water for the 
transfer and maintenance of the Sea. The water transfer DEIS only 
describes feeding ponds in generalized, conceptual terms, precluding a 
reasonable assessment of their merits. Even so, 5,000 acres of feeding 
ponds are unlikely to provide any meaningful substitute for the loss of 
more than 240,000 acres of existing surface water at the Sea.
    Limited state and Federal budgets suggest that mitigation for the 
water transfer should be rolled into a long-term habitat preservation 
plan for the Sea. It is unlikely that the legislature will appropriate 
$100+ million now for a stop-gap plan, and then appropriate another 
$400+ million in several years, for a long-term plan. Nor is it clear 
that the political will exists to authorize and appropriate the 
estimated $1.5 Billion required to maintain the Sea at its current 
elevation and salinity, especially since such a plan would require 
aggressive intervention, in perpetuity.
    A more reasonable approach would be to implement a sustainable plan 
for the Salton Sea, both as mitigation for the water transfer and as a 
long-term solution. A sustainable plan recognizes that inflows to the 
Sea will decrease over time, and so focuses on preserving the fishery 
and shoreline of a portion of the Sea, rather than the Sea as a whole. 
Several such plans have been proposed, ranging from a ``tri-delta 
approach,'' to the Pacific Institute plan that would impound roughly 
10% of the Sea, to building a dike across the Sea's waist, stabilizing 
salinity and elevation in the southern half. The goal of each of these 
plans is to create a flow-through system, where the elevation and 
salinity of a part of the Sea could be stabilized, while the remaining 
portion of the Sea would transition to a hyper-saline, invertebrate-
rich system akin to Mono or the Great Salt Lake. In conjunction with 
other planned and proposed efforts such as treatment wetlands and 
fertilizer management such a limited approach could facilitate the 
water transfer while preserving and enhancing the Sea's ecological 
values over the long term.
Who Pays?
    The costs of mitigating the environmental impacts of re-allocating 
water within California vary from the limited expense of the re-
operation of Parker Dam, to the billions of dollars potentially 
required to address the loss of most of the Salton Sea and the 
resultant dust-storms that could plague much of the area. The water 
transfer agreement seeks to externalize the environmental costs of re-
allocating water, by limiting IID's contribution to $30 million total 
for the 75-year life of the agreement; SDCWA's contribution is expected 
to be even less. By arbitrarily capping their environmental 
contribution, the parties ignore the true costs of re-allocating water. 
Presumably, the parties expect state and Federal taxpayers to cover the 
remaining costs, representing an exorbitant subsidy for a purportedly 
market-based transaction.
    Nonetheless, state and Federal interests exist in facilitating 
California's reduced dependence on Colorado River water. Additionally, 
the existence of listed species at impacted areas merits state and 
Federal contributions. Combining a reasonable contribution from the QSA 
and transfer parties with state and Federal monies would represent an 
equitable and reasonable approach to funding actions to minimize the 
environmental impacts of actions taken under the QSA.
Opportunities
    For the Salton Sea, site of the most dramatic and costly of these 
impacts, such contributions could come in the form of a combined 
mitigation/long-term habitat preservation and enhancement effort. To 
provide sufficient time for development and review of such a combined 
effort, the water transfer could proceed along the lines of the 
proposal submitted by the Imperial County Farm Bureau, wherein Imperial 
Valley farmers would temporarily fallow land for the first several 
years of the transfer agreement, as IID collects sufficient revenue to 
underwrite the costs of implementing on-farm conservation measures. 
Such temporary fallowing would reduce impacts to the Salton Sea, while 
addressing farmers' needs for financial predictability. This interim 
period would also provide time for the development and implementation 
of a long-term habitat preservation and dust abatement plan for the 
Salton Sea.
    California's State Water Resources Control Board and the Bureau of 
Reclamation could grant a temporary, conditional approval of the 
proposed water transfer, contingent upon the parties' enforceable 
commitment to implement the following terms:
    <bullet> LTo minimize environmental impacts, the water transferred 
during the period of approval could only be generated by the voluntary, 
temporary fallowing of land. Such temporary fallowing would limit 
impacts to the Salton Sea, while addressing farmers' needs for 
financial predictability. In the initial years of the transfer, as the 
volume of transferred water ramps up, the amount of land needed to 
generate the water would be smaller than at peak periods, reducing 
socio-economic impacts.
    <bullet> LA plan to invest an appropriate percentage of the 
transfer revenues into a community development fund, to mitigate for 
the socio-economic impacts at the area of origin. The size and 
distribution of the fund would be determined in consultation with a 
broad range of local community organizations.
    <bullet> LA plan to identify and address the growth-inducing 
impacts of the transfer at the point of delivery, with broad-based 
community participation.
    <bullet> LA plan to reduce the concentration of selenium in 
drainage waters, by one or more of: wetland management programs, 
targeted efforts at disproportionately high sources of selenium within 
the Imperial Valley, and/or support for Upper Colorado River Basin 
selenium source reduction programs..
    <bullet> LThe development and implementation of a long-term habitat 
preservation and dust abatement plan for the Salton Sea, generated in 
consultation with a broad range of stakeholders and overseen by the 
Salton Sea Authority, in consultation with the Salton Sea Science 
Office.
    The temporary, conditional approval would expire on December 31, 
2007. If by that date each of the above elements were implemented 
satisfactorily, the State Board and the Bureau of Reclamation would 
grant an unconditional approval of the proposed action.
    Such a temporary, conditional approval would minimize the 
environmental impacts of the transfer, by providing for a method that 
would have limited impact on inflows to the Salton Sea and by denying 
the long-term supply reliability required to approve large new 
developments. Additionally, the five-year interim period would afford a 
reasonable amount of time to develop a long-term habitat preservation 
and dust abatement plan for the Salton Sea. By making final approval of 
the transfer contingent upon the implementation of such a plan, the 
transfer parties would be encouraged to direct their efforts toward 
securing the authorization and appropriations necessary. This approach 
would enable California to meet the terms of the Interim Surplus 
Guidelines, while affording time to develop reasonable mitigation.
    As displayed in the following graph, farmers in the Imperial Valley 
regularly fallow nearly 20,000 acres of land per year, representing 
roughly 4.1% of the total land in production. The least productive 
farmland, in terms of jobs and total revenues produced, also tends to 
be the most-water intensive, using five to six acre-feet/acre.
[GRAPHIC] [TIFF OMITTED] 80202.007

A Long-term Habitat Preservation Plan
    In October 2001, the Pacific Institute submitted to the Salton Sea 
Authority a ``Proposal to Preserve and Enhance Habitat at the Salton 
Sea'' (posted online at www.pacinst.org/salton--sea.html). This 
proposal calls for the construction of dikes or other impoundment 
structures at the north and south ends of the Salton Sea, creating 
flow-through systems in these impounded areas to limit salinity. To 
address nutrient loading and to enhance habitat in the major 
tributaries, the proposal also calls for the construction of wetlands 
along the New and Alamo rivers. Desert Wildlife Unlimited is already in 
the process of constructing wetlands in these areas.
    The Pacific Institute proposal is the only outside proposal to be 
reviewed by experts convened by the Salton Sea Science Office. A 
synthesis report of this expert review will be distributed by the 
Science Office in the near future. This report identifies several 
concerns about the proposal, including problems with the construction 
of the impoundment structures, potential selenium concentrations in 
excess of regulatory standards, change in flora and fauna and potential 
for increased problems associated with eutrophication, and potential 
for increased disease transmission. It should be noted that this is an 
iterative process, and that future revisions will incorporate comments 
and suggestions from outside experts in an effort to develop a habitat 
preservation plan that is compatible with a broad range of inflows.
    The objective of the proposed diking alternative is a project that 
is sustainable over the long term, preserves and enhances ecological 
values and promotes recreational and economic development 
opportunities, while being compatible with water re-allocation efforts 
and other actions that could reduce inflows to the Sea. If implemented, 
such a plan could result in a southern impoundment with a variety of 
recreational opportunities, including fishing, duck hunting, and bird-
watching, across a huge expanse of open water. Shoreline habitat would 
be preserved; the estuarine conditions could promote increased 
productivity and support a greater diversity of marine species, linking 
to vibrant riparian corridors and wetland habitats in the Alamo and New 
rivers. The northern impounded area could support similar diversity, or 
could be managed to stabilize at a different salinity, potentially 
sustaining a different array of species. The central portion of the Sea 
could transition to a water body with a productive invertebrate system, 
feeding a host of other waterbirds.
    Such a limited approach would satisfy a narrow interpretation of 
the stated goals of the Salton Sea Restoration Project and the 
Reclamation Act, though it would not address the condition of the Sea 
as a whole. Yet such a limited approach, if implemented in conjunction 
with efforts to limit inflows of nutrients and selenium, could preserve 
a significant amount of avian habitat and promote recreational and 
economic development in the immediate area.
Conclusion
    The re-allocation of water throughout southern California would 
have significant environmental impacts, ranging from loss of habitat 
for listed species, to increased fugitive dust emissions from exposed 
lakebed, to growth-inducing impacts at the various points of delivery. 
Yet rather than proposing actions to minimize these impacts, 
environmental compliance documentation to date ignores or downplays 
these impacts. Viable solutions exists, ranging from dam re-operation 
to diking options at the Salton Sea, but the political will to 
implement such actions has yet to be demonstrated.
    The general objectives of the QSA and connected Federal actions 
enjoy widespread support. Yet, like many actions and agreements within 
the Law of the River, environmental interests are relegated to a far 
distant corner, shrouded by a strident appeal to the broader objective 
of reducing California's dependence on the Colorado River. Water 
agencies, state and Federal officials, and editorial boards cite with 
alarm the impending deadlines and the threat of sharp and dramatic 
reductions in water availability for southern California, should the 
QSA be delayed due to state and Federal environmental compliance 
requirements. That the QSA proponents have had several years to address 
the well-known environmental impacts of their actions regularly escapes 
notice.
    Unfortunately, time to address the various impacts to environmental 
and human health that could be caused by the implementation of the 
California Plan does not exist. To address this time constraint and to 
avoid the suspension of the Interim Surplus Guidelines, the Bureau of 
Reclamation and the State Water Resources Control Board, as well as the 
four water agencies, could agree to a temporary approval of the IID-
SDCWA water transfer, contingent upon the transferred water being 
generated by voluntary fallowing. Unconditional approval of the 
transfer would require the water agencies to commit to the development 
and implementation, in consultation with stakeholders, of an economic 
development plan for the Imperial Valley, a long-term habitat 
preservation plan for the Salton Sea, a dust abatement plan, a plan to 
address growth-inducing impacts, and a plan to address selenium.
                                 ______
                                 
    Mr. Calvert. Thank you.
    Senator Costa needs to catch a plane so I'm going to let 
him start off the questions.
    Mr. Costa. Thank you very much, Mr. Chairman. Once again I 
want to commend you as the Chairman of the Subcommittee, and 
your colleagues, Congressmembers Bono and Duncan Hunter, for 
your hard work on this matter. And I know that Assemblymember 
Kelly and I will do everything we possibly can in the ensuing 
months to collaborate and to cooperate in ways that we can 
cross the finish line in a successful state-Federal 
collaboration. It has been a pleasure to be here today and to 
listen to the testimony.
    I have just one question that I want to make a point with, 
and I could ask any three of you, but Ms. Delfino, I was 
impressed by your passion of protecting the Pacific flyway and 
the importance that the Salton Sea has. And so I just wanted to 
ask you, do you think that Mono Lake is an important part of 
that Pacific flyway and an important habitat for the avian 
population?
    Ms. Delfino. Well, my understanding of Mono Lake, it is 
important for a particular species like gulls, and it does--
    Mr. Costa. But it's vibrant, it--since we've continued the 
water flow in there we've been able to maintain and stabilize 
the level of the lake and it provides a lot of nutrients for 
the bird population there, is that correct?
    Ms. Delfino. Yeah, my understanding is--and I'm not an 
expert on the lake by any stretch--but recent studies have 
shown that ecological conditions at Mono Lake have improved 
significantly with the increased flow.
    Mr. Costa. And the Great Salt Lake, I understand, also 
provides a significant basis for avian population throughout 
the western states and plays a significant role as well, and is 
considered a vibrant resource for habitat as well, is my 
understanding.
    Ms. Delfino. It is for nonfish-eating birds, yes.
    Mr. Costa. Right. Right. You know, we're all going to try 
as best we can to maintain the Salton Sea as we can. I just 
think I want to caution all of us not to--we get--we get 
ourselves defined in certain categories. And I think it makes 
it difficult to solve problems.
    The Salton Sea currently is at 44,600 plus, around that, 
total dissolved solids; is that correct? My understanding is 
that Mono Lake is over 80,000 parts per million dissolved 
solids. Great Salt Lake is over 200,000. Great Salt Lake is 
eight times more saline than the Salton Sea. I just think it--
we make a terrible mistake to define arbitrarily what is a 
vital resource of a habitat for wildlife by making these, you 
know, concrete, in-stone definitions.
    I agree with you, more time and study is necessary to do 
the research to figure this out. And certainly Congressman 
Hunter offered a number of different suggestions. And I'm sure 
there are others out there. But if our experience teaches us 
anything, in lakes that are saline, far more saline than the 
Salton Sea, here in our own country that are very widely used--
I can tell you that I used to represent part of Mono Lake, it 
is a tourist attraction. It is widely used. At 80,000 parts 
total dissolved solids--I mean, it supports a whole host of 
efforts. The Great Salt Lake is a great tourism industry that 
is still supported around there and its great habitat. Trying 
to get ourselves in arbitrary positions as to define in some 
point in time as to how we can continue to maintain a Salton 
Sea as a source of habitat, as a source of recreation, at some 
arbitrary level based upon other experiences, I think, makes no 
sense. It makes no more sense to try to define that at some 
point in time historically the lake represented a certain 
amount of flow. Certainly it did. I loved the presentation of 
this that you put forward. I mean, it gives an interesting 
historical background over a thousand-plus years, even further 
than that, going back to prehistoric times.
    The lake has changed and will continue to change. And I 
don't think that any of us have the power of God to say at some 
point in time that this is the way we want it to be. I guess we 
can, and if we have unlimited dollars we can go ahead and make 
that determination. But the fact is that all these other 
experiences have told us that these conditions change and there 
are adjustments. And I think we have to show at least some 
flexibility when we're looking at solutions to the Salton Sea.
    Mr. Kirk. May I respond, Mr. Chairman?
    Mr. Costa. Certainly.
    Mr. Kirk. I think those comparisons are in many ways 
helpful, and sometimes they're helpful for air quality, 
sometimes they're helpful for biological diversity. We have to 
be careful about going too far with that, in that the Salton 
Sea is not only host to millions of birds but many species of 
birds. Mono Lake and the Great Salt Lake don't compare in terms 
of the number of species of birds until, at the Great Salt 
Lake, you add in the Bear River Marshes, which is a fresh water 
system with fish. And that's the kicker here along with the 
vibrant community which supports the fishery. We just have, 
frankly, incredible diversity of birds and numbers of birds. 
I'm actually going to take you back in history, but not too 
far, probably not within your district. The Salton Sea has a 
lot more, probably, to do with Tulare Lake than it does Mono or 
Owens Lake. And with development in the Central Valley and with 
95 percent of the historic wetlands gone in California, the 
Salton Sea has reached a point in its history where it's 
probably the most important stop along the Pacific flyway, much 
like Tulare Lake used to be.
    Mr. Costa. I know, and if you could provide me some of this 
mitigation money, I'm sure that some of the farmers of Tulare 
Lake would like to cash out and restore part of that lake, and 
then we can help kill two birds with one stone. No pun 
intended.
    Mr. Kirk. Sounds like a deal.
    Mr. Calvert. Thank you, Senator, for your attendance today. 
I want to thank you for all the hard work that you've been 
putting into not just this issue but CALFED, another little 
issue we've been trying to deal with hopefully by the end of 
summer. So safe travels and we'll talk to you soon.
    I'd like to ask a couple of questions, and when I've been 
involved in, obviously, water issues throughout the Western 
United States and throughout the country, for that matter, and 
the issues of water transfers continues to come up. As a matter 
of fact, my friend Tom Raff, with the environmental defense 
fund, is beating me over the head saying, Ken, we don't need to 
build a lot of water structures in the State of California. 
Obviously we disagree. But nonetheless his perspective is that 
we can do this with water transfers. Certainly in the Central 
Valley we've been talking about transfers. We've been talking 
about water transfers in the Palo Verde Valley, and certainly 
the grand-daddy of all water transfers here in Imperial County.
    And so some of the major environmental communities, they 
want these water transfers to occur. And yet I have yet to see 
one water transfer where the environmental community doesn't 
file suit against it. Is there any water transfer you're for?
    Ms. Delfino. Well, that's kind of a loaded question, isn't 
it? I think the point is that--and I can't speak for the 
organizations that have filed lawsuits on water transfers, but 
just speaking from experience working with the environmental 
community and in the environmental community, I don't think 
that--and from my organization's perspective, looking at this 
water transfer, we're not opposed to water transfers per se. We 
just want to make sure that water transfers proceed in a way 
that are consistent--
    Mr. Calvert. Well, just to carry that on, you had a list of 
things that you wanted to have studied, and time, of course, 
something which we don't have, but nevertheless, time to look 
at this. And one of those issues was with growth inducement. 
Well, you know, I mean, if you're going to do a water transfer 
on an urban community it's to serve the need of the urban 
community. By definition that's to take care of its increased 
growth. So do you--by that definition, having growth inducement 
as a part of your argument, would you ever be for a water 
transfer?
    Ms. Delfino. Well, I think that we weren't saying that we 
opposed because of the growth-inducing impact. I think we were 
just saying that there needs to be proper analysis and 
mitigation for the growth-inducing impacts.
    Mr. Calvert. When you say mitigation, what do you mean by 
mitigation for growth-inducing?
    Ms. Delfino. Well, I guess it would depend on what the 
impacts would be.
    Mr. Calvert. If it's more housing, if there is more 
transportation needs, are you saying that all of that goes into 
the process in which you come along as far as growth 
inducement? Are there other issues outside of just water?
    Ms. Delfino. Well, for example, with this current water 
transfer--and the organization that has really been taking the 
lead on the growth-inducing impacts issue has been mainly the 
National Wildlife Federation. And their argument and I think 
what they've been asking for is, first of all, they don't think 
there was really any analysis in the environmental documents. 
And if they are looking for mitigation, I think it might be for 
money to fund habitat acquisition as part of the San Diego 
multispecies habitat conservation plan. So you know, I don't 
know if my colleague Mr. Cohen wants to add to that.
    Mr. Calvert. That's something I'm used to hearing. If in 
fact the water transfer took place, maybe your organization 
would want additional money to buy land for wildlife 
preservation and so forth.
    Mr. Cohen. Much of the transfer is being touted as a 
market-based transfer. But what we're seeing is a lot of the 
costs are being externalized. Potentially dust mitigation 
should be borne by the state Federal taxpayers. This isn't 
market-based transfer. One would assume that many of these 
costs should be borne by the transfer parties. Similar with 
growth-inducing impacts in San Diego. We've asked that San 
Diego come and discuss what some of these impacts could be, 
what a real growth development plan could be. So there is some 
discussion about what habitat needs are, how growth is going to 
be planned in the San Diego County water service area, and how 
growth could be best managed so that habitat needs are met.
    Mr. Calvert. For the record, Mr. Cohen, if I heard you 
correctly, you just said that the costs for a market-based 
water transfer, that the cost of that transfer should be borne 
by those who benefit from that transfer. In this case the 
farmers are paying for those costs, those third-party 
liabilities which we've been hearing about, and if that's 
unlimited, why would a water transfer ever take place?
    Mr. Cohen. I'm suggesting that perhaps it's not really a 
market-based transfer, and that when we're discussing it as 
exclusively a market-based transfer, that in fact it's not. And 
if it is in fact being subsidized, as it is, by $200 million 
plus from the State of California and potentially hundreds of 
millions of dollars from the Federal Government, then there is 
a larger responsibility from a state and Federal to meet the 
needs of the state and Federal taxpayers to address some of 
these larger concerns.
    Mr. Calvert. So what you're saying is we would keep these 
people on the hook--you want to keep those folks on the hook, 
is that an accurate statement?
    Mr. Cohen. Perhaps I misspoke. If there is a larger state 
and Federal interest in this, which I would suggest that there 
is, and would also say that there is environmental interests 
that have been expressed by the voters to have habitat 
protected, to have species protected, and because of that some 
of these other issues should be addressed as well. I certainly 
would not suggest that transfers should never occur, because 
some of these costs could be huge, as you rightly point out.
    But I think because there is this state and Federal nexus 
in these broader issues, that we should be addressing these 
broader environmental questions.
    Mr. Calvert. Thank you. Ms. Bono?
    Mrs. Bono. Thank you, Mr. Chairman.
    First of all, to my colleague, Duncan Hunter, a while back 
you were talking--you said if we had a convenient hearing in 
Coachella Valley, and it was for folks, once they heard about 
losing water, how many people would actually turn out for it. 
But I would speculate that the number of people in the room 
would double if they wanted to come out and talk about the 
stench from the Salton Sea. Because that is something that they 
live with. And we have it recurrently. And I can almost 
guarantee you that a lot more people would turn out for that 
hearing.
    So anyway with that, I'd also like to ask Tom Kirk about 
this aquifer that we're just now hearing about for the first 
time. I've heard the Lawrence Livermore proposal that there 
might be water underneath the canals and this for the first 
time today that there might actually be an aquifer underneath 
the Salton Sea. Can you comment on that?
    Mr. Kirk. I can. First by thanking both Congressman Hunter 
and Lawrence Livermore for taking a fresh perspective at Salton 
Sea solutions, and much of their report supports much of what 
we're doing or what we would like to do, pull salt out of the 
sea, look at desalination.
    The new nugget of information, as you point out, 
Congresswoman, is this idea of a lot of perhaps fresher water, 
not necessarily potable water, that could be available to be 
put in the Salton Sea. And our initial discussions with Bureau 
of Reclamation, geohydrologists and others, the idea of a 
massive aquifer under the Salton Sea may be the case. The next 
question is can you get it. And the sediment layers under the 
Salton Sea could be 10,000, 15,000 feet thick, and very 
compact, as you can imagine. Lots of clays. I think the 
challenge would be in your pumping rates, if you pump that 
water out, you're probably talking about a thousand or two 
thousand or three thousand pumps to try to pump that water out. 
I think where Lawrence Livermore is headed--and I certainly 
support them doing so--is the idea of looking at the East Mesa, 
a little closer to the All American Canal and, unfortunately, a 
little closer to Mexico. Their water is available, and pumping 
rates would be much higher. And as was pointed out by the 
assistant secretary, the Authority, Lawrence Livermore, and the 
Bureau, are taking a hard look at that perhaps opportunity. 
Just because the water is there, as we've learned in California 
history, it's one thing to say it's there, it's another thing 
to get it. And we're going to take a look at that issue as 
well.
    Mrs. Bono. Thank you. Also in Congressman Hunter's 
legislation now we're looking at adding a proposal to include 
ground cover for the exposed shoreline. Is that something 
that's doable?
    Mr. Kirk. My short answer is, I don't know. I guess we 
could take a hard look at it. When you look at the amount of 
ground and where it's located, I think that would be your 
challenge. On the south part of the Salton Sea where you do 
have again water flows coming in from the Imperial Valley, that 
might be possible. And listening to--I had a short discussion 
about this with EPA just before we got started, and they point 
out that, yes, perhaps it's possible. But a hundred thousand 
acres or whatever number of acres that's exposed would be a 
heck of a challenge, getting that water there would be a heck 
of a challenge, and growing crops on land that's had major 
salinity deposition and salinity on top of it is a huge 
reclamation issue. And adding water to that, when we're 
concerned about where water is going already, would be a major 
challenge. They're doing it in Owens Lake, and they're doing 
that for a price tag of 25,000 acre-feet of water per year. And 
they already spend $150 million, and on a smaller area of land.
    Mrs. Bono. All right. And also I asked you a while back 
about a method of displacement, just to sort of build islands 
or a peninsula or something to cover up a shoreline, and you 
gave me a figure which was extraordinarily high which I 
wondered where you got that figure, because I couldn't imagine 
it could be that high. Where are we on something like that with 
displacement?
    Mr. Kirk. Yeah, I haven't pursued it any further since you 
asked me to take a look at it. But we did ask some engineers 
that are familiar with putting structures in ocean water and in 
lakes. And the challenge is to move that much material into the 
body of water. And you're just talking about a massive amount 
of dirt that you're moving. And there are ways to make that 
reasonably cost-effective through some automated train loads 
of--and barges getting out and dumping in the Salton Sea. But 
moving that much dirt and then protecting it probably with rip-
wrap, because we do have significant wave action at times at 
the Salton Sea, is a heck of a challenge.
    Mrs. Bono. I still would like to look into that and get 
some actual numbers sometime.
    Mr. Kirk. We could certainly pursue that. I'm sure the 
Bureau and the Authority could take a harder look at that. And 
one of our bigger challenges there is of course building in 
deep water and building on a little crack of the earth called 
the San Andreas fault.
    Mrs. Bono. Why would it have to be in deep water when so 
much of the sea is so shallow?
    Mr. Kirk. It doesn't provide much--in fact this is one of 
our biggest challenges of the restoration project. The idea of 
displacing land around the perimeter would be a lot cheaper, 
and building ponds and the like around the perimeter makes a 
lot of sense for controlling elevation. But if inflows drop, 
the sea drops. And you now just build your bathtub outside of 
the Salton Sea. So by building the island or the land form or 
the pond out on the shoreline of the Salton Sea, it doesn't do 
you any good if inflows drop.
    Mrs. Bono. Also, all along--I've been involved in this now 
for 4 years, and we've always factored water transfers into the 
Salton Sea equation in saving the Salton Sea. So I get a little 
frustrated with you all when we come back here saying it's just 
not--it's almost as if we didn't factor it in. So there's no 
real answer required, I just want to let you know that all 
along we have factored this in. And it's nothing new. It's not 
a big shocking new factor to contend with.
    My next question and then my last one before I get a Big 
Mac, or something.
    Ms. Delfino, you talked about the avian population. 
Wouldn't the birds just simply go elsewhere and be fine, but 
choose another path?
    Ms. Delfino. That's a good question, one we've asked a 
number of biologists, including folks at the Point Reyes Bird 
Observatory. The short answer is we're not entirely sure about 
what will happen. I have spoken with Dan Anderson who is a 
researcher at UC Davis who is one of the premier white pelican 
researchers. He says that really it will be the young, the 
first-year pelicans. They just won't be able to fly far enough 
in order to go to other spots for nesting and feeding and 
roosting. And so his feeling is that for specifically for the 
white pelican population, that if the sea does become 
hypersaline and the Colorado River Delta isn't rewatered or 
other--you know, things of that type of scale found for 
additional habitat, that it's very likely white pelican 
population will be eligible for listing under the endangered 
and threatened--as endangered and threatened. So some birds, 
sure, they probably can relocate. For some other populations, 
no, they won't fare so well.
    Mrs. Bono. Thank you.
    Mr. Chairman, in closing, I just want to say I don't know 
if you're giving us closing statement opportunities, but I'm 
going to take a brief 30 seconds to say that, again, in the 4 
years that I've been involved in this I've met an awful lot of 
wonderful people, and I think some of the best and brightest 
people have been in this room today, working on this issue, and 
it's really been a privilege for me to work on the issue. And 
certainly you and Duncan Hunter on the Salton Sea task force, 
two members that I have the utmost respect for. And I just want 
to say that it's a great experience, challenging but great. So 
thank you. And I yield back.
    Mr. Calvert. Thank you, gentlelady.
    Mr. Kelly?
    Mr. Kelly. Just one comment. You talked about pumping 
water, fresh water into the Salton Sea. Just be aware of the 
fact in 1944 treaty ranges between the United States and Mexico 
were concluded on the water rights along the U.S./Mexico 
border. And I can't address the treaty rights in Texas, but 
here in California and Arizona there was an authorization 
granted whereby Mexico was permitted to put oil fields in, 
water well fields on the Mexicali Valley on their side of the 
border, and we were entitled to have well fields on our side of 
the border. Our well fields are located in San Louisa, 
Colorado. And their well fields are located in the Mexicali 
Valley. If you get into the drilling on the border along that 
region in there, you're going to be impacted by those treaty 
rights. So you ought to take a close look at what you're doing 
there before you go too far.
    Mr. Kirk. Agreed.
    Mr. Calvert. Thank you, gentlemen.
    You mentioned the Texas part of that agreement. As you 
probably know, Mexico is behind about a million 300,000 acre-
feet which they owe the United States at this point. Maybe we 
can make a swap.
    Mr. Hunter?
    Mr. Hunter. Thank you, Mr. Chairman, and folks, thank you 
for being with us and being the cleanup panel here.
    I'd like to ask you all--and this is what I distilled from 
your remarks was that all of you are against the water transfer 
as it is written, being based on onfarm conservation. Is that 
accurate?
    Mr. Kirk. Correct.
    Ms. Delfino. Yes.
    Mr. Hunter. So now, Mr. Kirk, is that the Salton Sea 
Authority is against the water transfer or is that you in an 
individual capacity or what?
    Mr. Costa. They've taken a vote, haven't they?
    Mr. Kirk. We have. It's a little bit of both. The Salton 
Sea Authority adopted a resolution just about a month ago that 
opposed water transfer projects that significantly reduced the 
elevation of the Salton Sea. This one qualifies.
    Mr. Hunter. OK. So the official position of the Salton Sea 
Authority is that it is against the San Diego and Imperial 
water transfer.
    Mr. Kirk. The proposed project. The current project as 
written.
    Mr. Hunter. OK. Ms. Delfino?
    Ms. Delfino. Yeah, I mean, we have provided extensive 
comments to the--to IID and to the Bureau of Reclamation on 
their EIR/EIS and to Fish and Wildlife Service, and we 
participated as parties in the State Water Resources Control 
Board proceeding, which part of that proceeding is to answer 
the question of whether the transfer in its current form will 
have unreasonable impacts on fish and wildlife. And its 
position that as it's currently written, yes, it will have 
unreasonable impacts. It will run afoul of both Federal and 
state endangered species acts, in its current form.
    Mr. Hunter. OK. And Mr. Cohen, are you folks opposed to the 
agreement as written?
    Mr. Cohen. We also submitted extensive comments on the 
draft EIR/EIS which I submitted in electronic form to the 
Subcommittee, and agree that the impacts are not fully 
mitigated in their environmental or socioeconomic or to human 
health as is currently proposed in the preferred alternative.
    Mr. Hunter. OK. Now, if your recommendation--and I take it 
your recommendation, Mr. Kirk, is that from the Authority, is 
that--and I presume that Ms. Delfino and Mr. Cohen, you concur 
in this--is what you'd like to see is a fallowing program in 
place of the--change the present agreement and have a fallowing 
program in which there's enough land fallowed to send water to 
the coast and to send water into the Salton Sea. Is that right?
    Ms. Delfino. Well, my position and the position of my 
organization is that we recommend a conditional approval for 5 
years in which a temporary fallowing program is then adopted 
during that 5-year period, and also we do additional analysis 
to determine what form the transfer should take. We're not 
saying that today you should go and fallow 75,000 acres of 
land. We're saying that there needs to be additional work done 
before that decision is made both in terms of environmental 
impacts and also third party impacts.
    Mr. Hunter. OK. But you realize in saying that that it is 
considered generally that 50,000 acres of land would produce 
about 300,000 acre-feet, that that would produce the water 
that's involved in the agreement. The additional 20-, 25,000 
acres of land would basically be water that you'd simply be 
pouring out of the Colorado River system, maybe through the 
fiction of running it over ground that has no seed on it, if 
you had to do that to satisfy law. But that you would run 
that--basically that water into the Salton Sea to keep it full, 
you understand that, right? That 25,000 of those acres would be 
fallowed not for the transfer but for the sea.Mr. Kirk, is that 
your proportion?
    Mr. Kirk. No, in fact it's not. And my understanding is 
based on IID's testimony at the State Water Resource Control 
Board where they indicated that the previous plan to provide 
5,000 acres of ponds is no longer on the table. And they 
committed to the State Water Resources Control Board in 
testimony that they're moving on to habitat conservation plan 
No. 2, which is makeup water. They made very clear in their 
testimony that that makeup water may not be fallowed--generated 
by fallowing. It may be provided by some other source. And I 
don't know what that other source is, but that's what they 
indicated. And from my perspective and the position of our 
board and their resolution, what we'd like to see is a water 
transfer that doesn't negatively affect the Salton Sea.
    Mr. Hunter. So you don't agree with the 75,000 acre 
fallowing figure?
    Mr. Kirk. Oh, I agree generally with your calculations. It 
depends a lot on which farm land is fallowed, high use, low 
use, whatever. But 75,000 is a pretty accurate estimate.
    Mr. Hunter. Well, then you agree also with the proportion 
that says that about 25,000 of that is a farm land that is 
fallowed so that water that otherwise that would have been 
utilized to irrigate that land flows directly into the sea, and 
about 50,000 acres is required for the 300,000 acre-feet of 
transfer?
    Mr. Kirk. I agree with your math. I guess I disagree with 
your characterization. One way to think about it is 75,000 
acres and transferring the consumptively used water, which is 
the standard in the West, and continuing to allow water that 
would have flowed into the Salton Sea to continue to do so, 
whether it's through phantom farming or some other mechanism. 
But I agree with your math.
    Mr. Hunter. Let's be candid with each other. I mean, if it 
didn't flow water into the sea, if keeping the sea full was not 
a requirement in your equation, 50,000 acres of fallowing would 
produce 300,000 acre-feet of water. So you wouldn't have to 
fallow 75,000 acres. Whether you go through the fiction and 
evapotranspiration or not, you don't need 75,000 acres to send 
water to the coast. That's more than you need. So you 
understand that.
    Mr. Kirk. Yes, I understand that.
    Mr. Hunter. I think we have to be candid with the people in 
the Imperial Valley.
    Mr. Kirk. I think I understand your point that you have to 
transfer--you have to fallow more land to protect the 
environment and air quality issues and all the other issues.
    Mr. Hunter. So here's my question. If the water deal has 
basically encompassed how the people of the Imperial Valley are 
going to be reimbursed for 300,000 acre-feet, for the 50,000 
acres of land for 300,000 acre-feet water, what you actually 
now need to free up is in excess of 400,000 acres because you 
have to send water into the sea; who is going to pay for the 
extra hundred thousand acre-feet? In other words, that's not 
included in any agreement.
    Mr. Kirk. So who is going to pay for the water that's 
currently going into the Salton Sea to maintain the water 
that's currently going in the Salton Sea?
    Mr. Hunter. Well, if you look at it from the perspective of 
the people in the Imperial Valley, they're going to do water 
conservation measures on land, onfarm water conservation 
measures, and they're going to take that $250 per acre foot and 
do the things that Mr. Cohen talked about, pump-back systems, 
lining canals, and sediment. Right. Now they're told, well, 
wait a minute, we don't need 300,000 acre-feet, we actually 
need you to free up through fallowing 400,000 acre-feet. That 
means you're going to have somebody who owns 20,000 acre-feet 
not farm. OK? So the question becomes--and you got $250 in 
payment that's been worked out and calculated by all parties in 
this water transfer with respect to the 300,000 acre-feet that 
goes to the cities. Who pays for the hundred thousand acre-feet 
that now comes off of 20,000 acres that had been fallowed to 
keep the sea full? You got to answer that question. It's a fair 
question.
    Mr. Kirk. It may be a fair question. I think my answer has 
also been fair and that is what you're doing, of course, is 
protecting inflows that are currently getting to the Salton 
Sea.
    Mr. Hunter. But you understand the farmer that's putting 
that water in right now is flowing it over a field over a crop 
right now, and a third of that water is going into runoff, 
going into the sea. Now, if you fallow-- fallow means not 
farming--he now is not harvesting a crop off that land. And yet 
the water, at least a hundred thousand acre-feet of it that 
heretofore was going over his fields and other's fields, are 
now going into the sea. So the question becomes, who pays for 
that water.
    Now when we brought that up in our meeting with Senator 
Feinstein, Barbara Boxer's staff member said, you know, he 
said, in Northern California we actually pay farmers for water 
to be put into our wildlife fund, which was a new suggestion.
    But my point is, there's new water now, and there's new 
land under the recommendation that's been made I presume by you 
folks, at least by Ms. Delfino and Mr. Cohen, that this be a 
fallowing technique. Somebody's got to pay for that hundred-
thousand acre-feet of water that doesn't go to the coast, that 
now goes to the sea, and the people who have fallowed their 
land to produce that water. Who pays for that, Mr. Cohen?
    Mr. Cohen. I would certainly agree with you that the 
farmers who are fallowing land should clearly be compensated. 
And I would like to reiterate that under the Pacific Institute 
proposal that fallowing is part of the initial 5-year period. 
So as the water transfer amount is ramped up, zero to 20,000 to 
40,000 to 60,000, and a little over a hundred thousand at the 
end of the 5 years, that would be paid for by the revenues from 
San Diego. So--
    Mr. Hunter. Wait a second. So what you're saying is this. 
They've worked out a formula for this 300,000 acre-feet that 
was to be transferred to San Diego, and that formula was $250 
an acre-foot approximately. And that was going to pay for the 
water pump-back systems and the general upgrade and efficiency 
actions with respect to the overall district, et cetera. Now 
what you're saying is, instead of 300,000 acre-feet, it's going 
to have to be something like 400,000-plus acre-feet. And that 
means there are some farmers who will produce--who had 20,000 
acres who now are going to have their fields fallowed, and 
somebody needs to pay for that. And what you're suggesting is 
take it out of the $250 per acre foot. Is that right?
    Mr. Cohen. I would say that once you start getting to those 
full-scale limitations you have a real problem. That's why our 
idea is that you look at this interim schedule. The Imperial 
Valley Farm Bureau has also suggested that an interim fallowing 
period so that they can receive sufficient revenue so they can 
start to invest in these--
    Mr. Hunter. Let's talk about dollars and cents. And those 
$250, according to Mr. Horne, are all spoken for. That's going 
to be going in for these various conservation measures that are 
going to be taken. Now you're recommending that they free up 
another hundred-thousand acre-feet. Somebody's got to pay for 
that.
    Mr. Cohen. I'm not recommending that they free up the extra 
hundred-thousand acre-feet. We have--
    Mr. Hunter. You have to do that to keep the Salton Sea 
full, Mr. Cohen.
    Mr. Cohen. I'm suggesting that in the 5-year interim 
period, as we're ramping up and looking for full-scale long-
term options, that this provides us an opportunity and some 
time. The $250 that San Diego came up with was based, as you 
mentioned, on investing in these onfarm efficiencies. But the 
cost of actually fallowing the land is much less than that. So 
you have some money to offer to farmers so they can voluntarily 
fallow their land, generate this water which, within these 
initial 5 years, is roughly going to be within the amount that 
inflows in the Salton Sea fluctuates anyway. When you start 
getting to the full limitation that's when you see some market 
reductions--
    Mr. Calvert. If the gentleman would yield, when you said 
the impacts were spoken for, in your own testimony you said 
that the economic impacts of Imperial County, which were not 
addressed, if fallowing takes place, are you saying that the 
economic impacts also can be taken care of out of the money 
that's brought to the table from the San Diego transfer?
    Mr. Cohen. I think in the initial period again the $250 
could provide--
    Mr. Calvert. But that 250 bucks is getting split up quite a 
bit here. I mean--
    Mr. Cohen. But we're asking farmers to fallow some of their 
land, provide them some incentive. Some of the remainder needs 
to go to IID for lost revenues. And the remainder, I would 
suggest, needs to go into the communities to make up for 
these--for whatever economic impacts. But in the first years, 
the amount of jobs that are lost from fallowing 3,000 acres of 
land or 5,000 acres of land I would suggest are pretty small.
    Mr. Hunter. Well, let's go to this onfarm conservation. The 
interesting thing here--I don't know if you caught my opening 
remarks, but the interesting thing about this is that in fact 
when Mr. Kirk was briefing us about how we were going to save 
the sea, and he would get up and give briefings on how we would 
save the sea in light of the water transfer, that this onfarm 
conservation is something that's been pressed on all districts 
all over California, indeed, all over the West. All over the 
West you've got people living in cities saying, how come you 
guys don't line your canals, how come you don't have water 
pump-back systems.
    Is it now your position that modern scientific water 
conservation measures are not good for the environment and, 
therefore, should be discouraged and should be denied?
    Mr. Cohen. Absolutely not. My opinion is that in this 5 
years we need to figure out mitigation when we start doing 
these conservation elements. In the 6 months that remain to us 
before the interim surplus deadlines are suspended, I don't 
believe there's time to start developing real mitigation plans 
for the Salton Sea that looks at the environment and human 
health impacts.
    Mr. Hunter. I've got another recommendation for you. What 
would you think about supporting legislation that protects the 
valley from environmental exposure, that is, from being sued--
see, they've put this agreement together, they've actually 
signed the agreement. And when they did that everybody 
anticipated that the Salton Sea would be solved before this 
water transfer went through. There's a great element of 
unfairness in this. They signed this agreement thinking that 
this transfer--that the Salton Sea would be taken care of, and 
now they're facing massive environmental exposure if they do 
what the cities asked them to do, which was to do these 
conservation projects.
    So would you support a legislation that would give some 
kind of a shield for 5 years--you talked about maybe fallowing 
for 5 years, right? How about would you support a legislation 
that would give the valley a shield for 5 years so that those 
140,000 people that make up that community aren't facing 
massive exposure? Would you agree with that?
    Mr. Cohen. I'd certainly agree with you that exposure 
should be a major concern. But the other concern is what 
happens to the actual species themselves and to human health if 
we pass legislation providing that the state or Federal 
Government or somebody else will assume these costs. That still 
means that human health is impacted and that the species 
potentially could be lost.
    So my thinking in this 5-year interim plan is that we have 
some time. That basically this is a 5-year buyout of time. So 
we can really start looking at how we can develop a dust 
abatement plan, how we protect the species so we don't need 
legislation.
    Mr. Hunter. OK. Thank you, Mr. Chairman. And thanks for 
indulging me in these questions.
    And folks, thanks for being with us today, and appreciate 
you. And maybe we're going to ask Fish and Wildlife and Fish 
and Game to reengage on this mitigation program. Ms. Delfino 
and Mr. Cohen and maybe you folks, and Mr. Kirk, maybe you 
folks could participate in that.
    Mr. Calvert. Thank you.
    I'd thank Mr. Hunter, who's our incoming Chairman of the 
Armed Services Committee. And we may need you to call on the 
Army to help us with this.
    I want to thank my first boss in the political world, 
Assemblyman Dave Kelly, for coming out today. And we've been 
discussing the Salton Sea for a long time, I suspect we 
probably will for a long time to come. But hopefully we'll come 
up with a solution. And my good friend and neighbor Mary Bono. 
And we appreciate your attendance and the attendance of all the 
witnesses who were here, some of which, all day long. Thank you 
very much.
    We are adjourned.
    [Whereupon, at 3:05 p.m., the Subcommittee was adjourned.]

    [Additional statements submitted for the record follow:]
    A statement submitted for the record by Gregory L. James, 
follows:]

 Statement of Gregory L. James, Director, Inyo County Water Department

    I was requested to testify as a representative of the California 
Regional Counsel of Rural Counties at the oversight hearing conducted 
by the House Subcommittee on Water and Power on June 14, 2002, in La 
Quinta, California, concerning the ``Implementation of the California 
Plan for the Colorado River- Opportunities and Challenge.'' I was asked 
to outline the history and the current status of affairs in the Owens 
Valley because of the parallels between the Owens Valley and the 
situation confronting the Imperial Valley and the Salton Sea. Shortly 
before the hearing, I was told that it would not be necessary for me to 
testify in person, but I was requested to submit a brief written 
statement to the Subcommittee. If called as a witness, I would testify 
as follows:
    In the early 1900s, the City of Los Angeles began construction of 
an aqueduct from the Owens Valley to supply the growing city located 
some 250 miles to the south. In 1913, the aqueduct was completed. 
Beginning in 1913, the City of Los Angeles diverted the entire flow of 
the Owens River into the aqueduct. As a result, over 60 miles of river 
were deprived of water. By 1924, the terminal lake of the river, the 
100 square-mile Owens Lake, was completely dry.
    Over time, the once thriving fishery, trees and wetlands dependent 
on a living river disappeared. Further, immense dust clouds rose from 
the now-dry bed on Owens Lake enveloping far flung areas in a fog-like 
haze.
    As Los Angeles was building its aqueduct, it assured the upstream 
farmers and ranchers that the city would only take the water in the 
river that reached its aqueduct; therefore, the ranchers and farmers 
had no cause to fear a loss of their water or a fallowing of their 
land. However, the situation dramatically changed in the mid-1920s, 
following a lengthy drought that resulted in little river flow into the 
aqueduct. At that time, in order to ensure a reliable supply to its 
aqueduct, the City of Los Angeles announced its intent to purchase all 
the upstream land and water rights in the Owens Valley. By the mid-
1930s, despite sometimes violent opposition, the city had acquired 
virtually all the farm and ranch land and water in the valley. These 
actions left a legacy of distrust of Los Angeles that persists to this 
day in the Owens Valley.
    Although the City of Los Angeles leased back most of its acquired 
lands, many areas that had been formerly irrigated were converted to 
dry grazing leases. Eventually, irrigated lands in the Owens Valley 
declined from approximately 75,000 acres to 10,000 acres. The loss of 
farming and ranching ruined many valley businesses as customers 
disappeared. Business owners demanded that Los Angeles pay reparations. 
However, in lieu of reparations, the city simply purchased almost all 
of the business property (and much of the residential property) in the 
valley. Small farming communities throughout the valley literally 
disappeared--the abandoned buildings and houses torn down by the city.
    The city's land and water purchases not only destroyed the valley's 
agricultural base and changed the appearance of the valley, but also 
the ability of local government to provide schools and other essential 
services to the community was crippled by reductions in the tax base. 
Prior to a decision by the city to sell some residential and business 
properties in the valley's towns, Los Angeles owned almost all the 
farms, ranches and businesses in the Owens Valley. (At the present 
time, Los Angeles still owns more than 250,000 acres in the valley, 
including many business properties.)
    In the 1940s, the reach of Los Angeles was extended when it 
expanded its aqueduct system into the Mono Basin and began diversions 
from the streams that fed Mono Lake. In the early 1960s, Los Angeles 
announced plans to further increase its water exports by constructing a 
second aqueduct to parallel the first, original aqueduct. The second 
aqueduct would increase the export capacity by 50 percent to 
approximately 500,000 acre-feet per year. The second aqueduct was 
completed in 1970. It was to be filled by increased diversions from the 
Mono Basin, by further reducing irrigation in the Owens Valley, and by 
increasing groundwater pumping from the valley.
    The second aqueduct spawned litigation challenging the city's 
increased groundwater pumping and its increased diversions from Mono 
Lake. In regard to Mono Lake, in the early 1980s, the city was ordered 
to greatly curtail its diversions from the tributaries to Mono Lake so 
that instead of continuing to dry up, the lake would refill, and be 
maintained at a predetermined level. The reduction in diversions was 
necessary to protect the scenic values of the lake, as well as its 
brine shrimp and brine flies upon which breeding and visiting waterfowl 
were dependent.
    In the Owens Valley, Los Angeles' groundwater pumping caused 
springs and seeps (and the associated riparian habitat), as well as 
groundwater dependent vegetation, to die off throughout the valley. In 
1972, the County of Inyo commenced environmental litigation against the 
city challenging its groundwater pumping. In 1980, the County's voters 
overwhelmingly adopted an ordinance that required the city to obtain a 
permit from the County if it wanted to continue to pump groundwater. 
Litigation was immediately commenced by Los Angeles challenging the 
County's authority to regulate its activities.
    In 1991, following nearly two decades of litigation, the City of 
Los Angeles and the County of Inyo agreed to a historic settlement 
which allows Los Angeles to obtain a reliable water supply from the 
Owens Valley while the valley's environment is protected. Under the 
settlement, the two entities jointly manage groundwater pumping and 
surface water diversions to ensure that the goals of the settlement are 
achieved. An important mitigation measure contained in the settlement 
is a commitment to restore the more than 60 miles of the Owens River 
that have been dry since 1913. Water should once again flow in the 
river within the next two years.
    In the 1990s, following litigation arising from the worst 
particulate pollution in the United States caused by blowing dust from 
Owens Lake, and resulting violations of state and Federal clean air 
laws, the City of Los Angeles entered into an agreement with the local 
air pollution control district, the State of California and the Federal 
Government which commits the city to substantially reduce dust 
emissions from Owens Lake. In order to accomplish this, Los Angeles 
must divert water from its aqueduct, and spread it over the dust-prone 
areas of the lake to damp down the dust or to grow dust-reducing 
vegetation on the lakebed. The first stage of Los Angeles' dust 
abatement efforts commenced late last year.
    It is ironic, that in many unforeseen ways, the Owens Valley has 
benefitted from Los Angeles' intervention into the life of the valley. 
Today, almost all of Los Angeles-owned lands are open to the public. 
Because the valley is virtually owned by the city and managed as a 
watershed, the valley is open space spared the rampant population 
growth and land development so common throughout the West. With the 
restoration of the Owens River, the abatement of dust from Owens Lake, 
the protection of Mono Lake and the management of groundwater pumping 
with the goal of environmental protection, the valley's future looks 
promising. Although the economy is no longer dependent on agriculture, 
because of the beauty of the valley, its surrounding areas and the many 
recreational opportunities, over time, visitor dollars have replaced 
farm dollars.
    Despite its recent successes, the Owens Valley vividly demonstrates 
the consequences of transfers of water from one region to another. Its 
history evidences the need for the establishment of a means for fully 
assessing and mitigating the ``third party'' socioeconomic and the 
environmental impacts on a region before its lifeblood is transferred 
for use in other areas.
                                 ______
                                 
    [A statement submitted for the record by Les W. Ramirez 
follows:]

 Statement of Les W. Ramirez, Torres-Martinez Desert Band of Cahuilla 
  Indians, Special Counsel for Water Resources & Environmental Affairs

    Mr. Chairman and members of the Committee, I am here today on 
behalf of the Torres-Martinez Band of Desert Cahuilla Indians in my 
capacity as the Tribe's Special Counsel for water resources and 
environmental affairs. Before I begin my testimony about the 
significant impacts that California's Colorado River Water Use Plan 
will have on the Torres-Martinez Tribe, I would like to thank you for 
coming to California to gain a better understanding of this complex 
situation and considering the concerns it raises for the Torres-
Martinez Tribe.
    The Torres Martinez Desert Cahuilla Indians have inhabited the 
Coachella valley and environs as a functioning and organized society 
since time immemorial. In 1876, the United States recognized the Torres 
Martinez Tribe as a sovereign government and, concurrently, has 
recognized the Torres Martinez Indian Reservation as the Tribe's 
permanent homeland. That homeland includes significant land, habitat 
and wildlife alongside and underlying the Salton Sea.
    It is important to note that for sixty percent of geologic history, 
the Salton Sea has existed in some form as a natural terminal desert. 
Most recently, in 1905, the Colorado River breached diversion works 
near the U.S./Mexican border and flowed unchecked into the Salton Sink 
for nearly two years. This flooding reestablished the Salton Sea and 
inundated approximately 2,000 acres of the Torres-Martinez Reservation.
    The Torres Martinez Tribe understands the importance of finding the 
water resources necessary to meet the needs of all Californians and to 
allow for reasonable future growth in the state. It is our view, 
however, that the means by which those goals are met should not 
endanger the lives of our Tribal members or other people inhabiting the 
Coachella and Imperial Valleys, and should not inordinately affect our 
abilities to earn productive livelihoods, maintain our communities, and 
protect our quality of life.
    In setting forth the concerns of the Torres-Martinez Tribe, let me 
begin by describing how difficult it is to forecast what the real 
impacts of California's Colorado River Water Use Plan will be. The 
process for public review required under the National Environmental 
Policy Act has been so severely segmented that it is impossible to 
conduct informed and meaningful assessments. The Tribe has already 
reviewed separate and sometimes contradictory environmental analysis 
documents for the Implementation Agreement and Inadvertent Overrun and 
Payback Policy, for the implementation of the Water Quantification 
Settlement Agreement, and for the Imperial Irrigation District's Water 
Conservation and Transfer Project Draft Habitat Conservation Plan. We 
are still awaiting the release of a Draft Environmental Impact Report 
for the Coachella Valley Water Management Plan. All of these elements 
are undeniably interrelated and the fragmentation of the environmental 
analysis not only renders public scrutiny impossible, it improperly 
diffuses the responsibility for the foreseeable environmental impacts.
    Many of the environmental impacts that are foreseeable pose a 
significant threat to human health and safety and to the natural 
environment. The very survival of the Torres-Martinez Tribe may be 
threatened by the potential impacts to the vital groundwater underneath 
the Reservation. The existing environmental documentation fails to 
provide adequate data, analysis, or even honest discussion about the 
action agencies' current incapacity to make meaningful forecasts about 
impacts to groundwater quality and levels. Therefore, any approval of 
the proposed California Colorado River Water Use Plan in its current 
form by the Department of the Interior would constitute a breach of the 
United State's fiduciary duty to protect the trust assets of the Tribe.
    The lack of meaningful information is very troubling. At the most 
fundamental level, the action agencies cannot predict with any 
consistency whether groundwater levels under the Torres-Martinez 
Reservation will rise or fall with the contemplated changes in water 
management.
    Of greater concern, there is a lack of analysis regarding the 
effects on the quality of the groundwater aquifer, which is the Tribe's 
only source of drinking water. The Coachella Valley Water District is 
proposing to build a groundwater recharge facility less than one-mile 
up gradient from the Torres-Martinez Tribe's main domestic drinking 
water well. That facility would recharge the Tribe's aquifer with 
Colorado River water, water that the U.S. Environmental Protection 
Agency has identified as containing dangerous levels of perchlorate. 
Indeed, according to the U.S. EPA, there is no known safe level for 
perchlorate in drinking water.
    While the Tribe looks forward to working with the Coachella Valley 
Water District and the other action agencies in addressing this issue, 
it is imperative that adequate analysis be performed, and that 
appropriate upstream re-mediation and local protection measures be 
implemented prior to allowing groundwater recharge with Colorado River 
water to move forward.
    Not only is the Tribe alarmed that the action agencies have not 
provided practical analysis or mitigation strategies for perchlorate 
contamination of the Tribe's sole drinking water source, but the 
existing environmental analyses also fail to appropriately analyze the 
potential to mitigate excessive selenium levels. The action agencies 
claim that selenium levels cannot be mitigated, ignoring utilization of 
anaerobic, microalgal, or chemical selenium removal, or potential 
methods of alternative drainage management. The resulting impacts would 
likely cause massive avian and aquatic die off which in turn would 
severely affect the water, air, land and wildlife resources of the 
Tribe, as well as the quality of life of our members.
    We are also very concerned about the lack of meaningful analysis or 
mitigation for above ground impacts to Tribal Assets. The action 
agencies have relied upon faulty assumptions in the development of 
their environmental baseline regarding the longevity of the Salton Sea 
as a functioning ecosystem. In their documents, the agencies greatly 
exaggerate the rate of deterioration of the water quantity and quality 
of the Salton Sea, making it seem as if withdrawing 300,000 acre-feet 
of inflow would only marginally accelerate the ecological demise of the 
Salton Sea. Use of this scientifically unsound environmental baseline 
allows the action agencies to avoid addressing critical issues and will 
exclude consideration of meaningful options to avoid or properly 
mitigate the environmental impacts of the proposed water transfer, most 
particularly, regarding impacts to the human environment and wildlife 
values of the Reservation.
    The overarching environmental impact will be the accelerated 
eutrophication of the Salton Sea. The action agencies readily 
acknowledge that the proposed water transfer, if not tempered by 
finding additional freshwater inflows to the Salton Sea, will cause the 
Salton Sea water level to drop dramatically and correspondingly cause 
contaminant levels to rise dramatically. Their own estimates show that 
the lowering of the Salton Sea will expose hundreds of acres of 
submerged Tribal lands, which will likely be covered with unstable 
sediments, poisoned with selenium, salt, pesticides and other 
contaminates.
    Not only will the reclamation of these newly exposed land present 
enormous and expensive challenges to the Tribe; the impacts to the 
Reservation's air quality may make areas of the Reservation 
uninhabitable. The current environmental analysis relies on the 
assumption that a saline crust would form over newly exposed lands, 
minimizing fugitive air emissions. However, the massive air emissions 
experienced at Owens Lake dry surface bed contradict this hypothesis. 
The action agencies currently assert that the exposed saline crust 
would be stable because it would not be disturbed by human activity, 
but in contradiction they also suggest that the Torres-Martinez Tribe 
will benefit from opportunities to agriculturally develop the very same 
lands, which by necessity, would entail land surface disturbance.
    The exposure of 78 square miles of shoreline will cause irreparable 
damage to the bird populations that currently rely on the Salton Sea, 
displacing hundreds of thousands of birds. The Salton Sea has replaced 
the critical link in the Pacific Flyway for waterfowl, marsh and shore 
birds that has been lost by the over development of the Californian 
coastal plains, where the Flyway was previously located. 25 to 40% of 
the U.S. Yuma clapper rail population, half of the California 
population of snowy plover, 80 to 90% of the entire population of 
American white pelicans, and the second largest population of wintering 
white-faced ibis utilize the Salton Sea. Of the 400 bird species, 27 
mammal species, and five reptile and amphibian species that rely on the 
Sea, the Federal Government has already classified 58 as sensitive.
    The lowering of the Salton Sea will also destroy the entirety of 
the fish resources that the Torres-Martinez Tribe and neighboring 
communities rely upon, an estimated 160 million fish. Currently, the 
action agencies dispose of the need to mitigate for the predicted death 
of all fish in the Salton Sea by claiming that they are all introduced, 
non-native fish. This approach is flawed in two aspects. First, the 
fish that currently exist in the Salton Sea attract more than 400,000 
fishermen every year, injecting millions of dollars into the local, 
low-income economies. The Imperial Irrigation District itself estimates 
this economic impact of its water transfer project to be-$790 million, 
if replacement freshwater inflows to the Salton Sea are not required. 
Second, the Salton Sea supports the native endangered desert pupfish. 
The Tribe's concerns about the meager mitigation plans for the desert 
pupfish and the outrageous acceptance of the death of all other fish in 
the Salton Sea is accompanied by concerns about the lack of any plans 
to mitigate the odor and airborne disease impacts that will accompany 
the die-off of the Salton Sea's fisheries.
    The Imperial Irrigation District and the Bureau of Reclamation have 
formulated a Draft Habitat Conservation Plan to mitigate the effects of 
reduced inflows to the Salton Sea. Unfortunately it is a meaningless 
document because it presents two wildly divergent scenarios and fails 
to assert which one the agencies will employ. This indecision is of 
great concern to the Tribe and should also trouble this Committee. The 
first mitigation strategy contemplates letting the Sea die completely, 
to be replaced at a later date with a small cluster of shallow ponds. 
This, we believe, is biologically and legally indefensible.
    The second mitigation strategy is founded on the premise the 
Imperial Irrigation District can conserve an additional 300,000 acre-
feet of water per year to be dedicated as inflows to the Salton Sea. 
The Tribe readily supports this mitigation strategy as it could greatly 
alleviate many of the concerns I have discussed, however the concept 
has already been rejected by a Resolution of Imperial Irrigation 
District's own Board of Directors.
    Clearly, the proposed Colorado River water management changes will 
have direct effects on the human health, land, water, fish, wildlife 
and cultural assets of the Tribe, none of which have been properly 
considered by the action agencies. This failure to adequately consider 
the impacts on Tribal assets or to provide adequate mitigation measures 
for foreseeable impacts constitutes a violation by the Department of 
the Interior of the trust obligation that the United States owes to the 
Tribe.
    It is imperative that the Committee use all of its influence to 
encourage the action agencies, in general, and the Imperial Irrigation 
District, in particular, to adopt measures to develop and allocate 
replacement freshwater inflows to the Salton Sea before allowing the 
Project to move forward. By doing so, we will all have the opportunity 
to collect additional data, conduct better analysis, design meaningful 
mitigation strategies and find an agreeable solution that will allow us 
to satisfy the needs of the cities of southern California, support the 
residents and farmers of the Coachella and Imperial Valleys, restore 
the Salton Sea, and protect the Torres-Martinez Tribe from once again 
suffering immeasurably due to the mismanagement of the Colorado River.
    Thank you again for considering the concerns of the Torres-Martinez 
Tribe. Mr. Chairman, this concludes my statement and I will now be 
happy to answer any questions the Committee may have.

                                   - 

</pre></body></html>
